<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                    DEPARTMENT OF HOMELAND SECURITY

                        APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                                ________

                    SUBCOMMITTEE ON HOMELAND SECURITY
                DAVID E. PRICE, North Carolina, Chairman
 CIRO RODRIGUEZ, Texas                    HAROLD ROGERS, Kentucky 
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland   JOHN R. CARTER, Texas 
 ALAN B. MOLLOHAN, West Virginia          JOHN ABNEY CULBERSON, Texas 
 NITA M. LOWEY, New York                  MARK STEVEN KIRK, Illinois 
 LUCILLE ROYBAL-ALLARD, California        KEN CALVERT, California 
 SAM FARR, California 
 STEVEN R. ROTHMAN, New Jersey 
 MARION BERRY, Arkansas   

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                Stephanie Gupta, Jeff Ashford, Jim Holm,
              Karyn Kendall, Will Painter, and Mike Birsic,
                            Staff Assistants
                                ________

                                 PART 2
                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Department of Homeland Security..................................    1
 Major Systems Acquisition........................................  197
 Intelligence Programs............................................  263
 Homeland Security Headquarters Facilities........................  333
 Testimony of Members of Congress and Outside Entities............  407


     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


         Printed for the use of the Committee on Appropriations



                    DEPARTMENT OF HOMELAND SECURITY

                        APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                                ________

                    SUBCOMMITTEE ON HOMELAND SECURITY
                DAVID E. PRICE, North Carolina, Chairman
 CIRO RODRIGUEZ, Texas                    HAROLD ROGERS, Kentucky 
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland   JOHN R. CARTER, Texas 
 ALAN B. MOLLOHAN, West Virginia          JOHN ABNEY CULBERSON, Texas 
 NITA M. LOWEY, New York                  MARK STEVEN KIRK, Illinois 
 LUCILLE ROYBAL-ALLARD, California        KEN CALVERT, California 
 SAM FARR, California 
 STEVEN R. ROTHMAN, New Jersey 
 MARION BERRY, Arkansas   

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                Stephanie Gupta, Jeff Ashford, Jim Holm,
              Karyn Kendall, Will Painter, and Mike Birsic,
                            Staff Assistants
                                ________

                                 PART 2
                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Department of Homeland Security..................................    1
 Major Systems Acquisition........................................  197
 Intelligence Programs............................................  263
 Homeland Security Headquarters Facilities........................  333
 Testimony of Members of Congress and Outside Entities............  407


     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 57-551                     WASHINGTON : 2010



                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 NORMAN D. DICKS, Washington               JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia           C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                        HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana               FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York                   JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York                 RODNEY P. FRELINGHUYSEN, New   
 ROSA L. DeLAURO, Connecticut              Jersey
 JAMES P. MORAN, Virginia                  TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts              ZACH WAMP, Tennessee
 ED PASTOR, Arizona                        TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina            ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                       JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island          KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York              MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California         JOHN ABNEY CULBERSON, Texas
 SAM FARR, California                      MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois           ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan           DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                       JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania                RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey             KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia           JO BONNER, Alabama
 MARION BERRY, Arkansas                    STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California                   TOM COLE, Oklahoma
 ADAM SCHIFF, California                   
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado
 PATRICK J. MURPHY, Pennsylvania    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)

 
        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2011

                              ----------                              

                                       Thursday, February 25, 2010.

                    DEPARTMENT OF HOMELAND SECURITY

                                WITNESS

HON. JANET NAPOLITANO, SECRETARY, DEPARTMENT OF HOMELAND SECURITY

                Opening Statment of Chairman David Price

    Mr. Price. The subcommittee will come to order.
    Good morning, everyone. We are pleased to welcome Secretary 
Janet Napolitano this morning to kick off our hearings this 
year on Department of Homeland Security activities. All of this 
was supposed to happen in the middle of the snow 2 weeks ago, 
but we appreciate everyone's flexibility as we have rescheduled 
this hearing. This of course will be the first of a fairly 
closely scheduled set of hearings over the next few weeks, 
dealing with the full range of homeland security agencies.
    Madam Secretary, your first year leading DHS has been full 
of major challenges to the security of our homeland, from the 
attempted bombing of an airplane on Christmas Day to the menace 
of an influenza epidemic; from the constant onslaught of 
cyberattacks on our governmental networks and critical 
infrastructure to the brutal violence associated with 
transnational drug cartels along our southwest border. I 
commend you for facing these tests head-on, bringing a 
Governor's practicality to the task of managing a myriad of 
competing needs and focusing on integrating homeland security 
missions and cultures into a unified team.
    At the outset, I want to commend DHS for its response to 
the earthquake in Haiti as well. While almost every DHS agency 
has been involved, the Coast Guard captured our attention with 
their early arrival in devastated Port-au-Prince, their rapid 
assistance in evacuating victims, and their help to restore 
port operations to expedite delivery of critical supplies. So 
our appreciation goes out to you, to the brave men and women of 
the Coast Guard, and to the entire Department.
    Similarly, I am very pleased that the U.S. Immigration and 
Customs Enforcement agency, ICE, has taken seriously this 
Committee's direction to prioritize the identification and 
deportation of convicted criminals. Between 2002 and 2007, ICE 
increased criminal alien removals by only 7 percent per year, 
even as noncriminal deportations surged by over 22 percent per 
year. Since the implementation of the Secure Communities 
program, the funding and the impetus for which was initiated by 
this Subcommittee, criminal alien removals increased 12 percent 
in 2008 and another 18 percent in 2009. That is a remarkable 
achievement, and I am proud to support its continuation of this 
trend. Furthermore, the 2011 budget estimates that, after full 
rollout of the Secure Communities programs, 80 percent of ICE 
detention capacity will be dedicated to criminals awaiting 
removal from this country. So Madam Secretary, I commend you 
and Assistant Secretary Morton for your focus on the criminal 
alien issue and the impressive results ICE has achieved over 
the last year.
    The fiscal year 2011 discretionary budget requests $43.6 
billion for DHS, or a 2.7 percent increase over the comparable 
amount appropriated in 2010. In a tight fiscal environment, you 
had to make some difficult decisions, including some 
controversial cuts in an attempt to maintain efforts in some 
areas while ramping up our defenses in others.
    Within the past year, we have witnessed a substantial rise 
in threats to our homeland from homegrown terrorists as well as 
threats from across the globe, including the recent Christmas 
Day incident. Based on this heightened threat environment and 
consistent with the lesson of the 9/11 attacks, DHS must focus 
on adapting to the next what-if scenarios, not just rely on 
measures that are currently in place. A critical measure of 
your Department's success is whether it can adapt as nimbly as 
our enemies.
    I am pleased that your budget responds to these threats 
with a substantial increase for aviation security, with new 
funding for canine teams, advanced technologies and additional 
screeners, all to better detect dangerous objects. Yet while no 
one questions the need to close aviation security gaps, I want 
to ask you to explain the mix of funding that you have proposed 
and especially how a people-intensive approach with a 9 percent 
increase in staff is the right answer to a threat that is 
continually evolving.
    Your budget request overall shows some difficult trade-offs 
which I hope we can explore fully today. On one hand, it is 
clear that you have taken to heart the need to find 
efficiencies, to reduce waste, to make difficult but necessary 
decisions about priorities. For example, the Department has 
made an excellent start with its plan to save money and improve 
oversight by reducing its reliance on contractor support by 
3,500 personnel in the current fiscal year. I am also pleased 
that the budget request includes additional staff and funding 
for the Inspector General, whose diligent work allowed DHS to 
recover over $100 million in taxpayer funds last fiscal year 
and to secure 241 convictions for fraud and corruption.
    Your budget includes many examples for programs that have 
been trimmed, stretched out, or suspended to achieve cost 
savings without significantly degrading critical security 
requirements. There is certainly ample evidence that some long-
standing programs with significant past funding do deserve a 
closer look to determine whether they fit in with our country's 
priorities.
    Nonetheless, we have questions about your direction in some 
areas, and we will look to you and the agencies we will hear 
from in the next weeks to provide insight and explanation.
    For example, the amount requested for disaster relief will 
likely be depleted after 4 or 5 months into the next fiscal 
year. It is not clear to me how the administration can continue 
to ignore the known costs of ongoing recovery activities 
associated with large disasters when formulating its requests. 
We are less than 5 months into the current fiscal year, and the 
administration has already had to request $5.1 billion in 
disaster funding to supplement what was appropriated for 2010. 
We had hoped that this new administration would not continue 
this flawed budgeting method. In the wake of Hurricanes 
Katrina, Rita, Wilma, Gustav, and Ike, the spend rate continues 
to be about $500 million per month, more than double the 5-year 
average assumed in your request. We need to understand how you 
expect to reconcile this problem.
    While, as I mentioned, your budget significantly grows the 
transportation security workforce, we are seeing a leveling off 
within other agencies, particularly those involved in stopping 
drug and human trafficking along our southwest border. It is 
important to note that this budget would actually enhance ICE's 
workforce. In particular, the additional support staff funded 
in the budget would free agents up to spend more time 
investigating criminal activity, but it is also true that the 
level of violence across the southwest border has risen for the 
second straight year and we are making only a small dent in the 
volume of drugs and weapons moving both ways. While I commend 
the Department for the actions has it taken in conjunction with 
other Federal and international partners, I want to understand 
how progress will continue to be made.
    Madam Secretary, you must not lose sight of important 
immigration detention reforms proposed in the report developed 
by Dr. Doris Shiro before she left the Department. While the 
budget includes several detainee health-related proposals, such 
as implementing an electronic medical records system and better 
intake screening, these reforms will not be implemented for at 
least a year. It is important to implement immediate reforms of 
day-to-day operations so that ICE detainees receive adequate 
medical care. We want to learn more about what you plan for 
that area.
    Turning to an issue that has been a constant thorn in this 
Subcommittee's side, the Department appears to ignore repeated 
congressional direction to provide timely reports to this 
Subcommittee, including the Deepwater implementation plan, key 
spend plans for aviation security and border investments, and a 
strategy on how the Department will achieve meaningful and 
effective cargo and supply chain security.
    The Congress requires these reports in order to make 
informed decisions about the Department's budget. These reports 
should also help the Department and your management team gain a 
better understanding of the work going on within the 
Department. So, in my view, it will be in all of our interests 
to clear up this logjam of reports.
    Finally, with so many challenges facing the Department, you 
need your full leadership team onboard. Yet several of the 
largest agencies in the Department have operated for nearly a 
year with critical positions unfilled, including the 
Transportation Security Administration, U.S. Customs and Border 
Protection, and the Domestic Nuclear Detection Office. I 
understand that the reasons for these vacancies lie beyond your 
control. I have the greatest respect for the career management 
staff at DHS, but we are concerned that key decisions and 
critical management actions may be delayed without politically 
accountable leadership.
    As we begin our hearings to more closely examine the 
budget, it is important to note that no program or account will 
be off limits to scrutiny. Our obligation is to take a 
balanced, realistic approach, to weigh risks carefully, to make 
prudent investments in effective security. Madam Secretary, I 
have no doubt that you share this point of view, and I look 
forward to working with you again this year.
    Since your full written statement will be entered into the 
record, I am going to ask you to limit your oral remarks to a 
5-minute presentation. But before we begin I want to recognize 
our distinguished ranking member, Hal Rogers, for any comments 
he wishes to make.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               Opening Statement of Ranking Member Rogers

    Mr. Rogers. Thank you, Mr. Chairman; and, Madam Secretary, 
welcome to the hearing room. There are plenty of witnesses here 
that saw you come in on crutches and that you did not acquire 
those crutches while here, and we assure you that we will 
protect your ankles at all cost.
    Secretary Napolitano. Thank you.
    Mr. Rogers. This is the seventh year of the Department, 
seventh year of this Subcommittee, Mr. Chairman, and the 
Subcommittee continues its nonpartisan, bipartisan effort to 
aid the Department in affecting homeland security, something I 
am very proud of and want to see continue.
    However, Madam Secretary, to put it mildly, I am very 
concerned about the budget request and, frankly, as well as the 
current state of the Department, some of which was alluded to 
by the Chairman.
    The Christmas Day terrorist attack punctuates what has been 
a steady stream of challenges to our homeland security within 
the last year, including several al Qaeda-led attacks, multiple 
homegrown terrorist plots, escalation of the murderous drug war 
along the southwest border, an outbreak of swine flu, numerous 
cyberattacks--thousands, actually--and horrific natural 
disasters all across the country, as well as the recent 
catastrophic earthquake in Haiti. And then, just last week, all 
of our Nation's intelligence chiefs testified before the Senate 
that the likelihood of an al Qaeda attack occurring in the U.S. 
over the next 3 to 6 months is ``certain.''
    In the face of all this, I am troubled by what appears to 
be a greater emphasis upon political correctness, global public 
opinion polls, and other domestic priorities, rather than a 
serious focus downrange for the next terrorist threat, the next 
natural disaster, or the next unprovoked attack on the American 
people.
    That brings me to your budget request for next year. One 
look at this budget suggests the administration's plan for 
moving forward through the current threat environment is to 
severely cut our frontline security capabilities, grow DHS's 
administrative offices with double-digit increases, delay 
investments in critical operational assets, avoid true visible 
budgeting for key programs, ignore congressional mandates and 
reporting requirements, and waste $250 million on the cost of 
security for terror trials.
    Madam Secretary, with threats confronting us at every turn, 
when our country needs fiscal discipline from its government, 
this budget proposal is simply indefensible. In the 7 years 
that we have examined DHS budget requests, I don't think I have 
seen a proposal that so poorly prioritizes and so badly fails 
to address the realities that our country is currently facing.
    More to the point, there are many aspects of this budget 
that I find questionable.
    First, in the wake of the Christmas Day terrorist attack, 
the administration has submitted a proposal for aviation 
security that spends tens of millions of dollars more on 
staffing than it does on advanced technology or the systems 
that screen foreign travellers. How can the President honestly 
believe such a costly and reactionary approach will effectively 
address our strategic needs in aviation security?
    Second, in the midst of a drug war, how can you propose to 
significantly decrease the interdiction capabilities of the 
Border Patrol and Coast Guard but request to increase the funds 
for bureaucrats in Washington, D.C., virtually every office 
within headquarters?
    Third, how can the Congress even contemplate the 
administration's substantial cuts to SBInet and Deepwater when 
the investment plans and oversight reports required by law have 
been completely ignored?
    And, finally, at a time of persistent threats and record 
deficits, what is the justification for severely reducing 
everything from port and cargo security to infrastructure 
protection and cybersecurity and then, at the same time, 
wasting $250 million on security costs for trying terrorists on 
U.S. soil?
    Closing Guantanamo Bay and trying terrorists in civilian 
courts might win the popular vote in France and Norway, but it 
won't deter one single terrorist, and it won't make this 
country any safer. The American people don't support bringing 
terrorists to their hometowns or trying them in civilian 
courts, and I have serious reservations about supporting any 
bill that includes funding for such purposes.
    Now having said all of this, and I know the country is 
going through some very rough economic times and the sad state 
of the Nation's finances will necessitate difficult trade-offs, 
I certainly agree with President Obama when he states that we 
must live within our means, a principle that must apply to 
homeland security as well. But the foremost role of government, 
the foremost role of government is to provide for the safety 
and security of the country and its citizens.
    I have said many times since 9/11, we must get our security 
right. We must find a way to balance our scarce resources 
across our competing priorities and numerous vulnerabilities in 
order to confront every threat with relentless tenacity, 
purpose, and rigor. While I realize the enormity of this chore, 
it is a duty the American people are counting on us to fulfill, 
and there is no room for failure. There is no margin here.
    Madam Secretary, I know you have a tough, often thankless 
job, all the more reason we must avoid throwing more money and 
more government at programs that won't improve our security. 
Sadly, however, this 2011 budget request misses the mark and 
makes me sincerely question the administration's priorities.
    Mr. Chairman, I think we certainly have our work cut out 
for us this year. I look forward to asking many questions today 
and in the future.
    Mr. Price. Thank you.
    Madam Secretary, please proceed.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
              Statement of the Honorable Janet Napolitano

    Secretary Napolitano. Thank you, Mr. Chairman and 
Representative Rogers. I look forward to those questions, 
because I think the characterization that you have just made of 
the President's budget request is, respectfully, off the mark. 
The budget for the Department focuses our resources where they 
could be put to the most efficient and effective use in 
securing the American people.
    The total Fiscal Year 2011 budget request for the 
Department is $56.3 billion, equating to a more than a 2-
percent increase over last year's funding, indicating the 
President's commitment to securing the Nation even in the midst 
of tight fiscal times. But fiscal discipline requires that we 
invest our resources in what works, that we cut down on 
redundancy, that we eliminate ineffective programs, and we make 
improvements across the board.
    While this budget will not go into effect until next 
October, the events of the past months underscore the 
importance of the investments in our mission and our ongoing 
activities. The attempted attack on Northwest Flight 253 on 
Christmas was a powerful illustration that terrorists--
specifically al Qaeda and its affiliates--will go to great 
lengths to try to defeat the security measures that have 
already been put in place since September 11.
    This administration is determined to thwart those plans, to 
disrupt, dismantle, and defeat terrorist networks by employing 
multiple layers of defense, working in concert with one another 
to secure the country. This is an effort not just limited to 
the Department of Homeland Security. It involves federal 
agencies across the board.
    Now, as President Obama has made clear, the administration 
is determined to find and fix vulnerabilities in our system 
that allowed the events of December 25 to occur, and the budget 
prioritizes these security enhancements.
    The Department is also working hand-in-hand with our 
Federal partners to respond to a number of other issues, in 
particular, most recently the devastation and loss of life in 
Haiti.
    This year, for the first time, the Department produced a 
Quadrennial Homeland Security Review. It is a long-term vision 
for the homeland security enterprise. It identifies five major 
mission areas: preventing terrorism and enhancing security, 
securing and managing the borders, smart and effective 
enforcement of our Nation's immigration laws, safeguarding and 
securing cyberspace--by the way, I think that is the first time 
a review process has specifically identified cyberspace--and 
then, fifth, ensuring our Nation's resiliency to disasters.
    My written statement that we have submitted for the record 
contains a more exhaustive list of what the budget contains and 
the activities we have under way. I would like to point out a 
few.
    To prevent terrorism and enhance security, the budget 
request enhances multiple layers of aviation security. This is 
a critical investment made evident by the failed Christmas Day 
attack. We want to advance and accelerate the installation of 
advanced imaging technology machines and the personnel who are 
necessary to run them. We want to make sure that there are 
canine teams, more Federal Air Marshals, and more behavior 
detection officers on our international flights and in our 
domestic airplanes.
    To secure and manage our borders, the request actually 
strengthens initiatives that have resulted in concrete border 
security successes over the past year. We expand the Border 
Enforcement Security Task Forces, the BEST teams that have 
proven so very effective along the southwest border in 
particular, with seizures that are in record numbers of 
contraband in every major category. We are utilizing an 
intelligence-based approach to the drug cartels in Mexico, and 
the budget contains monies to put more intel analysts to work 
on that very issue. It also contains monies to protect Customs 
and Border Protection staffing levels to make sure that we not 
only sustain Border Patrol along the southwest border but that 
we meet the congressional mandates along the northern border.
    In addition, the border efforts are enhanced by the 
purchase and installation of license plate readers, which this 
committee approved last year, more canine teams, southbound 
inspection of vehicles and the train, the use of mobile imaging 
systems, and, as I already mentioned, doubling the personnel on 
the BEST teams. We are at an unprecedented level of cooperation 
with Mexico on the battle against the cartels, and I would be 
happy to discuss that with you in the Q&A part of this morning.
    In addition, we have for the Coast Guard provided $1.4 
billion for recapitalization. I have been on Coast Guard 
vessels now from Charleston to Kuwait. The vessels are 
antiquated. They are old. Our servicemen and -women should not 
have to work in these surroundings. This budget provides for 
the National Security Cutter number five, while decommissioning 
four of the most antiquated cutters. That decommissioning is 
responsible for a great part of some of the personnel loss that 
you mentioned.
    In terms of enforcement and administration of the Nation's 
immigration laws, the budget requests further several 
initiatives under way. For example, it requests monies to 
strengthen the E-Verify system, which is the program we are 
using to ensure that businesses are hiring a legal workforce. 
185,000 employers are now signed up on E-Verify. They are 
registering at a little over 1,000 employers per week.
    Now we also want to expand Secure Communities, Mr. 
Chairman. I know that you mentioned that in your remarks. We 
want to, at the end of this year, be at 270 jurisdictions that 
will have Secure Communities in their jails and prisons. This 
allows us to identify those who are already incarcerated who 
must be removed from the country. Indeed, the number of 
criminal alien removals and removals in this past year is a 
record number.
    To safeguard and secure cyberspace, the President's budget 
request includes a total of $379 million for our National 
Cybersecurity Division to identify and reduce vulnerabilities 
in key cyber networks. We have eliminated some one-time 
expenditures from last year. Particularly, we have already paid 
for the data center migration that you appropriated last year, 
and we also have received from OPM the authority to direct hire 
1,000 computer or cybersecurity experts which we hope will 
facilitate building up that civilian cyber workforce that we 
need.
    And to ensure resilience to disaster, the President's 
budget request includes support for the DRF, the Disaster 
Relief Fund, with a $5.1 billion supplemental in addition to 
what we are requesting for 2011. It also includes monies for 
Pre-Disaster Mitigation grants to support state, local, and 
tribal governments.
    Finally, let me turn to the question of administration, 
because you raised that. This Department, as you know, is the 
third largest department of the Federal Government. We are, in 
essence, building the plane while we are flying it. When the 
Department was created, it was composed of 23 different 
agencies spread around the capital region and elsewhere, in 
more than four dozen buildings in the District alone.
    The budget contains monies to further the construction of a 
consolidated headquarters in St. Elizabeths. This is important. 
It contains monies to put program managers and procurement 
officers in place. It looks like it is in my headquarters 
budget, but these people will actually be out in the 
components.
    Why is that important? It is important that we have that 
administrative infrastructure in place so that we make sure 
that we make smart and efficient use of the tax dollars that 
you appropriate.
    And, indeed, without trying to offer an excuse, the issue 
of reports was raised. We have 400 mandated congressional 
reports, I think more than any other department. This is 
something that we will continue to work with the Chairman on 
and you, Congressman Rogers. We want to get you accurate 
information. We want to get you speedy information.
    But there is a huge administrative and oversight aspect to 
this, in part because the Congress itself has not changed its 
committee structure to match the creation of the Department of 
Homeland Security, and I think it is fair to point that out. 
That was a recommendation of the 9/11 Commission. It is a 
recommendation that has not yet been followed.
    We will continue to employ the efficiency review initiative 
in our Department. We have already identified millions of 
dollars of cost savings and avoidances that we can have so our 
money goes where it is most needed, which is the mission areas 
that we have and the priorities that we have set.
    I believe the President's budget furthers those mission 
areas and supports those priorities. So I am happy to be here 
with you today. I look forward to your questions. Thank you, 
Mr. Chairman.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                           AVIATION SECURITY

    Mr. Price. Thank you, Madam Secretary.
    Let me begin with a couple of related questions in the area 
of aviation security.
    It doesn't surprise anyone, of course--especially following 
the December 25 incident--that you would request a sizable 
increase for aviation security. As both I and the Ranking 
Member commented, it is striking how people-dependent this 
request is and how heavily it is tilted toward new personnel--
6,650 new positions--excluding the classified Federal air 
marshal figure. That would be the largest hiring effort since 
TSA federalized the screener workforce.
    So one question I want to ask you has to do with the mix of 
people and technology that is involved here. How do you justify 
that? Then how do you balance resources between this heavy 
domestic focus on people and technology and the international 
nature of the threat that we face? Only Federal air marshals 
and a small increase in international aviation security 
personnel are included on the budget on the international side. 
So I would like for you to comment on that mix of people and 
technologies and also the heavy domestic focus here.
    And then, fill us in a bit more than you have in your 
statement about your own international focus. In January, you 
went to Spain to discuss the Nigerian bomber plot and related 
issues with European security officials. You were in Geneva 
meeting with international airlines on aviation security. Last 
week, you went to Mexico to engage Western Hemisphere 
governments on the same issues. Your European trip resulted in 
a U.S.-European Union declaration on strengthening the civil 
aviation system through better information collection, sharing, 
and technical cooperation. There is an April meeting scheduled 
to discuss specific measures to achieve these goals. And the 
Mexican trip resulted in a joint agreement with Canada and six 
Latin American countries for greater airplane security, 
biometric use, and information sharing.
    This international focus is understandable and commendable. 
Help us understand its significance and its thrust going 
forward. What consensus have you reached about the kind of 
airport security procedures to be used for international 
flights here and abroad? What can you tell us about the kind of 
advanced information that is going to be required going forward 
of airlines and airplanes? And also any information sharing 
practices that have been agreed upon by the cooperating 
nations.
    I would be happy to hear whatever you have to say this 
morning and perhaps a fuller account for the record of the 
status of these international discussions and the way they 
relate directly to some of the shortcomings that these recent 
incidents have highlighted.
    Secretary Napolitano. Well, thank you, Mr. Chairman. 
    Let me, if I might, break your question into two parts: 
one, the international and then, the funding for what is 
happening in our domestic airplanes.
    Umar Farouk Abdulmutallab got on a plane in Lagos, Nigeria. 
He transferred in Amsterdam, and he was flying to Detroit. What 
that illustrated is that the aviation system is a global 
system. Indeed, the Department of Homeland Security has a very 
limited role overseas, which is why in the budget proposal you 
see the heavy emphasis on domestic, not international.
    To compensate for that, we have embarked on a very 
aggressive international outreach working with ICAO, which is 
the international aviation wing of the U.N., to increase 
aviation screening, airport standards, information sharing and 
collection around the world.
    We started in Europe, because they had a ministerial 
meeting that was already set. They allowed aviation to become 
the agenda item. We reached a Western Hemispheric agreement 
last week with major countries of the Western Hemisphere, 
others will join.
    Next week, we will go to Tokyo to meet with the countries 
of Asia. We have meetings also planned for Africa and the 
Middle East.
    The goal is to have global standards agreed to region by 
region that are then represented globally by the General 
Assembly of ICAO in the early fall. This will do us several 
things. One is, it will improve information and advance 
passenger information sharing and collection about passengers 
and passenger vetting; secondly, it will help create global 
standards for airport screening, which can then be audited and 
enforced; and, thirdly, it will I think embody a worldwide 
recognition now that al Qaeda and its affiliates are still 
focused on aviation as a central target. That is why while this 
budget contains monies for VIPR teams and other equipment and 
personnel for surface transportation, you see the heavy 
investment in aviation.
    And of course we don't do the screening abroad. We don't 
handle what happens at Schiphol Airport in Amsterdam, for 
example.
    We have to work in the international environment to get 
some of those things done. We are working with the air carriers 
themselves. They have, obviously, a vested interest in this. 
And so IATA, which is the international--it is the 
international airlines who are non-U.S. flagged and also with 
the U.S.-flagged air carriers and their CEOs on this.
    [The information follows:]

    Following the events of December 25, 2009, TSA developed an 
aggressive timeline and corresponding strategy to build upon its 
already strong engagement and outreach efforts at the international 
level. The Secretary has attended meetings in Mexico City for Latin 
America and is currently in Japan for an Asian Ministerial. Follow-on 
meetings will occur in Africa in April and an undetermined date in May 
in the Middle East. Additionally there have been extensive meetings 
with the International Civil Aviation Organization (ICAO) at a global 
level, regional AVSEC groups and a series of bilateral meetings with EU 
countries, Asian nations, Latin American countries and African nations.
    Focusing on 10 priority areas designed to effect the greatest 
change in international aviation security, TSA strives to raise 
awareness of the threat and encourage specific enhancements in security 
measures worldwide. Priority areas include developing a common view of 
the threat; enhancing international standards; conducting audits; 
encouraging the use of technological and non-technological measures; 
developing cooperative agreements for information sharing; providing 
training and technical assistance; and working with host governments to 
enhance their authorities for aviation. This targeted coordination and 
collaboration will continue to advance our key security objectives. One 
critical element of this strategy is working within the construct of 
the ICAO to ensure new and emerging threats are incorporated into 
future amendments of Annex 17 (Security) to the Convention on 
International Civil Aviation, which is the guiding document for 
security requirements for international aviation.

                      ADVANCED IMAGING TECHNOLOGY

    In terms of our domestic airlines, yes, you saw an increase 
in personnel at the TSA. Those are associated with what is 
necessary to operate the AITs, the Advanced Imaging Technology 
machines, on a 24/7 basis; and there is a formula for that.
    We had, prior to Christmas, planned to be rolling out AITs. 
They are the next iteration of technology. They are objectively 
better than relying on a magnetometer. They pick up powders, 
liquids, other anomalies that a passenger may be trying to 
bring on a plane, but they needed personnel trained to operate 
them. So a great part of that is associated with the rapid 
acceleration of the deployment of the Advanced Imaging 
Technology.
    Mr. Price. The formula being five FTEs to operate each AIT 
machine around the clock?
    Secretary Napolitano. Right. And we can give you the 
staffing plan. These machines have been piloted, obviously. But 
it is for a 24/7 operation.
    Mr. Price. Well, I do think the December 25 incident 
highlighted the good work this Subcommittee and your Department 
have done in providing for the deployment of hundreds of these 
machines. This has been under way for some time now. The 
piloting is completed, and we have a deployment plan. But, of 
course, this gives us an impetus to step this up, to make it 
more comprehensive, and your budget does reflect that.
    It is expensive, though. It is a big item, and it has 
probably led to some trade-offs in other areas that we are 
going to need to evaluate.
    Secretary Napolitano. Indeed, Mr. Chairman, and we will 
look forward to working with the Subcommittee and the staff on 
that as you go through the appropriations process.
    But in looking at the amount of machines that are out 
there, what could actually physically be purchased and 
installed in Fiscal Year 2011 so that we could get all the way 
down really to category X, category one, two, and even some of 
the category three airplanes, this was the staffing that we 
estimated was required.
    Mr. Price. Thank you.
    Mr. Rogers.

         GROWING HEADQUARTERS FUNDING AT EXPENSE OF OPERATIONS

    Mr. Rogers. Madam Secretary, there is an alarming disparity 
in the budget request. Double-digit increases for headquarters 
offices' staff but cuts to virtually every major operational 
security program--border security, port security, cargo 
security, infrastructure protection, cybersecurity. And at a 
time when our intelligence community is projecting a certain al 
Qaeda attack in the U.S. in the next 3 to 6 months, the budget 
request proposes funding priorities and trade-offs that are at 
best curious and at worst dangerous. For example, notable 
funding imbalances that I wanted to mention to you:
    Your headquarter's offices, including the Offices of the 
Secretary and Executive Management, Office of the Under 
Secretary for Management, CFO, CIO are requested to increase by 
$468 million--58 percent--and at a time when you are proposing 
$200 million for security costs associated with bringing the 
terrorists from Guantanamo here for trial.
    You are also proposing to decrease Customs and Border 
Protection by $309 million, over a 3 percent cut. The Coast 
Guard will be cut by $31.6 million. Infrastructure protection, 
including cybersecurity, is proposed to decrease by $18 
million-plus.
    Your office staffing is proposed to be grown by 576 full-
time equivalents, a 35 percent increase. I think we are all 
here certainly saying you need personnel to try to tie together 
the disparate pieces of homeland security, but this is way 
beyond what I think is necessary.
    The Coast Guard would be cutting 1,100 personnel, and I 
can't fathom what the game plan here is. For example, in fiscal 
2011, while we are, in my judgment, wasting the $200 million on 
terror trial protection, CBP air and machine operations are cut 
by 3.2 percent, key operational assets from Coast Guard are 
being decommissioned, including four of the twelve 378-foot 
high-endurance cutters. That is one-third of the HEC fleet. You 
are cutting four HU-25 fixed-wing aircraft, five HH-65 
helicopters, and five of the 13 maritime safety and security 
teams, including the ones located in New York, New Orleans, and 
Anchorage, the sites of two of the largest-ever disasters in 
American history, 9/11 and Katrina, and sites near two of the 
Nation's vital oil pipelines, the LOOP terminal off Louisiana 
and the Alaska pipeline shipping terminal in Valdez.
    I know that you say that the Coast Guard cuts are to make 
room for new investments, but the Coast Guard's acquisitions 
are also decreased by $155 million, or 10 percent. New 
investments are being prolonged. The net result is a huge loss 
in the operational capability in fiscal 2011 until toward the 
end of fiscal 2011.
    The Coast Guard tells me in questioning that its capability 
to interdict smuggled cocaine will decline, that the amount of 
cocaine removed will decline by 11 percent due to the loss of 
these assets. In fiscal 2009, the four 378-footer ships that 
are proposed to be decommissioned contributed to the removal of 
35,000 pounds of cocaine and 400 pounds of marijuana, estimated 
value of close to $500 million.
    I don't understand the priorities that are represented in 
this budget with regard to these matters, among others. Can you 
help me with them?
    Secretary Napolitano. Yes. I really appreciate the 
opportunity to do that, because I really believe that it is 
superficially easy to say you are increasing bureaucrats and 
decreasing folks who actually do the mission, and nothing could 
be further from the truth.
    Here is the fact of the matter. As I suggested in my 
opening statement, yes, you are right. There is an increase of 
``headquarters staff'' but these are individuals who are not 
actually, many of them, at headquarters. They are making sure 
that we have good program management, procurement management 
and that we are integrating and migrating together the myriad 
data systems that we inherited in this Department. It is part 
of creating the structure of the Department out of which 
operations arise.
    And I will tell you, as a former governor, you have got to 
have some of these personnel to make your operations the most 
efficient, the most intelligent and effective that you can.
    The number had to go somewhere, so I guess it is easy to 
pick on headquarters. But these are folks that are designed to 
make sure we spend the dollars you appropriate in the best 
possible way.
    With respect to CBP, I know there has been some issue about 
cutting Border Patrol agents? We are not. We will not. And I 
think a clarification document has been submitted to the 
Committee.
    [The information follows:]

    These materials were provided to the Committee on March 9, 
2010.

    With respect to cyber, we have eliminated some one-time 
expenses. For example, you gave us the money last year to help 
us integrate into what is called the NCCIC, our cybercapacity. 
We don't need to do that this year.
    Some of those things are also attributable in CBP. I 
mentioned license plate readers. You gave us the money to buy 
more license plate readers for the border. Those are very 
useful law enforcement tools, but we have bought them. They are 
there. They are installed. They are being used. We don't need 
to repeat that expenditure in a tight fiscal year.
    And if I might close, Representative, on the Coast Guard. 
You used the number 1,100. There is actually an add-on in other 
areas. I think the net is 783 personnel.
    Let me address in particular the reduction--the 
consolidation, really, of the MSSTs. You know, one of the 
challenges that we have is to make sure that we are operating 
efficiently even as we perform our mission. There is no bigger 
supporter of the Coast Guard than I am, and they do a 
remarkable job at many, many things. The MSSTs are simply being 
consolidated. Why? Because they can cover regionally.
    Let me use New York as an example. We suggest that that 
MSST be consolidated and consolidated up to Boston. That was a 
proposal that emanated from the Coast Guard. Why? Well, because 
they already have a huge Coast Guard footprint in New York 
Harbor, and a third of the time they were being deployed not 
even in the New York area. They were being deployed elsewhere. 
It was considered by the Coast Guard leadership better to have 
fewer teams that have a more regional focus. I believe that you 
can accomplish that mission out of those teams with fewer of 
them regionally designed; and that, indeed, is what the Coast 
Guard leadership proposed.
    Mr. Rogers. Well, in closing, Mr. Chairman, we are 
delighted to give you money to fill these vacant management 
positions at the Department. As the Chairman has mentioned, 
there are several major pieces of homeland security who are 
leaderless at this point, including TSA for over a year, 
amongst others. We have no problem giving money for filling 
those positions.
    But you know, last year--this is the second year in a row 
that you have proposed a budget that focuses more upon the 
bureaucrats in Washington than the frontline operators, a 
prioritization that Congress rejected last year and I have 
confidence we will reject again this year. When are you going 
to learn that we are not going to fund these enormous increases 
in personnel in headquarters as opposed to--and while you are 
cutting Coast Guard and other frontline operations?
    Secretary Napolitano. Congressman, if I might just add--I 
must not be communicating clearly.
    Mr. Rogers. No, you are not.
    Secretary Napolitano. So let me try one more time. Are you 
ready?
    Mr. Rogers. Yes.
    Secretary Napolitano. All right. First of all, these are 
personnel that will be spread throughout the operating 
components of the Department; and so to say they are 
headquarters personnel is a mischaracterization.
    Secondly, these are individuals designed to meet the 
management requisites that the Congress, in part, has imposed 
on the Department but also makes smart long-term investments in 
creating the management infrastructure of the Department.
    And, thirdly, the operational components--I just responded 
to the Chairman on why we were increasing TSA officers by such 
a high number. We will meet our Border Patrol numbers on the 
southern border and the northern border and sustain them. We 
are going to make smarter use of the technology dollars that 
you appropriate for that southern border. That is why we are 
taking a fresh look at SBInet. We are going to recapitalize 
this Coast Guard so our men and women aren't fighting in 
antiquated vessels, and that is really the design and focus of 
the President's budget.
    Mr. Price. Thank you.
    Mr. Ruppersberger.

                             CYBERSECURITY

    Mr. Ruppersberger. Thank you.
    Well, first, you do have a difficult job. You have a lot on 
your plate. So I hope you have a good team, and we will try to 
do what we can to work with you.
    I think Mr. Rogers, by the way, made some relevant issues 
on the budgeting. If you are cutting, we need in our capacity 
of oversight to look at that.
    I do want to applaud you for the Coast Guard. I think it is 
one of the best organizations that I have seen in this country. 
They have very little but they do an excellent job in what 
their mission is. I am glad you look after the Coast Guard.
    I want to get into the area of cybersecurity. It is an area 
that a lot of people in this country don't know about, but yet 
it is one of the biggest threats we have, I believe, to our 
national security.
    As you know, we have been cyberattacked by different 
countries. Hackers--probably al Qaeda--has attempted not only 
with respect to our military, our intelligence, our dot-gov, 
and all of our commercial industry. And the President's 
directive gives you, Homeland Security--your job is to oversee 
all of the dot-com and the dot-gov, and that is an awesome 
responsibility where we are as it relates to cybersecurity.
    Cybersecurity is something that has to be a team effort. We 
have to work very closely with our military, our intelligence, 
our business communities, and we have to eventually educate our 
citizens how serious cybersecurity is and how the bad guys can 
go in--a senior citizen in California who might communicate 
with a community bank, that community bank then communicates 
with the Bank of America, and there is an ability to cut down 
the ATM systems of a major bank. So the threats are out there.
    Where I want to focus, though, on this hearing is the fact 
of your technology. I have had conversations with Admiral Brown 
who--I guess he oversees your cybersecurity or is one of your 
key people there.
    Secretary Napolitano. One of them.

                               EINSTEIN 3

    Mr. Ruppersberger. One of them. And the technology that you 
are using to protect us.
    You know, Einstein--and a lot of people don't know what I 
am talking about now, but it is really the mechanism, the 
software program that is there to help and protect us in the 
dot-gov and the dot-com. Einstein has worked for a while, but 
as we move forward we are moving into different Einsteins, 1, 
2, and now 3. Now Einstein 3 is going to be, hopefully, the 
program that will help to protect this country and the 
responsibility of your mission.
    I believe right now NSA is one of the best in the world in 
what they do as it relates to the technology of homeland 
security. I think that General Alexander is one of the best in 
this field. I just hope the Senate will hurry up and confirm 
him so he can do the job as necessary.
    But where my concern is is that NSA has spent a tremendous 
amount of money on research and development to develop the 
programs to protect us; and now you are coming in, rather new, 
and these are the early stages of homeland security and the 
defense. I would hope that you would not only work very closely 
but not reinvent the wheel as it relates to the technology of 
Einstein 3.
    And, you know, this happens a lot in our government. FBI as 
an example has a communication system that still doesn't work. 
Why they didn't take one of the other agencies, like CIA or 
NSA, I don't know. But spending millions of dollars on that 
communications system still hasn't worked.
    And I say that as an example because it seems to me that if 
Homeland Security in the initial stages does not work closely--
and if they are going to duplicate efforts, if they are going 
to spend money that we don't need when we really need to get to 
the end game and do whatever we can to stand up as quickly as 
we can the defense mechanisms to protect our homeland from 
cyberattacks--where are you as it relates to Einstein 3? Are 
you going out sole source?
    I know you have put out a request for information, which 
kind of concerns me. Are there issues involving the acquisition 
laws that we have to deal with? But it is very important I 
think that we work very closely with the NSA program that is 
there so that that will help us stand up and protect our 
citizens.
    That is a long question but--kind of complicated.
    Secretary Napolitano. Right. Representative, first of all, 
we have culled out cyber. Because, after the President's 
review, DHS is the lead agency for dot-com and dot-gov. 
Obviously, dot-com is controlled by the private sector, so part 
of that is just working with----
    Mr. Ruppersberger. In coordination.
    Secretary Napolitano. Coordination. And I think that even 
when companies like Google say they need help, I think it 
finally is penetrating the public's mind how important this 
issue is. It is not our intent to reinvent any wheel. It is our 
intent to move forward.
    I don't want to comment publicly on Einstein 3 per se here 
in an unclassified setting, but----
    Mr. Ruppersberger. The word is not classified, but I know 
other issues are.
    Secretary Napolitano. There are other issues. And what I 
would suggest is perhaps a classified briefing for members of 
the subcommittee who are interested particularly in the cyber 
aspect of the budget and how we are moving forward with that.
    [The information follows:]

    The Department had a classified cyber security briefing for the 
Members of the Subcommittee for 3:30 p.m. on April 15, 2010.

    Mr. Ruppersberger. That would be a good idea. Mr. Chairman, 
maybe we could have the Director of NSA there also and really, 
really hone in on what needs to be done to make sure that there 
are not duplication of efforts.
    Secretary Napolitano. I would recommend that you have the 
Deputy Under Secretary for NPPD, Phil Reitinger.
    Mr. Ruppersberger. What is NPPD? A lot of people don't know 
the acronym.
    Secretary Napolitano. National Protection and Programs 
Directorate. I always just call it NPPD.
    But, in any event, the Deputy Director, Phil Reitinger, we 
have centered all cyberactivity--except the cybercrimes issues 
that are done by the Secret Service--all other cybers under 
Phil's direction.
    Mr. Ruppersberger. Is my time up?
    Mr. Price. It is up. We have had such briefings in the past 
and no doubt will in the near future.
    Let's turn now to Mr. Carter.

                           ISLAMIC EXTREMISM

    Mr. Carter. Thank you very much, Mr. Chairman.
    Madam Secretary, welcome. Good to see you again.
    I want to start out, I woke up this morning and turned on 
the television and was very pleased to hear you say that 
violent Islamic terrorism relates to the incident at Fort Hood, 
and I agree 110 percent with you on that issue. It is an issue 
that I have been waiting to hear from the administration for 
quite a while now and have been waiting to hear from the 
Department of the Army. Because I do honestly believe that that 
was a terrorist act that was committed there in my district.
    So thank you for that comment, and I would hope that you 
would join me in trying to get the benefits for wounded 
soldiers who are killed in combat and fighting terrorism for 
those people who were wounded and killed at Fort Hood because I 
think it is something we owe those people that were shot and 
killed at Fort Hood. So we have a bill to do that, and I would 
love to have your support on that bill. So thank you very much 
for that comment.
    I think it is important that we--and I think what you said 
when you talked to the Senate--please forgive my voice----
    Secretary Napolitano. That is all right.
    Mr. Carter. I have this strange allergy to this town. I 
think everybody does, but mine seems to----
    Secretary Napolitano. Everyone has that at some point or 
another, I suspect.
    Mr. Carter. But I think all of us feel very strongly that 
it is important that we call things what we see honestly and 
identify things as honestly as we fight this very, very strange 
war we are having to fight against people who want to kill 
innocent people. So that is a comment.
    The question that I want to ask about this, do you have any 
further thoughts on how we identify terrorists and what 
terrorism--and get us some kind of a definable definition not 
only for your Department but for the concept that we are 
having? We have battered this around for years since this first 
all started, and everybody seems to have their own version of 
what terrorism is. Would you like to expand upon any of the 
things you said to the Senate about terrorism?
    Secretary Napolitano. Well, Representative, I think that 
terrorism in several iterations is--it is the environment in 
which we live now, and it will be the environment in which we 
live for the foreseeable future. Some of it is international, 
Islamic extremism, al Qaeda and its affiliates, to give you the 
primary example.
    What we have seen this year, unfortunately, is the rise of 
what is called homegrown, U.S. citizens who have become 
radicalized, may go to a camp in Yemen and come back, for 
example. That is a concern at the Department of Homeland 
Security.
    And then we have seen an increase in the lone wolf-type 
attacks which from a law enforcement and investigation 
perspective are the most challenging. Why? Because, by 
definition, they are not conspiring, they are not using the 
phones, the computer networks, they are not talking with 
others, any other way that we might get some inkling about what 
is being planned. So we have a lot to do in this area.
    We have chosen a particular focus moving forward, based on 
the intel that we receive, but I think that you could use the 
word terrorism to perhaps describe each of those three areas.
    Mr. Carter. Well, I thank you for being willing to address 
violent Islamic terrorism.
    I will tell you that when this incident occurred at Fort 
Hood, my office was inundated out of my district and around the 
entire country with comments about--it seemed to be that we 
were not hearing people being willing to reflect on the Islamic 
part of this thing because they were accusing the government 
and the Congress of being too politically correct to identify 
accurately what that attack was all about. I am talking about 
thousands of e-mails we received and requests for us to speak 
truthfully about that.
    I think we can speak truthfully without being offensive to 
any religion, being offensive to Islam at all. We are 
identifying a situation that is occurring, and I think 
everybody knows it is occurring. And I commend you for being 
courageous to speak out like that, because the American people 
have been waiting to hear that kind of comment. So I thank you 
for that. You can guarantee that I am going to be speaking out 
about that, and I think most of my colleagues, also, too. So 
thank you for that.
    We are going to be fighting this fight, and we will provide 
the resources to get it done. So thank you.
    Secretary Napolitano. Thank you, sir.
    Mr. Price. Thank you.
    Mr. Mollohan.

                            FUNDING REQUESTS

    Mr. Mollohan. Thank you, Mr. Chairman. First, I would like 
to commend you on your efforts at continually calibrating, 
updating, and reorganizing the Department of Homeland Security. 
I think we all recognize that it was the throwing together of a 
lot of disparate elements of the government into one agency. 
And it is no criticism of you that you continue to look for 
ways to manage it efficiently. And that, of course, is going to 
impact your personnel across the agencies, as you have 
emphasized, and result in budget shifts, which might look like 
swings as we look at them here on a year-to-year basis. Your 
predecessors had that challenge and it was no criticism of them 
that it was a difficult challenge then.
    So as we look at these funding requests and the swings they 
represent, I think we have to look at it in that context. So 
you are to be commended to move forward with that 
reorganization, and I commend you for it.
    I chair the Subcommittee that funds the Department of 
Justice, and there is a lot of interfacing between the Homeland 
Security and Justice, of course, and so some of the DHS 
requests will have a domino effect on DOJ funding. Your Border 
Patrol request looks like it has a decrease in Border Patrol 
agents, but you emphasized or you commented that it does not. I 
would like you to talk briefly about why this request, while it 
might look like it results in a decrease in Border Patrol 
agents, it really doesn't. Would you comment on that first?
    Secretary Napolitano. Indeed. Well, first of all, the 
request never contemplated any reduction in terms of 
operational force on either the southern or the northern 
borders. I am very protective of that force. I was one of the 
advocates to build it up. You need boots on the ground to marry 
it with technology and then to marry with effective work site 
enforcement to really have an immigration system that enforces 
our Nation's laws even as we work to improve those laws. And 
they do need to be improved.
    So it never contemplated that. What it did contemplate was 
some attrition savings and other savings. We have now 
reprogrammed basically $15.5 million, which, in the scheme of a 
$50-billion or so budget is a small amount. But we programmed 
that amount to cover that. So, again, let me just emphasize 
there is no reduction of Border Patrol in the President's 2011 
request.
    Mr. Mollohan. Of Border Patrol agents?
    Secretary Napolitano. That is correct.
    Mr. Mollohan. Okay. It also looks like you are cutting 
spending on border technology by $225 million. Is that the 
license plate readers?
    Secretary Napolitano. Some of that, a lot of that is.
    Mr. Mollohan. One-time purchase?
    Secretary Napolitano. Indeed, one-time purchases that were 
made.

                         OPERATION STONEGARDEN

    We have a very extensive program of security along the 
southwest border. By the way, I neglected to mention that the 
Stonegarden Funds are being used by the local State sheriffs 
along that border to help as well. And that has really helped 
them through some tight budget times. So we have an extensive 
program along that southwest border and involving not just DHS 
but other departments, I think a great deal of cooperation with 
the federal government of Mexico. My particular concern and our 
particular concern right now, of course, is assisting not just 
with the cartels and the violence there. Several heads of those 
cartels now have been apprehended this year. Others are 
certainly under investigation. But, also, the issue about the 
rule of law and the state of Chihuahua, which is where Juarez 
is located.
    We have not seen the kind of spillover violence that I 
think we all are concerned about, but we don't want to see 
spillover violence. So a lot of it is prophylactic in nature as 
well.
    Mr. Mollohan. A budgetary question. As you fashion your 
border, do you and your agency budgets anticipate its impact on 
the budgets of other agencies, like the Department of Justice? 
Is that a conscious part of your thinking as you interface with 
the Department of Justice, the Bureau of Prisons, the U.S. 
Attorneys, all of the investigative personnel, and drug 
enforcement people? As your budget impacts the border, are you 
interfacing with the Department of Justice and considering how 
DHS's work impacts DOJ's budget?
    Secretary Napolitano. Well, we are absolutely interfacing 
at an operational level. One of the agreements we reached, for 
example----
    Mr. Mollohan. Well, what about at the budgetary level? That 
is my question.
    Secretary Napolitano. Yes. For example, if we have agents 
down there, who is going to handle the prosecution and the 
immigration courts, where the DOJ budget gets impacted.
    Mr. Mollohan. I don't have much time. Is that a part of the 
budgetary process on your part?
    Secretary Napolitano. It is. Not directly. That is done at 
OMB.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Price. Thank you. Mr. Calvert.

                                E-VERIFY

    Mr. Calvert. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for coming today. As you know, 
I was involved in the creation of E-Verify. And there was a 
story in The Wall Street Journal this morning, I don't know if 
you saw the story, it was regarding a company named--if I have 
the pronunciation right, I think it is Westat, a consulting 
firm. And the story was regarding abuse of identity fraud in 
the utilization of E-Verify.
    Apparently, it's very accurate as far as being able to 
identify the Social Security number versus the name, and there 
is improvements in that. Unfortunately, a lot of people now are 
using someone else's identity and Social Security number. And 
so the study stated in the paper this morning there was a 54 
percent inaccuracy rate. Which I think seems high. But I was 
going to ask you to look into that and see if you can get back 
to us on that.
    In that regard, I know that there is action taking place to 
fight that, freezing the Social Security number, making sure 
that Social Security numbers are not being used multiple 
periods of time, the same identification over and over again. I 
would ask that you look into that. But in that regard, I see 
that in your budget request, that you cut E-Verify somewhat. 
And I was going to ask, what is the purpose of cutting the 
program this year?
    Secretary Napolitano. Well, we asked for another $108 
million this year to build on the $130-some odd million that 
was appropriated last year. Part of it is, as you build the 
system, you don't need to keep replicating the same 
expenditures. But I think the E-Verify system is absolutely 
where we are going in terms of incentivizing employers and 
making it as user friendly as possible to make sure they are 
using a legal workforce.
    Now, on the identity fraud issue. We are adding or have 
added, actually, to the algorithms used in the system, pings, 
for example, if the same Social Security number arises, so that 
you can pretty much tell there is an ID fraud going on because 
different people are using the same Social Security number.
    So those kinds of algorithms are now being added to the 
system to really deal with that identity fraud issue, as well 
as biometrics.
    Mr. Calvert. Apparently, according to the story, it is 
happening quite a bit.
    Secretary Napolitano. I don't think it is 54 percent. So I 
will be happy to look into that.
    [The information follows:]

    In its study of the E-Verify program, the Westat Corporation found 
that in approximately 96% of the cases submitted during a three-month 
period in 2008, the findings of E-Verify were consistent with the 
workers' true employment authorization status. Further, the study found 
that of the cases submitted to E-Verify, 6.2% of the workers were 
actually unauthorized and, of that subset, E-Verify detected slightly 
less than half as unauthorized. The study concluded that this rate is 
not surprising in light of E-Verify's current limited ability to detect 
identity fraud.
    USCIS is working hard to improve E-Verify's ability to detect 
identity fraud. USCIS has already added DHS-issued photos to the system 
allowing for a biometric comparison for authorized workers and we are 
in the process of adding passport photos to E-Verify's photo tool. We 
have also significantly enhanced our capabilities to monitor system use 
for evidence of identity fraud, and we are developing tools that will 
allow workers to lock their own Social Security Number in E-Verify 
until they are changing jobs.
    However, even with these steps it is important to understand the 
limitations of the current system. The largest pool of available 
biometrics are state driver's license photos. Access to these photos 
would improve E-Verify's ability to effectively combat identity fraud. 
However, even with this limitation we are examining biometric and 
biographic options to further strengthen verification of employees and 
to reduce misuse, fraud, identity theft and abuse.
    It is important to note that E-Verify is but one tool in the 
Department's efforts to ensure a lawful workforce, and the crime of 
identity fraud is combated by a full complement of enforcement tools, 
including the 1-9 audit program. USCIS is working this year and in FY 
2011 to implement a series of improvements consistent with the $30 
million in two-year funding the Congress provided in the FY 2010 
appropriations bill. System algorithms are being improved for better 
data matching in order to continue to reduce inaccurate initial 
results. USCIS is also developing Self-Check functionality within E-
Verify to help employees proactively identify and resolve data issues 
outside of the hiring process that could help prevent data mismatches 
with the E-Verify system.

    Mr. Calvert. The other question I have, as you know, in my 
district is the Air and Marine Operations Center. And I was 
asking as far as how the National Task Force as designated by 
the National Interdiction Command and Control Plan as Homeland 
Security Interdiction Center focused on the arrival zone, is a 
question here. I have heard that some interest in my colleagues 
in Texas of creating another AMOC-like center in Texas. Is that 
going on right now, too? Is there going to be another plan to 
put another AMOC-like center for interdiction in Texas?
    Secretary Napolitano. I will have to get back to you on 
that. It is not something I am familiar with.
    [The information follows:]

    There are no plans to create an AMOC in TX.

                        URBAN SEARCH AND RESCUE

    Mr. Calvert. Okay. Another issue that came to my attention 
is the urban search and rescue program. As you know, we have 28 
teams nationally that do a great job. We utilized them most 
recently in Haiti. Apparently, there in the budget is a $4.5 
million decrease from the $32.5 million enacted last year. I 
have heard from some of these teams. They claim that it costs 
them significantly more to keep these teams up and operating 
than they are presently getting in the present budget under the 
$32.5 million and this cut is certainly disappointing to them. 
As a matter of fact, some of these teams have told me that they 
may have to remove themselves from the program if they aren't 
able to get increased funding because of some of the budget 
challenges they have in their various states and local 
communities.
    So I would ask you to take a look at that, and I think as a 
Committee we should take a look at that, also. Obviously, if, 
in fact, there is a terrorist attack or a natural disaster, we 
are going to rely on these teams to respond, and taking a cut 
in these programs at this time is probably a significant 
problem. I would hope that we can find, Mr. Chairman, a 
suitable offset to remedy that problem.
    Do you have any comment on that, Madam Secretary?
    Secretary Napolitano. Well, as you say, the search and 
rescue teams have multiple uses. And we saw one of the things 
we were able to do with FEMA in helping coordinate was bring a 
lot of them down to Haiti in the immediate aftermath of the 
earthquake. Those are the kind of things we would be happy to 
work with the Subcommittee on.
    Mr. Price. Thank you. Ms. Lowey.

                           PASSENGER MANIFEST

    Mrs. Lowey. Thank you, Mr. Chairman. And welcome. Before I 
get to my question, I would like you to get back to me on the 
bipartisan legislation, which you were going to get back to me 
on, which is currently cosponsored by nearly 150 members to 
grant all TSA employees collective bargaining rights, 
whistleblower protections, veterans preference, and other 
common workplace protections that belong to other DHS employees 
which President Obama has publicly supported.
    I do not view the lack of the TSA administrator as an 
excuse to neglect the workplace rights of over 40,000 frontline 
security personnel. So if you can get back to me as soon as 
possible, I would appreciate it.
    There are two questions I would like to ask of you today: 
Number one, regarding the passenger manifest vetting system. To 
me, it is outrageous that Abdulmutallab was a known threat and 
could have been stopped from boarding the plane had CBP more 
time to review the passenger list. During a hearing last March 
10 with CBP Commissioner Ahern, I asked him whether airlines 
should provide passenger lists 24 hours in advance of 
international flights arriving in the United States as incoming 
sea vessels are required to do, and he replied, Ahern, 
Absolutely not. I do not think so, in the air environment. So 
it is obvious that 30 minutes is not enough time for CBP 
officers to screen hundreds of passengers. Twenty-four hours 
should be the new standard.
    So I would like to know from you--and we all understand 
there will be stragglers last minute. Is it still the position 
of DHS that 30 minutes is ample time to properly and 
extensively vet all passengers on international flights bound 
for the United States?
    Secretary Napolitano. Well, we are obviously looking and 
reviewing the entire way that international aviation works, as 
I described to the Chair. But let me make one point about one 
change we have made in the wake of December 25.
    It was the protocol in prior years that CBP overseas would 
get two lists that were pushed out, the terror screening 
database and the no-fly list. Through a process in which 
multiple errors occurred, Abdulmutallab's name never got on 
TSDB, nor did it get on the no-fly list. And so in Amsterdam, 
the CBP officer there was not able to advise the Dutch to make 
sure he got a secondary screening, nor were they able to advise 
the airline that he was a no-fly.
    Now, that process is being reformed and corrected, and that 
involves not DHS--we don't prepare the watchlist--but the NCTC.
    But we have made one material change, and that is the State 
Department visa lists. Whenever there is a note made on a visa 
that mentions terrorism or extremism, that will be pushed out 
in addition to the TSDB and the no-fly list overseas. That 
would have picked up Abdulmutallab had that been done.
    Mrs. Lowey. Madam Secretary, I appreciate that. But if you 
can answer my question, respectfully: Why is 24 hours 
unacceptable? Why can't the visas and other documents be 
presented 24 hours in advance, understanding that there will be 
stragglers? Why are you opposed to that?
    Secretary Napolitano. I didn't say I was opposed to it.
    Mrs. Lowey. Why did you not tell me you support it?
    Secretary Napolitano. Well, because, Representative, I 
don't know whether 24 hours is the right amount of time.
    Mrs. Lowey. It may be 72.
    Secretary Napolitano. It may be shorter. But I will say 
that we are looking at the entire system.
    Mrs. Lowey. Let me just say, we have been working on secure 
flight forever. I don't even want to discuss the mega millions 
of dollars that have been spent on that. Originally we were 
talking about 72 hours. But it would seem to me that there is 
no rational reason why 24 hours in advance, given all the other 
changes that are being made, in these very difficult times 
where we hear about constant threats, why the--I would like 72 
hours. Why 24 hours is unreasonable. So if you can get back to 
me as soon as possible on that, I would appreciate it.
    [The information follows:]

    DHS has implemented a layered approach to screening advance 
passenger data against the Terrorist Screening Database (TSDB), the 
U.S. Government's Terrorist Watchlist. Specifically, DHS is 
implementing the Secure Flight program that requires carriers to 
provide TSA with available passenger data 72 hours prior to the 
departure of a flight (domestic or international) for screening against 
the No Fly and Selectee subsets of the TSDB. TSA anticipates that 
Secure Flight deployments for domestic aircraft operators will be 
completed in spring 2010. TSA has also initiated Secure Flight 
deployments for foreign aircraft operators and expects to assume 
watchlist matching for all flights, international and domestic, by the 
end of calendar year 2010.
    Additionally, CBP has direct access to Passenger Name Record (PNR--
passenger reservations) data for international flights with a nexus to 
the U.S. beginning at 72 hours prior to departure. CBP screens PNR data 
against TSDB records to include the No Fly and Selectee lists.
    Finally, carriers are required to transmit their complete and final 
passenger manifests to CBP no less than 30 minutes prior to departure. 
This allows for one final check against the TSDB.
    CBP and TSA have well established procedures in place to coordinate 
directly with carriers to ensure that passengers on the No Fly list are 
denied boarding, and that the carriers are informed of passengers who 
are otherwise inadmissible to the United States, such that they may 
deny boarding to those passengers.
    Once all carriers have transitioned to Secure Flight, all DHS 
information-based screening will begin at 72 hours prior to departure. 
CBP will continue to screen PNR data against the TSDB as part of their 
border security and immigration admissibility determination, and TSA 
will assume responsibility for screening air passengers against the 
watchlist and advise carriers of No Fly and Selectee matches.

                          SECURING THE CITIES

    And I would like to ask one more question. Because your 
fiscal year 2011 budget proposal, as with your fiscal year 2010 
request does not request any funding once again for securing 
the cities a Federal and local effort to prevent illicit 
radiological and nuclear material from being detonated in 
Manhattan. For fiscal year 2010, Congress provided $20 million 
under the Systems Acquisition Account to fund this vital 
initiative to eliminate the most catastrophic attack scenario.
    Now, Congress has continued to support this program. I 
think we all understand that the 9/11 attack was an attack on 
the United States of America. New York remains the top target. 
And, as far as I am concerned, if Ray Kelly says he needs the 
money and the money that has been appropriated has been 
obligated, I cannot understand why this is not a priority for 
you and the Department.
    Secretary Napolitano. Well, Representative, Securing the 
Cities was always designed to be a 3-year program and then it 
could convert to UASI. And you may suggest that that money has 
already been obligated by the New York City Police, but the 
last time I asked it had not yet; the money that had already 
been appropriated had not yet been obligated. So there is UASI 
monies available if New York chooses to use it in that fashion. 
It was always designed when the program was set up to be a 3-
year grant. The Congress has funded it in that fashion.
    You know, you are absolutely right that Manhattan is a 
central target. There is no question about that. It gets a 
variety and will receive a variety of monies from this Congress 
for its protection. But that particular grant, which is a small 
amount of what it ultimately gets, was always designed to be 3 
years and, as far as I know, has not yet been obligated by the 
City of New York.
    Mr. Price. Thank you.
    Mrs. Lowey. Let me just say in closing, Mr. Chairman, I 
would like some more information on that as well, because it 
was a demonstration project. And, frankly, if Ray Kelly says 
the demonstration hasn't been completed and he needs more money 
specifically for that, the tremendous amount of money that has 
to be spent--and you know that because New York is still the 
number one threat--I think we have to evaluate it in that 
context.
    [The information follows:]

    Response--STC was conceived to be a three year pilot 
program to develop a preventive radiological/nuclear detection 
(PRND) operating capability centered on a high-risk 
metropolitan area. $70 million has been made available for this 
purpose. Due to risk, NYC was chosen as the first 
implementation of this initiative. The initiative was never 
intended to fully complete the NYC region's radiological/
nuclear detection architecture. NYC regional STC stakeholders 
can continue to fund additional capabilities through DHS grants 
(Homeland Security Grant Program, UASI, etc.) if they feel this 
capability remains a priority and if additional funds are still 
warranted. DNDO will continue to support the STC initiative 
through the obligation and expenditure of appropriated STC 
funds with experienced program management and subject matter 
experts in preventive radiological and nuclear detection.
    Congress appropriated FY2010 STC funding. A Funding 
Opportunity Announcement will be posted on Grants.gov in mid to 
late March 2010 to announce the availability of these funds for 
the NYC region. DHS expects to award this money via a 
cooperative agreement during 4th quarter FY 2010.

----------------------------------------------------------------------------------------------------------------
                                                                       2007     2008     2009    Total     2010
----------------------------------------------------------------------------------------------------------------
Appropriated for STC...............................................   *$0.00   $30.00   $20.00   $50.00   $20.00
DHS Support........................................................     5.60     0.50     2.00     8.10      TBD
Amt Awarded to NYPD................................................     3.25    29.50    16.70    49.45      TBD
Amt Expensed by NYPD...............................................     0.09    12.10     0.00    12.19      TBD
----------------------------------------------------------------------------------------------------------------
* Funding for the FY07 Securing the Cities Grant was from the RD&O Appropriation; all remaining funds were from
  the Systems Acquisition Appropriation.


    Thank you, Mr. Chairman.

                             PROJECT SHIELD

    Mr. Price. Mr. Kirk.
    Mr. Kirk. I just want to agree with my colleague from New 
York that I think the intelligence shows New York is the number 
one threat. So I think she is wisely grounded there.
    I first want to say I think our decision as a Committee 
that the Chairman wisely cut headquarter staff and restored 
Coast Guard, I don't think your budget is sustainable. I think 
on a bipartisan basis we will need to do that again.
    And I will say on the proposal to bring GITMO to the 
heartland, the Illinois General Assembly last Wednesday voted 
81-13 to strip the Illinois governor of the ability to offer 
Thompson. So you probably won't have the ability to spend that 
money, because by a veto-proof majority now the State 
legislature is quickly acting to deny the ability of that 
facility to be offered. Let me ask you a separate question, 
though.
    Last October, Congressman Quigley and I wrote to the 
Department about the improper use of Federal Homeland Security 
dollars at Cook County. Apparently, $43 million in DH funds for 
a Project Shield, a video surveillance program, was misspent. 
We have reports that Project Shield out of DHS funded bankrupt 
companies, phony surveillance programs, and companies that did 
not exist and falsified documents.
    Now, in January, the president of the Cook County Board 
fired his chief information officer, Antonio Hilton, who was in 
charge of Project Shield. To date, the project is showing 36 
percent over budget, 3 years late in implementation, and looks 
like largely a waste of over $40 million in Federal monies.
    First of all, since Congressman Quigley and I wrote to you, 
have you done anything about this?
    Secretary Napolitano. We are looking into it right now. But 
I am going to make another point. I am as opposed to misspent, 
overspent, inefficient use of tax dollars as anyone you will 
ever see. But you need project managers to manage that. So it 
is somehow working with the Committee we have to understand 
that we can't on the one hand say you have got too many 
headquarters staff, which I have said now many times is not 
located in headquarters, and then have a critique on a 
particular program because it wasn't well managed.
    So I really look forward to working with this Subcommittee, 
because those are inconsistent positions.
    Mr. Kirk. But beyond the generalities, you have now had 4 
months notice on this.
    Secretary Napolitano. No. The letter was sent to the IG. It 
was not sent to me.
    Mr. Kirk. I think you had a copy. So did you do anything?
    Secretary Napolitano. You sent it to the IG. It was not 
sent to me. So I don't know about it. And we will be happy to 
look into it.
    Mr. Kirk. Wow. So the fact that this ran on all three 
Chicago networks and directly referenced your Department, you 
didn't know about it?
    Secretary Napolitano. Sir, I have a copy of the letter 
here. It was addressed to the IG. There is no cc to me. And, I 
am sorry, I don't get Chicago television.
    Mr. Kirk. Given it's $43 million, I think that is fairly 
incompetent.
    Secretary Napolitano. Sir.
    Mr. Kirk. A Google search of DHS showing $43 million in 
wastage should come to your attention.
    Secretary Napolitano. Sir, we will be happy to look into 
that. You addressed the letter to the IG. I don't get the IG's 
correspondence.
    Mr. Kirk. Federal money for Project Shield was directed to 
certain businesses with connection to the Chicago Cook County 
president, and there was difficulty in finding any actual work 
done. Now, one of the connected companies is called Synch 
Solutions, and it received $787,000 for quality assurance 
reports. Initially, Cook County was unable to produce a single 
report from Synch Solutions. Then, the County said it had filed 
these reports by word of mouth. Then, the County said it did 
have 82 reports on its work for DHS, but refused to release 
them. Can I get those reports from you?
    Secretary Napolitano. Representative, we will be happy to 
get back to you.
    Mr. Kirk. It is a yes-or-no question.
    Secretary Napolitano. Sir, I am not familiar with those 
reports. We will be happy to work with you and get back to you.
    [The information follows:]

    The State of Illinois is the DHS grantee and the Illinois 
Emergency Management Agency is responsible for oversight of 
UASI grant subrecipients such as Cook County. There have been 
no problems related to Project Shield procurements or 
activities to date as reviewed by FEMA, the Illinois Emergency 
Management Agency and UASI Peer Review.
    The Illinois Emergency Management Agency reviews all 
requests for reimbursements from sub-grantees and all requests 
for reimbursement related to Project Shield have been in 
accordance with grant guidance. In addition, the Illinois 
Emergency Management Agency reviews the annual independent 
audits of grant recipients within the state. To date, there 
have been no problems related to procurement issues or anything 
related to Project Shield contained in the independent audits. 
The UASI peer review process has reviewed and approved Cook 
County's Project Shield each of the last four years. In 
addition, FEMA reviewed the Chicago/Cook County UASI funding in 
2006 and 2008 and did not report any issues related to Project 
Shield.
    My staff doesn't know anything about the reports, nor does 
the grantee (State of Illinois). However, in response to the 9/
11 Act, the DHS Office of Inspector General plans to review the 
State's oversight of UASI expenditures when they complete their 
review of all states who receive UASI & State Homeland Security 
Program grants. Their audit is expected to be completed by the 
end of Summer 2010.

    Mr. Kirk. Since it involves the waste of $43 million, don't 
you think you should be able to provide that to me since it is 
Federal money?
    Secretary Napolitano. Sir, if I can, I will.
    Mr. Kirk. That is a correct answer. Thank you, Mr. 
Chairman.
    Mr. Price. Ms. Roybal-Allard.

                           DETAINEE TREATMENT

    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Welcome, Madam Secretary. As you know, one of the concerns 
that I have had for some time has been the treatment of 
detainees. And I was encouraged by the plans of your Department 
announced in October to revamp the dysfunctional detention 
system; but as you know, time is of the essence, because since 
2003, we have had at least 107 immigrants who have died in 
America's immigration prisons and many of their stories are 
truly horrifying.
    In fact, the latest reports came from a New York Times 
investigation which recently exposed a case in which a 
Salvadorian man committed suicide after suffering for weeks 
from unbearable pain in his legs after his pleas for help were 
ignored. Following his death, it is reported that detention 
authorities subsequently attempted to change the man's medical 
records to conceal their wrongdoing.
    An October report by your Department has acknowledged the 
need for a well-managed medical care system and has made 
several recommendations. What concerns me is that in spite of 
the urgency to make these changes in the next steps section is 
very, very general and very vague, such as using 
recommendations can be actualized soon. I don't know what 
``soon'' means. Requires further analysis, without any time 
line for when that analysis is to take place and be completed. 
Must continue the progress of recent months. Well, for how many 
months? There seems to be no sense of urgency in dealing with 
this.
    So can you give me an idea as to what the time line is for 
implementing these reforms, not only in your Department's 
report, but also in meetings with Assistant Secretary Morton? 
He also has proposals for improving this system.
    I would like to know what the timeline is to get these 
things moving.
    Secretary Napolitano. Fair enough. And a number of things 
are already being implemented. So they are underway as we 
speak. The program office has been set up. We have consolidated 
facilities. We have put oversight into the contracted 
facilities. That is where a lot of the problems were occurring. 
We have instituted evaluation of medical conditions, et cetera, 
on entrance into a facility. Some of the things are going to 
take longer, like a locator system, to develop. But by soon, we 
mean as soon as possible, and some things are underway now.
    Ms. Roybal-Allard. Let me ask on the treatment. I have been 
told that one of the problems is the requirement by ICE 
headquarters to approve every treatment, and that has sent the 
wrong message to the personnel that detention medical staff all 
they have to do is be responsible for ensuring that the 
detainee is healthy enough to be deported. Is that process 
still in place where everything has to be--every medical 
treatment has to be approved through headquarters?
    Secretary Napolitano. I think that was an inaccurate 
report. That is not the way it is supposed to occur. If there 
is a misunderstanding in the field, that will be corrected.

                                 287(G)

    Ms. Roybal-Allard. Thank you. Sheriff Arpaio of Maricopa 
County, Arizona has drawn widespread criticism, as you know, 
from civil rights groups, and he is currently subject of a 
Department of Justice investigation. And earlier this month, he 
announced that his office intends to continue making 
immigration arrests despite the fact that ICE rescinded his 
287(g) agreement which gives him the authority to enforce 
immigration law.
    Given these circumstances, why does your Department 
continue to use the Maricopa County jails to house detainees? 
Is your Department taking steps to revaluate that decision? And 
what steps are you considering to ensure that law enforcement 
agencies seeking 287(g) authority have acceptable civil rights 
records?
    Secretary Napolitano. Well, the complaints about the 
Maricopa County situation were almost exclusively--actually, 
virtually all related to his going out and picking up illegals, 
not at the jail itself. Which is actually one of our largest 
places for detainees being deported from the United States. So 
we monitor it.
    The 287(g) agreements require a civil rights commitment. 
That was part and parcel of how we standardized the agreements 
over the course of last year. And our strategy, of course, is 
really to build up securing the communities, because the budget 
really shows that that is really I think a very effective way 
to go, where you get the immigration data base information 
right at the time of booking or immediately upon incarceration.
    Ms. Roybal-Allard. I would like to follow up with you a 
little more on that at a different time.
    Mr. Price. The gentlelady's time has expired. So perhaps 
you could take that up on the second round.
    Mr. Farr is next. Let me remind Members that our procedure 
here is to go through the entire roster of Members who were 
here when the hearing opened before we turned to other Members. 
We do proceed in a partisan rotation, but there are a couple of 
majority Members who were here at the beginning so we will go 
through their questions and then we will resume the rotation. 
Mr. Farr.

                           GRADUATE PROGRAMS

    Mr. Farr. Thank you very much, Mr. Chairman.
    Madam Secretary, I met with law enforcement a couple weeks 
ago in my district when we were all snowed out of Washington, 
and I just want to relay to you that they think that a lot of 
the operations on the ground between ICE and other Federal 
agencies are just going a lot smoother, and we are really 
complimentary of your administrative abilities to make them 
interoperable. You know, and certainly you can see by the 
questions in this Committee what a variety of subject matters. 
We also hear in Washington that all politics is local because 
we all represent districts. But it is very interesting, because 
your first word of your Department is Homeland. And, for us, 
the homeland is each of our districts.
    I think you agree that a strong America is dependent on 
being also a very smart America. So I want to get a little 
parochial, because I represent the Naval Postgraduate School, 
which is a Federal university run by the Navy but has a 
civilian program run by the Department of Homeland Security 
called the Center for Homeland Defense and Security. I know you 
are familiar with the program, because when you were governor 
of Arizona, you sent some of your operational people there.
    I have a couple of questions because I think the success of 
that is over 500 alumni have got a master's degree or executive 
leaders programs, and they are now professional practitioners, 
scholars, and leaders who serve all homeland security 
disciplines at all levels of government.
    I really want to know how you can sort of more formalize 
the process and incorporating the cutting edge research 
undertaken by these master degree students into the Homeland 
Security Institute and, more broadly, how the science and 
technology directorate can make better use of the high-caliber 
research going on by the scholars at the graduate school.
    Secretary Napolitano. Well, I think, Representative, that 
we are in discussions with the schools right now and have an 
ongoing and strong relationship there. So that is underway.
    Mr. Farr. So underway to kind of build on lessons learned 
and things like that?
    Secretary Napolitano. Yes, sir.

                             GANG VIOLENCE

    Mr. Farr. Because one of the lessons that we are doing is, 
I represent Salinas, which is the county seat of Monterey, it 
is the biggest city that I represent, 150,000 people. It is the 
salad bowl capital of the world. And Salinas, unfortunately, 
has had the most--I think it is the highest per capita violence 
rate in the United States. Last year, 29 kids were killed in 
homicides gang-related.
    What I have gotten is, as the military students from the 
Naval Postgraduate School who have come back from Iraq and 
Afghanistan to work with the city to determine if there are any 
lessons learned from terrorist incidents that can be applied to 
hometown security, and you mentioned in your comments that this 
hometown security is a problem, that we are growing our own 
terrorists.
    Their research shows that there are some profound 
similarities. Gang recruitment might be similar on how al Qaeda 
recruits their members. The questions, are there similar 
feelings of alienation that drive both gang members and 
terrorists to join violent groups? Does poverty play a role? 
Are there cultural factors that predispose more violent 
societies? Does martyrdom represent the same thing to both 
gangs and terrorists? Is the society failing to provide youth 
legal opportunities to earn a livelihood? And I would like your 
thoughts if you can tell us if the Department is investing in 
programs to try to understand and address what motivates human 
beings to become members of violent groups, whether they be 
terrorists or gang members.
    And just an incidental comment. When the late Jack Murtha 
was out at the Naval Postgraduate School--and we put a lot of 
money into IED detection and how to avoid it. And one of the 
soldiers who had just got back from Iraq was--asked the Members 
of Congress pretty profoundly. He says, I know you are spending 
these billions of dollars. But, he said, are you spending any 
money on trying to figure out what motivates cultures to do 
this? And Jack was very--that is the kind of question that we 
need answered. And so, are we pursuing those and are we 
pursuing them on our domestic arena?
    The violence in Salinas--people don't care about all these 
things that we talk about in this Committee. They are afraid 
that their kids can't get home from school safely. People 
aren't shopping. This has cut down. The city is dying because 
of this violence. So it, in effect, is terrorist activity 
because it ends in the same result, a lot of death.
    Secretary Napolitano. Congressman, one of the issues that 
has been--that we are looking at and looking in conjunction 
with countries like the U.K., for example, is, is there an 
effective means by which you intervene in a person's process 
from being interested in something to becoming a violent 
extremist. And there is--we are looking at that. I think the 
Justice Department is looking at that. I think the FBI is 
looking at that. But are there some things that can be done 
particularly at the local level and perhaps even outside the 
law enforcement realm itself that would interrupt that 
continuum.
    Mr. Farr. Well, I think just anecdotally, if we are going 
to have homeland security--the violence at Fort Hood was not 
imported. Maybe the psychology of it all was imported, but it 
was home grown. And the machismo in gangs can also grow into 
much more violent activities than we can accept and have 
stability in our home. So I hope that the Homeland Security 
Administration will pay attention to all of our issues in our 
districts, because that is truly the heartland of America. 
Thank you.
    Mr. Price. Thank you. Mr. Rothman.
    Mr. Rothman. Thank you, Mr. Chairman.
    Madam Secretary, it is great to have you here. And thank 
you for the great work you are doing. And I think the 
Department, under your leadership, is getting better and better 
every day. And, as you say, you are flying the airplane. At the 
same time, you have been required to construct it. And the 
instructions are to build a bigger airplane every day.
    As you may know, I represent a district in northern New 
Jersey, one of the most densely populated areas in the country 
with many vital industrial and chemical facilities. Law 
enforcement has dubbed two of the miles in my district as the 
most dangerous two miles when it comes to potential terrorist 
targets: Bridges, tunnels, chemical plants, et cetera.
    In your testimony, you identified one of the Homeland 
Security's five main missions as preventing terrorism and 
enhancing security. Could you elaborate a little bit on what in 
your budget addresses improving industrial and chemical plant 
security here at home?
    Secretary Napolitano. Indeed, Representative. One area to 
look is on our whole institution. And now we are carrying out 
what is called the CFATS, where we have tiered chemical 
facilities, where we now have a system to be able to patrol, 
inspect, and the like, beginning with the biggest and moving to 
the smallest, depending on what type of chemical they have. And 
I think in that area there are a number of large chemical 
facilities, if I recall correctly, many of whom are now under 
the CFATS regime. And you will find monies for that in the 
budget under NPPD.

                     NEWARK AIRPORT SECURITY BREACH

    Mr. Rothman. On another subject. As you may know, a young 
man snuck through security at Newark Airport apparently to kiss 
his girlfriend good-bye. He has apologized. He is going through 
the criminal justice system. I don't know if he will be tried 
at GITMO, but he is presently in the criminal justice system of 
the United States. Anyway, are there procedures that have been 
put in place at Newark, to the best of your knowledge, to 
prevent that and have those lessons learned about how such an 
incident could have occurred, been applied, and is the 
knowledge from that incident being applied across the breadth 
of your jurisdiction?
    Secretary Napolitano. Yes. One of the things--of course, 
several things. One is there was an employee who was 
distracted. That employee is in the disciplinary process now. I 
can't say more than that. But there need to be consequences 
when performance doesn't match responsibilities. As you say, 
the individual involved who caused great delay and 
inconvenience at a minimum for everybody----
    Mr. Rothman. Beyond the discipline of that employee, 
especially in security--and I know you know this as former 
governor and two executives, et cetera. I am a belt and 
suspenders person when it comes to security matters. I am sure 
you are as well. Are there redundant systems in case an 
employee does drop the ball, does become distracted?
    Secretary Napolitano. Yes. TSA, I have asked them to look 
at that, to look at how we do those pinch points. Also, as you 
know, the Port Authority controlled the cameras and the cameras 
didn't work. I asked for an immediate audit of all camera 
systems in domestic airports. So that is underway as well.
    I might suggest, now I am outside my lane a little bit, it 
might be worth reexamining the penalties for individuals who 
intentionally do such a thing.
    Mr. Rothman. Although, given there are people willing to 
blow themselves up, I am not sure the penalties would affect 
everybody. I am more concerned about physical obstacles to this 
happening again and redundant personnel structures to address 
them.
    Secretary Napolitano. Indeed.

                       NONPROFIT SECURITY GRANTS

    Mr. Rothman. If you could have someone get back to me on 
that, great. And if I have time for one more question. There is 
a nonprofit security grant program, a nonprofit security grant 
program which provides nonprofit organizations in high-risk 
urban areas, including religious institutions who are the 
subject of terrorist threats, with a chance to increase their 
security measures. It is already in your budget, and I am 
grateful for that. Do you believe that the funding level is 
sufficient to do the job in your fiscal year 2011 budget.
    [The information follows:]

    Following the security breach at Newark Airport on January 
3, 2010, the Transportation Security Administration (TSA) 
deployed a team of security experts to the airport to evaluate, 
review, and make necessary security changes to the existing 
checkpoint layout. As a consequence of this review, TSA 
installed glass barricades to minimize the chance of 
recurrence, and has evaluated staffing coverage at all exit 
lanes vulnerable to breach.
    In addition, the Transportation Security Administration 
(TSA) ordered all Federal Security Directors nationwide to 
review the security vulnerabilities at their airport 
checkpoints and make necessary changes, including ensuring 
immediate access to closed circuit television records. 
Moreover, TSA is evaluating Exit Lane Breach Control (ELBC) 
technologies, as requested by Congress, that are capable of 
detecting unauthorized individuals using exit lanes as a means 
to bypass a security checkpoint and gain access into the 
sterile area. TSA will guide the selection, configuration, and 
evaluation of various technologies under a 6- to 18-month lab 
and field assessment to test and evaluate the performance 
capabilities and technical viability of ELBC technologies. Once 
the lab and field assessment is complete, a report will be 
provided to Congress, and TSA will determine if the technology 
provides value to the checkpoint environment.

    Secretary Napolitano. I think it is the right funding level 
for 2011. Yes, sir.
    Mr. Rothman. Thank you very much, Mr. Chairman.
    Mr. Price. Thank you. Mr. Culberson.

                          OPERATION STREAMLINE

    Mr. Culberson. Thank you, Mr. Chairman.
    Madam Secretary, thank you for being here today. I wanted 
to ask, if I could, first of all, for you to reaffirm the 
support you expressed last year before our Committee for a very 
successful program that is in place on the southwest border 
that my good friend Ciro Rodriguez and I have worked together 
with our colleagues to get in place. Operation Streamline in 
the Laredo, Del Rio, and Yuma sector is working beautifully. 
The local community supports it. It is essentially a zero 
tolerance, 100 percent enforcement, obviously with the officers 
using their good judgment and women and kids, et cetera.
    But it is very effective, has strong local community 
support, and continues to enjoy support from the Department. I 
just want to ask if you could, please, to reaffirm your support 
for that program and so all those good men and women working 
for Homeland Security will know the Secretary is strongly 
behind it.
    Secretary Napolitano. I am.
    Mr. Culberson. It has been a great success and we 
appreciate it. It is something that we in Texas--and I thank 
you for that. We in Texas have always, and just common sense, 
understood that law enforcement works when you are enforcing 
the law vigorously and uniformly and fairly. It works.

                          PASSENGER MANIFESTS

    And one other thing that does defy common sense, following 
up on Chairman Lowey's question, is that the passenger 
manifests are not available at least 24 hours in advance. And I 
want to reaffirm my support for her position on that and ask in 
follow-up, what can you do, what will you do to help ensure 
that those manifests are available at least 24 hours in advance 
for our law enforcement people to review?
    Secretary Napolitano. I think, as I mentioned to the 
Congresswoman, we are looking at the entire system in terms of 
information collection and sharing and passenger vetting across 
the globe. And one of the parts that needs to be put into the 
equation is the capacity of the carriers themselves.
    So my suggestion is that as we move through this over the 
course of the next months, that we report to the committee on 
the progress we are making and any adjustments that are being 
made in terms of the time of passenger information flow.
    Mr. Culberson. What can you tell us about what has happened 
so far since the Christmas bombing? You are reviewing it. What 
is your personal estimate of what is a reasonable amount of 
time that we can expect to get those manifests in advance?
    Secretary Napolitano. Congressman, I don't want to be 
premature and guess, because any statement I say here will have 
ripple effects throughout the globe.
    I will say this. I think we need to say, what is the goal 
of this? The goal is to make sure, to the extent that we can, 
in a travel environment where the U.S. process is 2 million air 
passengers a day, that someone who is a known or potential 
terrorist does not get on board a plane carrying an explosive. 
So we start from there and then we back up: What needs to 
happen, what information needs to be processed? How do you 
handle the fact that Customs is really--their infrastructure 
personnel are primarily located at the borders of the United 
States, air and land. So we don't have jurisdiction overseas. 
We can only advise foreign authorities about who to check and 
the like. So we are working through all of that as well.
    Mr. Culberson. And I completely agree with you. It would 
seem, again, common sense, fairly straight forward, if an 
individual like the Christmas bomber is on a terror watchlist, 
then they shouldn't have a visa to fly to the United States and 
they shouldn't even be allowed to board the aircraft.
    What can you tell Americans that are watching today and all 
of our constituents who are concerned about this? That just 
seems, you are absolutely right, common sense. When is that 
going to happen? What needs to happen to make sure that 
somebody on the terror list does not have a visa and can't get 
on an airplane to fly into the United States?
    Secretary Napolitano. Well, the NCTC has already 
significantly worked on revising the watchlisting process. A 
number of people have been moved up on the watchlist. As I 
mentioned to Representative Lowey, prior to Christmas and 
pursuant to protocols that have been in place for a number of 
years, Customs abroad received the terrorist screening base 
database and they received the no-fly list. Then, all they can 
do at that point is tell law enforcement at the airport in 
whatever country they are in that somebody needs a secondary, 
or tell the air carrier don't board this individual because 
they are no-fly.
    We are adding to that, those two subsets of information, a 
third subset, which is anything in the State Department Visa 
Catalog, it is called PB3, I believe, that mentions terrorism 
or extremism would also be handled as if somebody were on the 
TSDB already. We are pushing that abroad. That step we took 
almost immediately after Christmas, once we realized that it 
wasn't being sent abroad.
    Mr. Culberson. So you have already got the mechanisms in 
place for us to reach the point where those people are 
automatically removed and they will not be allowed to fly?
    Secretary Napolitano. Well, to get the information out. 
Yes, sir.
    Mr. Culberson. Thank you. Thank you, Mr. Chairman.
    Mr. Price. Thank you. Mr. Rodriguez.

                                STAFFING

    Mr. Rodriguez. Thank you very much.
    And, Madam Secretary, I know you have been here pretty long 
so let me make some comments that I would hope that some of the 
concerns of the staff picks up on them.
    Let me, first of all, say, I know from the very beginning 
you indicated this is 23 agencies that were brought together. 
Before they were brought together, we are having all kinds of 
trouble with the INS then as it was referred to, which is under 
you now, we were having all kinds of trouble with FEMA. So all 
these problematic agencies came in, and supposedly everything 
should be okay now. We know that that is not the case.
    I am actually pleased that you are suggesting that we need 
additional staffing to see how you can streamline and bring 
those together, because one of the major problems was how do we 
communicate between agencies and within your own Department, 
which is, I can imagine, still a major problem that you have to 
work on. And, hopefully, the recommendations that you have 
there will make that happen.
    The other thing is, for both you and us, is the fact that I 
feel very strongly that this is one of the, areas just like the 
Department of Defense, that we really need more resources. When 
you look at the Coast Guard, and just one agency there, that 
has the items that go back to the 1950s and the fact that we 
don't have the sufficient equipment that is necessary. We 
really need to reassess in terms of the amount of resources, 
not only from an administrative perspective and your 
Department, but from our perspective, also, as the Congress, as 
to how much resources need to go into that area. And there are 
some real concerns. Each one talked about the necessities in 
each one of the areas.
    I am here to tell you, for example, to thank you, number 
one, on the Border Patrol going up to 20,000 and holding the 
line in both of the northern and southern borders, but also 
from the Customs perspective. We have had there is more of a 
request. We have the Texas Border Coalition, the Government 
Accounting Office, the National Treasury Employees. And this is 
for our staff, too. There has been recommendation after 
recommendation that we need about 5,000 Customs people. As you 
look at the border, we look at the--Border Patrol works between 
the bridges and so they have done a good job there. But, my 
God, the cartels are not coming through the bridges because we 
don't have the staff. And it is really hurting us economically. 
And that is one thing we had talked about, that as the 
Congresswoman talks about 24 hours, one of the things we don't 
want to do to ourselves is hurt us economically. What the 
terrorists want to do is hurt us and hurt us economically, and 
we want to make sure we don't do that to ourselves.
    So there is a need for, and you recommend, 300 additional. 
That is not adequate. Just on the southern border we have got 
the Anzalduas Bridge coming up. We have the one on Donna. We 
have one that hopefully will be opened up in the future in El 
Paso, and there is no telling what on the northern border. And 
there is a holdup as people come back and forth.
    I have got one community, 80 percent of the sales tax is 
Mexicans coming over and purchasing. Number one economic impact 
for Texas is Mexico. So whenever we put the gap there, 
especially around the holidays when 24 percent of the sales are 
sold, that is about hurting us economically as a Nation.
    So I am hoping that we look at this budget and really move 
forward in the rest in terms--and, yes. In terms of waste, $43 
million is not appropriate. But I am here also to tell the 
Department of Defense from 2003 to 2008, just on overruns, GAO 
reported $500 billion. Not million, $500 billion overruns. So 
we really need to come to grips with that.
    Having said that, I hope you look at the issue of Customs. 
And I think that is an area of interest that really needs to 
kind of be looked at on the long term, because based on the 
300, it would take us, my figures show me, to 28 before we come 
up with the necessary numbers that are needed in order for us 
to beef up.

                               VACANCIES

    Secondly, the other Congressman that oversees the DOJ 
talked about a couple of other things that are beyond you, but 
the coordination is important. We still don't have the U.S. 
Attorneys in Texas, not a one has been appointed. We still 
don't have the U.S. Marshals, not a one has been appointed. We 
still don't have the judges. I have a vacancy in the western 
district, two vacancies in the southern district, and also the 
ones that Congressman Culberson is talking about where we need 
the judges. They are overburdened right now. That is another 
problem that is confronting us on the border in terms of how do 
we deal. I just got calls yesterday, this is again local, from 
a county saying: We are not going to file charges against 
people in a certain county because we don't have the resources.
    So I am looking forward to working with you. And I know you 
have been handed this huge elephant--and I don't mean that 
politically--but, you know, we really need to see how we can 
bring more resources to come to bear and do that when it comes 
to homeland security. Thank you.
    Mr. Price. Please feel free to comment, if you wish. The 
gentleman's time has expired.
    Secretary Napolitano. I agree. That is my comment.
    Mr. Price. All right. There will be plenty of opportunities 
to follow up on all those topics.
    We are looking at a series of votes before too long, but I 
hope we do have time to get into some further questions. So I 
will proceed here with a very quick question about the Coast 
Guard and then moving on to some other topics.

                     DEEPWATER IMPLEMENTATION PLAN

    Madam Secretary, in the fiscal 2006 Homeland Security 
appropriation written under the direction of my colleague, Mr. 
Rogers, there was a bill requirement for the Secretary to 
submit a revised Deepwater Implementation Plan with the fiscal 
2011 budget. Language went into some detail as to what would be 
required. That same statutory language has been carried every 
year for the last five years. Yet, the 2011 budget fails to 
provide the Deepwater implementation plan as required by this 
Congress. This is particularly troubling given the fact the 
Commandant noted in his annual State of the Coast Guard address 
this month that acquisitions aren't credible if they are not 
supported by a timely capital investment plan.
    So I want you to let us know here this morning when we can 
expect that comprehensive Deepwater review; and just remind you 
that, without the revised Deepwater Implementation Plan, we are 
in a very poor position to judge these various decommissionings 
of ships and aircraft that you are suggesting in next year's 
budget. How can we be sure they are not opening long-term 
capability gaps similar to the ones we have been struggling to 
fill in funding the Deepwater program in these intervening 
years?
    Secretary Napolitano. Mr. Chairman, I will speak with the 
Commandant today about that report. I believe he is actually 
testifying in a Transportation Subcommittee this morning about 
that. So I will speak with the Commandant, and ask him to call 
you directly with that information.
    Mr. Price. Good. And we hope we can get a firm timeline so 
we know what we are dealing with here. In the meantime, we are 
going to need to access some information that gives us some 
guidance beyond what is provided in your budget submission.
    [The information follows:]

    The Commandant met with Chairman Price on Thursday, March 4, 2010 
to discuss, among other issues, the timeliness of reports. He conveyed 
to the Chairman that his message was heard loud and clear. The Coast 
Guard is working closely and proactively with the Department to ensure 
necessary reports are expeditiously delivered to Congress.

    Secretary Napolitano. Indeed.

                          DISASTER RELIEF FUND

    Mr. Price. The Disaster Relief Fund. The budget request 
originally included $3.6 billion in supplemental funding for 
the rest of fiscal year 2010 for the Disaster Relief Fund. On 
February 12, as you know, the administration transmitted a 
budget amendment to increase that amount for the current fiscal 
year to $5.1 billion. That would hopefully cover the potential 
exposure due to the Katrina arbitration cases and a costly lump 
sum agreement with Louisiana schools. But we are concerned that 
even this amount may not be adequate to cover costs until the 
end of September, leaving the possibility that the fund could 
run low on balances during the height of the hurricane season. 
So that is 2010. But when you turn to the 2011 request, the 
fund is being depleted at nearly double the rate assumed in 
your budget due to ongoing costs associated with past large 
disasters. This budget request we estimate will last only 4 or 
5 months into the fiscal year. What can you tell us about how 
we are going to get on track here with a more realistic, more 
accountable, and more responsible budgeting process for the 
Disaster Relief Fund?
    Secretary Napolitano. Yes, sir. First of all, the 
supplemental request of $5.1 billion we believe will carry the 
DRF through the end of the fiscal year, accounting for not only 
the arbitrations, but also there is $1.1 billion for schools 
reconstruction in New Orleans. So we believe that that 
supplemental, if approved, would carry us through the end of 
the fiscal year.
    With respect to the ongoing budget request, it is the 5-
year rolling average of noncatastrophic disasters which are 
defined as disasters below $500 million. That has been the 
methodology used; and if there is a better one to employ, I am 
open to looking at that.
    It is difficult to predict with any certainty a disaster 
that is above $500 million, so the $1.9 billion, which is the 
5-year rolling average, seems to be a reasonable way to 
approach the problem. But, Mr. Chairman, if you would like to 
discuss perhaps a better way to do it, I am open to those 
suggestions.
    Mr. Price. We are going to want to do that because recent 
history would suggest that this really is going to run out way 
before the end of the fiscal year and that we are going to need 
to deal with it. We are feeling the same pressures everyone 
feels for putting money elsewhere in budget and letting this be 
dealt with on an emergency basis. But that, we know, is not 
sound budgeting. I think our Subcommittee has stood for trying 
to get those numbers into more realistic territory, and we are 
going to be looking at this carefully this year as well.

                              SAFER GRANTS

    Finally, a quick question about firefighter jobs. You know 
about the crisis we are facing economically, and you know that 
the impact on the local government includes something like 
6,000 lost firefighter jobs, the best we can estimate at the 
moment, and another 6,000 lost through attrition. Because of 
this situation, we have altered the language of the SAFER 
grants. You have been given authority to waive a number of cost 
sharing and other local matching provisions for fiscal 2009 and 
2010. You have been given additional authority for retention as 
well as for new hires and rehires. We--and we weren't alone in 
this--felt that you had not taken full advantage of these new 
authorities, and so the Department did change the fiscal 2009 
SAFER guidance and allowed for extensions to apply midway 
through the application period.
    As we look ahead--and, of course, we are still in the 
middle of this economic downturn--we didn't move as quickly as 
possible on this. There have been serious delays on this. We 
are trying to stem the flow of layoffs, create jobs.
    But for the Department to take 18 months to award the 
fiscal 2009 SAFER grants really is not in sync with the kind of 
urgency we feel, and now we are being told the Department won't 
begin the fiscal 2010 grant process until this summer. So I 
would like to ask you what assurances you can give us today, 
and then get back to us if you need to, about the Department 
being in a position now fully to utilize this broadened 
authority that you have been granted that addresses the 
situation.
    The authority addresses the personnel situation and it 
addresses retention as well as new hires. And then also getting 
the process for 2010 going. Maybe somehow telescoping it with 
the ongoing 2009 process? What can we do to get this money out 
the door? This is important to public safety. It is also 
important because of the desperate fiscal situation many of our 
local governments find themselves in.
    Secretary Napolitano. Indeed. And, number one, you are 
right to be unhappy with the length of time it took to regrant 
the 2009 monies. The basic cause of the delay was rewriting the 
grant guidance to reflect the greater flexibility that you had 
provided. But that process took too long. We have instituted 
changes within the Department to fix that so that that does not 
recur, and all I can say is that we have identified the 
problem, we have fixed it, and now we are moving with alacrity, 
with all the speed we can, not only to get all those monies out 
the door for 2009 but for 2010, as well.
    Mr. Price. Well, completing the 2009 awards, first of all.
    Secretary Napolitano. It is moving out, yeah.
    Mr. Price. And then moving with 2010.
    Secretary Napolitano. Indeed.
    Mr. Price. So you are assuring us that you are now in a 
position fully to take advantage and implement the new 
flexibility?
    Secretary Napolitano. Yes.
    Mr. Price. I am asking you to get back to us as to what 
kind of timetable we expect to complete these 2009 awards and 
get the 2010 awards out the door.
    Secretary Napolitano. I will get back to you as soon as 
possible. And by that I mean very, very soon. We have it. I 
just don't have it at my fingertips.
    Mr. Price. All right. Good.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Price. Mr. Rogers.

                 OVERDUE REPORTS AND EXPENDITURE PLANS

    Mr. Rogers. I feel like that movie Groundhog Day where 
every year we live the same thing over and over again. We have 
talked about those grants now for forever, and nothing ever 
seems to happen. And that is true in so many other instances 
within the Department.
    For example, we have been begging for these reports and 
expenditure plans in the--we put that in the 2010 
Appropriations Act. Nothing happens. A revised Deepwater 
implementation plan, required in bill language to be submitted 
with the 2011 budget request every year since 2006. Now I would 
remind the Secretary that when we did not get that report in 
2006, we would cut the Deepwater budget in half.
    So we are serious about this. We have a responsibility, 
Madam Secretary, that we have to defend to our public on the 
expenditure--wise expenditures of funds. And if we don't know 
your plan, how can we wisely or even rightly allocate the funds 
that we have?
    These are not just mere reporting requirements. These are 
conditional requirements for us to appropriate funds. So this 
is not a request. This is a command. We want the reports on 
Deepwater, on the border security, fencing infrastructure and 
technology expenditure plan, including SBInet, which was due a 
month and a half ago, expenditure plans for TSA's air cargo 
security, checkpoint support, EDS procurement. All of those 
were due December 27, and we are having to prepare the budget 
as we go along here. And as we interrogate your subordinate 
agency heads, we have to have those reports in order to be able 
to question whether or not it is the wise thing to do. So it is 
imperative that we get those expenditure plans. These are not 
reports. They are expenditure plans which we have to have.
    These are not questions. I just wanted to make these 
points.
    There is nothing in the budget report on biometric exit 
information. That is troubling, since that exit system can't 
even begin until 2012 under the administration's timeline, and 
that is assuming a decision on exit is actually made.

                                REAL ID

    Thirdly, there is no budget request explicitly for REAL ID 
in your submission, and that needs to be explained.
    And, as has been mentioned before by the Chairman and by 
myself as well, we still have some very glaring vacancies on 
some heads of agencies, TSA included, CBP. We need to know when 
those things can be filled because those are vitally important, 
of course, as you know, to the security of the country. They 
have been vacant way too long and inexcusable, in my judgment.
    And then on immigration--and I applaud the efforts of this 
Subcommittee and the Department Secretary to deport criminal 
aliens. However, I was afraid at the time--and I think it has 
been confirmed now--that we are, in focusing on that, 
neglecting to deal with simple administrative noncriminal 
illegal aliens, and the data are pointing to that conclusion. 
From 2008 to 2009, noncriminal administrative arrests declined 
by almost 72 percent, from 5,100 to 1,600 arrests; criminal 
arrests during work site enforcement operations declined 60 
percent; indictments filed during work site enforcement 
operations declined 58 percent; convictions obtained through 
work site enforcement operations declined 59 percent. However, 
during the same period, I-9 audits of employers did increase by 
187 percent, 503 to 1,444, during that same time. Arrests and 
convictions of illegal aliens are still the law, but apparently 
it is being very much overlooked. And that continues to trouble 
me, and I think it troubles the American people.

                       WHITE HOUSE PARTY CRASHERS

    Oh, and, finally, the White House party crashers. I think 
the State Department and the White House Social Secretary and 
the Secret Service apparently all have some hand in clearing 
who goes into the White House. I know when we go down there for 
the annual Christmas party, Members of Congress, there are 
eight or ten different people that you go through to be checked 
off some list, if there is a list. And if your name is not on 
such and such list, you are sort of passed along to the next 
person. And these, God love them, are very young people, and I 
don't know who they are or who they work for. I really think 
that you should tighten up and let the Secret Service be the 
single agency that deals with clearances into the White House 
inner circle.
    Secretary Napolitano. Indeed.
    Mr. Rogers. So those are the points I want to make to you, 
Madam Secretary.
    Secretary Napolitano. May I respond? And, also, I will do 
it quickly because I know that time is short. I will go 
backwards.
    On the White House situation, we have tightened up or made 
some changes I think in a very good way to make sure the Secret 
Service is lead.

                         WORK SITE ENFORCEMENT

    On the work site enforcement, I would invite you to--and I 
will ask Assistant Secretary Morton to come meet with you, 
because we are deporting, we are arresting, and we are doing 
work site enforcement. And because we have changed the 
methodology by which we do it, we are covering more employers, 
and we get a deterrent effect out of that. And my judgment in 
terms--and we can perhaps disagree--but from a public safety 
and anti-illegal immigration standpoint, to focus on criminal 
aliens is the way to go, and the numbers bear that out.

                                NOMINEES

    In terms of nominees and confirmations for TSA and CBP, as 
you know, the nominee for TSA withdrew. I think there is 
vetting going on for a substitute right now. The CBP nominee is 
awaiting a hearing in the Senate Finance Committee. He has been 
waiting for a number of months. We are trying to see what can 
be done to accelerate that process. He is the former U.S. 
Attorney for the Southern District of California. He knows that 
border and knows immigration very, very well.

                                REAL ID

    On REAL ID, we didn't request money because we had to 
extend the REAL ID deadline because the bipartisan agreement 
that was reached with the Governors to make some changes to 
REAL ID didn't pass. It didn't get out of the Senate, and, 
therefore, it couldn't move over here, and, therefore, we had 
to extend the REAL ID deadline.
    On biometric exit, we had $50 million in unspent monies 
from last year, and we will simply use that. We will focus on 
using that at airports.
    We still have and need to have a dialogue, Representative, 
about exits at land ports of entry, which is an enormous 
project, and how that really is value added to security 
compared to some other things, for example, increasing the ICE 
budget. That is a discussion we could have not just for this 
year but for future years.
    And, lastly, on the report situation, let me just say I 
apologize. I will call the Commandant today on the Deepwater 
report. We have a list of the others.
    But if I might, sir, we have approximately 300 reports due 
to this Subcommittee alone this year. Eighty are in the 
pipeline. We have delivered 80. Some of the remainders are in 
OMB. Some of them are dependent upon decisions that are made in 
the 2011 budget. We will work to get these reports in, and I 
will direct the CFO to make that a priority. But I would ask 
respectfully of the Committee, perhaps there is a way to 
prioritize all of these Committee reports so we really focus on 
the ones that are of the most severe concern.
    Mr. Rogers. Well, that is fine and dandy. But I am just 
here to tell you, as we did before, I will be trying to freeze 
these monies until we get those reports. I don't want to be 
appropriating funds unless I know what I am doing.
    Secretary Napolitano. I understand that and appreciate 
that. And, like I said, we will pursue that. All I am asking, 
sir, is that, as we prioritize that, perhaps the Committee can 
also look at a way so that our staff is more focused on 
operations as opposed to reports. There ought to be some way to 
prioritize among the 300.
    Mr. Rogers. I think that is a legitimate request; and, Mr. 
Chairman, I think we certainly need to do that.
    Mr. Price. It certainly is. I would hope that we have at 
least this morning communicated what the very top priorities 
are----
    Secretary Napolitano. Yes.
    Mr. Price [continuing]. And the ones that really do relate 
quite directly to decisions we have to make in a fairly short 
order.
    Secretary Napolitano. And we will prioritize those.
    Mr. Price. As you well know, many of those reports are one- 
or two-page affairs. They are by no means all equivalent or 
similar in scope.
    Mr. Rogers. But when we put these in bill language, as 
these are, these are not just reports.
    Secretary Napolitano. Message conveyed and message 
understood.
    Mr. Price. These are statutory expenditure plans. That is a 
different order of importance.
    Mr. Rogers. That is the law.
    Mr. Price. As I think we all do understand.
    Mr. Rogers. Mr. Chairman, in closing, let me compliment the 
Secretary for a change here.
    Secretary Napolitano. Is there anybody still in the room?
    Mr. Rogers. I want to thank the Secretary especially for 
the FEMA help that was given to Kentucky to recover from a very 
severe ice storm down there last year and floods. FEMA did a 
great job, and I want to publicly say thanks.
    Mr. Price. Thank you.
    Mr. Mollohan.

                       INFRASTRUCTURE PROTECTION

    Mr. Mollohan. Thank you, Mr. Chairman.
    Madam Secretary, through your Office of Infrastructure 
Protection, you train State and local governments, and the 
private sector in risk management. Could you comment on that 
and what emphasis you think that needs to be given and how 
important that is?
    Secretary Napolitano. Yes. It is actually one of the 
little-known but very important parts of the Department in the 
sense of a lot of homeland security is State- and local-based, 
and you can't have the expertise in Washington, D.C. It has to 
be out in our communities. And that is part and parcel to a 
number of things that we are doing to spread that--what we call 
the homeland security enterprise expertise outside of the 
Beltway.
    Mr. Mollohan. The Department--am I correct in my reading of 
your request, that you are requesting a reduction of funding of 
that activity?
    Secretary Napolitano. Yes.
    Mr. Mollohan. Could you explain that in light of your 
acknowledgement of the importance of the program?
    Secretary Napolitano. Well, it is important. On the other 
hand, in a budget time when difficult decisions need to be made 
and when there has already been a significant number of people 
that have been trained, that seemed the place where we could 
reduce.
    Mr. Mollohan. Well, I would like for you to talk about that 
a little more substantively. If we are going to have an 
integrated system from the State and local level right up to 
the top, that implies knowledge and capability and synthesizing 
from the local level right up to the top. And that has to be 
seamless, does it not? And when you say a lot of that training 
has occurred, I can imagine that training actually never gets 
finished because of the nature of the system and the continual 
change in personnel up and down the line.
    Secretary Napolitano. Well, as I mentioned, Representative, 
I come from a State background. I can appreciate that both as a 
Governor and a former Attorney General. That is something that 
we can work on with the committee.
    Mr. Mollohan. With regard to the bombing prevention 
activity, you have stated that one of the most serious threats 
to our homeland is the threat of an attack via an improvised 
explosive device. And keeping in mind the recent testimony of 
our intelligence experts were over in our companion body, IEDs 
are obviously very serious threats to the homeland. I am 
interested in why the Department of Homeland Security would 
request a decrease in funding for the Office of Bombing 
Prevention. It seems like an odd place to cut.
    Secretary Napolitano. Well, there are some activities of 
the Department that are spread in other places as well. So, for 
example, bombing prevention also involves I&A, intel and 
analysis. It involves greater coordination with State and 
locals. We have increased fusion centers across the country to 
help deal with these things at the local level. So I think that 
you can't, in some of these areas, look at one budget line in 
isolation from other efforts.
    Mr. Mollohan. Well, following up this testimony in both of 
these areas, I would like to explore with Department experts 
these cuts and see what the impacts are and see how they impact 
the other law enforcement agencies with which you work.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Let me indicate to Members--and I think there are three 
remaining to question in this last round--we do need to clear 
this room very soon after 12:30 for Secretary Clinton and 
another hearing. So I am going to impose a 4-minute rule, and I 
hope that we can get through this final round very efficiently.
    With that, Ms. Roybal-Allard.
    Ms. Roybal-Allard. First of all, I want to go back to my 
previous question with regard to detainees. I just wanted to 
mention that, in a meeting with Mr. Morton, he is aware of the 
ICE requirement that the headquarters has to approve every 
treatment and the fact that the detention medical staff does 
have this misunderstanding. So I hope that you will look at 
that and expedite any changes that need to be taken to prevent 
what has been happening there.
    Also, if you could submit a timeline for the completion of 
the process to improve detainee medical care, I would 
appreciate that.
    [The information follows:]

    DHS is committed to providing sound medical care to detainees. 
Senior level officials from within the Department and the Bureau of 
Prisons have been detailed to Immigration and Customs Enforcement (ICE) 
to help conduct a systematic review of how resources provided by the 
Division of Immigration Health Services (DIHS) are used and maximized.
    ICE has three projects underway:
    1. Medical Classification Process: DHS is developing a new medical 
classification process to help medical providers immediately determine 
the detainee's unique medical or mental health needs, which will also 
inform the placement and housing decisions of the detainee. This new 
classification process will be piloted in April 2010 with nationwide 
adoption planned in September 2010.
    2. Treatment Authorization Request (TAR): DHS has modified the 
process to authorize treatment requests, eliminating delays in the 
delivery of medical services. The modified TAR process will be 
implemented by December 2010. DHS is also improving the covered 
services package--the list of all the health care that detainees are 
eligible to receive. Finally, DHS is moving towards National Commission 
on Correctional Health Care accreditation. This process will begin in 
December 2010.
    3. Performance Based National Detention Standards (PBNDS): DHS is 
currently revising the PBNDS--standards which will reflect the 
conditions appropriate for various detainee populations. The PBNDS are 
undergoing final review. As part of the revised standards, DHS has 
developed women-specific medical standards and enhanced the Medical 
Care, Admission and Release, Significant Self Harm-Suicide Prevention 
and Intervention, Hunger Strikes, and the Terminal Illness standards.

                           IMMIGRATION REFORM

    Also, President Obama has tapped you to head his Task Force 
on Immigration Reform, and I have been very encouraged by many 
of the public statements that you have made, but I would also 
like you to submit some kind of an update on what kind of 
progress that task force is making with regards to 
comprehensive immigration reform.
    [The information follows:]

    The President's commitment to fixing our immigration system remains 
unwavering. The President has maintained that only a ``complete 
solution'' can fix the U.S. immigration system and such reform must 
continue to strengthen enforcement on our borders, crack down on 
employers who exploit undocumented workers to undercut American 
workers, and also resolve the status of the 11 million people who are 
undocumented. These individuals will need to come forward to register, 
be screened, pay a penalty for breaking the law and meet other 
obligations such as paying taxes and learning English to earn legal 
status and get on a path to citizenship. The President has told 
Congressional leaders of both parties that if they can fashion a plan 
to deal with these problems, he is eager to work with them to get it 
done.
    In support of this goal, the President in June 2009 named 
Department of Homeland Security (DHS) Secretary Napolitano as the 
Administration lead working with Congress and other stakeholders on the 
issues involved in immigration reform legislation. Since then, 
Secretary Napolitano and other DHS principals have had dozens of 
meetings with Members of Congress; participated in over 40 roundtable 
discussions and listening sessions across the United States; and held 
meetings with over 1,000 different immigration stakeholders. Other 
members of the Cabinet, including Secretaries Salazar, Solis, Locke, 
and Vilsack, and Attorney General Holder, are also providing insights 
into key components of reform.
    The Administration's coordinated, interagency effort has led to the 
establishment of several interagency policy workgroups to refine and 
elaborate on the President's guiding principles for immigration reform. 
In addition, the Administration has worked to provide technical 
assistance on legislative language to Members of Congress.
    DHS and its interagency partners will continue to work toward the 
enactment of immigration reform over the coming months and stand ready 
to assist Congress in that effort wherever possible.

                           AVIATION SECURITY

    Earlier, in a question by the Chairman, he was asking you 
about aviation security, and there was discussion about using 
the new technologies at the airport checkpoints. But you know 
enhancing the security of our commercial aviation certainly is 
going to require more than just, you know, additional scanning 
machines. In addition to the new technology, what is your 
overall aviation security strategy?
    And, also, I have also heard some criticism about the 
smaller budget for DHS science and technology, but I also 
understand that you have a plan to make this money go further 
in fiscal year 2011. So could you explain how your budget 
addresses the Department's research and development needs as 
well?
    Secretary Napolitano. Well, on aviation security--let me 
try to answer quickly, because I know that you have to clear 
the room. But the scanners are just one part. It is behavior 
detection officers. It is explosion detection equipment. It's 
trained canine teams. It is a layered approach. The principle 
being that if one fails, maybe another one will pick up. That 
is in addition to whatever prior passenger information or intel 
that we have about somebody traveling through the air 
environment. And that is all I think encompassed within the 
budget.
    Your second question was--I am sorry, Congresswoman.
    Ms. Roybal-Allard. The second had to do with the fact that 
you have a smaller budget for----
    Secretary Napolitano. Oh, S&T, yes. I think we have some 
unobligated balances from prior years that we can better 
employ. The Undersecretary of S&T has actually been confirmed. 
We actually do have a leader there, and she now has taken hold 
of that.
    Mr. Price. Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman.
    I have been trying to build collaboratives because I think 
that is the growth of government, not just more silos. And you 
have with you the Center for Homeland Defense and Security at 
the Naval Postgraduate School. Outside of that, there is a 
number cybersecurity entities in the region, in the county, and 
most of them are all related to the Department of Defense. I am 
not sure that our hometown Leon Panetta even realized how much 
cybersecurity capacity we have there.
    What I would like to ask you to do is to have somebody in 
your Department look at how we might collaborate more with the 
Center for Homeland Defense and Security with the ability that 
we have to support and identify management for single agency 
use and for shared enterprises.
    We have the ability to assist in cyberpolicy, information 
security, and high assurance networks. We can test and develop 
cybersecurity technologies and checklists. We can provide means 
to guard against insider threats. We can maintain records of 
designated cybersecurity personnel. We can identify knowledge 
and skill requirements for cybersecurity personnel. We can make 
available the secure operation center for streamlining efforts 
for creating synergy and cross-agency collaboration, and we can 
leverage our information technology with business efficiency 
teams because a lot of the technology of Silicon Valley is 
tested there before it is purchased by our security entities in 
the United States.
    So since you are there and giving these master's degrees to 
all of these wonderful people, maybe we can build also the 
capacity to increase our cybersecurity education. And I will 
give you a little more background about it and put together 
this thing called Team Monterey. I would just like to get 
Homeland Security involved in Team Monterey. You already are 
with the Coast Guard but the other entities.
    Secretary Napolitano. There is already a Coast Guard, I 
think, base out there.
    Mr. Farr. Yeah, it has 38 personnel.
    Secretary Napolitano. Indeed. So we would be happy to look 
at that, Congressman.
    Mr. Farr. Thank you.
    Mr. Price. Mr. Rodriguez.

                             AGENT HOUSING

    Mr. Rodriguez. Madam Secretary, thank you very much for 
being here; and let me also indicate that there is a very 
serious problem in the area of housing.
    I was just in Sanderson, Texas, where we have beefed up on 
Border Patrol. There was a family there that indicated that 
there was a family of Border Patrol people living inside their 
homes because they didn't have--I was just wondering, in terms 
of housing, how do we beef up in those rural communities 
throughout the region in terms of housing for our staff.
    Secretary Napolitano. You know, for the acting head of the 
CBP, David Aguilar, this has been a key issue and particularly 
in certain rural parts along the border where we have added so 
many Border Patrol so quickly. They do have a housing plan that 
they are working on, but we know that it is just--when you add 
a lot of agents, surge agents, in a way, into a rural area 
where you may not even have a lot of contractors available to 
build--there is not a lot of housing stock, that is an issue 
for us.
    Mr. Rodriguez. Thank you. I would hope that you would 
continue to look at that, because I represent 800 miles along 
the border, and we have a major problem in terms of housing for 
our staff.
    In addition, you had a program where you took people coming 
in illegally from Arizona and then taking them to my district 
in Presidio and taking them across through there. There were a 
couple of buses a day that were coming through there. Do you 
have any reports on that program?
    Secretary Napolitano. I have had a report, not recently, 
however, but I will ask Assistant Secretary Morton to get back 
to you on that.
    [The information follows:]

    This is a CBP program not an ICE program. Immediately 
following Secretary Napolitano's hearing before the House 
Appropriations Homeland Security Subcommittee on the FY 2011 
DHS budget request, CBP Office of Congressional Affairs (OCA) 
discussed this issue with the Office of Rep. Ciro Rodriguez. 
CBP OCA informed the Congressman's staff that the program is 
currently being reassessed. Due to the law enforcement 
sensitive nature of the program CBP cannot release further 
details for the record.

    Mr. Rodriguez. Okay. Because you have a good number of 
buses going there on a daily basis. I think it is expired, but 
I am wondering, you know, in terms of your plans for the future 
on that one, if you can get back with me on that.
    And then, finally, I just want to thank you in terms of 
your efforts on cybersecurity. There is a real need in that 
area not only in terms of during natural disasters. I recall 
Congressman Gene Taylor telling me that during Katrina he 
couldn't get anything from the bank, and he didn't have any 
cash, and thank God they recognized him and he got $200. 
Otherwise he couldn't. So cyber is essential. There was no way 
of communicating.
    We just had a breakdown in both Merrick and Val Verde right 
on the border, and we couldn't communicate at all, and credit 
cards couldn't be used, and there was supposedly some kind of 
an accident that occurred.
    But that is one of the areas where we are being hit 
directly. I know that we need to continue moving on that, and I 
was wondering whether we have any pilot programs to kind of 
respond during those times of natural disaster as it deals with 
cyber.
    Secretary Napolitano. Yes. The FEMA Director is actually 
looking at how we make sure that those types of networks are 
restored very quickly and interoperability, and has been 
working with local FEMA directors on that issue, yes.
    Mr. Rodriguez. Thank you very much.
    Mr. Price. Thank you.
    And with that, Madam Secretary, we will wrap up this 
hearing. We are going to reconvene at 2:00 to deal with 
biosurveillance, as you probably know, as we move on to our 
agency hearings. But we do thank you for your service and for 
your responsive testimony here this morning. We look forward to 
working with you through this budget season.
    Secretary Napolitano. Thank you very much, Mr. Chairman.

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                                            Tuesday, March 2, 2010.

                       MAJOR SYSTEMS ACQUISITION

                               WITNESSES

JANE HOLL LUTE, DEPUTY SECRETARY
ELAINE DUKE, UNDERSECRETARY FOR MANAGEMENT

               Opening Statement by Chairman David Price

    Mr. Price. The Subcommittee will come to order.
    Good afternoon, everyone.
    We are pleased to welcome Deputy Secretary Jane Holl Lute 
before this Subcommittee to discuss how the Department is 
managing its major systems acquisitions.
    This is her first appearance before us. It is somewhat like 
learning to swim by being thrown into the deep end of the pool, 
I guess, with all the details we are going to be getting into 
pretty quickly about these major acquisitions, but we are sure 
you are up to the task, and we look forward to hearing from 
you.
    We also want to thank Under Secretary for Management Elaine 
Duke for being on hand as well to answer any questions that we 
may have on specific items.
    Thanks to the both of you for being here.
    Deputy Secretary Lute brings to the Department a formidable 
resume from her career in the U.S. Army, as a member of the 
National Security Council staff, as U.N. Assistant Secretary 
General and in the private sector. Her broad experience as a 
leader in organizing responses to international crises, 
military intervention, and peacekeeping operations will come in 
handy as she helps manage a sometimes unwieldy department.
    Among the major tasks she faces is putting DHS major 
systems acquisitions on track and keeping them there.
    The Department has struggled from its inception to manage 
major acquisition projects effectively. Congress chose to 
construct a large bureaucracy from scratch to manage and 
operate components that had been relocated from other 
departments at a time when securing the homeland had to be done 
both right and right away. It was inevitable that not 
everything would work smoothly in the beginning, but that was 7 
years ago. Americans expect that a maturing agency should have 
addressed these issues, to ensure the taxpayers' dollars are 
well spent; that planning, design, procurement and deployment 
of systems directly supports the Department's mission 
priorities; and that deliverables arrive on time and on budget.
    To be blunt, there has been great dismay at how some of the 
Department's major acquisition programs have been handled. 
While sometimes we can say enough is enough and pull the plug 
on projects that go off course, such as the Coast Guard's 
original composite-hulled Fast Response Cutter or its Vertical 
Unmanned Aerial System, we often do not have that luxury.
    Today we focus on four acquisition programs: an 
experimental border security system for Customs and Border 
Protection; a major capital asset for the Coast Guard; a 
consolidated financial management system for the entire 
Department; and a long-running project to modernize trade and 
customs processes. All of these programs have drawn public 
criticism for various failings, whether they have been for cost 
growth or charges of unfair contracting, delays, failure to 
define requirements or objectives, or simply not meeting agency 
needs.
    What we hope to learn today is how the Department is 
repairing the acquisition processes for these major systems and 
to assess whether, despite initial problems, these acquisitions 
are now on track.
    The Secure Border Initiative was launched in 2005 to 
leverage technology to expand our capacity to monitor and 
protect our borders, making our fencing and Border Patrol 
agents more effective. Four years ago, DHS held an industry day 
to show how our first case study, the Secure Border Initiative 
Network, would, ``integrate multiple state-of-the-art systems 
and traditional security infrastructure into a single 
comprehensive border security suite for the Department.''
    It has been a bumpy road for SBInet. Initial plans deferred 
technology investment in favor of placing tactical fencing on 
670 miles of Southwest border. The initial 28-mile pilot 
project was late and failed to live up to its billing. Finally, 
original SBInet plans, which called for technology to be 
deployed in Tucson and Yuma sectors by the end of fiscal year 
2008 and to the entire Southwest border by fiscal year 2011, 
have been significantly delayed.
    Block 1, the first operational deployment of SBInet, will 
not be formally tested until later this year, with completion 
in 2013, and no decisions for deployment beyond Tucson until 
the 2011 Acquisition Review Board meeting. No funding is 
requested for deployment beyond Tucson or Yuma or for block 2, 
the next SBI deployment.
    Therefore, with only deployment to about 50 miles of the 
border scheduled, it appears that SBINet deployment will take 
many more years.
    Our second case study, the Coast Guard's National Security 
Cutter, was a component of Deepwater, the much maligned 
recapitalization initiative for the Coast Guard. The goal of 
the National Security Cutter was to provide a more capable 
replacement for the aging fleet of High-Endurance Cutters, one 
that could operate in conjunction with Navy surface ships, 
provide command-and-control capabilities, and even serve as a 
mother ship for unmanned reconnaissance drones.
    The Coast Guard now has two of these vessels, but problems 
were identified with the design that would shorten the service 
life of these ships. Costs have escalated significantly, and 
the production time table has slipped.
    While supporters of the program say the vessels are 
extremely capable, critics have charged that the Deepwater 
acquisition process was more focused on the contractors 
designing a profitable ship instead of giving the Coast Guard 
what it needed to accomplish its mission. The budget request 
before this Subcommittee requests $538 million for the fifth in 
this line of ships, which, if approved, will bring the total 
investment of the program to nearly $3 billion.
    The Transformation and Systems Consolidation Project, or 
TASC for short, is our third case study, an ambitious project 
aimed at providing unified financial and asset management for 
the Department of Homeland Security. From its inception, the 
Department has struggled to demonstrate transparency and offer 
timely reporting on its finances. At OMB's direction, DHS 
attempted to develop an in-house financial management system 
called eMerge2. This was beyond the Department's capabilities, 
so they scrapped the program and sought the commercially 
available solution to their problem.
    The contracting process has resulted in lawsuits charging a 
lack of fair competition, followed by changes in further 
lawsuits. The challenge of getting the right system to 
implement across the entire Department with its unique mix of 
old and new agencies would be difficult enough without such 
obstacles.
    While the contract has not been awarded yet to begin this 
work, TASC is currently estimated to cost $450 million with 
lifecycle costs of over $1 billion.
    Last but not least on today's list is ACE, the Automated 
Commercial Environment. ACE has been on the drawing board for 
Customs and now CBP for over a decade. When I sat on the former 
Treasury Appropriations Subcommittee, ACE was touted as the way 
to move Customs past its paper-bound, 19th century procedures 
and 1970s vintage computer systems and to implement the 1994 
Customs Modernization Act. It was to be the platform for 
automating all major agency functions, to include import and 
export systems, finances, personnel, enforcement systems and 
procurement.
    Over the past decade, Congress has appropriated $2.9 
billion to develop and deploy ACE, including $123 million for 
the related International Trade Data System, an initiative to 
consolidate various Federal trade data reporting and 
statistical requirements into one virtual window. Congress has 
required expenditure plans for the project along the way to 
ensure that best practices were followed in designing and 
procuring the system.
    There have been numerous GAO studies on the management of 
ACE, and OMB reviewed the program in 2006. It awarded it three 
stars, its highest score, for program performance and 
effectiveness.
    Given that the initiative has been studied and restudied 
time and time again and that there are still major functions 
yet to be delivered by the program, I am eager to understand 
why the budget seeks to scale the program back in 2011. To put 
it another way, it appears that you would like to halt the 
development of new products, take a step back and substantially 
redefine the requirements and timeline of the Automated 
Commercial Environment.
    We thought this type of review had been completed long ago, 
so we anticipate learning about your plan for getting ACE and 
ITDS back on track. I certainly approach this issue with an 
open mind, so I am seeking your assistance in determining the 
most prudent course to take.
    So, Madam Deputy Secretary, we look forward to hearing from 
you, receiving your perspective on the problems I have 
outlined. Your full statement, of course, will be entered into 
the record, so I ask you to limit your oral remarks to a 5-
minute presentation, after which, we will have questions.
    Before we begin, let me recognize our distinguished ranking 
minority member, Hal Rogers, for any comments he wishes to 
make.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
           Opening Statement by Ranking Member Harold Rogers

    Mr. Rogers. Thank you, Mr. Chairman.
    Welcome to both of you to the table.
    Madam Secretary, this is your first visit with us, and we 
hope it is a good one for you and us.
    We are pleased that Elaine Duke is with us today, 
undersecretary for management. I understand she is due to 
retire next month after 28 years of government service.
    You do not look that old.
    Ms. Duke. Thank you, thank you, Mr. Rogers.
    Mr. Rogers. But thank you for your service to your country.
    Madam Secretary, while your years of military and legal 
experience have surely prepared you for your duties as DHS's 
deputy secretary, it is your expertise in peacekeeping and 
conflict resolution that perhaps makes you ideally suited for 
overseeing the challenge of managing DHS's major acquisitions. 
From Deepwater to SBInet to the multitude of IT systems across 
the Department, acquisition programs at DHS have unfortunately 
encountered more setbacks than success.
    However, what gets lost in all the GAO and IG reports on 
cost and schedule overruns is the fact that these acquisition 
programs serve the vital purpose of equipping and supporting 
our brave security professionals in the field who are charged 
with keeping us safe and secure. In short, these acquisitions 
programs matter. We simply cannot achieve lasting success in 
Homeland Security without modern tools.
    But that fact does not eliminate the need for stewardship 
of the taxpayers' precious dollars.
    In my view, we should spend every dollar that is necessary 
on Homeland Security, but not a penny more. So we must get our 
major acquisitions right. We must find a way to expeditiously 
obtain and deploy the tools needed to meet our security 
requirements without breaking the bank or breaching the 
public's trust.
    But as I look at DHS's fiscal year 2011 budget request, I 
see less traction toward this goal and more glaring questions 
and inconsistencies. First, the budget claims the substantial 
cuts to Coast Guard operations are necessary to ``make room'' 
for investments in new acquisitions, but the budget pushes many 
critical investments to future years, while also decreasing 
Coast Guard acquisitions by $155 million, 10 percent.
    What this means in real terms for fiscal year 2011 and 
perhaps a few years following is that fewer drugs will be 
seized; fewer drug smugglers will be interdicted; fewer 
migrants will be saved; fewer ports and miles of coast line 
will be protected.
    Secondly, on SBInet, the budget proposes a massive cut of 
$225 million, 28 percent plus below fiscal year 2010. Now I 
know this program has a history of failures and delays, but 
SBInet's operation was supposed to coincide with the deployment 
of 20,000 Border Patrol agents and robust air support. Sadly, 
the budget is proposing to cut all elements of border security 
operations at a time when a murderous drug war is raging along 
that border.
    These proposed reductions to Deepwater and SBInet might 
make sense if we had the expenditure plans as required by law. 
But we do not have those plans, and they are well overdue.
    And the record will show that, in the past, when we have 
been denied those expenditure plans, we simply do not 
appropriate, or cut them severely pending the presentation to 
us of the plans for expenditures. We have to have that; that is 
what we do for a living, if you will.
    And so due to this failure to comply with the law, and this 
requirement is in the law; it is in the bill language for the 
last 4 years. So due to the failure to comply with the law, I 
do not see how the Subcommittee can make informed decisions on 
these proposed cuts or the direction of these critical 
programs.
    Finally, the budget request is proposing a sizable $24 
million initiative to hire an additional 150 acquisition 
professionals. It is unclear what outcomes this costly 
initiative will actually achieve other than to simply hire more 
bureaucrats in the Department's administrative offices. And 
this proposal seems to overlook the fact that this Subcommittee 
has consistently and rather responsibly increased acquisition 
management staffing at DHS as needed over the past few years.
    Madam Secretary, in the wake of a terrorist attack, with 
mounting threats at every turn and when fiscal discipline is so 
badly needed, how can Congress even contemplate sweeping 
bureaucratic increases, prolonged delivery schedules and severe 
cuts to frontline operations? Furthermore, how can you expect 
the Subcommittee to accept the budget's far-fetched claims when 
the administration has so badly failed to comply with mandated 
planning and oversight requirements?
    Mr. Chairman, from where I sit, questionable cuts to 
essential security operations, vague promises for the future, 
and the failure to plan and comply with the law do not meet 
this Subcommittee's standards for adequate budgeting. So to say 
I have a few questions on how the Department is approaching its 
major acquisitions is a gross understatement.
    Secretary Lute, it is my understanding that you are taking 
a very deliberate and aggressive stance toward the management 
of the Department's major systems acquisitions, so I sincerely 
hope you can help us make sense of the budget's questionable 
proposals. As you well know, far too much is at stake for us to 
fail.
    Thank you, Mr. Chairman.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Price. Thank you.
    Madam Secretary, please proceed.

              Statement by Deputy Secretary Jane Holl Lute

    Ms. Lute. Mr. Chairman, Ranking Member Rogers, thank you 
and the other members of the Subcommittee very much for this 
opportunity to appear before you, particularly to appear with 
my colleague Elaine Duke, who is retiring and in whom we have 
placed enormous trust and learned a great deal during the past 
year. She is much admired by her colleagues in the Department 
and is a mainstay of our operations across the board. Thank you 
for this opportunity to recognize her.
    It is my hope to provide you today with some insight into 
how the Secretary and I are thinking about implementing 
procedural and systemic reforms and oversight in the 
acquisition process.
    Mr. Chairman, you mentioned that I was thrown into the deep 
end of the pool. In many ways, I was born in the deep end of 
the pool. I am the middle of seven kids, God rest my parents' 
souls, and was born with very much a sense of responsibility 
and a commitment to public service. And from my time in 
peacekeeping, from my time in the United States Army and from 
my time in Homeland Security, people tell me I am developing a 
bit of a specialty in large, far-flung struggling 
bureaucracies. And it is a privilege to be in the Department 
today.
    As this Subcommittee knows well, the Department's major 
program portfolio encompasses 67 programs with an aggregate 
cost of $232 billion. By any measure, this is a lot of money. 
The Secretary and I take our responsibility to ensure proper 
execution of this portfolio very seriously. When you speak to 
the Secretary, you get a view of the Department's work, perhaps 
from the flagpole. When you speak to me, you will get a view of 
the Department's work from the motor pool. And when you speak 
to Elaine Duke, you will get a view of the Department's work 
from the wash rack. We will give you a very fulsome 
understanding of how the Department is trying to live up to the 
responsibilities that have been entrusted to it by the American 
people.
    Allow me please to say just a few words about the essential 
elements of our acquisition process; that is to say, the 
policies, the procedures and the people that we have in place 
to ensure that the operators of this Department have what they 
need and have what they need when they need it because this is, 
as Ranking Member Rogers has said, an operating department. And 
it is an operation that we take very seriously.
    And as you know, if you are an operator, and I am one, that 
the most important operating factors you have are your people 
and, for us in acquisition, recognizing the importance of 
getting the right people, as this Committee not only knows but 
has helped us work through over the years. It is important that 
we establish a core of acquisition experts at every key 
position within the Department of Homeland Security. These 
professionals, both at headquarters and in the components, 
provide valuable improvements in program oversight, in-place 
expert support and other key aspects of logistics, engineering, 
testing and evaluation for the Department's programs.
    But we also recognize that we still have a shortage of 
acquisition professionals within the Department, and so we have 
developed and implemented an Acquisition Professional Career 
Program, which has drawn in 109 new entry level acquisition 
positions. We are on track to grow this program to 300 by the 
end of Fiscal Year 2011.
    Additionally, we have established a formal acquisition 
certification program for contracting and program management 
and have created a partnership agreement with the Department of 
Defense (DOD) to allow our workforce to take advantage of 
existing DOD best practice and training programs and developing 
opportunities as well.
    Extending beyond our people, we have been looking 
intensively at our policies and our processes. Why is this 
important? As this Committee well knows, we need to have solid 
policies and processes in place for two key reasons. The first 
key reason is that we can replicate success of a reliable way, 
and the second is that we can avoid encountering every problem 
as if for the first time.
    One of the very first steps we took in establishing a 
robust oversight organization was to expand the competencies 
and capabilities of our Procurement Office in the Department, 
moving it from procurement-focused, emphasizing contracting and 
the contracting discipline, to an acquisition orientation and 
acquisition focus that emphasizes the synergies among multiple 
disciplines. Again, this is essential for an operating 
organization because, whether you are in the field or anywhere 
else, it is impossible to operate if you do not have what you 
need or if you do not have what you need when you need it. And 
it is for this purpose that an acquisition process is designed 
and built.
    We established the Acquisition and Program Management 
Division to develop, implement and oversee an acquisition 
governance process. And we have established the Cost Analysis 
Division to provide independent assessments of life-cycle cost 
estimates for level 1 programs at major decision points, in 
part because we know that the acquisition process covers the 
entire life-cycle of a commodity, program or service. We 
established the Office of Test and Evaluation to provide 
independent assessments of program testing evaluation plans and 
of actual test results.
    And finally, I would note that, in our effort to improve 
departmental oversight, we have completed a comprehensive 
revision of our Acquisition Review Process. The previous 
department acquisition governance process was modeled after the 
DoD, but our acquisitions are generally focused on service and 
information technologies, not entirely on development of 
hardware efforts. This revised Acquisition Review Process is 
tailored to match our actual situation.
    Looking forward, Mr. Chairman, several steps are 
highlighted in my written testimony. However, I think it is 
important to note that these reforms and improvements, while 
important, are really in alignment with the broader strategy 
and undertaking we have in the Department of Homeland Security.
    At the instruction of Congress, we have produced and 
recently released the Quadrennial Homeland Security Review 
(QHSR). This document represents the first strategic look at 
the enterprise of Homeland Security because it does take an 
enterprise to keep this homeland secure. It articulates a 
vision for Homeland Security, that is to say, a safe, secure 
and resilient place where the American way of life can thrive 
and we can live our lives protected from terrorist threats or 
any others who would do us harm.
    In the service of this vision, we have articulated five 
mission area sets: preventing terrorist attacks; securing our 
borders; enforcing our immigration rules; ensuring resilience 
and the ability to respond quickly from disasters; and 
establishing a new mission in the area of cyber security. For 
each of these missions, the QHSR lays out an approach, goals 
and objectives to achieve the goals that we know will help 
ensure that these missions are achieved and that this vision of 
a secure homeland is itself achieved as well.
    Following up the QHSR, we are working on a bottom-up review 
of the Department to look comprehensively at how we are 
organized, whether we are organized optimally and effectively, 
not only with respect to personnel but also with respect to 
policy and processes as well.
    So I do not view reform of our acquisition process as 
purely a management problem or a problem that happens outside 
the broader context of the purpose and function of the 
Department of Homeland Security.
    Secretary Napolitano and I recognize that improving our 
acquisition process is, as you say, Mr. Chairman, and as the 
ranking member has said, fundamental to our Department's 
ability to make progress on the strategic goals that we have 
articulated in the QHSR. Our work on acquisition reform is 
appropriately viewed as part of this overall effort to mature 
the strategic orientation of the Department of Homeland 
Security.
    I thank you, Mr. Chairman, for your interest in and the 
continued support of this Committee for the acquisition program 
and for this opportunity to appear before you today.
    At this point, I stand ready, with the help of Under 
Secretary Duke, to answer any questions you may have.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                 CHANGES TO ACQUISITION REVIEW PROCESS

    Mr. Price. All right, thank you very much. We will proceed 
with questions.
    Let me begin with one that takes as its point of departure 
your comments on the second page of your written testimony, 
your indication that comprehensive review of the Acquisition 
Review Process has taken place. The changes that resulted from 
this review geared the process, to use your terms, for 
acquisition of service and information technology programs 
rather than developmental hardware acquisition programs.
    Can you provide more detail on how the process has changed, 
how the new process differs from the old one? And in orienting 
the processes, you said, more towards supporting services and 
IT acquisition programs, what do these changes mean for major 
capital acquisitions, like the National Security Cutter, or the 
Deepwater programs and for developmental efforts, like the 
SBInet and ACE?
    Ms. Lute. Thank you, Mr. Chairman.
    The reform of the acquisition process began before January 
of last year. A number of elements were being put in place to 
establish the kind of competent control over the acquisition 
process the Department needed.
    When you are in a standup of a relatively new department, 
as we are, you live in your past, your present and your future 
all at the same time. You have to overcome the legacy 
tendencies of the past. You have to operate in the current 
environment, and you have to plan for the future.
    The comprehensive review was designed to look at every 
aspect of the programs that we had underway, all of our level 1 
programs, equally our level 2 and level 3. This resulted in a 
policy directive being signed in January of this year that 
established, for the first time in the Department, a 
standardized acquisition life-cycle process where needs 
requirements were articulated and defined. Solution sets were 
analyzed and selected, where we went through the process of 
procuring or obtaining the solution that was selected. And we 
followed through with the deployment of the support onward to 
disposition. We had not had that before.
    We have laid out overall management policies regarding 
every step of this process, generating a better handle on the 
programs' overall performance and flow. And we have introduced 
senior decision-making at key points at each step along the way 
of the acquisition process.
    I, along with Under Secretary Duke, have--I think 
``aggressive'' was the term that Ranking Member Rogers used--I 
have been aggressive in establishing senior leader 
accountability and responsibility for every step in the 
acquisition process. I have myself 18 Acquisition Review 
Boards. Under Secretary Duke has 19 in just about a year's 
worth of time on station. And we have linked these processes as 
well to the program review boards and then the resource 
allocation decisions.
    As we have said, in the Department, we recognize that 
service and IT acquisitions are major dollar investments that 
we have to get a better handle on. We do have major capital 
programs, as you mentioned, like SBInet and like the National 
Security Cutter. Those programs are in train and underway. And 
we believe that this system, resulting from the review, will 
serve those as well because those programs will take their 
place in this schema of the acquisition life-cycle that I 
mentioned.
    Mr. Price. All right, you are getting at what I was trying 
to understand more fully. You suggest in your testimony that 
the previous acquisition governance process was modeled on DOD, 
on the Defense Department, and targeted developmental hardware 
acquisition programs. But you are suggesting that, because DHS 
acquisition is generally focused on service and information 
technology, you have now undertaken these revisions. I gather 
this is an adaptation, in other words, to the bulk of the 
acquisition efforts that DHS has underway and is a departure 
from an earlier modeling on DOD that you concluded was not 
entirely appropriate. I want to really understand what you are 
saying here, though, and what the thrust of it is for these 
major programs.
    Ms. Lute. Essentially, Mr. Chairman, the DOD approach, as I 
have come to understand it, and the Department of Homeland 
Security and the developmental approach to acquisition is to 
identify requirements that need to be filled--operational 
requirements in the field--and then to work with industry to 
develop a technological solution. This very often requires a 
large capital investment over many years, novel to the solution 
of those requirements that exist in the field. Working 
interactively in that developmental process is a major function 
of the acquisition that we are doing.
    The Department has done some of that. We will continue to 
do some of that. But our entire acquisition process is focused 
more on identifying the requirements and needs that we have for 
systems and services support, and for the IT systems that 
undergird those as well, and less on novel technological 
solutions requiring major capital investments to secure over 
time.
    Mr. Price. Thank you.
    We will return to some of the specifics of these four 
cases, but let me ask Mr. Rogers for his questions.

                        COAST GUARD BUDGET CUTS

    Mr. Rogers. Thank you, Mr. Chairman.
    Talking about the Coast Guard, the budget is proposing to 
cut 1,112 military billets and decommissioning key assets, 
including four of the 12 High-Endurance Cutters; four fixed-
wing aircraft; five H-65 helicopters; five of the 13 Maritime 
Safety and Security Teams, including those in New York, New 
Orleans, and Anchorage, and so forth. And you claim that these 
cuts to Coast Guard's operational expenses and decommissioning 
of assets will ``make room for acquisitions in the future.''
    But in Congressional Quarterly yesterday, the Commandant of 
the Coast Guard, Admiral Allen, says these cuts will have a 
real impact, making the Coast Guard less capable in fiscal year 
2011 than it has been in fiscal year 2010, and disagreeing with 
the Secretary on how important these cuts are.
    Your budget claims that you are cutting Coast Guard 
operations and acquisitions to make room for acquisitions in 
the future. Well, I assume you are talking about the National 
Security Cutter, the Maritime Patrol Aircraft, and the unmanned 
aerial system and H-65 helicopters.
    However, that does not stand up to logic, because in the 
budget for the National Security Cutter, for example, you 
include money only for NSC number five. Unlike previous years, 
the budget does not include funding for the long-lead materials 
for the following NSC cutter number six. And I want to 
recollect that eight NSC cutters are planned to replace the 12 
378-foot High-Endurance Cutters. And since these long-lead 
materials can take up to a year to obtain, the planned delivery 
schedule of one cutter per year is unlikely to stay on track.
    Probable consequence of the budget proposal is the 
elongation of the delivery reschedule for number six, seven and 
eight of the NSCs, which will create that huge mission gap for 
the Coast Guard surface fleet over the next several years.
    Maritime Patrol Aircraft, you include $40 million for only 
one aircraft, no funding for spare parts. And by budgeting for 
only one Maritime Patrol Aircraft, the Guard is likely to pay a 
higher unit cost, since previous budgets have included funding 
for two to four MPAs as well as funds for spare parts. So the 
mission gap will grow there as well.
    Unmanned aerial systems and the H-65 helicopters: no 
funding for a cutter-based UAS; that is an essential and plan 
component of the National Security Cutter; and includes the 
unplanned deactivation of five of the H-65 helicopters.
    The bottom line claims that cuts to the Guard's budget are 
to allow for funding to be put toward acquisitions are simply 
unfounded, since the funding for the NSC, the aircraft and the 
unmanned aerial systems are either prolonged, diminished or 
nonexistent. In the meantime, the Coast Guard is crippled and 
at a time when we cannot afford it.
    What do you think?
    Ms. Lute. Congressman Rogers, what I would say is that the 
Coast Guard is ready and prepared to execute its missions.
    The Secretary and the Commandant have said publicly that 
the readiness of the Coast Guard is essential to the security 
of this homeland and to the other missions that it is asked to 
perform on behalf of the Nation.
    We are, in fact, undergoing the recapitalization and indeed 
a reprofiling of the Coast Guard fleet, and we are doing that 
systemically and comprehensively as well.
    There are a number of specific issues that we can address 
in detail. For example, there has been a change in policy with 
respect to splitting the long lead-time requests and the 
requests for builds. We are combining those, and so number six 
will have that come together.
    With the unmanned aerial vehicle (UAV), a seaborne aerial 
system, we are conducting joint testing with the Navy.
    But part of what you raise is an issue of great concern to 
me and one that I have been focused on and looking at very hard 
for the past year. And that is, how to get a solid multiyear 
commitment for recapitalization investments that can be 
sustained over time like DOD has? Part of that requires that we 
get our internal plumbing and wiring in the Department cleaned 
up and put together.
    It is not possible right now to speak about budget 
comparability; we do not have common budget alignment. It is 
not possible to speak about capability reinforcement; we do not 
have performance indicators and metrics that allow us to 
compare assets across the entire Department.
    Mr. Rogers. Let me interrupt you. It is fairly simple what 
I am asking; your budget says that you want to, you are making 
these cuts, substantial cuts, in both equipment and manpower, 
in order to fund investments in the new equipment that is 
coming on board, and yet, you do not include money for the new 
equipment coming on board. In the meantime, the Coast Guard is 
hurting for certain now on interdicting drugs, smugglers, the 
drug war on the border, the violence and not to mention the 
seagoing difficulties.
    Do you not agree that the cuts are now, but the investments 
are not there for the future in this budget request?
    Ms. Lute. What I would say to you is that I believe that 
the Coast Guard is ready and able to perform its missions and 
that the budget takes a realistic view of the asset 
requirements that currently exist and are projected in Fiscal 
Year 2011.
    Mr. Price. Mr. Farr.
    Mr. Rogers. Mr. Chairman, is my time up?
    Mr. Price. Yes.
    I am sorry, we will have a second and possibly a third 
round.
    Mr. Farr.

                    REDUCING RELIANCE ON CONTRACTORS

    Mr. Farr. Thank you very much, Mr. Chairman.
    I am rather new to this Committee, and I am just amazed at 
some of the things I have learned preparing for this hearing. 
One is that the acquisition budget for the Department is $332 
billion and that you have supervision over 67 major acquisition 
programs in the Department, but that the number of employees, 
the Department has 188,000 Federal employees, but you employ 
200,000 contractors, more than all the Federal force that works 
for the DHS, and that you're in the process of developing a 
professional career program, the APCP, that you have 190 entry 
positions now, and you want to grow to 9,300, is that correct? 
Is that math right? By the end of 2011.
    How much does that program cost to train the new 
acquisition professionals?
    Ms. Lute. We have asked for $24 million for acquisition 
professionals.
    Mr. Farr. And who provides the curriculum, is that a 
contracted-out curriculum, or do you do that in house?
    Ms. Lute. We are also working with the Department of 
Defense Acquisition University to leverage the university's 
expertise in training opportunities.
    Mr. Farr. But these will be in-house employees when they 
finish and they get certified as acquisition----
    Ms. Lute. For acquisition professionals within the 
Department, yes.
    Mr. Farr. Why has it taken so long? With 200,000 or more 
contractors than in-house employees, it seems like the fox is 
guarding the hen house.
    Ms. Lute. Congressman, when the Department was stood up, a 
premium was placed on establishing a rapid capacity to operate. 
And part of the solution for that was to rely on contractors 
and contracting services.
    Out of the number of contractors that you highlight, we 
have identified about 70,000 that we are looking at intensively 
in the professional ranks. A number of others, many thousands 
of others, provide building and custodial services and the 
kinds of contracting services that are common elsewhere in the 
Federal Government. We recognize, though, that this is a ratio 
that we want to get substantially down in order to consolidate 
and evolve the Department.
    Mr. Farr. So when you are working with DOD, this 
partnership you are having, is it essentially to get to that 
kind of professional capacity? I mean, how does the partnership 
with DOD get implemented?
    Ms. Lute. The under secretary may want to elaborate. But 
part of what we are trying to do through our certification 
program is to reach the point where we have only certified 
level 2 or level 3 program managers for level 1 and level 2 
acquisition programs. It requires a combination of education, 
training and experience that we validate in the Department and 
work with DOD.
    Mr. Farr. Does that parallel with what DOD has in its 
professional cadre of acquisition professionals?
    Ms. Lute. It is my understanding, yes.
    Mr. Farr. I represent the Naval Postgraduate School out in 
Monterrey, and DOD uses, that is a Masters, Ph.D. Program. And 
acquisition management is one of their training programs. DHS 
has a program there, but it is not that. Do you use assets like 
that for training?
    Ms. Lute. We do. Perhaps Under Secretary Duke can elaborate 
on some of the specific aspects of the DOD structure that we 
make extensive use of.
    Ms. Duke. We use the Naval Postgraduate School for some of 
our Homeland Security professionals. We have an ongoing 
partnership with them.
    We use Defense Acquisition Training for the basic training 
of our young people entering the workforce. And we use them 
because they had established curricula that basically meet our 
needs.
    Mr. Farr. So that is not what is going on in Naval 
Postgraduate School. Naval Postgraduate School is more firemen, 
police chiefs and others in their getting their Masters 
degrees.
    Ms. Duke. No, we are using them for Homeland Security 
employees, not specifically for acquisition.
    Mr. Farr. Okay. Today's Post has an article about you are 
planning to drop the Bush-era nuclear detectors. And it says, 
recent testing revealed that the consequences of these machines 
being deployed nationwide in 2007 as DNDO intended could have 
been disastrous, the GAO's director of natural resources 
environment said. How many of these machines that could have 
been disastrous are installed?
    [The information follows:]

    At this time there are no ASP detectors deployed in an 
operational capacity. There are 15 ASP detectors installed at 
ports of entry as test units to support field validation and 
operational testing and evaluation. While DHS recognizes the 
right of the GAO to offer their opinion on the potential 
consequences of deploying ASP systems nationwide, the 
Department is unaware of any testing or analysis that would 
support the claim that such actions could have been 
``disastrous.'' The decision discussed in the Washington Post 
article was based on projected performance and cost data, but 
additional testing and analysis of ASP systems is still on-
going. The Department continues to pursue the deployment of ASP 
systems to secondary inspection locations, and is committed to 
following stated acquisition processes. These processes will 
culminate in a procurement and deployment decision from the 
Acquisition Review Board, followed, if successful, by 
Secretarial certification of the system's performance.

    Ms. Lute. I will have to get back to you, Congressman. I 
have not seen the article.
    Mr. Price. Mr. Culberson.

                        COAST GUARD BUDGET CUTS

    Mr. Culberson. Thank you, Mr. Chairman.
    Madam Secretary, I share Mr. Rogers' concerns about the 
proposed cuts to the Coast Guard. They are an absolutely 
essential part of our Homeland Security network. And the ships 
they currently have are badly out of date. They are always 
ready, as any branch of the military is, to do their job.
    But Mr. Rogers had I think some very good points to make 
that I share, the proposed increases and funding for 
headquarters at a time when the Coast Guard is proposed to be 
cut. I also wanted to be sure to bring to your attention the 
need for, because I do not see it in here, a new ice breaker. 
They have completely inadequate--the ice breakers that they are 
running now are ancient and break down. And it is essential 
that we maintain that ability to get ships down to the South 
Pole.
    In fact, if I could Mr. Chairman, I would like to yield the 
remainder of my time to Mr. Rogers, if I could, because he had 
some good follow up.
    If you would like some additional time, I would like to 
yield my time to you, sir.
    Mr. Rogers. I will have a second round.
    Mr. Culberson. Okay. But I share Mr. Rogers' concern, and I 
wish you could address in a little more detail what he was 
asking you about with regard to the Coast Guard.
    Ms. Lute. Congressman, it is the view of the Secretary and 
certainly my view, as reflected in the President's budget, that 
the Coast Guard will be properly resourced in the coming budget 
year.
    We recognize that we are in the process of recapitalizing 
the fleet, and that requires major investments and major 
decisions about those investments.
    I would respectfully disagree that funding, I think what 
you have termed bureaucracy, at the expense of the Coast Guard 
is the choice that we have made. I am an operator. I know what 
it is like to operate in the field. I know that, for effective 
operations, we need the ability of a high-quality, highly 
trained, highly responsive acquisition system. And this 
Department, with the help of this Committee, has made a series 
of investments and improvements over the years, and we are 
building on that and continuing those improvements. So the 
Coast Guard is not the bill payer for our strengthening our 
acquisition system.
    Mr. Culberson. No, but it is just simply a matter of 
priorities.
    And I share Mr. Rogers' concern that, at a time when the 
Coast Guard's mission requirements have increased, you are 
proposing a reduction in critical funding for the ships and 
equipment that they need, at a time you are proposing an 
increase in the bureaucracy. It is a matter of prioritization, 
and I think it is the wrong priorities, and I share Mr. Rogers' 
concerns.
    Mr. Price. Thank you.
    Let me weigh in, too, on the Coast Guard and the National 
Security Cutter and try to get a focus on this from the 
standpoint of today's hearing, which has to do with acquisition 
management.
    Of course, Madam Secretary, the National Security Cutter is 
a highly capable vessel, but as originally envisioned, it was 
at the heart of the Deepwater fleet. Eight National Security 
Cutters were to replace the 12 High-Endurance Cutters, as Mr. 
Rogers recalled, with greater numbers of days on patrol, 
increased reach, due to the use of unmanned aircraft, as well 
as traditional helicopters and greater command-and-control 
capabilities.

            NATIONAL SECURITY CUTTER AND DEEPWATER PROGRAMS

    Now since that original concept the National Security 
Cutter has become less mission-capable because the unmanned 
aircraft program failed to deliver an operational vehicle as 
hoped, and design flaws that would have shortened the 
structural life of the ships have required changes that reduce 
the flexibility of the cutters by adding additional weight.
    Furthermore, as you know, the program has been plagued by 
escalating costs. According to a GAO report from July of 2009, 
the eight National Security Cutters will cost over $4.75 
billion. That is 38 percent more than the 2007 baseline of 
$3.45 billion. So some questions about this.
    The original design and requirements for the National 
Security Cutter were developed by the Deepwater integrated 
systems contractor before 9/11, based on the contractor's 
assessment of the Coast Guard's needs at that time.
    So my first question, how has the NSC program been reviewed 
to ensure that the ship we are buying meets the Coast Guard's 
own assessment of its needs today?
    Secondly, what methods has the Department explored for 
keeping coast growth in the NSC program under control?
    And then, finally, since I became Chairman of this 
Subcommittee, we have provided $153 million to the Coast Guard 
to oversee the Deepwater contract in house, instead of 
depending on a systems integrator, with the hope of eliminating 
problems that I have already mentioned.
    So, in your view, does the Coast Guard at this point have 
the capacity--have an adequate number of acquisition staff with 
enough training and expertise and experience--to act as lead 
systems integrator for NSC and other Deepwater elements?
    Ms. Lute. Yes, Mr. Chairman, I believe that they do.
    We conducted an independent review on the National Security 
Cutter procurement process. And that review validated the 
requirements, the estimated cost projections and the schedule 
as well.
    As I mentioned in my remarks, we have instituted an 
aggressive Acquisition Review Board (ARB) process, where every 
major step of the acquisition process is put to senior decision 
makers in the Department representing all of the major lines of 
business for review, discussion and validation before we go 
forward. And it is our determination to keep ourselves on 
track, on target, on schedule and within the bounds of 
acceptable cost as they have been projected.
    Mr. Price. Can you say more about the methods the 
Department has explored for keeping cost growth under control?
    Ms. Lute. The principal method, as I have said, Mr. 
Chairman, is that the ARB process that we have, the Acquisition 
Review Process, engages the operators from the requirements 
point of view and then the program managers throughout the 
life-cycle of an acquisition to ensure that things are on 
schedule and within the cost bounds that have been estimated. 
We have introduced this deliberate decision-making process to 
understand, at the earliest opportunity, if costs are 
potentially getting out of control and to devise strategies, if 
that is the case, and to validate that we are, in fact, on 
track.
    And, because of this process and a vigorous interchange 
between the Department and the components for all of the 
acquisitions, we now have and can address what has been one of 
the persistent Government Accountability Office and Inspector 
General findings, which is a lack of senior executive 
engagement and focus on the acquisition process.
    The Secretary and I have made it very clear that 
acquisition is not purely the business of acquisition 
professionals or of our finance staff. This is a leadership 
responsibility that we have to engage in.
    Mr. Price. So this movement away from using a systems 
integrator, a contractor to oversee other contractors, the 
development of the capability in-house is, in your view, that 
change has basically been executed and has achieved its 
objectives?
    Ms. Lute. Cutter number four is not under the lead system 
integrator in Deepwater.
    Mr. Price. That is what I am asking.
    Ms. Lute. And moving forward.
    Mr. Price. In your view, that transition has occurred 
successfully?
    Ms. Lute. Yes.
    Mr. Price. All right.
    Mr. Rogers.

                       OVERDUE EXPENDITURE PLANS

    Mr. Rogers. Madam Secretary, when can we get the spending 
plan, the expenditure plan for Deepwater and the other spending 
plans that are required by law, that we wrote into the law?
    [The information follows:]

    Response. The Department anticipates providing the FY 2010 Revised 
Deepwater Implementation Plan Review in the Third Quarter Fiscal Year 
2010.

    Ms. Lute. I am aware, Congressman, of how behind we are, 
and it is unacceptable. As the Secretary said, nearly 300 
reports are due for the current fiscal year. And it would be 
helpful to have the priorities of Congress in that.
    And, for a specific answer to your question, I will have to 
get back to you with a date certain.
    Mr. Rogers. Well, to look at priorities, look at the 
statute, look at the law, not some extraneous request. There 
are a few, I do not know how many there are, there are just a 
few.
    Ms. Lute. There are 16 overdue from 2009.
    Mr. Rogers. That are required by law?
    Ms. Lute. Yes, sir.
    Mr. Rogers. Written in the bill?
    Ms. Lute. Yes, sir, the expenditure plans are overdue.
    Mr. Rogers. Yeah, but the ones that are written in the 
statute and the ones that we have specifically mentioned in 
these hearings, Deepwater, SBInet and so on, we want those; 
those are 2 months or more overdue. We cannot do our work until 
we know how you want to spend the money. That is what we do, 
and it is what your budget people are supposed to do. And yet 
we do not have those reports, so this is not just a request.
    Ms. Lute. I understand, sir.
    Mr. Rogers. This is the law, and we want those reports. 
That would settle a lot of these questions we have today about 
the Coast Guard around SBInet and the others. We would know 
specifically what it is that you plan to use and how much money 
for each and the timetable and the like, that way we would not 
waste this time verbalizing when those reports, assumedly by 
the experts, would be available for you and me as well.
    So when do you think we can get those reports?
    Ms. Lute. Congressman, I am not in a position to give you a 
specific date for each of these reports with the exception of 
task C, which I believe we will have transmitted tomorrow, but 
we recognize that we have this obligation due.
    Mr. Rogers. Well, it hampers what we can do. And as I have 
told the Secretary the other day and this Subcommittee many 
times, I am not prepared to go for any expenditures until we 
have the plans for how you plan to spend the money. It hampers 
our capability to allocate funds across the whole Department.
    So I think the Chairman joins me in this, that we need and 
want those reports, the spending plans.

                         OFFSHORE PATROL CUTTER

    Now, that would also help us understand the Offshore Patrol 
Cutter (OPC). You included a request for $45 million for that 
cutter, to fund initial acquisition work, but we appropriated 
$40 million for similar work since 2004. And the Coast Guard 
has been studying and designing the OPC for more than six 
fiscal years. They say the cost for initial production will not 
be funded until fiscal year 2015, 5 years later than had been 
planned under the 2006 Deepwater Implementation Plan. And those 
25 cutters are supposed to replace the 27 legacy medium-
endurance cutters. So we are into the same predicament with 
them as what occurred with the 378-foot high-endurance cutter 
and NSC. We have got a big gap in patrol time.
    The bottom line, the exacerbation of the Coast Guard's gap 
in surface fleet mission hours brought about by the delay in 
delivery of the NSC will be further strained with a delay in 
the delivery of the OPC.
    So we need to know what is the plans for the expenditures 
of funds for the OPC as well.
    Ms. Lute. What I can tell you, Congressman Rogers, is that 
the design work is complete to the best of my knowledge, but I 
would have to ask Under Secretary Duke to elaborate beyond 
that.
    Ms. Duke. The delay in the OPC was defining the 
requirement. The requirement is complete now. We have an 
approved acquisition strategy, and the procurement for the OPC 
will be coming out very soon and we can get a date for that.
    Mr. Rogers. Would that be in the plan, the expenditure plan 
that we are asking for?
    Ms. Duke. I will make sure it is.
    Mr. Rogers. Well, you know that is news. I hate for us to 
have to drag out every detail when your expenditure plan will 
answer our questions and we can devote this hearing to 
something a good deal more significant. But here we are 
dabbling around in details that the spending plan will tell us 
if it were timely, and we should have had that 2 months ago, as 
the law says, so we can plan our work.
    Do you hear me?
    Ms. Lute. Yes, sir.

         BUDGET CUTS FOR THE SECURE BORDER INITIATIVE (SBINET)

    Mr. Rogers. Now, you propose a cut of $225 million, 28 
percent below 2010, to CBP's border security fencing 
infrastructure and technology account. Why are we proposing to 
eliminate the design and development of what is called Block 2 
and scale back the program management resources for SBInet?
    Ms. Lute. Congressman, we are not proposing to eliminate 
Block 2. What we are going to do is to deploy those parts of 
Block 1, Tucson 1 and Ajo 1, subject those deployments to 
vigorous operational testing and use and then adapt those 
proven technologies and systems in the expansion as we move 
forward in order to avoid false starts again.
    Mr. Rogers. And when will that take place?
    Ms. Lute. I don't have them memorized, Congressman. If 
Elaine wants to jump in and rescue her deputy, that would be 
great. Tucson 1, we have 23 miles constructed and Ajo 1, 30 
miles. But, at the moment, there is a preservation hold on 
expansion as I recall.
    Ms. Duke. Tucson 1 is in final testing and should be 
completed by the end of this fiscal year. Ajo 1 is on hold for 
deployment because of some environmental breeding reasons, and 
that will be deployed shortly and then go into testing. We 
expect the full rate production decision, which is what you are 
talking about ``Do we go to Block 2'' to be about a year from 
now.
    Mr. Rogers. Well, your budget submissions and 
justifications on page 20 say that you eliminate SBI Block 2.
    Ms. Duke. We are not funding SBI Block 2 because Block 1 is 
still in testing and deployment, and the decision of whether we 
will need Block 2, which is really an enhancement of Block 1, 
has not been decided. It is also part of the Secretary's 
directed assessment of the best way to secure the border. So it 
is not eliminated, but there is a decision to not request 
funding on it at this point because we are not ready to say 
what Block 2 will be. We have not even completed the decisions 
on Block 1, which is the initial deployment and the initial 
system.
    Mr. Rogers. So when your budget request says you eliminate 
SBI Block 2, it is inaccurate?
    Ms. Duke. We have eliminated it in this budget request. No 
funding for Block 2 is in this budget request.
    Mr. Price. Mr. Farr.

                    REDUCING RELIANCE ON CONTRACTORS

    Mr. Farr. Thank you, Mr. Chairman. In your testimony you 
indicated near the end that finally we are initiating a study 
of acquisition programs staffing focused on the key disciplines 
needed to necessarily execute a program, and then go on to say 
we want to understand if our major acquisition programs have 
the necessary key personnel and program management system 
engineering information technology, logistics, cost estimation, 
test and evaluation, and develop concepts to aptly fill 
identified gaps. The study that you are initiating, who is 
going to do that study; is that going to be internal or 
external?
    Ms. Lute. It is internal.
    Mr. Farr. If indeed there is more contractors, there is 
more people outside working for DHS than inside, how do you get 
a handle on those in light of this--it wasn't today's paper, 
but Saturday's Post that points out that the Department engaged 
in buying these nuclear detection devices, and that each 
machine was supposed to cost $377,000, and indeed some cost as 
much as $822,000, and now that you have looked at them and 
bought them and in some cases installed them you are deciding 
to junk them. I mean if there is 200 more contractors out there 
than employees, how do you get there from here? This seems to 
me that it is just out of control. I mean everybody who sells 
something in this town has a great idea that it is going to 
solve all kinds of problems. And we as Members of Congress see 
that all the time. With vendors coming in here and saying here 
is a problem and we have got the ideal technology to solve it 
sounds pretty good. But then it takes a lot smarter people than 
we have in our world to try to do that, to really find out if 
this is cost effective and relevant and all those things. It 
seems to me that is what you are in the process of training 
for. But I mean if you have got a lot more contractors out 
there than the cadre of people that you are going to be 
training, and we see these kinds of disasters of acquisition, 
how do you explain to this Committee, how do you get your hands 
around it in a short time?
    Ms. Lute. Well, again----
    Mr. Farr. Because a lot of money is at stake here.
    Ms. Lute. Absolutely right, by any measure, a lot of money 
is involved. And again, I haven't seen the article. I don't 
know if Under Secretary Duke has. The advanced spectroscopic 
portal monitoring, we have decided to move those into 
secondary, not completely junk the program. So I don't know 
what the article is referring to.
    Mr. Farr. Well, that is your excuse, you are going to move 
into secondary. It means you are spending $800,000 on equipment 
that doesn't do what it was supposed to do.
    Ms. Lute. But further to your point on contractors, the 
Secretary has instructed, and we are certainly concerned about 
our reliance on contractors and have been looking 
systematically at how to reduce that reliance in a way that 
doesn't put the operations of the Department at risk, 
prioritizing those functions that are inherently governmental 
functions for which full-time, government employees need to be 
providing and then systematically moving through our workforce 
to reduce our reliance.
    Mr. Farr. Did you get what you asked for from OMB; is it in 
this budget or did OMB cut your training program?
    Ms. Lute. I don't remember.
    Ms. Duke. We have a small cut in our centralized training 
program in this budget. But we think, through our partnerships, 
we have brought down the cost of training considerably, and we 
think we can adequately train our resources with the 
President's budget.
    Mr. Farr. And this training, explain something about 
internships. These aren't just typical interns that come in. 
You will retain them after they intern? They are not going to 
intern and then leave and go work for the private sector? Sell 
you some more equipment that doesn't work?
    Ms. Duke. I think it is important that there are a lot of 
them. Some are mid career, most predominantly new college 
graduates. They come in and go through a 3-year program. They 
are on-the-job, they do not work at headquarters and they are 
not overhead. From day one, they work in one of the operating 
components under a mentor doing actual contract work. And, 
during their 3-year program, they go to formal training. They 
are in the workplace, so they get the on-the-job training.
    Another great piece of this is that they rotate through 
three DHS components so they get varied experience. For 
instance, they might do Coast Guard, Federal Emergency 
Management Agency and Transportation Security Administration, 
so they get a good feeling. When they graduate in 3 years, they 
are career employees, and they have the training and the 
experience to be contract officers.
    Mr. Farr. Is there going to be enough of them to get your 
hands around this if there is 200,000 contractors out there? 
And frankly that figure came from the Washington Post. I don't 
think the Department knew the answer to how many contractors 
there were.
    Ms. Duke. Well, these acquisition interns will not replace 
the contractors. Those contractors are doing a wide variety of 
work.
    Mr. Farr. I understand that. They are going to be 
monitoring these contracts, right? You are going to learn how 
to make sure that we get what we are promised? These 
contractors are smart. Hopefully we have less and less people 
that we need to contract with. It is cheaper to bring them in 
and make them Federal employees in some cases, not in every 
case, but in a lot of cases to have them work for the 
Department rather than for a private contractor.
    Ms. Duke. We very much agree and are looking at rebalancing 
our workforce for the principal purpose of making sure that the 
core capabilities of DHS are done by federal employees, and 
that is our phase one.
    Mr. Farr. How long do you think it will take to get this 
cadre of people trained and in place?
    Ms. Duke. We have 109 that are in place now. We will be 
building to 300 by the end of fiscal year 2011. In terms of the 
conversion and making sure we have the right number of Federal 
employees, we have identified about 3,500 contractor positions 
that are more appropriately done by Federal employees, and 
those will be converted this fiscal year. And that is just 
phase one of our effort.
    Mr. Farr. Thank you.
    Mr. Price. Mr. Culberson.

                     SECURING THE SOUTHWEST BORDER

    Mr. Culberson. Thank you, Mr. Chairman. Madam Secretary, I 
represent Houston and Texas, more than any other State, has a 
long and very special good relationship with Mexico. We have a 
special history with them and a keen understanding of the need 
for workers from Mexico to come here legally so we know who you 
are and you are here for a specific purpose, we know when you 
are going home. And because we have the longest border with 
Mexico than any other State we also have a keen understanding 
of the need to keep illegal activity out, people that are 
crossing the country and entering America illegally, that are 
bringing in contraband, drugs, weapons, et cetera. And in the 
Del Rio sector and the Laredo sector, with the help of several 
of my colleagues in this Committee, in a bipartisan way, we 
have successfully implemented a law enforcement program of zero 
tolerance where people that enter illegally under existing law 
are prosecuted and incarcerated and removed from the country in 
a criminal proceeding and it works beautifully. The local 
community loves it. The local community on the border is 96 
percent Hispanic. Law enforcement is something that everyone in 
America understands, it works, it is common sense. Yet I see in 
your budget proposal, and it is here in the budget proposal 
that you have submitted, the fiscal year 2011 budget and brief, 
a 58 percent increase in Department operations; that this 
President's priority is a 58 percent increase in the 
bureaucracy, yet you are cutting the investment in the Coast 
Guard's operational needs 10 percent, you are proposing a 28.2 
percent cut in the border patrols, border security fencing, 
infrastructure and technology account, you have eliminated 
Block 2 of SBInet, so how can--it is just common sense you 
can't proceed with Block 2 in future years if you are wiping it 
out. I mean, in addition, the concern the American people have 
over this administration and this Congress is this majority is 
out-of-control spending and the debt, the deficit, the fear 
that everyone has about spending. It is the priorities. And I 
have to tell you on behalf of my constituents I share 
absolutely Mr. Rogers' concern and frankly strenuous opposition 
to cutting the Coast Guard and cutting Customs and Border 
Protection's security fencing at a time when it is so critical.
    If we would just enforce the law and secure the border. The 
crime rate in Del Rio and Laredo have dropped dramatically. In 
Del Rio the crime rate has dropped around 60 percent. We have 
seen about a 50 percent drop in the crime rate in Laredo. It is 
the priorities that concern us, the absence of reports, as Mr. 
Rogers has said, that are required by statute to help us do our 
job. And I can tell you, the public, this is something that, 
this is one of many reasons the prioritization, your priority 
of our bureaucrats, in not helping our men and women in the 
field with the infrastructure that they need. That is 
unavoidable. There is no other conclusion. And I have to tell 
you, this is one of many reasons there is going to be a tsunami 
this November, and it is a real source of concern.
    Why in the world would you cut the Block 2 when, and I 
understand about the problems with SBInet, but how do you 
propose to even move into Block 2 if you have wiped it out?
    Ms. Lute. So, Congressman, what I would say, in the first 
instance, the lion's share of the operating program changes are 
going to St. Elizabeth's, the new headquarters for the 
Department of Homeland Security, and we do not believe that we 
are causing the operational effectiveness of our operators in 
the field, whether they are in the Coast Guard or Immigration 
and Customs Enforcement or on the border patrol or anywhere 
else----
    Mr. Culberson. Yes, ma'am, but you are increasing the--you 
are hiring, you are staffing up headquarters personnel or a 
bureaucracy at a time when you are proposing cuts and 
infrastructure to Border Patrol and Coast Guard. That is a 
fact.
    Ms. Lute. Congressman, I am an operator, and I will tell 
you from an operator's perspective that your teammates at 
headquarters are every bit as essential to your operation as 
your buddies in the field.
    Mr. Culberson. I am just telling you that is not acceptable 
to the American people.
    Ms. Lute. And what I would respectfully clarify is that the 
priority is supporting our operations in the field with 
competent ability to operate at headquarters. There is never a 
good time to make the kinds of choices that we make, but we are 
determined to have this Department as responsive to our field 
requirements as we can be.
    Mr. Culberson. I understand. I just wanted to confirm your 
priorities are bureaucrats rather than supporting the men and 
women in the field.
    Ms. Lute. I will say what I said before, Congressman. Our 
priority is supporting our field-based operations with all of 
DHS. And these requirements, whether in the acquisition 
workforce or elsewhere, are essential for operators to have 
what they need and have it when they need it.
    Mr. Culberson. Are you aware the Tucson sector is 
essentially wide open? I have toured it several times myself. 
It is a problem with the DOJ and the prosecutor there. But the 
border patrol agents in the Tucson sector, and I talked to the 
Chairman and the Ranking Member and the Members about this, in 
Texas if you cross you are arrested and prosecuted. If you 
enter the United States illegally in the Tucson sector you will 
not be prosecuted unless you are carrying more than 500 pounds 
of dope. You have a 99.6 percent chance of being home in time 
for dinner, literally. They are out of about 4 hours of time 
and they lose the load. It is crazy.
    Tucson is wide open, yet you are not installing this 
critical infrastructure in the Tucson sector where it really is 
needed. That is the Wild West out there. Tucson is wide open.
    Why would you not proceed in installing this infrastructure 
in Tucson where it is needed so badly?
    Ms. Lute. As Under Secretary Duke said, we are proceeding 
with Tucson 1 and Ajo 1. We expect them both to be operational 
by the end of the year. We expect to exercise them and use them 
vigorously and have them form the basis of----
    Mr. Culberson. Is that the Yuma sector? I think that is in 
the Yuma sector. Or part is in the Yuma sector and parts of it 
right next door. We are on the edge of the Yuma sector in 
Tucson, out in the wilderness, right?
    Ms. Lute. Well, in addition, Congressman----
    Mr. Culberson. Thank you, Mr. Chairman. Oh, Ajo, that is 
Yuma. They have zero tolerance in Yuma too, Mr. Chairman. That 
is the area where law enforcement is just enforcing existing 
law. So where you are building it is wonderful, but you are not 
building it where it is needed the most, Mr. Chairman, and that 
is in the Tucson sector. And I hope at some point you or any of 
my colleagues, we all need to look at Tucson and try to help 
those poor folks because it is a wide open superhighway in 
Tucson.
    Thank you.
    Mr. Price. Ms. Lute, feel free to complete your sentence. I 
didn't mean to cut you off.
    Ms. Lute. The only thing I was going to say is that in the 
interim, as you know, we have undertaken a strengthening of the 
Southwest border over the past year. We deployed mobile 
surveillance radars, we have increased the use of canine teams 
and reinforced best teams. The Secretary is certainly very 
aware of the entire border, having been there herself 
personally, and this has been a priority for the Border Patrol 
and will continue to be a priority for the Department.
    Mr. Culberson. Thank you, Mr. Chairman, but take a close 
look at Tucson.

                 OVERDUE REPORTS AND EXPENDITURE PLANS

    Mr. Price. Madam Secretary, let me pause just a minute to 
clarify a matter that was under discussion earlier, and indeed 
last week with the Secretary, having to do with reports and 
overdue reports. The number was bandied about last week that 
something like over 300 reports had been required of the 
Department of Homeland Security by this Subcommittee. I am here 
this afternoon to tell you that the House appropriations 
subcommittee mandated reports due to this point, number 105. 
That includes some from the 2010 bill and some late ones from 
2009. Now, that is a lot of reports. A lot of those are a page 
or two, but some are major. But the number is less than 300. 
And while it is often said that jurisdiction over homeland 
security is spread all over our Committee structure that is 
manifestly not true on Appropriations. On Appropriations we 
have consolidated jurisdiction in one committee that deals with 
the entire Department, and the reports that we require are very 
considerably in scope and format, but they do represent our 
best judgment from a single vantage point as to the overall 
functioning of this Department.
    Mr. Rogers. Will the gentleman yield on that?
    Mr. Price. I would be happy to.
    Mr. Rogers. In the 2010 bill, the bill, the Act, has 18 
expenditure plan requirements.
    Mr. Price. In statutory language.
    Mr. Rogers. That is 18.
    Mr. Price. That is right. 18 expenditure plans in statutory 
language. The balance of those reports and plans would be of a 
greater variety and usually not included in statutory language.
    We do take this very seriously, and I think all of us have 
stressed that today. The major plans we are talking about here 
are the Deepwater expenditure plan, the SBI expenditure plan, 
and aviation security plans for explosive detection systems, 
checkpoints and air cargo. We made that very clear with the 
Secretary, and I trust it is clear today. But some of these 
numbers are confusing, and I hope this serves to clarify what 
we are dealing with.

                   SECURE BORDER INITIATIVE (SBINET)

    Let me now turn to SBInet. SBInet was expected to leverage 
the expertise and resources of a major systems integrator, 
Boeing, and its team to apply commercial off-the-shelf 
solutions to help DHS, and in particular the Border Patrol, 
achieve operational control over land borders with Mexico and 
Canada. However, as everyone knows, the progress has been 
slower than expected. The original target to deploy SBInet to 
Tucson and Yuma sectors was October of 2008 with the Southwest 
border deployment of a common operating picture, as it is 
called, scheduled for December 2008. However, your budget 
indicates more conservative plans to complete testing just for 
Tucson Block 1 by the end of this year and finish deployment in 
2013. That is 2 to 5 years later than planned. And as you have 
confirmed, Block 2 is deferred entirely--deferred, not canceled 
but deferred entirely--until completion of the Secretary's SBI 
review.
    Last week the SBInet program manager said, and I am 
quoting, that ``technology helps with the surveillance part'' 
of Border Patrol's mission, but acknowledged mistakes made by 
DHS and Boeing over the past 4 years in relation to the use of 
radar, cameras, and defining of system requirements. He also 
said ``we thought it would be very easy and it wasn't. 
Technology has to be a key part of the border security plan, 
it's not there. So what do we do in the meantime?''
    So Madam Secretary, I want to ask you about ``in the 
meantime.'' What steps are you taking to ensure benefits of 
technology will be realized in the meantime, and specifically 
we understand Boeing is permitting the Border Patrol to make 
operational use of some of the Block 1 technology now in 
testing. What is that all about? Will that speed up future 
acceptance testing, will it help define requirements, will it 
inform investment decisions?

                 OVERDUE REPORTS AND EXPENDITURE PLANS

    Ms. Lute. Well, Mr. Chairman, if I can just make a comment 
about the reports and to Ranking Member Rogers, you hear no 
excuses from me about why our reports are late. They are late; 
it is unacceptable. We understand what our requirements are, 
and we will work to meet them. I certainly understand the value 
of these reports for Congress to discharge its responsibility. 
This Committee, as I have mentioned before, has been extremely 
helpful to us in strengthening our acquisition process, and 
these reports are key instruments for that purpose.
    Our job in homeland security is really to do three things: 
execute our mission sets, run ourselves and account responsibly 
for the resources that Congress has given us. We take each of 
those responsibilities very seriously, and so, with respect to 
reports, we recognize the importance. That message comes 
through loud and clear.

                   SECURE BORDER INITIATIVE (SBINET)

    With respect to SBInet, we experience problems here, Mr. 
Chairman, that we have experienced in a number of our other 
areas, which, in part, is a problem of understanding our 
requirements and being in a position to be able to articulate 
what our operating requirements are to a commercial level of 
satisfaction. All over the public sector, industry has the 
ability to monetize every aspect of a capability: the 
durability of the equipment, the length of hours that it 
operates, the mean time between failure, everything. And we 
are, in many cases, operators. We are trying to strengthen our 
acquisition workforce across the range of capabilities that are 
designed to address these shortfalls and have us do it well 
once; to identify within an acceptable range what our operating 
capabilities and requirements are, to be able to assess and 
identify solution sets that are presented to us by industry and 
to engage with industry, where necessary. For prototyping, this 
is what DOD does, as you mentioned before, for limited 
production numbers and to interact in a way that validates what 
has been achieved or makes adjustments as we go forward.
    So we have put in the hands of some of our operators some 
of this technical capability. And this is my old world. These 
are radars, cameras and command and control radios that talk to 
each other in terms of data and that allow operator 
manipulation command and control for the purposes of detection, 
attribution and interdiction.
    This is a complicated, difficult system that is 
temperamental to the weather. It is a recipe for difficulty in 
acquisition. And so the decision was made to review SBInet 
entirely, at the Secretary's direction, to ask CBP to go back 
in and look at what we are requiring and, in the meantime, to 
use our technology such as the mobile radar surveillance 
capability. It is on the back of a truck and gives you night 
vision capability as well as day capability of movement and 
detection, plussing up agents at the borders and other 
mechanisms to help strengthen our border visibility and 
operation.
    Under Secretary Duke may be able to elaborate beyond that.
    Ms. Duke. In addition to deploying the current 
technologies, as we continue to develop the Block 1 technology, 
we also are using some of the ARRA funding that went to the 
Border Security Fencing, Infrastructure and Technology account 
to introduce opportunities for other companies that have proven 
technologies that can work along the border to propose those 
and that will broaden our tool box. The original philosophy for 
Block 1 was that it would be systematically reproduced along at 
least Arizona and potentially the whole Southwest border. That 
has not necessarily changed; it is just not decided yet. We 
want to look at how far Block 1 should be reproduced and what 
other technologies, both that we know about and don't know 
about yet, might be introduced to best protect the Southwest 
border.
    Mr. Price. Can you give us a little bit more practical 
sense of what this Block 1 technology looks like, what it 
achieves, what we are getting out of this in the way of border 
security, apart from the testing and the projection of 
capabilities for future use?
    Ms. Duke. Yes. What you are getting is a system of 
unattended ground sensors. You are getting sensor towers. And 
the sensor towers have day cameras, night cameras and radar. 
And then there are relay towers, microwave towers, that are 
basically communications relay. The biggest things you are 
getting are technologies to allow, in Tucson, for example, four 
to five border patrol agents working from computers in an 
upgraded command center basically to get persistent visibility 
of the entire 23 miles, and the 23 miles is the border. 
Understand that, even inland, four to five border patrol agents 
get this view from computer screens from these, in this case of 
Tucson, nine towers. And so basically what you are doing is you 
are getting persistent surveillance completely, day and night, 
with sensors and with the technology.
    So that is what you are getting. You are leveraging your 
border patrol agents and giving more complete visibility into 
the area.
    Mr. Price. Well, it was originally assumed that this kind 
of technological fix was a good alternative, in some cases a 
superior alternative, to the actual construction of physical 
barriers, physical fencing.
    Is that judgment still intact and do you anticipate that 
after this further period of demonstration and testing that 
will in fact be the case?
    I presume that we are talking about areas here where the 
fencing solution itself has lots of challenges and 
difficulties.
    Ms. Lute. I think that is right, Mr. Chairman. As the 
Secretary has said repeatedly, a fence is not a strategy. 
SBInet is not a strategy. We need a combination of technology, 
people and processes to comprehensively address the border 
challenges, which, on the one hand, are to keep out people who 
are unauthorized to come here who might be dangerous but, on 
the other hand, particularly at our points of entry, to 
expedite legitimate trade and travel. And this as Under 
Secretary Duke said, is designed to give realtime border space 
operational awareness and to allow the kinds of decision-
making, for interdiction purposes, that maximizes the personnel 
and the other infrastructure that exists.
    Mr. Price. Mr. Rogers.

      BUDGET CUTS TO COAST GUARD AND CUSTOMS AND BORDER PROTECTION

    Mr. Rogers. Well, you say that Block 2 is not eliminated 
and yet there is no funding there for it, which reminds me of 
that old saying that a vision without funding is a 
hallucination. And I hope we are not hallucinating here.
    Somebody said a moment ago, I think you said a while ago, 
that the cuts to the Coast Guard will not be significant, will 
not be harmful. However, the Coast Guard says that their 
ability to interdict smuggled cocaine will drop by about 3 
percent, the amount of cocaine removed will decline by 11 
percent due to the loss of the assets proposed in the 2011 
budget. In 2009, the four 378-foot cutters proposed to be 
decommissioned contributed to the removal of 35,000 pounds of 
cocaine, 400 pounds of marijuana with an estimated wholesale 
value of $493 million.
    So I beg to differ with you. The loss of these assets will 
mean significant reduction in the capability of the Coast 
Guard, as the Commandant now has said.
    Now, quickly moving to the CBP's air and marine operations, 
the Border Patrol relies heavily on robust air support, and the 
decision in this budget to decrease funding for procurement and 
operations of the air and marine division by $16.6 million, 3.2 
percent, had air and marine salaries and expenses by $11.3 
million, 3.7 percent below 2010, will be significant, is 
significant. What do you think will be the impact of the cuts 
to CBP and marine operations on border security at a time when 
we are in a big time war on the border?
    Ms. Lute. Congressman Rogers, as the Secretary has said and 
I certainly support, CBP, including its air and marine 
operations, is well equipped and prepared to discharge their 
missions to protect our Nation's borders. We again view this 
capability in the context of the overall approach to border 
operations, of which this is an integral part, and believe that 
we are profiled properly to discharge our missions and 
recognize, frankly, the importance of air and marine operations 
for that purpose.
    Mr. Rogers. Well, again, this is another report that we 
don't have yet that is required. If we had that report we 
wouldn't have to be asking these questions. We would know 
because you will have had your experts tell us precisely what 
you are going to do, what you are not going to do, and what 
impact it is going to have, what context these reductions are 
in. So again, as the chairman has said, these reports are not 
just debating points, these are the way we plan our work, 
because we have got to justify what we do to the rest of the 
Congress and to, more importantly, the people of the country. 
So can we have that report as well?
    Ms. Lute. Yes, sir.

                      AIRPORT SECURITY TECHNOLOGY

    Mr. Rogers. Now, the other day the chairman and I went to 
the airport, went to the TSA testing facility out here, to look 
at the new whole body imaging machines and watched a 
demonstration of the product. The budget request will acquire 
and deploy a huge number of these machines. In fact, according 
to TSA, 497 of the machines are to be acquired with 2009 
stimulus and 2010 funds, another 503 plan to be purchased with 
the 2011 request, and about 800 would potentially be sought in 
future years if they are working well in the field.
    So we are in the business of testing and evaluating on the 
fly, if you will. One of us asked the question about whether or 
not these machines would replace the magnetometers. Of course 
they would not. But the magnetometers and the machines would be 
deployed together, but requiring an additional five FTEs per 
machine, which is a hefty budgetary item and personnel cost. 
The question is why aren't we just combining those two machines 
into one machine. It seems like it might be a fairly simple 
thing to do. And why are we deploying this huge number of these 
very expensive whole body imaging machines before they are 
integrated with the magnetometers?
    Ms. Lute. I am no technical expert in this regard, so I 
won't be able to satisfactorily address your question about why 
they are not being merged technologically. But what I can tell 
you is that we believe very strongly that this represents an 
enhancement as part of our overall layered defense in airport 
security and that we have, in looking at the whole body 
imaging, the magnetometers, the explosion trace detection, 
behavioral detection, the whole suite of measures that we 
employ at airports. We have tasked our Science and Technology 
Division, working together with the Department of Energy and 
the national labs, to take a hard systems look at three aspects 
of technology in the service of aviation security.
    Aspect number one: Are we currently deploying existing 
technology to its maximum effect, whether maximizing its 
technical capabilities or maximizing the configuration as it 
relates to other pieces? Secondly, what new and promising 
technologies can we accelerate the development and deployment 
of?
    Mr. Rogers. No, no, no, the question is pretty simple. 
Magnetometers are needed----
    Ms. Lute. To detect metal.
    Mr. Rogers [continuing]. And whole body imagers appear to 
be great. But why did not S&T which is, according to Secretary 
O'Toole, Under Secretary O'Toole, S&T will be the testing and 
authority for the Department, which is the way it should be, 
but if that is true why did we not try to combine these two 
machines before they are separately bought and deployed? It 
seems to me like we could save some money, significant monies, 
if we are able to combine the two, not only in equipment cost 
but in personnel cost.
    Ms. Lute. On the specific question----
    Ms. Duke. I think the issue is the Directorate for Science 
and Technology performs the test and evaluation. Industry 
develops the new technology. This is just an example. Right now 
the combined capability doesn't exist in industry. We feel that 
the threat is such that we need the immediate detection of 
nonmetal threats. And so it is a series. We make decisions 
about where to deploy existing technology----
    Mr. Rogers. All S&T would have had to do is to issue specs 
for a combined machine and industry assumedly would have 
provided it forthwith and we could have saved, I think, a lot 
of money.
    Ms. Duke. And we have many specs out to which the industry 
is working. This particular technology is ready to deploy, and 
we feel the threat warrants deploying it as a separate 
technology at this point.
    Mr. Rogers. Thank you.
    Mr. Price. Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman. Just a personal 
observation. When the Chairman led us on a tour of the border 
and SBInet was described to us, it just seemed to be 
overwhelming. It was more like Star Wars. And what we really 
found on the ground that the Border Patrol needed and very 
complimentary of was the mobile radar units. I mean I became 
very critical of the UAVs. It just seems to me they were not 
cost effective for the amount of money, I think it was $10 
million, and then you need I think four operators, whereas 
these mobile units are about $700,000 for a radar unit. And it 
seems to me that you have got to invest in equipment that the 
people on the ground need for their job, not something back in 
sort of headquarters command which can't be as responsive as 
the people that are on the ground. This is just a personal 
comment. I felt very strongly that we were not buying enough of 
those mobile radar units and buying too much of the Star Wars 
stuff.

                    REDUCING RELIANCE ON CONTRACTORS

    One of the questions I have is, following up on the others 
that I had, you said that there are about 70,000 people that 
are contracted out, personnel that could be, might be brought 
into DHS as Federal employees. You also indicated you are going 
to convert 3,500 this year. How long is it going to take to 
convert in the next 5 years? What are the projections of 
transferring, is it that number, 70,000?
    Ms. Lute. That number of 70,000 is from the number of the 
200,000 that you mentioned that are in professional services as 
opposed to support services, the custodial that I mentioned. We 
are looking to phase in our approach to reducing our reliance 
on contractors beginning with the 3,500 that Under Secretary 
Duke mentioned.
    Mr. Farr. And that is 3,500 this year?
    Ms. Lute. Yes.
    Mr. Farr. And how many in the next 5 years?
    Ms. Duke. We are in the process of gathering that. We are 
actually meeting with the committee staff tomorrow to discuss 
in more detail our current plans, but we are developing the 
outyear plans at this point.
    Mr. Farr. So do we have to ask you for another report?
    Ms. Duke. No. I am confident that we will have that number 
tomorrow as we sit down, and we will regularly update you on 
our progress, but we don't have the numbers for the outyears 
yet. We do have some specific requests in our 2011 budget where 
we are actually asking to convert to full-time equivalent 
positions, but we think there are going to be additional 
positions coming. We do not think it is going to be the full 
70,000, but we don't have a number yet.
    Mr. Farr. I think you can tell from my questions that I am 
very concerned of this whole runaway contracting out where 
essentially the outside world, the vendor world has a handle on 
running the DHS. I mean there are more employees out there than 
inside, and it is of great concern. I think we have the 
capability in government to have the best and brightest working 
on our side and really reviewing these things because we are 
spending a lot of money on technology that is going to become 
obsolete. I mean, the whole border, you would think if we ever 
just had a really good investment plan in Mexico to upgrade 
middle class quality of life issues we would have less people 
coming across the border and we wouldn't need all this very 
expensive, billion dollar equipment. I would like to see us 
some day engage in a strategy like that rather than just trying 
to build the most sophisticated border in the world with a 
country that we have that is our number one trade partner. For 
the State of California, Mexico is the leading, is our biggest 
buyer of California goods, and Canada being second.
    So it just doesn't make any sense that we are going to 
create a border there that, as you indicated, is one of the 
biggest commerce borders in the world, but also a border that 
represents the largest contrast between rich and poor anywhere 
in the world. And how one is based on security and the other is 
based on rapid movement of goods and services that we just we 
have got to get it right. And I am not sure that spending 
billions and billions of dollars on Star Wars border activity 
is a way to do it. That is my opinion.
    I will be looking forward to the rest of the hearings this 
year, and I appreciate the Chairman scheduling you before the 
Committee. Thank you.
    Mr. Price. Thank you.
    Mr. Ruppersberger.

                             CYBER SECURITY

    Mr. Ruppersberger. Just a couple of things if I have time. 
I want to get into the cybersecurity issue, and secondly the 
TASC. On the issue, and I am not sure if you can answer this or 
this is what you are working on, the Homeland Security has a 
mission from the President to deal with all dot-gov and dot-com 
in the cybersecurity area and developing the programs to help 
us with cybersecurity. NSA is doing the military and 
intelligence. NSA has been working on this for a long time and 
has spent a lot of money in developing a good program for 
cybersecurity. And I know that Homeland Security and NSA have 
been communicating together. But it is my understanding that 
Homeland Security might be attempting to develop their own 
program maybe different from where NSA is. And NSA has invested 
in a lot of money and I think they are where they need to be at 
this point. And I want to know whether you could comment on 
where we are. One of the issues that I heard that might be a 
concern with Homeland Security is that they might not be able 
to sole source on certain programs, but we are talking about 
the Einstein and where that goes.
    Do you have any comments on that or where we are on that, 
what the status is, where the policy issues are going with 
respect to working closely and more compatible with NSA on the 
programs that are needed for cybersecurity defense?
    Ms. Lute. Congressman, we work very closely with the 
National Security Agency (NSA), including, at my level, in 
direct dialogue with the Director. We also have a separate set 
of responsibilities that we understand and take very seriously.
    No one intends to replicate capabilities of NSA. We are 
working very closely with our colleagues in the interagency, 
including NSA, to identify and prioritize the challenges that 
exist in securing the cyber space for the dot-gov and dot-com 
domain, as you have suggested.
    Mr. Ruppersberger. But that is not what I am hearing on the 
other side, that there is a move to go out and develop your own 
system. And if that is not the case, I think we--and I am not 
sure where we are or who is making the decisions there.
    Ms. Lute. In this setting, that is about all I feel 
comfortable with.
    Mr. Ruppersberger. Okay, that is fine. I understand that. 
If there is another setting, and we can talk about that later 
on, but it is an issue that is going to be out there and that 
we are going to raise.

            TRANSFORMATION AND SYSTEMS CONSOLIDATION (TASC)

    TASC, you know there have been--basically I think Homeland 
Security has had a difficult time struggling over the last 
couple of years with the internal acquisition process, you 
have, what, 22 different areas. I understand there is some 
headway that has been made, in other areas there hasn't been a 
lot of headway.
    Can you give me the status of where you think TASC is right 
now and what and how were the total costs for TASC developed 
using what assumptions and what alternatives are being 
considered or identified?
    Ms. Lute. Congressman, Under Secretary Duke can elaborate 
on the details. But Transformation and Systems Consolidation 
(TASC) is designed to give us a single Department solution for 
financial asset and acquisition process and controls. We can't 
talk coherently across the Department yet in these areas, and 
we need to be able to do that. TASC is designed to focus on 
integration of these processes and connect to a whole suite of 
internal controls. TASC will be a phased-in approach that is 
designed to move in a stepwise fashion using existing solutions 
in the federal space so we can maximize best practices and 
lessons learned.
    But perhaps Under Secretary Duke can give you greater 
detail.
    Ms. Duke. The current status is that we have a solicitation 
out, proposals have been received and we are currently 
evaluating proposals. There was a protest lodged with the 
Federal Court of Claims, in which DHS prevailed. We heard on 
the appeal about 2 weeks ago and won the appeal so we are going 
forward.
    The key differences in TASC that we are delivering are that 
it is competitive; it requires industry to try to manage that 
technology risk to deliver solutions that have been proven in 
the federal sector because we need an immediate solution; and 
it is based on federal standards for the nine standard business 
processes that are core to financial systems.
    So we feel like we have a good balance between getting 
proven technology and not going so cutting edge that the risk 
is unrealistic. Additionally, we are not going to do the big 
bang approach in terms of deployment. We are going to do a 
phased deployment within DHS, starting with one major component 
and two small offices and deploying over about 5 years once the 
contract is awarded to try to again manage risk and ensure the 
success of this major move.
    Mr. Ruppersberger. It might be wise to do it that way. The 
one message I want to send back, getting back to the cyber 
issue, I will use an analogy or an example, where FBI at this 
stage still has not developed the communication system they 
need, yet NSA and CIA both had systems that worked. And in 
order to develop their own system and bring in IBM, there have 
been a lot of failures even to this day. We don't want to 
duplicate that. So it is really important that we focus on what 
we had, what works and then move forward from there.
    Thanks.
    Ms. Lute. Thank you.
    Mr. Price. Thank you, and thanks to both of you for your 
appearance here today, for your service and for your 
responsiveness to our questions. We will probably each have 
additional questions to submit for the record, things that we 
weren't able to bring up here. But our time is about up. We 
need to adjourn the hearing and we will do so with thanks to 
both of you for your appearance here today.

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                           Thursday, March 4, 2010.

                         INTELLIGENCE PROGRAMS

                               WITNESSES

CARYN WAGNER, UNDER SECRETARY, OFFICE OF INTELLIGENCE AND ANALYSIS, 
    DEPARTMENT OF HOMELAND SECURITY
CAPTAIN WILLIAM HARRIS, DELAWARE STATE POLICE

               Opening Statement by Chairman David Price

    Mr. Price. Good morning everyone. I am pleased to welcome 
our witnesses to today's hearing on the Department of Homeland 
Security's intelligence and analysis programs and DHS support 
for State and local fusion centers.
    From DHS we have Ms. Caryn Wagner, the recently confirmed 
Under Secretary for Intelligence and Analysis. Under Secretary 
Wagner, congratulations on navigating the obstacles in the 
Senate confirmation process and welcome to our subcommittee.
    We are also privileged to welcome Captain Bill Harris from 
the Delaware State Police. Captain Harris is the commanding 
officer of the Delaware State Fusion Center and has worked with 
DHS since the inception of the fusion center program.
    Captain Harris, we look forward to your perspective and 
insight into the partnership between the Federal Government and 
State and local intelligence centers and any recommendations 
you have for how the program can be improved.
    Before we discuss the fusion centers, however, I would be 
remiss if I didn't mention that the budgets for fusion centers 
and the broader intelligence and analysis function are 
classified. So we will discuss specific funding levels at one 
of our closed reviews. However, it is fair to say that the 2011 
budget proposes modest increases for DHS intelligence programs, 
allowing intelligence and analysis to continue to establish 
itself within the broader Intelligence Community.
    The purpose of the DHS State and local fusion center 
program is to build a collaborative environment in which both 
State law enforcement officers and Federal intelligence 
officers can share information, build analytical products and 
expertise, and ideally uncover terrorist and other criminal 
plots well before they are carried out. Given the vast number 
of State and local police, some 800,000 nationwide, it is more 
likely that non-Federal officers will be the first to encounter 
terrorist suspects or identify suspicious behavior to crack 
criminal conspiracies. As Commander Joan McNamara of the Los 
Angeles Police Department Counterterrorism and Criminal 
Intelligence Bureau noted in a hearing on fusion centers last 
year, State and local police are being looked at more and more 
as the ``first preventers'' of terrorist attacks. Ensuring that 
DHS provides appropriate support and expertise to State and 
local fusion centers in the context of adequate privacy and 
security controls should be the priority for the Federal 
participants in this program.
    DHS currently recognizes 72 State and local fusion centers 
nationwide, one for each State, and additional centers in 22 
Urban Area Security Initiative cities. Importantly, many of the 
State intelligence centers preexist DHS as operations within 
State police agencies or State bureaus of investigation. As the 
DHS State and local fusion center program has grown, there has 
been an effort to standardize relationships between Federal and 
State partners.
    This progress is laudable, but I believe it would be a 
mistake for DHS to become overly prescriptive in its 
requirements for State and local fusion centers. The primary 
customers served by the fusion centers are, and must remain, 
State and local law enforcement agencies that rely on the 
information developed by the centers. In fact, one major 
participant in the program, the city of New York, has gone so 
far as to send its own intelligence agents overseas to gather 
information that it believes it cannot get from the Federal 
Government. While the NYPD Fusion Center does have an I&A 
intelligence analyst on staff, that operation is nevertheless 
an example of how simply adding Federal participation to State 
and local centers doesn't necessarily mean that all of a given 
locality's needs are met.
    Under Secretary Wagner, I am interested to know if you plan 
any review of the fusion center program to make sure it is 
meeting the needs of your partners, understanding that those 
partners are diverse and have diverse needs.
    State and local fusion centers have succeeded at analyzing 
open-source information, pursuing leads and threats reported by 
members of the public, developing intelligence reports to 
promote situational awareness, and exploiting various social 
networking sites to respond to emerging threats in real-time. I 
understand that efforts are also underway to improve the 
analysis of data collected by other components of State and 
local law enforcement agencies, such as pattern analysis of 
suspicious activity reports and in-depth reviews of 911 call 
logs. I would be interested to hear more about how these 
efforts are being conceived and about other analytical 
approaches that have been envisioned for the program.
    Before we hear today's testimony, I need to make one point 
to all of the members. While this hearing is taking place in an 
unclassified setting, most, if not all, of the specific cases 
handled by the DHS intelligence program at the State and local 
fusion centers are sensitive to national or homeland security. 
Therefore, discussions about specific threats or cases may need 
to be conducted in another setting, such as at our next 
quarterly classified threat brief, which we anticipate 
scheduling sometime in April.
    Under Secretary Wagner is our first witness. I will ask you 
to summarize your written testimony in a 5-minute statement, 
followed by you, Captain Harris, for another 5 minutes. Your 
entire written statements will be entered into the hearing 
record.
    Before we again, though, let me turn to the distinguished 
Ranking Member, Mr. Rogers, for his comments.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
           Opening Statement by Ranking Member Harold Rogers

    Mr. Rogers. Thank you, Mr. Chairman, and thank both of you 
for being with us today. We have a special welcome for Under 
Secretary Wagner, what marks her first appearance before the 
Subcommittee. Thanks to Captain Harris coming from Delaware to 
share insights on the State level.
    It is unusual for this Subcommittee to hold an open 
unclassified hearing on DHS's intelligence programs. But I 
believe today's hearing gives us the opportunity to thoroughly 
discuss what are perhaps our most important homeland security 
assets and that is leadership and information.
    First, leadership. Unfortunately, it took the 
Administration almost 13 months to get a confirmed Under 
Secretary at the helm of DHS's Intelligence Office, far too 
long for such a critical function. And while I am pleased to 
see that Ms. Wagner has been confirmed and is getting settled 
in at DHS, I am concerned that DHS's intelligence function may 
have lost some stature and credibility within the broader 
Intelligence Community during this extended vacancy, and that 
credibility within that community is altogether important as we 
have seen in the past.
    Simply put, leadership matters. Especially true for an 
office that relies so heavily upon its relationships with other 
agencies, agencies at the Federal, State, local, tribal, even 
international levels in order to be truly effective, 
relationships with agencies that have a history and custom and 
genetic inheritance of being secret with their information and 
unwilling to share with others.
    Secondly, information. Out of all the tools in our homeland 
security arsenal, information is perhaps the most valuable when 
it comes to disrupting potential terrorist activity. We need 
look no further than a contrast of the disrupted Zazi pilot 
versus the failed Christmas Day attack. In the Zazi case, the 
combination of solid intelligence and investigative work 
disrupted what could have been a horrific attack. However, in 
the case of the Christmas Day attack, information was not 
effectively shared, in my judgment, and the attack was thwarted 
by little more than luck and some dedicated American patriots.
    So when it comes to return on investment for our limited 
dollars, intelligence is where we get the biggest bang for the 
buck. But we have to get intelligence and information sharing 
right.
    From the Hart-Rudman Commission to the 9/11 Commission to 
the review of the Christmas Day attack, countless experts and 
leaders have recommended we significantly refine and hone our 
intelligence collection and dissemination capabilities and 
processes.
    So that brings us to today and a discussion of the 
resources we are investing in DHS's intelligence and analysis 
functions. And as the Chairman has rightly informed us, this is 
an open hearing, and I think probably the first we have had 
with the Intelligence section of DHS. So we will have to skirt 
around certain barriers in order to discuss the subject.
    In particular, we need to better understand the value added 
by these 72 State and local fusion centers, something I believe 
Captain Harris can speak to from the State and local 
perspective in particular.
    Considering the threat activity we continue to see both 
domestically and abroad, far too much is at stake for our 
intelligence functions to be anything less than focused and 
effective.
    Thank you, Mr. Chairman.
    [The statement of Mr. Rogers follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                       Statement by Caryn Wagner

    Mr. Price. Thank you. And we will now proceed first with 
Under Secretary Wagner.
    Ms. Wagner. Thank you. Chairman Price, Ranking Member 
Rogers and distinguished members of the Subcommittee, thank you 
for the opportunity to appear before you today to discuss the 
Fiscal Year 2011 budget request from the Department of Homeland 
Security's (DHS') Office of Intelligence and Analysis (I&A).
    This is my first congressional testimony as the new Under 
Secretary. I am honored to have the opportunity to lead this 
critical component of the Department, and I look forward to 
working closely with this Committee and the Congress to keep 
our homeland secure.
    I&A is charged with leading the Department's efforts to 
provide intelligence and information in a useful form to state, 
local, tribal, private-sector and federal partners and with 
getting functional intelligence and information to the national 
intelligence and law enforcement users.
    In other words, we are managing a constant, two-way flow of 
information. Our efforts support and enable the fulfillment of 
core DHS missions, as articulated in our recently completed 
Quadrennial Homeland Security Review, which was delivered to 
the Congress on February 1. For all those key departmental 
missions--preventing terrorism and enhancing security, securing 
and managing our borders, enforcing and administering our 
immigration laws, safeguarding and securing cyberspace, 
ensuring resilience to disasters--I&A provides intelligence 
support.
    Our activities are also aligned to the goals and missions 
of the Director of Intelligence's National Intelligence 
Strategy because I&A is also a member of the Intelligence 
Community. We also are aligned with the National Strategy for 
Information Sharing.
    And finally, the budget is also aligned with the priority 
areas that I mentioned in my 2009 confirmation testimony, when 
I was asked to provide a vision for the way ahead. My first 
goal was to support state, local, tribal and private sector 
partners; the second, to strengthen DHS intelligence enterprise 
and I&A support to DHS components; third, to mature and 
strengthen our analysis and our products; and fourth, to 
improve overall management and processes.
    My written statement for the record talks about all four of 
those, but because today's hearing is mostly focused on state 
and local fusion centers, I am going to focus on that in my 
oral remarks.
    We are continuing to expand the level of cooperation and 
information sharing with our state, local and tribal partners 
by a robust network of intelligence and law enforcement 
agencies participating in the state and local fusion centers. 
Secretary Napolitano directed then-Acting Under Secretary of 
Intelligence and Analysis Bart Johnson to conduct a study on 
the best ways to create a Joint Fusion Center Program 
Management Office (JFCPMO) that would support information 
sharing and would leverage all of the elements of the 
Department on this very important issue.
    The Secretary asked for a recommendation on the feasibility 
and structure of this, and it is due to her by March 6. It is 
completed and in her office, and we hope to get back to you on 
that soon.
    The Department is also working on how the pending JFCPMO 
will align with the White House's direction that DHS, in 
cooperation with the program manager for the information-
sharing environment, be the lead agency for establishing a 
national fusion center program management office. So we are 
working on that as well.
    Fusion centers are a proven and invaluable tool for the 
Department to work closely with our state, local and tribal 
partners. To leverage these capabilities, we have 57 
intelligence officers and fusion centers nationwide, with a 
plan to deploy a total of 76 by the end of 2010.
    We have also installed the Homeland Security Data Network 
at 33 fusion centers, with plans for more.
    Most recently, fusion centers have been used for passing 
and sharing information from I&A, in cooperation with the 
Federal Bureau of Investigation (FBI), to the centers regarding 
the Najibulla Zazi and Umar Farouk Abdulmatallab investigations 
and arrests. In fact, the Colorado Information Analysis Center 
provided very important support to the FBI during the Zazi 
investigation.
    In addition, the Washington Fusion Center played a key role 
in development of a multi-seal threat assessment for the 2010 
Winter Olympic Games in Vancouver, British Columbia, Canada. 
I&A had analysts assigned to the Joint Operation Center in 
Washington State during the games who were responsible for 
working with the fusion center, the Royal Canadian Mounted 
Police and federal partners for monitoring information and 
intelligence. That was a great collaborative state, local and 
federal effort.
    I want to address a little more specifically, despite the 
fact that the annual numbers are classified, how the 
President's 2011 budget submission is going to support our 
program and enable us to make progress. The 2011 budget seeks 
to continue our commitment to the fusion center network by 
providing us with funds to complete representation to all the 
fusion centers across the country. It will allow us to deploy 
additional intelligence analysts and reports officers and 
secure communications to all 72 currently operational centers 
and to assign 10 regional directors to oversee I&A fusion 
center support activities in the respective regions. The 
request will also allow us to continue providing classified 
information awareness training to fusion center personnel who 
access sensitive federal information and to expand our current 
program to provide privacy and civil liberties awareness and 
protection training.
    I am encouraged by Congress' continuing support of the 
Department's program to support fusion centers. I look forward 
to working with you to fund the program in 2011 to meet both 
the President's goals and objectives and the key statutory 
requirements. As we continue to work with the fusion centers to 
mature their capabilities and ensure they are well-trained in 
analytic trade craft in the protection of privacy, civil rights 
and civil liberties, I&A will continue to advocate for 
sustained funding of the fusion centers as the linchpin of the 
evolving Homeland Security Enterprise.
    I want to convey to you my personal sense of commitment to 
ensuring that DHS and its partners have the intelligence 
capability to address all threats to the homeland while 
performing their missions and upholding the rule of law. The 
President's budget request will enhance Departmental 
intelligence capabilities to mitigate the complex and dynamic 
threats that we face, while also protecting the privacy, civil 
rights and civil liberties of the American public.
    Thank you for the opportunity to appear before you today to 
testify on I&A's current activities and the budget request, and 
I look forward to your questions.
    Mr. Price. Thank you very much.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                  Statement by Captain William Harris

    Mr. Price. Captain Harris.
    Captain Harris. Good morning, Chairman Price, Congressman 
Rogers and members of the Subcommittee. Let me begin by saying 
I appreciate the opportunity to appear today to discuss our 
Nation's security as it pertains to Federal, State, and local 
government efforts, specifically fusion centers.
    My name is Captain Bill Harris with the Delaware State 
Police and I am a 29-year veteran of the State Police and the 
commander of Delaware's Fusion Center. I also chair the newly 
formed National Fusion Center Association's communications and 
outreach committee. The national fusion center association is 
focused on continuing to develop positive and sustainable 
relationships with DHS, DOJ, ODNI, the Program Management 
Office of the information sharing environment, based on 
collaboration and information sharing.
    I am honored to testify today with Under Secretary Caryn 
Wagner of the Department of Homeland Security Office of 
Intelligence Analysis. The Office of Intelligence Analysis has 
been an integral partner in the successful effort, assisting 
our jurisdictions in establishing a national network of fusion 
centers. Fusion centers embody a core collaboration and are an 
extremely efficient tool to maximize our available resources.
    This concept serves as a force multiplier to local and 
rural agencies that would not normally have the resources to 
receive or analyze intelligence information relative to their 
geographic area. Fusion centers have only been in existence 
over the last 5 years, and many have success stories to share 
that benefit their local jurisdictions and support our Federal 
goals.
    The concept of a fusion center is predicated on 
collaboration. The relationship between fusion centers and the 
Department of Homeland Security is one of partnership and 
consensus. That relationship has very much improved since the 
concept began. The future success of a national network of 
fusion centers is a shared responsibility. And it is dependent 
upon the combined efforts of Federal, State, local, tribal and 
territorial partners.
    I would like to take a moment to thank principal Deputy 
Under Secretary Bart Johnson for his leadership this past year. 
Colonel Johnson and his staff are a great asset to the fusion 
center network and are responsible for implementing many of the 
improvements fusion center directors have seen over the last 
year.
    The following are some support fusion centers are receiving 
from the Department of Homeland Security to enhance our 
operational capacity and support our sustainment: the creation 
of a Joint Program Management Office between DHS and DOJ to 
coordinate and support our fusion centers; the creation of a 
National Suspicious Activity Reporting Program Management 
Office residing in DOJ, but working closely with DHS; the 
development of a fusion center commander's course with ODNI and 
input from the fusion center directors; enhancing training on 
privacy and civil liberties protections, with regional 
workshops and added provisions to the Homeland Security Grant 
Program guidance; facilitating more than 700 State and local 
security clearances to enable enhanced classified information 
sharing between the fusion centers; training and technical 
assistance by providing 15 services to enhance fusion center 
operational capacity--49 of these were provided last year for a 
total of 184 to date; direct field support to fusion centers by 
assigning 57 intelligence officers to enhance our center's 
capacity and competence; commitment to sustainment by 
prioritizing fusion centers in the 2010 Homeland Security Grant 
Program guidance; deploying 33 Homeland Security HSDN Systems 
with SIPERnet to fusion centers for an exchange of classified 
information; deploying HSIN, SLIC, the State and local 
Intelligence Community, which is a nonclassified information 
technology exchange system that complements such systems such 
as RISS, which are vital to State and local enforcement.
    In speaking with my colleagues recently, the overwhelming 
concern of their fusion center operations is sustainment. 
Currently, most fusion centers depend on Federal Government 
support for continued operations.
    In direct relationship to the fusion center sustainment 
problem is the current language within the SHSGP and UASI grant 
guidance in which 25 percent of the funding to the jurisdiction 
must be designated to law enforcement terrorism prevention 
activities. The wording of this language is found to be 
universally detrimental to the sustainment of fusion centers.
    After meeting with my peers last week at our semiannual 
Fusion Center Directors Meeting, along with representatives 
from the IACP and the Major City Chiefs Association, we 
unanimously agreed to support the reestablishment of the Law 
Enforcement Terrorism Prevention Program as a funded grant 
program rather than an allowable activity under SHSGP and UASI 
programs. This would ensure that moneys designated by the 
Department of Homeland Security for the sustainment of fusion 
centers would go directly to the fusion centers and not other 
areas considered ``related'' to law enforcement activity. Law 
enforcement and the mission of prevention and protection 
continue to be the only public safety and homeland security 
mission not to receive dedicated funding from Homeland 
Security.
    As a Nation, we continue to spend billions and billions on 
response and recovery missions while funding for dedicated law 
enforcement prevention and protection at the State, local and 
tribal level continues not to be funded.
    I thank you for your time this morning and the opportunity 
to discuss our Nation's national network of fusion centers. On 
behalf of the National Fusion Center Association, we look 
forward to continuing our work with you and your staff to 
enhance and sustain this critical prevention and protection 
mission.
    Mr. Price. Thank you very much.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
 PARADIGM SHIFT BETWEEN THE DEPARTMENT OF HOMELAND SECURITY AND FUSION 
                                CENTERS

    Mr. Price. We will proceed to questions now. And I will ask 
the first one, kind of a three-part question directed to both 
of you.
    At the recent National Governors Association meeting, 
Deputy National Security Adviser Brennan and Secretary 
Napolitano hosted a panel discussion about State and local 
fusion centers, as you probably know. Mr. Brennan discussed how 
information sharing between Federal Government and the States 
has improved since 2002 but noted that ``We still have a long 
way to go.'' Secretary Napolitano said that the country needs a 
``paradigm shift,'' as she put it, to improve communications 
between the Federal Government and State and local law 
enforcement.
    So under Secretary Wagner, Captain Harris, would you agree 
in general and in particular that there is still a lot of work 
to do, and how would you get specific about what that work 
consists of? What are the deficiencies you see in communication 
and the correctives that might be undertaken?
    Under Secretary, what is the Department's plan for 
implementing this paradigm shift? First, what exactly do we 
mean by it? And, second, what is it going to look like, 
implementing a paradigm shift in communications between DHS and 
the fusion centers? And, Captain, I would appreciate your 
elaborating more fully on the two or three changes you would 
focus on that would most improve the work done by the fusion 
centers.
    You have indicated the need for dedicated funding. Yet, it 
is true, isn't it, that despite the flexibility of funding, 
every State has in fact established a fusion center. We have an 
additional, what is it, 22 or so fusion centers established 
under UASI grants. You might want to sharpen that 
recommendation a bit, and of course we would be receptive to 
any other specific suggestions you would have for improving 
this program.
    Under Secretary, let me start with you.
    Ms. Wagner. Yes, Mr. Chairman. I believe that the paradigm 
shift being discussed has to do with the fact that the 
Intelligence Community for many, many, many years had a foreign 
intelligence focus. Only relatively recently in the span of a 
bureaucratic life, it has had more of a homeland focus as well.
    One of I&A's main responsibilities is to be a translator of 
requirements for the Homeland Enterprise to the Intelligence 
Community in order to get better support and to leverage those 
capabilities in a way that can be shared with the local, tribal 
and urban areas. We are working very hard on that.
    For many years, I know many of you have been familiar with 
the extraordinary support that is provided to military forces 
when they are deployed in harm's way. We are trying to instill 
a paradigm shift to that same thought process at the same level 
of urgency for support to our Department when we are facing a 
heightened threat to the homeland. And we are having some very 
fruitful dialogues on what that would mean. But there is, I 
think, still work to be done, and we are actively engaged with 
our partners on how we can do a better job thinking about 
articulating the homeland requirements, making sure they are 
factored into the kinds of analytic work the Intelligence 
Community is doing and thinking more about tearline reporting 
for information that is less classified, so we are more able to 
send that information to the folks who can actually use it if 
we translate it into actionable information.
    So I would tend to think that is what they meant by 
paradigm shift, and there is a lot of work going on in that 
area, but I would agree there is still work to be done.
    Mr. Price. Captain.
    Captain Harris. Thank you, Congressman. I have my own 
opinions on the paradigm shift, based upon my interaction with 
my colleagues from the National Fusion Center Association. The 
paradigm shift is a natural change, if you will. The Federal 
Intelligence Community works differently from the law 
enforcement criminal Intelligence Community. They both have 
separate sets of rules that they have to abide by, and that is 
the right thing to do.
    But as these two different communities merge together, 
there is a paradigm shift with understanding each other's 
culture, each other's rules, and how information is handled and 
transpired back and forth.
    Some of the things I would recommend are not only on the 
Federal Government's side, sir, but also on the law enforcement 
side. Fusion centers, the people in fusion centers and law 
enforcement, have to understand what the Intelligence 
Community's rules are, just like the Federal community has to 
understand what State and local rules are. And we have seen a 
bit of a rub there over the years. I will preface this with 
saying over the last year it has been excellent, absolutely 
excellent. But how could this improve? Well, with better 
understanding on the Federal side, such as expansion of the DHS 
fellowship program to get more State and locals into DHS to 
find--so they can understand--the people within the Federal 
Government can understand the relevancy to what State and 
locals want, to create opportunities for State and local 
partners to work hand in hand.
    Just like we have Federal partners in our fusion centers, 
we have intelligence officers assigned to the fusion centers, 
more State and locals assigned within DHS to show what our 
particular needs are, depending upon our geographic location 
and depending on our particular law enforcement needs, or 
public safety I should say. It is broader than law enforcement, 
public safety needs are.
    As you talked about dedicated funding, Mr. Chairman, fusion 
centers are a recommended prioritization in the 2010 Homeland 
Security Grant Program. Currently as exists, the language says 
that the money for law enforcement should be spent on law 
enforcement ``activities.'' The SAA of each State has the 
opportunity to play with that money as they see fit, and 
classify or--``classify'' is a poor choice of words, but put a 
program that says it is a law enforcement activity, but really 
does not add to the fusion center or maybe even law 
enforcement.
    And I can give you an example of that. The National 
Strategic Stockpile. We have an acronym that is called NEAC for 
neighborhood emergency disbursement of those particular drugs. 
Because law enforcement provides security to those NEACs, that 
is considered a law enforcement activity which takes money away 
from our fusion center. So that is just to give you one short 
example of that.

 DIFFERENCES BETWEEN THE JOINT TERRORISM TASK FORCES AND FUSION CENTERS

    Mr. Price. We no doubt will want to return to the question 
of variety, the diversity of fusion center operations we see, 
and the extent to which that flexibility is desirable, as 
opposed to more specificity as to funding priorities from the 
Department.
    Let me quickly ask you to both comment, though, on a 
problem I think is inherent in the discussion we are having, 
and that is the discussion of how we measure effectiveness.
    The effectiveness of intelligence programs is notoriously 
difficult to measure. I will stipulate that. And it is also 
very unclear whether, if a fusion center weren't there, what 
the normal existing relationships would look like and what they 
would amount to. Would existing relationships between Federal, 
State and local authorities have comparable results? In other 
words, what is the value added? What is the value added for the 
fusion centers to our country's counterterrorism efforts? How 
specific can we be about this? And how can we measure it, what 
thoughts do you have about measuring it? And, of course, with 
measurement comes some kind of assessment about duplicative 
efforts. Redundancy is not always a bad thing, but nonetheless 
we need to know to what extent we are duplicating other efforts 
such as the Joint Terrorism Task Forces and how do you 
calculate that.
    Ms. Wagner. First, I don't think that we are duplicating 
the Joint Terrorism Task Forces (JTTFs) at all. The Joint 
Terrorism Task Forces are multi-agency but FBI-led groups 
focused specifically on investigations.
    The fusion centers have a broader mandate to look at all 
information, not necessarily restricted to a specific 
investigation. They have an analytic and information-sharing 
focus. And they are all hazards in many cases, not in all 
cases, because the fusion centers obviously are tailored to 
their local state needs, so they are not all the same. But in 
many cases, they are co-located with the JTTF and I think it is 
an excellent partnership, but they really are not doing the 
same thing.
    So I just wanted to put that out there. And I am sure 
Captain Harris can elaborate more.
    And I have gotten lost on what else I was supposed to be 
answering.

                MEASURING FUSION CENTERS' EFFECTIVENESS

    Mr. Price. The question of any quick thoughts on 
measurement. We can return to this topic as well.
    Ms. Wagner. And that, as you mentioned, Mr. Chairman, is a 
perennially difficult problem. Part of it is, I think, the 
fusion centers are part of a Homeland Security Enterprise we 
are trying to create that provides for readiness, preparedness 
and reaction. And having that capability, even if it is never 
needed (which, in most cases, we would prefer that it not be 
because we are reacting to a disaster or an attack), I think is 
fundamentally--it is just manifest, you need to do it, so we 
should do it. It has to be there; it has to be ready in case 
you do need it. And if you don't, then that doesn't mean that 
it is not valuable. And I understand that is a difficult point 
to accept, especially when you are trying to match resources to 
results.
    I think one of the ways to evaluate the successes of the 
fusion centers is to ask the states and the areas that they are 
actually supporting whether they believe that this construct is 
supporting their requirements. At the same time, we try to 
figure out ways to evaluate at the national level whether they 
are mutually reinforcing each other. We want to make sure that 
we have an opportunity for fusion centers to back each other up 
to make sure that we are looking at them from a regional 
perspective, which is why we are putting these regional 
directors in place.
    And I know that may not be as specific an answer to your 
question as you would like, but I think, in many ways, the 
metric is going to be subjective rather than objective because 
we are not always going to know when a fusion center--by virtue 
of the fact that it has created an excellent network of 
terrorist liaison officers down at the local law enforcement 
activities within the State and by virtue of the fact that we 
have alerted them to look for specific things--may have 
prevented something that you would never know has been 
prevented, just because the surveillance or the alertness of 
the first responders/preventers is such that people decide they 
are not going to try something; they are going to go somewhere 
else.
    That is the challenge with trying to gauge the 
effectiveness, but that is what we want. We want that network 
to be so pervasive in a legal way that people decide it is too 
hard to do what they want to do.
    And I would welcome Captain Harris's views on that.
    Mr. Price. Captain, briefly for now, and then we will 
return to this, but I would be interested in your thoughts.
    Captain Harris. A couple answers to a couple of the 
questions you had, sir.
    Fusion centers, what value would they be if they weren't 
there? As I said earlier, we act as a force multiplier and 
embody the core of collaboration, and we are able to supply 
local departments with information that they would not normally 
have.
    How do we measure our effectiveness? We are already working 
on that in this collaborative effort with DOJ, DHS, the Program 
Management Office for the Information Sharing Environment. How 
do we do this? With a group called GLOBAL. And we came up with 
the baseline capabilities for fusion centers. So there are 
documents out there that establish the baseline capabilities 
for fusion centers, and we have drilled down on those baseline 
capabilities.
    So to determine what value added we have, we are working 
with our partners at DHS on those baseline capabilities to put 
an assessment out. First, it will be a self-assessment for 
fusion center directors to see where they meet on that baseline 
capability, and to do a gap analysis of that baseline 
capability to see if there is a uniform area across the broad 
spectrum where we need to strengthen that particular area for 
the baseline capabilities. Beyond that, we have already planned 
to do an assessment by our peers where we would go out with DHS 
and other peers and assess outside centers, between the 
different centers, to see where they meet on the baseline 
capabilities and, in fact, start an accreditation program. So 
that would be your value added and that would be how you 
measure it.
    One of the other ways we are measuring is fusion center 
directors at our meeting last week, our national meeting, came 
up with some priorities for 2011. And those priorities are part 
of the baseline capabilities on concentrating on our ability 
to, one, receive classified and unclassified information; our 
ability to analyze that classified and unclassified 
information; find its relevancy to our particular geographic 
area of that information; and then the ability to disseminate 
it; who has the need for that information, whether it is any 
public safety agency, public health, emergency management, or 
the private sector, and to get feedback on that also from our 
stakeholders within our geographic location.

DIFFERENCES BETWEEN JOINT TERRORISM TASK FORCES AND OTHER INTELLIGENCE 
                                 GROUPS

    You asked about are we duplicating efforts with the Joint 
Terrorism Task Force? Mr. Chairman, I am here to tell you we 
are complementing their efforts. The fusion centers are working 
with the FBI's FIGs, the field intelligence groups. We work 
with the Baltimore FIG and in fact the south side of our area, 
the Philadelphia FIG. Our fusion center directly supports the 
Joint Terrorism Task Force in our jurisdiction. The FBI has 
recognized that, put assets in our center, they have put 
computers in our center, we have classified FBI computers in 
our center, along with members of the Joint Terrorist Task 
Force. So as far as duplicating efforts, sir, they are 
complementing each other.
    Mr. Price. Thank you, sir. Mr. Rogers.
    Mr. Rogers. I want to talk about how we balance the sharing 
of intelligence through the Department and fusion centers, how 
we balance the sharing of that intelligence without 
compromising ongoing investigations.
    The recent Christmas Day attack and also the Zazi case, 
both illustrate the problem that we have, in my judgment, and 
not surprisingly the FBI is very controlling about the 
information that they release for fear of messing up the 
integrity of a given investigation for a criminal charge.
    But at the same time, the protection of that information 
perhaps could cause real problems for other people; somewhat 
like when a fire company responds to a fire in the city, they 
have two responsibilities. One is to put out the fire in the 
particular building, and the second, perhaps more importantly, 
is to keep the fire from spreading to other locales.
    Well, I think the same thing could be true here. In the 
Zazi matter, a disrupted plot to detonate an explosive in New 
York City, perhaps the subway system, the arrest of Zazi 
revealed a plot involving multiple co-conspirators as well as 
portable IEDs to carry out apparently a very large-scale 
coordinated explosives-based attack. But due to the nature of 
the ongoing investigation, the FBI was unable to share a 
substantial portion of its initial findings, and that 
constrained DHS from widely disseminating potentially useful 
counterterrorism information to the SLFCs on the Christmas Day 
attack, which we all are very familiar about, again illustrates 
the delicate balance between pending investigative work and the 
need to disseminate vital homeland security counterterrorism 
information quickly. And the FBI's concern, of course, is 
ensuring the integrity of the criminal investigation, the case. 
However, the public need is to know whether or not there is an 
imminent danger to other people by the action that the person 
has initiated.
    So these two cases have engendered a national debate about 
which comes first. In the case of the FBI and the criminal 
investigation of a matter, as we saw in the Christmas Day 
attack, they are obligated to give Miranda warnings under our 
law. And when you tell a defendant you have the right to remain 
silent and have an attorney present, there goes the capability 
to investigate for further damage.

              INFORMATION SHARING DURING AN INVESTIGATION

    What do you think about this? Where do we go, Ms. Wagner?
    Ms. Wagner. Well, obviously, DHS has to work very closely 
with the FBI, and this is an area of ongoing and constant 
dialogue. You are correct. There is a natural tension between 
the FBI's desire to protect the information that is arising 
from an active investigation and DHS' mandate to share 
actionable and useful information with its state, local and 
tribal customers.
    We are working through the best way of doing this. DHS has 
to make a case that the information it wants to share is in 
fact actionable. It has to be beyond just ``people want to 
know.'' It has to be that it can result in some actual 
constructive action being taken. We are continuing to work 
this. I won't say that it is completely resolved, and every 
instance is a little bit different. There was, however, quite a 
bit of information that was shared with the fusion centers in 
the wake of the Christmas Day bomber. I think there were at 
least five or six joint DHS-FBI bulletins that were put out 
within a day or two to share as much information as could be 
shared. This was discussed at the fusion center conference last 
week as well; because of the relationship of trust between the 
JTTF and Colorado Fusion Center, there was quite a bit of 
sharing of information in Colorado on the Zazi investigation, 
even though not all of that information could be provided more 
widely.
    So I view that as one of the missions on which I have to 
work with the FBI and refine our procedures. But it is always 
going to be--there will always be that tension. We will have to 
make the best of it.

             HIGH-VALUE DETAINEE INTERROGATION GROUP (HIG)

    Mr. Rogers. Apparently this administration has formed--I 
forgot the name of the units. HIG group apparently has been 
formed to rapidly rush to the scene of a Christmas Day-type 
arrest and be able to interrogate under our laws quickly to try 
to stave off any further damage to any airplanes or other 
locales. And yet, in the Christmas Day attack, apparently that 
group was not consulted. In fact, I think the Secretary of DHS 
said she was not consulted.
    Ms. Wagner. That is correct.
    Mr. Rogers. It was strictly an FBI operation, which I find 
to be questionable. Why was not this unit called in, and is 
that the way to go?
    Ms. Wagner. I believe that the unit was still in the stages 
of being formulated. There are discussions ongoing about how 
that would work and what DHS' role would be. We believe it 
would be logical that we would participate in a High-Value 
Detainee Interrogation Group when there is a major homeland 
component.
    Mr. Rogers. And yet who knows where the next one is going 
to occur? This one happened over the skies of Detroit. 
Obviously the FBI has field offices all over the country. This 
HIG unit does not, obviously, and speed in getting to the site 
of the incursion and interrogating the suspect is all 
important. So what good is this unit which is supposed to be a 
combination of law enforcement and intelligence gathering, but 
with the capability to quickly interrogate a suspect? If you 
don't have that unit on the scene, what good is it?
    Ms. Wagner. All I can say is the unit is still being 
developed, the concept is still being developed and I think we 
will have to wait and see when we actually deploy it whether or 
not it is going to meet the expectations.
    Mr. Rogers. What are you going to do in the meantime?
    Ms. Wagner. I believe that it will be ready if it is needed 
again.
    Mr. Rogers. The HIG unit?
    Ms. Wagner. Yes, sir.
    Mr. Rogers. I will get back to my question. Is it going to 
be pervasive? Will it be in Detroit and LA and New York and 
Miami and all the places that the FBI is?
    Ms. Wagner. Sir, I believe the HIG is more focused on 
overseas threats. But to be honest with you, I probably don't 
know enough about it to give you good answers, so I will be 
happy to take that for the record and come back and talk to you 
in more detail. I don't want to misspeak.
    [The information follows:]

    Response: The High Value Detainee Interrogation Group (HIG) 
is an interagency group, but is administratively housed within 
the Federal Bureau of Investigation (FBI). The classified 
``Charter for Operations of Interagency High Value Detainee 
Interrogation Group'' was signed by National Security Advisor 
General Jim Jones (Ret.) in late January. Further details can 
be provided in a classified briefing from the appropriate 
interagency players.

    Mr. Rogers. Mr. Harris, do you have any thoughts?

              INTELLIGENCE SHARING DURING AN INVESTIGATION

    Captain Harris. Yes, I do Congressman Rogers. That is a 
very interesting question and one that I have a strong opinion 
on: How do we balance sharing of intelligence information 
without compromising ongoing investigations?
    Well, I am a career investigator, sir, 29 years with State 
Police and just about all of it in criminal investigations, 
with the last 9 being in criminal intelligence. I am in the 
unique position to supervise not just our fusion center, but 
co-supervise our Joint Terrorism Task Force in Delaware with 
the FBI. And it is a very good partnership, I can tell you, 
sir.
    I will be the first to tell you there are things that the 
FBI does not do well with State and locals. But I can tell you 
in the cases that we are talking about here, they are an 
excellent partner with us.
    The FBI is in a unique position that they are the 
investigative authority on these things, along with the State 
and locals that partner with them on these investigations. You 
are absolutely right; it could compromise an ongoing 
investigation.
    I will go back on the Zazi case and give you a specific 
example of how it worked with the fusion center in Delaware and 
other fusion centers. First let's take the CIAC in Colorado. 
The CIAC provided information support to the FBI--and if you 
look at in my written testimony, it will tell you how they 
provided support to the FBI in that particular case. As that 
investigation was unfolding, we went to our FBI partners, 
because it was an ongoing investigation and still unraveling at 
that particular time, to find its relevancy to our geographic 
location.
    If you remember, sir, not just subways were involved, but 
there was a hint that stadiums may be involved in these types 
of attacks. Well, in Delaware that weekend, we were getting 
ready to host the largest sports venue in the United States 
that particular weekend, NASCAR, which I know both of you have 
in your States. And I turned to the FBI for information on that 
particular case. I was given exactly what I needed as the case 
was unfolding; not all the investigative details, sir, because 
they weren't relevant to what was going on in Delaware. I felt 
comfortable if they were relevant to Delaware, I would have 
them.
    I then turned to my FBI counterpart and asked him to 
participate in two conference calls, one with the security 
people from NASCAR, and two with the police chiefs from 
Delaware, and we put all concerns aside. However, we got the 
information, relative information, not all the investigative 
information, because we didn't need it in that particular 
investigation.
    I disagree with some of my counterparts in fusion centers. 
I have heard some of them say we didn't have the information 
from DHS. It wasn't relevant to them. If it was, they would 
have it just like the CIAC in Colorado had it, sir.
    The FBI needs to support fusion centers like DHS does. Not 
every fusion center has FBI terminals in them. Not every fusion 
center has FBI analysts in them. The FBI has told us that they 
are going to do that, but they fall way behind the Department 
of Homeland Security. And to be honest with you, sir, they are 
the underdog in this, because the FBI has investigative 
authority with that on those investigations. We get classified 
information every day on HSDN through the NCTC daily report, 
and I can tell you through DHS we get information routinely on 
what might be an IED threat and where that IED threat might be, 
what type of infrastructure and what type of precursor 
activities to look to.
    Mr. Rogers. I know we are under a timeline here and I will 
come back to this at a later time. However, I have not heard an 
answer to the question: How do we balance intelligence sharing 
without compromising a criminal investigation, and whether or 
not we ought to focus not on the criminal investigation of a 
defendant, a suspect, but focus on the dissemination of 
intelligence that is gathered outside the scope of the FBI's 
criminal case? We will come back to that.
    Mr. Price. Thank you. I want to turn to Mr. Ruppersberger 
who has been here from the very beginning, and we I think will 
have time to get his questions in before we adjourn. But then 
we will return after the votes. We have a series of votes on 
the House floor. Mr. Ruppersberger.

                             CYBER SECURITY

    Mr. Ruppersberger. First, Caryn, congratulations on your 
new job. We have worked together on Intel. You did a great job 
there. I am glad you have taken Charlie Allen's job, because 
you need somebody in the Intelligence Community to coordinate 
all the things that are happening in our homeland.
    I want to talk you about cyber. I talked to Secretary 
Napolitano when she was here, and also the person in the head 
of appropriations about how we are going to--how Homeland 
Security is going to handle the cybersecurity. The Homeland 
Security has a real, real large mission, as you know. The 
President's directive says you are responsible for dot.com and 
all government, and a lot of what we do in cybersecurity is 
technology. And we know the threats are there with Russia and 
China. We are getting attacked every day, our commercial 
companies are getting attacked, and it goes on and on and the 
public really does not understand where we are.
    The first thing as far as technology, we have spent a 
tremendous amount of money in the Intelligence Community, 
mostly with NSA, to develop technology to deal with the issue 
of cybersecurity. And you are well aware of the programs that 
are there and as they have evolved. Right now Homeland Security 
is standing up what we are going to do in cybersecurity.
    And I want your opinion on how you are going to be working 
with NSA. We don't want to duplicate effort. We spent a 
tremendous amount of money. We don't want to again lose that 
money. And we want compatibility, because if we are going to 
work together not only within our own government but also 
internationally, this is something we have to deal with, that 
we should be working together and be compatible.
    You know the issue with the FBI to this day. They still 
don't have a communication system that works, yet they probably 
could have picked an NSA or CIA communication system that was 
up and working. And I will use that as a example to make sure 
this doesn't happen here.
    How are you going to be involved? What is your involvement? 
What is your opinion on working with the NSA programs that have 
evolved? And, as you know, the President just declassified 
Einstein-3. We can talk about that now. Einstein-3 is a 
software program that is moving ahead. Can you give me your 
opinion on where you are on that?
    Ms. Wagner. I can. Thank you, Congressman Ruppersberger. 
Again the technology piece does not fall under me. I expect 
that----
    Mr. Ruppersberger. You have input, though.
    Ms. Wagner. And I will be teaming very closely with Phil 
Reitinger, who is the head of cyber within the National Program 
and Protection Directorate under Rand Beers.
    What I hope to do is forge a very close relationship with 
the rest of the Intelligence Community to improve the analytic 
support underpinning DHS' cybersecurity operations. Similar to 
how we operate in the realm of critical infrastructure 
protection, I&A provides the threat to critical infrastructure, 
and NPPD does the vulnerability analysis; we work together to 
get the information to our private-sector and state and local 
customers.
    I think we need to do the same thing in the cyber arena, 
but we need to improve our ability to categorize the threat, 
figure out better what we can share and work with the 
Intelligence Community on the issue of attribution, which, as 
you know, is a huge challenge in terms of who is attacking you, 
and why, so that you can take appropriate measures. We don't 
have a very big analytic effort devoted to this right now, and 
it is one of my priorities to increase that. I am already 
working on trying to do that and teaming with the folks at 
National Security Administration, Defense Intelligence Agency 
and Central Intelligence Agency who are already working on 
this.
    Mr. Ruppersberger. Well, this Committee is an 
Appropriations Committee on Homeland Security, so we are in a 
unique position to make sure we can oversee what program we are 
moving ahead so we don't waste money, to make sure we go where 
we need to go.
    The fusion centers are something very positive, not only 
JTTF, but fusion centers, bringing all the State and local with 
all the disciplines together is probably one of the main 
reasons we have deterred a lot of attacks.
    You know the issues that have occurred in Colorado and 
wherever we go, because more and more I am sure we estimate or 
that we are concerned about home-grown terrorists that are 
getting more involved.
    So it is good to see Delaware--I am from Baltimore--I am 
glad you are working with the Baltimore Fusion Center, but we 
need to do this all over the country, and I think they are 
doing this very well.
    So I think we have votes.
    Mr. Price. We do indeed, but we will return so, adjournment 
is only temporary. We hope to return around 11:30. Thank you.
    [Recess.]

                     FUSION CENTER STANDARDIZATION

    Mr. Price. The subcommittee will reconvene, with apologies 
for the delayed time on the floor. We will do one further round 
of questions with Mr. Rogers and myself and try to adjourn not 
too much after the appointed hour, maybe around 12:15.
    Let me ask you both, starting with you, Madam Under 
Secretary, about the DHS requirements for fusion centers, and 
also ask you for some thoughts about State and local fusion 
center configuration.
    But, first, the question of direction and standardization 
for the centers. Fusion centers primarily exist to fulfill the 
needs of States or localities. We know that. We understand 
that. DHS has made little effort to date to standardize 
processes or methods, understanding there is a diversity of 
centers and functions. That doesn't mean we haven't heard some 
complaints that DHS sometimes imposes a significant 
bureaucratic reporting burden on the fusion centers.
    And so, Madam Under Secretary, what responsibilities do you 
impose on the fusion centers? Have you given any thought to the 
further imposition of standardized policies or methods at the 
fusion centers? Has there been, on the other hand, any kind of 
review of reporting requirements or other requirements that you 
impose on the centers to make sure that they are really needed 
and that the effectiveness and flexibility of the centers is 
not being diluted?
    And then, Captain Harris, obviously you are in a position 
to comment on this as well. Do you believe the requirements 
imposed on the fusion centers are optimal, too much, too 
little, or something of a mix?
    Madam Under Secretary.
    Ms. Wagner. Well, as Captain Harris mentioned earlier, 
there is something called the baseline capabilities for the 
fusion centers that was established, to help establish a level 
playing field, if you will. As you said, Mr. Chairman, the 
configuration of the various centers is going to be different, 
depending on what the state wants and what the local 
environment needs.
    But we are trying to make sure that, for things like 
reporting of information that might be of interest to the 
national community or doing analysis, there is a common set of 
standards of trade craft so that we are producing a useful 
product, and we are doing so in a constitutional manner and 
with respect for privacy, civil rights and civil liberties.
    So we don't levy--I don't believe, and it will be 
interesting to hear what Captain Harris says--a lot of 
requirements on the centers in the sense of tasking. What we 
are trying to do is work with them to achieve a mutually agreed 
upon set of standards, and, as he also mentioned, to put in 
place a mechanism for the centers to self-assess themselves--
how well are they doing in ensuring that the information is 
collected properly, is handled correctly, is reported 
correctly, and so on.
    So I think it is really more of a partnership. I am not 
aware that we are levying a lot of requirements on them. But 
again, I look forward to hearing Captain Harris' perspective 
there.
    In terms of the configuration, what we want to do is work 
with the centers to understand what their requirements are so 
that we can put together a multiyear strategy to achieve that. 
In some cases, you know, we want to have at least one DHS/I&A 
person at each of the centers. And, in some cases, there may 
also be a need for an individual from a component like TSA, 
CBP, ICE or the Coast Guard. We want to work with the fusion 
centers, understanding that everybody has a lot of requirements 
and not as much manpower as they want, but we want to 
understand those requirements and put together a plan for what 
our desired end state would be for the DHS footprint in the 
field. And we also want to understand what their requirements 
are for classified information and try to meet those as well.
    There are differing requirements or desires for classified 
information. We want to make sure that we are meeting those 
needs. So I think that is how I would respond. We are 
interested, of course, in maintaining situational awareness of 
how the centers are progressing toward these agreed-upon 
capabilities. In that sense, we do expect them to update us 
periodically. But I am not aware of a lot of burden of 
reporting requirements, and maybe I will turn it over to 
Captain Harris and see if he is going to surprise me.
    Mr. Price. Captain.
    Captain Harris. Mr. Chairman, first let me comment on the 
requirements of fusion centers. The Under Secretary spoke about 
the baseline capabilities of fusion centers. We established 
that about a year and a half ago. We are going further into 
that with--again, it is a partnership with ODNI and DHS to 
drill down on those baseline capabilities requirements, that 
self-assessment that we are doing. And then we are going to do 
a peer-to-peer, and we are going to do an accreditation, if you 
will, for fusion centers, to make sure that they are meeting 
that standardization, if you will, because each fusion center, 
as you know, Mr. Chairman, is unique to its jurisdiction. 
However, there should be some standardization for what we do.
    One other thing I want to comment on is that DHS has worked 
very well with us on the training and technical assistance on 
that to bring us up to speed. Again, 15 different areas that 
they offer services to us now.
    One thing that we are working hard on at DHS is it is 
important for us to have the analysis component to make it 
relevant to our stakeholders in our specific jurisdictions. So 
DHS is working with us now on a common core of competencies for 
our analysts, and actually there is a draft form of that out 
right now. And they are working with us on that common core of 
competencies so we can make the information that we receive 
from the Federal Government relevant to our stakeholders in our 
particular jurisdiction.
    And asked about and tasked with information, I can speak on 
behalf of DHS/I&A; we are not tasked with anything. The only 
thing we are tasked for is they ask us what our priority 
information needs are. And we have done that in our specific 
jurisdiction. We do a poll of all the chiefs, we do a poll of 
the law enforcement, public safety, which is a broader-than-
law-enforcement spectrum, to include public health and 
emergency management, what their priority information needs 
are, and we feed that back to DHS and get that information 
through I&A. So to state that we are being asked for too much 
information is not necessarily relevant on the INS side.
    I can tell you where that comes into play, sir, if you have 
heard that. It is on the critical infrastructure key resource 
side. Annually in our fusion centers, some of them have CIKR 
responsibility, some of them don't. It depends on the 
jurisdiction. I would say most of them do, because the threat 
is certainly relevant to the critical infrastructure in your 
jurisdiction, so it makes sense to have them together.
    Where you get that question posed to you on information 
asked from DHS is from the critical infrastructure key 
resources. They have data calls every year asking State and 
local jurisdictions to gather information on their critical 
infrastructure, and then it is tiered at four different levels. 
We run into problems with State and locals on how they define 
that oftentimes, how they measure the criticality of those 
particular sites, and a timely return on that information that 
we get back so we can start the process of what would be target 
hardening, if you will, of those particular sites.
    And I will give you a specific example. In Delaware, we 
hold a site that is a redundancy for the New York Stock 
Exchange, an IT center if you will. But because there were at 
least two more IT centers for redundancy of that New York Stock 
Exchange, that necessarily wasn't considered a Tier 2 site 
because there were two more in place. Well, if none of them are 
considered a Tier 2 site, then what is the risk on that 
particular site and all three of those sites, if you will?
    Mr. Price. And what is your complaint exactly about the way 
that was handled?
    Captain Harris. Well, the complaint is if none of them 
are----
    Mr. Price. No, I understand the complaint about the 
designation. But in terms of the fusion center-DHS 
interaction----
    Captain Harris. The interaction is how they classify or how 
they--I don't want to use the term ``classify,'' but how they 
determine the different sites of Tier 1, Tier 2, 3 and 4, and 
the turnaround for that information back to us.

                        FUSION CENTER LOCATIONS

    Mr. Price. I see. Well, let me ask you briefly to focus on 
configuration in a different sense; that is, the spread across 
the country of these centers. The program has grown 
significantly over the last 4 years. We now have 72 centers 
across the country. Each State has its own and there are 22 
UASI cities with centers as well. It does raise the question as 
to on what basis we are locating these centers and prioritizing 
them.
    I think when you look at the spread of the 50 States and 
you think particularly about the situations of these UASI 
cities, it is manifestly clear what both of you have said, that 
not every center is going to look the same, not every center is 
going to be dealing with the same kind of information or with 
the same quantity of information to process.
    I suppose there is a kind of targeting going on here in 
that the UASI centers represent a particular kind of city, a 
particular kind of threat configuration, and so there is a kind 
of de facto risk-based allocation of center resources, because 
some of them are going to UASI centers. But there is a bias in 
the system toward universality, toward comprehensiveness, 
toward covering all 50 States.
    Moreover, there have been reports in the media and other 
sources that we are becoming more comprehensive in the sense of 
responding to all hazards as well, not just the threats of 
terrorism.
    So my question has to do with the question of spread and 
comprehensiveness versus concentration. Again, that sounds 
theoretical, but actually it is a very practical question as to 
whether we have the optimal distribution of these centers now 
and the kind of optimal focus. Does it make sense to have one 
in every State? Should we be concentrating more in this 
activity on some of the high-risk areas? Any thought of 
combining centers in a regional approach or to focus on high-
threat areas? What would you say about this general question I 
have raised?
    And then, Under Secretary, if you could also elaborate 
whether there are some centers that do focus in a way different 
from others on the most significant threats to the homeland. 
What about the all-hazards approach? How are you thinking, 
longer term, that we want to allocate DHS resources, given the 
fact that we can't do everything, everywhere,
    Ms. Wagner. Mr. Chairman, we basically defer to the states 
on where they want to have their fusion center. And I think 
you--maybe it was the Ranking Member--mentioned that some of 
these actually predate the Department. The states have varying 
ways of organizing themselves, and the fusion centers 
frequently fall under different elements of the State 
government, public safety or law enforcement. So we are not 
really looking to standardize in that sense because it really 
is up to the states to determine what they need, where they 
need it and how they are going to manage it. But the fusion 
centers do vary.
    Mr. Price. Yes, it is up to the States, given the way this 
program has worked. And I am not questioning that there needs 
to be that kind of flexibility and some degree of deference to 
the State's own definition of its needs. But I am asking you to 
evaluate that and how well it works overall, and especially 
what the implications are for where DHS ought to offer its 
support and its resources.
    Ms. Wagner. We will do that in partnership with them. The 
fusion centers are in varying stages of maturity. Some of them 
are very mature, some are basically just being stood up and 
some are going to be quite small. And, as I mentioned earlier, 
we are going to be looking at what the appropriate DHS 
footprint should be.
    So we are going to work again with the states to try to 
sort of aim our resources where there is mutual agreement that 
they will do the most good. So, I think, the differences are 
going to be not so much in where they are--the geographic 
spread--but in the size and sophistication, if you will, of the 
centers, based on where more resources are needed.
    Mr. Price. Well, what about where the threats are more 
serious and more tangible and where there is more work to be 
done by the centers?
    Ms. Wagner. And that is part of the calculation.
    Mr. Price. Does the UASI-based funding of a certain number 
of these centers achieve that kind of de facto targeting? Is 
that the intent? Should that be the intent?
    Ms. Wagner. The 22 Urban Areas Security Initiative cities 
are the result of a combination of factors, of which threat is 
one. And that is the component that I&A is responsible for 
contributing into the process. And that also factors in, I 
believe, to the grant process for the fusion centers 
themselves. But there are a variety of factors that are 
considered. And I am happy to give you more information on that 
for the record if you want to know exactly how that has been 
done.
    Mr. Price. I think that would be helpful.
    [The information follows:]

    Response: The Urban Areas Security Initiative (UASI) 
eligibility determination and grant allocation process is 
administered by the Federal Emergency Management Administration 
(FEMA). The UASI formula is based on a 100 point scale, with 
20% based on threat, and 80% based on vulnerability and 
consequence. The factors reviewed include population, economic 
factors, national infrastructure index, and a national security 
index. Note that while FEMA provides preparedness grant funding 
to States and territories, determination of the amount of 
individual grant funding for fusion centers is made by both 
state and local governments.
    The initial level of DHS Office of Intelligence and 
Analysis (I&A) support to fusion centers will be uniform across 
all of the 72 centers. Each designated center will ultimately 
receive a deployed Intelligence Officer; Homeland Secure Data 
Network (HSDN) and the required secure facility build-outs to 
house the system; security clearance as appropriate; analytical 
as well as privacy and civil rights and civil liberties 
training; and technical assistance offerings.
    The sequence of deployment of this support package (i.e., 
which fusion centers were resourced first) was determined by a 
risk-based prioritization, as well as a consideration of the 
center's readiness to receive support. The legacy National 
Fusion Center Coordination Group, which included participation 
from the Office of the Director of National Intelligence, DHS 
I&A, the Department of Justice, and State and local partners, 
was integral in this decision-making process. The risk-based 
prioritization used 12 weighted factors: state population 
(10%), population density (5%), border risk (10%), critical 
infrastructure (10%), terror risk (10%), port risk (10%), 
immigration risk (10%), economic risk (10%), iconic value (5%), 
hazardous materials risk (10%), 2005 UASI grant funding (5%) 
and 2005 State grant distribution (5%).
    Decisions regarding additional resourcing of fusion centers 
beyond the standard package--e.g. deployed intelligence 
analysts or reports officers--are made using a similar risk 
based prioritization.

    Mr. Price. Captain.
    Captain Harris. Thank you, Mr. Chairman.
    Mr. Price. An abbreviated comment, and you too can submit 
further information for the record.
    Captain Harris. Okay. I particularly am happy to answer 
this question, because I come from a small fusion center. As 
the Under Secretary has said, there are some small centers. 
However, we don't underestimate our importance to this national 
network of fusion centers, sir.
    As you said in your opening statement by Joanie McNamara 
from LA, from the JREG, that it is going to be a State or local 
police officer that is going to come across someone in the act 
of precursor activities that is going to disrupt a potential 
event, or we have already been successful in doing that. 
Threat, sir, lies everywhere throughout the U.S. and was most 
recently seen in Colorado; how you have in rural Colorado, how 
that is a threat to New York City, and how those fusion centers 
are working together.
    Mr. Price. All right, thank you. Mr. Rogers.

                    INTELLIGENCE AND ANALYSIS' ROLE

    Mr. Rogers. Switching gears, I am confused about the role 
of Intelligence and Analysis at DHS. I don't know that we know 
what the role of I&A is now. Let me go into a little bit of 
history. When DHS was created, the Intelligence Office was 
envisioned at that time to be a hub fusion center for 
counterterrorism intelligence across the whole government. Then 
Secretary Ridge recognized that DHS was not mature enough at 
that point in time, in terms of staffing or capabilities, to 
take on that broad, urgent mission, and he deferred to the CIA. 
And that decision led to the creation of what is now called the 
National Counterterrorism Center, run by the CIA.
    And since the creation of that outfit, DHS has tried to 
focus its I&A office as a conduit between State and local law 
enforcement and the Intelligence Community.
    Now, the I&A's role has become very insular and very 
compartmentalized. And I am confused about where we are going 
and what is the purpose. Former Under Secretary Charlie Allen, 
when he had headed up this office, he was unique in that he had 
a special relationship with CIA where he had been working for 
50 years or whatever, as an encyclopedia area of intelligence. 
But he brought some heft and credibility to the office based on 
that experience and connections over the years, where he was 
able to wrest information from those agencies that he would 
then use in the I&A office to feed State and locals and others.
    But since Secretary Napolitano has taken office, she has 
stressed the domestic, State and local aspects of this office, 
and not intelligence work with other Federal or international 
Intelligence Community agencies, essentially taking the 
opposite tack of Charlie Allen. And as we learned in the 
Christmas Day and Zazi and other instances, FBI has 
sequestered, if you will, the intelligence from those types of 
activities and frozen DHS out of the chain of information 
essentially.
    So I don't know what the role now is of the I&A since we 
are not trying to focus, apparently, on bringing to this office 
the Intelligence Community information. And since we have the 
State and local fusion centers that are doing their thing, 
somewhat independently of DHS's supervision, what is the role? 
What are you supposed to be doing? You know, we have said we 
have to balance the flow of information amongst our State and 
local first responders, and infuse that operation with the 
international intelligence and national intelligence that we 
are sort of frozen out of at the moment. Can you help me?
    Ms. Wagner. I am actually very happy to answer that 
question because I think your background is very instructive. 
And, because there has been some uncertainty on exactly what 
mission space I&A should occupy, I have been giving that a lot 
of thought. We have, I believe, three major customer sets in 
I&A. The state, local and tribal set is only one. It is a very 
important one.
    The other set is the operational components of the 
Department themselves, making sure that ICE, CBP and so on have 
the necessary intelligence support; they are either doing it 
themselves or being supported to do their departmental mission.
    Our third customer is actually the Intelligence Community, 
and we do have some intelligence responsibilities and analytic 
responsibilities within that realm. Most of them, but not all 
of them, are going to be done in partnership with other 
elements of the community, and we have to elbow our way to the 
table a little bit to make that happen. But I intend to do 
that. And we are already working, I think, pretty well with the 
National Counterterrorism Center (NCTC) on those threats that 
are foreign-planned or conducted or have a strong foreign 
nexus. But whenever there is a homeland component, we are going 
to be participating and contributing to that analysis. We have 
unique sets of data to bring to bear on that problem from 
within our components, travel data in particular.
    We also have, potentially, information from our state, 
local and tribal partner that can be of use, and we are sort of 
a clearinghouse for all of that.
    We do have some unique analytic responsibilities in the 
area of threats to critical infrastructure, in cyber analysis 
and in travel analysis. In most other cases, we are going to be 
working collaboratively, again, when there is that strong 
foreign nexus with NCTC. When we have threats to the homeland 
that don't have that strong foreign nexus, we are going to be 
working with FBI. And we have some room to improve in building 
these partnerships, but I am going to make that a focus. I view 
my main responsibility as making sure that my customers who are 
trying to keep the homeland secure get what they need. And if 
that means we get it from someone else, tailor it, push it down 
in classification level and get it out, that is what we will 
do. If it means we have to produce it because no one else is 
producing it, then that is what we will do. So it is a 
combination of serving as a conduit and performing intelligence 
analysis.
    Mr. Rogers. Well, we have come a long way since the 
department was first conceived and enacted into being, from 
this office being, as I said before, the government center for 
the fusion of intelligence, State and local, Federal, national, 
international; and all of the intelligence agencies were to be 
in this office, and this was to be the office. Now that has 
washed away, and if this is a mere shadow of what the office 
was originally intended to be, I don't lay blame at anybody's 
feet. I am just asserting, I think, a reasonable fact.
    But I am struggling to try to find out what the role of the 
I&A office is, especially as it relates to the Intelligence 
Community and their willingness to share information with you 
and, consequently, our State and local partners. And, you know, 
the Federal agencies, the FBI and the CIA and the others, have 
a legal excuse, really, for not sharing information.
    The FBI, you know, obviously has to protect their sources. 
A lot of the information they collect is from Grand Jury secret 
investigations and that type of thing, which, by law, they are 
proscribed from sharing. CIA, of course, has to protect their 
sources and people who--and other means of intelligence 
gathering.
    But I do not see yet, to my great disappointment, the 
sharing of information between governmental agencies that is 
going to be required of us if we survive all of this. I just 
don't see it there. And for whatever reason, it is there, that 
fact is there, and I am sorry about it.

                 STATE AND LOCAL FUSION CENTER PROGRAM

    Let me quickly change gears. Fusion centers. In April 2008, 
GAO raised a lot of concerns about the connectivity, the 
direction, and the sustainability of the State and local fusion 
center program. Specifically, GAO found the fusion centers to 
be inconsistent and understaffed; that they lacked adequate 
information technology systems; that they were in need of more 
centralized direction. And then concerns have also been raised, 
and we have talked about that briefly here, about the 
duplication of efforts between the centers and the 65 Joint 
Terrorism Task Forces led by FBI. And I know that you have 
described the differences as you perceive between these two 
centers.
    However, that criticism still echoes around the walls from 
the GAO. And I know that you have submitted some examples of 
success stories, and we have read those. Essentially, though, 
those success stories, to me, reveal that the fusion centers 
are serving more of a law enforcement fusion role, rather than 
one of sharing true intelligence or threat information. That is 
needed, but it doesn't fit DHS's ambitions and purposes, in my 
judgment.
    Captain Harris, I think, has taken a fairly novel 
approach--I hope it is copied elsewhere--to the fusion of law 
enforcement and first responder info across the State of 
Delaware. As I understand it, Captain, you were able to pool 
together State and local funding to ensure that all the 
stakeholders procured, installed, and deployed and aligned the 
same information technology systems. You made them able to 
communicate with each other. And that helps to share 
information, obviously, which is the name of the game. But 
nevertheless, the fusion centers, in my opinion, are serving 
more of a law enforcement role and public safety function than 
an intelligence or threat identification role.
    Either one of you want to dispute that?
    Ms. Wagner. Well, I will echo something that I think 
Captain Harris said earlier, which is that the person who is 
going to potentially catch somebody who is trying to conduct a 
terrorist attack on the homeland is probably going to be a 
first responder or a law enforcement official. So it is in our 
best interest to look at the all-hazards approach because that 
is going to be, in many circumstances, our first line of 
defense. So I think, in some ways, it may be somewhat of an 
artificial distinction, and that is one of the reasons why we 
have been talking about the all-hazards approach as being a 
force multiplier for the intelligence, the Homeland Security 
Intelligence Enterprise.
    I don't know if Captain Harris has anything he wants to add 
there, but----
    Captain Harris. I do. Great question, Mr. Rogers. It is not 
surprising that the 2008 GAO report would state that for a 
number of these reasons that you bring up. And in 2000--well, 
first of all, I want to say thank you for the compliment on 
what we did in Delaware. But that was a collaborative effort, 
not just with me, a collaborative effort of all our law 
enforcement in Delaware to do that. As you know, 80 percent of 
that funding goes to local law enforcement jurisdictions, and 
we were able to build some consensus of doing this, what we 
felt was the right way, so every law enforcement officer, at 
their mobile data terminal, has access to all this information.
    Anyhow, in 2008, we did not have connectivity with the HISN 
State and local intelligence platform, if you will, the 
unclassified system that we use; that we network all the fusion 
centers together now; that we collaborate with weekly; that we 
have analyst's chats and calls every week, every Thursday, that 
the analysts across the Nation get together and talk about 
topical subjects. In 2008 that was not there. That we were 
inconsistently understaffed, that is absolutely true.
    Some of the problems, DHS has been very responsive to us. 
When the grant guidance only said that the grant would pay for 
3 years of analyst funding, which is the core of what we do, 
analysis, they were very responsive to give us ongoing funding 
for that.
    However, some States, most States, are in a position where 
they have zero government growth now. So my Governor says zero 
government growth and the Budget Office says okay, if you want 
another analyst, are you going to give up a trooper for that? 
And an executive decision above my level has to be made.
    The same thing goes with training. There are no travel 
policies throughout the States for training. And DHS has been, 
over the last year, very responsive to our needs with bringing 
training to us and helping us with the ongoing funding of 
analysts. It was in 2006 that that LETPP funding went away, 
sir, and in 2008 this report came out. Some of the symptoms of 
the Law Enforcement Terrorism Prevention Program going away are 
from this 2008 report. When it talks about need more direction, 
last year we adopted the baseline capabilities, in 2009, after 
the 2008 report, and we are moving forward on that on an 
accreditation process.
    Duplication of services with the JTTF. Absolutely not. We 
complement each other. The FBI, I will say this. The FBI, they 
are good in our State and our center, but they are not as good 
in all the centers. They need to be as big a partner as the 
Department of Homeland Security is with putting their systems 
in these centers.
    Ms. Wagner. And if I could just add one more thing--while 
counterterrorism is a very important and possibly the most 
important Departmental mission, it is not the only one. So our 
relationship with the fusion centers does extend beyond that, 
and we work with them along the southwest border on securing 
our border, and we also work with them on preparation for or 
response to pandemics.
    So there is a robust relationship with the fusion centers 
on more than just counterterrorism. But clearly we view them 
also as a major force multiplier in the counterterrorism 
enterprise.
    Captain Harris. Mr. Rogers, one more thing. The homeland 
security data network in the fusion centers, not all fusion 
centers, just about every fusion center, which is a classified 
system. We get the NTCC, the National Counterterrorism Center 
report daily.
    Mr. Rogers. My time is up. But quickly, as head of the 
National Fusion Center Groups, do you plan to try to get them 
to duplicate what you did in streamlining the communications in 
Delaware?
    Captain Harris. Well, sir, we have highlighted it as our 
best practice in our annual conferences, sir. But in other 
jurisdictions, all we can do is suggest about consensus.
    Mr. Rogers. Thank you.
    Mr. Price. Both of you have begun to get into the all-
hazards matter that I asked you about. I will not take that up 
again here, but I will ask you to elaborate those comments for 
the record, if you will. It was a component of the question 
that I asked about the configuration of these centers and the 
variety that we see out there among their missions.
    [The information follows:]

    Response: State and major urban area governments operate 
fusion centers under state and local law. Each fusion center is 
unique in terms of its mission, capabilities, and 
configuration. For example, while one fusion center may only 
employ two trained analysts working counter-terrorism issues, a 
fully matured fusion center may employ multiple, specialized 
analysts working an array of issues such as: counter-terrorism, 
critical infrastructure, health and fire, and border security.
    To aid in establishing a baseline capability across all 
fusion centers, the Baseline Capabilities for State and Major 
Urban Area Fusion Centers, released in September 2008 by the 
U.S. Department of Justice (DOJ), Department of Homeland 
Security (DHC), and the Global Justice Information Sharing 
Initiative, identifies twelve core capabilities and provides 
specific instructions on how to achieve each capability. The 
fusion center capability areas include: planning and 
requirements development, information gathering/collection and 
recognition of indicators and warnings, processing and 
collation of information, intelligence analysis and production, 
reevaluation, management and governance, information privacy 
protections, security, personnel and training, information 
technology and communications infrastructure, and funding.
    While the baseline capabilities do not dictate fusion 
center configuration or mission focus, partners at all levels 
of government are encouraging fusion centers to achieve the 
baseline capabilities to build a national fusion center network 
foundation.

    Mr. Price. Mr. Rodriguez, I think you are the clean-up 
hitter.
    Mr. Rodriguez. Thank you very much. And let me first of all 
thank each and every one of you for the testimony. And Captain 
Harris, thank you very much for your leadership there in 
Delaware.
    And I think--and I don't mean this in any way, you know--
but when you look at the question that was raised by the 
Chairman in terms of where the centers are at, that is 
extremely important. My district is about 785 miles along the 
Mexican border. I have more population, you know, than the 
State of Delaware in my present district as it stands now, and 
a little bit close to a million. And so I think those centers 
are, you know, located in Houston and elsewhere, and so 
probably getting that dialogue was a major problem during the 
last time, during 9/11, and was identified as a problem, the 
importance of communicating. And that is something we are going 
to have to continue to work on, and I am glad you got it done 
there in Delaware, but I will be very blunt. I mean, that is a 
pretty kind of small area. And you have a lot of other areas 
that don't dialogue with each other as much and are not as 
coalesced together.
    And so we really need to see how we can identify, as the 
Chairman said, some of the rationale for the centers being 
where they are at. And I would question some of the rationale 
for some of that.
    Secondly, the Chairman also asked how do we evaluate what 
we are doing and where we are at. We did, prior to the 2000 
glitch--I had been on the Armed Services Committee, we had done 
some exercises on cyber. We had drug screen projects in San 
Antonio and a couple that we did on our own without any Federal 
money, without anything. We might look at doing, you know, some 
exercises like the military does. And one good time to do that 
is when you do have a natural disaster.
    We had one in Eagle Pass where we had a major tornado. When 
we had another flood recently, we just had another, you know, 
where all the technology went down on the border in two 
counties. And for 2 days people couldn't get any money out of 
their banks and we couldn't contact our services down there.
    And so I think that there is, you know, maybe a way of 
getting some of those exercises to see where they are at and 
see if they actually do communicate with each other and get 
them to practice on that as a way of maybe getting some 
inroads.
    I did want to ask you specifically, there was some dialogue 
on the papers regarding that we needed to go beyond the Merida 
Initiative with Mexico. And I was wondering in terms of what, 
Under Secretary, of what was meant by that and what areas were 
we looking at in terms of going beyond the Merida Initiative, 
if you are informed of that, in the intelligence area.

                     SECURING UNITED STATES BORDERS

    Ms. Wagner. To be honest, Congressman Rodriguez, I am 
probably not aware of what policy discussions are going on in 
that regard. I would be happy to share with you what we are 
doing to support the efforts of President Calderon to crack 
down on the drug trafficking and what we are doing at I&A to 
support efforts to secure the border. But I am afraid I don't 
know about the policy discussion.
    Mr. Rodriguez. Okay. Yeah, because that is a--and I know 
the Mexicans are concerned in terms of, you know, our role down 
there and vice versa. But we are also concerned on the border 
in terms of making sure that there is no spillover in terms of 
the cartels and how we are going to move forward on some of 
that.
    Ms. Wagner. Absolutely.
    Mr. Rodriguez. And that also includes the northern border. 
And so I really, you know, see there is strategy as to how to 
deal with not only the southern border, but the northern border 
also, as it deals with not only cyber, but other forms of 
security that are entailed there. And in terms of where our 
centers are located, I would ask that you kind of look at that 
as an option.
    I wanted to mention also to you that there on the border we 
still have some difficulties, and there is a need for a plan to 
respond in case of emergencies for situations that might spill 
over, and if we have some kind of a team that would do that. 
Are you aware of any of that?
    Ms. Wagner. I am not aware of any particular response 
mechanism, but we have pushed a lot of folks down to reinforce 
the fusion centers that are along the border. Also, we have 12 
people at Electronic Privacy Information Center, and we are 
thinking through a lot of those issues. We are obviously 
monitoring the violence very carefully to make sure there is no 
spillover too, because we expect it to be going on for some 
time.
    Mr. Rodriguez. There is a good number of people coming 
over, middle-class and wealthy Mexicans, a pretty huge number. 
We have seen in the past when they have had revolutions, a good 
number have come over. But we are seeing a good number in from 
Juarez into El Paso, to San Antonio, to Austin, to Del Rio, to 
all those communities. Is there any assessment being looked at 
that? Now, they are coming over legally, okay, but that also 
has some implications in terms of what is occurring.
    Ms. Wagner. I don't know if we have done an analysis of 
increases in legal immigration, but I would be happy to get 
back to you on that if that is something you are interested in.
    [The information follows:]

    Response: Research by the Office of Intelligence and 
Analysis (I&A) indicates that Mexican immigration to the United 
States increased during 2003-2008 for a variety of reasons. 
However, according to a variety of open source materials, 
immigration statistics indicated a decline during 2008-2009, 
because of the economic downturn. DHS statistics show a steady 
increase in Mexicans becoming naturalized U.S. citizens during 
2003-2008, but this increase is likely due to a variety of 
factors, not necessarily violence alone. I&A continues to 
analyze Mexican violence along our Southwest border and its 
implications for the Homeland.

    Mr. Rodriguez. Thank you. Thank you, Mr. Chairman.
    Mr. Price. Thank you. And with that, we will thank you for 
your testimony this morning, for your service, and we will look 
forward to working with you as we put our budget together in 
the coming weeks.
    The Subcommittee is adjourned, to resume at 2:00 with the 
Transportation and Security Administration.

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                          Thursday, March 25, 2010.

               HOMELAND SECURITY HEADQUARTERS FACILITIES

                               WITNESSES

ELAINE DUKE, UNDER SECRETARY FOR MANAGEMENT, DEPARTMENT OF HOMELAND 
    SECURITY
ROBERT A. PECK, PUBLIC BUILDINGS SERVICE COMMISSIONER, GENERAL SERVICES 
    ADMINISTRATION
KATHLEEN GEISLER, DIRECTOR, LEASING DIVISION, GENERAL SERVICES 
    ADMINISTRATION

               Opening Statement of Chairman David Price

    Mr. Price. The Subcommittee will come to order.
    This morning we will review the progress made on the new 
Department of Homeland Security headquarters at St. Elizabeths 
and the administration's plans for further consolidating and 
rationalizing DHS headquarters' footprint. For this discussion, 
we welcome DHS Under Secretary for Management, Elaine Duke; and 
from the General Services Administration, Public Buildings 
Service Commissioner, Robert Peck. Good morning to both of you.
    Under Secretary Duke is well known to this Subcommittee, 
although this is her first time testifying before us. She 
served in a variety of roles at DHS since coming over from the 
Department of Transportation when DHS was first established. 
She has served as Under Secretary for Management since June of 
2008, overseeing the management and administration of the 
entire Department. It is our understanding she will be retiring 
at the end of this month. We want to take this opportunity to 
thank her for her efforts to help keep our country safe and for 
her very distinguished and dedicated service.
    Commissioner Peck is 7 months into his second term as 
Commissioner of Public Buildings for GSA. In this role, he is 
responsible for the nationwide management of 362 million square 
feet of government-owned and -leased office space.
    Before this term, Commissioner Peck served as Managing 
Director of Jones Lang LaSalle, where he advised large clients 
on real estate portfolio strategy and on public-private mixed 
use developments.
    When the Department of Homeland Security was assembled from 
22 elements of other governmental agencies after the 9/11 
attacks, it was clear that some aspects of building this new 
institution would have to be addressed at a later time.
    Exhibit A of this challenge: Over 7 years after the 
creation of the Department, its offices are still strewn across 
50 locations around the Washington, D.C. area, listed on the 
charts that I think everyone has before them. This scattershot 
layout increases operational costs, hurts morale, and makes it 
harder for the Department to work effectively as a unit; in 
other words, it compounds the challenges and difficulties of 
bringing these 22 agencies into a working whole.
    To alleviate part of this problem, the Department has 
approved a $3.4 billion master plan that would consolidate a 
great deal of the department's headquarters into the west 
campus of St. Elizabeths, a 19th-century hospital campus east 
of the Anacostia River. This year, the administration has 
requested $287.8 million in the DHS budget as well as $380.3 
million through GSA to fund the completion of phase 1, the 
Coast Guard headquarters, and to begin phase 2, the National 
Operations Center and infrastructure work.
    Now, we need to be clear, St. Elizabeths resolves only part 
of the problem. The Department still needs an additional 5 
million square feet of space to accommodate the rest, including 
various kinds of support services from all the agencies. The 
administration last year put forward a $75 million request for 
a down payment on consolidation of the Department's remaining 
leases to fewer locations. The administration has returned with 
this proposal again this year with a more detailed 
justification as this Subcommittee requested. The plan is to 
pull together the elements of the Department that will not move 
to St. Elizabeths in six other locations, as shown on the right 
side of the chart you have. Five of the six locations already 
house DHS elements. The sixth, shown on this chart as mission 
support, has yet to be formally identified.
    Now, given the constraints on the budget this year and in 
the future, committing to additional significant investments in 
the Department's physical plant is not appealing at first. 
However, this is an action that will need to be taken at some 
point to improve the Department's efficiency, and it may well 
be more affordable to do this now rather than later. 
Investments in departmental facilities and management deserve 
careful consideration, although I am afraid critics of the 2011 
budget request may have spent these funds many times over 
already.
    What we want to learn from you today are a handful of 
simple things that fall into two categories: First, what is the 
status of the St. Elizabeths project? Are we on time, are we on 
budget, and are we going to get the headquarters we need to 
help this Department operate more efficiently?
    Secondly, how does the Administration justify this further 
consolidation initiative? What are the specific costs and 
benefits to this move?
    So Under Secretary Duke, Commissioner Peck, we look forward 
to an exploration of these questions and no doubt other topics 
here today. We will place your full written statements in the 
record and we will ask each of you to limit your remarks to a 
five-minute presentation.
    Mr. Price. Before you begin, I want to recognize the 
distinguished ranking member, Hal Rogers, for his comments.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
           Opening Statement of Ranking Member Harold Rogers

    Mr. Rogers. Thank you, Mr. Chairman. Welcome to our 
distinguished guests.
    For Ms. Duke, I understand you are, indeed, a short timer, 
retiring in just a matter of days. I know we recognized your 
contributions at our hearing on acquisitions just a few weeks 
ago, but let me just reiterate our gratitude for your more than 
28 years of service and wish you well in your next life. Thank 
you for your service.
    Over the last few weeks, we have heard a lot from DHS's 
operational commanders about how they are being asked to live 
within the constraints of the budget and seek greater 
efficiencies. But as the fiscal 2011 budget is asking DHS's 
frontline agencies to withstand enormous reductions to both 
personnel and assets, I want to see increases for our 
headquarters offices personnel.
    While I know the decision to construct a new consolidated 
headquarters campus at St. Elizabeths has been made, and I full 
well understand the need for such a facility, it is entirely 
unclear to me whether anyone has asked if we can trim down the 
$3.4 billion price tag. At a time of record deficits, has 
anyone looked at this plan through a lens of fiscal discipline?
    I understand the need to align funding to mission 
requirements, it has been a mantra of this Subcommittee since 
it was born; but if there ever was a time, if there ever was a 
need to seek greater efficiencies, now is that time. In the 
wake of the Christmas day terrorist attack, with a raging drug 
war along our borders, with escalating threats at every turn, 
now is the time to give our operators on the front line in the 
Department what they need and ask our headquarters and 
administrative personnel to function with austerity.
    More to the point, DHS's political leadership has spoken 
quite a bit about the Department's headquarters functions 
needing to be strengthened, and that it is superficial to say 
we are trading operational needs for headquarters bureaucrats. 
But the Secretary, nor the Deputy Secretary, neither one said 
one word about headquarters personnel living within budget 
limitations. And that fact is clearly reflected by the 
priorities of the fiscal 2011 budget request, priorities that I 
do not agree with and find simply indefensible.
    It is not enough to simply say DHS needs a headquarters 
that can accommodate more than 30,000 people and provide 4.5 
million square feet of secure space. Rather, it is incumbent 
upon the two of you to make it clear to this Subcommittee and 
the taxpayers that this proposal is both fiscally responsible 
and justifiably sound. So today, what I want to understand from 
you is how this massive proposal, the largest headquarters 
consolidation in our government's history since the 
establishment of the Pentagon in 1943, how it meets the reality 
of our Nation's limited finances as well as DHS's needs.
    Sadly, our government does not perform well with large-
scale procurements or construction projects. Costs and schedule 
overruns are, unfortunately, way too common. I can tell you 
right now that we will not tolerate such waste and abuse with 
this project, not when the American people are pinching pennies 
and we are asking our frontline personnel to do more with less.
    Now, having said all that, let me just say that I know we 
set a very high bar on this Subcommittee, but I believe such an 
uncompromising standard is what is needed when we are dealing 
with matters of our Nation's security.
    So I thank you both for being here today. We look forward 
to learning more about the progress of the headquarters 
project. Know that while we recognize the need for a lean, 
efficient department, we will be watching very closely as you 
continue to plan your work and work your plan.
    Thank you, Mr. Chairman.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    The Chairman. Thank you very much.
    Under Secretary Duke, we will begin with you.

                        Statement of Elaine Duke

    Ms. Duke. Good morning, Chairman Price, Ranking Member 
Rogers, and members of the Subcommittee. Thank you for giving 
us the opportunity to talk about this very important project 
before you this morning.
    The Department of Homeland Security (DHS) and component 
headquarters currently occupy more than 7 million square feet 
scattered in about 50 locations throughout the National Capital 
Region. We project the need for more than 8 million square feet 
by 2010, and anticipated personnel growth may require 
additional space in the future. This extreme dispersion imposes 
significant inefficiencies in our daily operations that could 
be magnified considerably at the most important moments, when 
the Department must act as a nimble and quick integrated team 
in response to national disasters or terrorist threats.
    The DHS headquarters consolidation plan will synchronize 
the transition of 82 percent of the approximately 180 leases 
that are expiring before Fiscal Year 2015. Basically, the plan 
consists of St. Elizabeths development for mission-execution 
functions and the consolidation of the remaining mission-
support functions in the National Capital Region. These efforts 
are two sides of the same coin that must be jointly addressed 
in order to effectively and efficiently realign our real estate 
portfolio.
    Besides the positive effect it will have on the Department, 
the Homeland Security consolidated headquarters at St. 
Elizabeths, partially funded through the American Recovery and 
Reinvestment Act (ARRA), will create direct and indirect 
employment opportunities for thousands of people in the 
Washington region while preserving a national historic 
landmark. It is anticipated that direct and indirect employment 
will create more than 30,000 jobs in the region for 
construction and reconstruction-related activities, and that 
doesn't include the 14,000 DHS employees that will relocate to 
St. Elizabeths.
    St. Elizabeths will serve as the epicenter of DHS 
leadership operations, operations coordination, policy and 
program management--the Department's key mission functions. The 
project has been planned in close cooperation and coordination 
with the General Services Administration (GSA) as a three-phase 
development, with several of those segments designed to create 
an effective and steady funding requirement over Fiscal Years 
2011 through 2014.
    Phase 1 is Coast Guard headquarters, scheduled for 
occupancy in Fiscal Year 2013. Phase 2 is the DHS headquarters, 
the Federal Emergency Management Agency (FEMA) and an all-
important National Operations Center scheduled for completion 
in 2014. Phase 3 is for the remaining component occupancies to 
be completed in Fiscal Year 2016. The entire plan will create 
4.5 million gross square feet of space for 14,000 DHS 
employees.
    Although we do have a phase plan for St. E's, each phase is 
timed to ensure that disruption of construction activities is 
kept to an absolute minimum. Keeping these phases in tact and 
in line is essential to the efficient and fiscally responsible 
funding of the entire project.
    DHS received more than $97 million in Fiscal Year 2009 
appropriations and an additional $200 million in ARRA funding 
for the consolidation headquarters. GSA awarded a $435 million 
design build contract last August for phase 1A, and that is 
predominantly the Coast Guard headquarters building. In 
addition, GSA has awarded contracts for phase 1 construction 
management and phase 2 design contracts.
    Our Fiscal Year 2011 budget request asks for DHS funding of 
approximately $287.8 million for DHS to continue to develop its 
headquarters. This request will provide for the outfitting of 
phase 1, which is Coast Guard headquarters, in addition to the 
construction of phase 2A for the headquarters.
    As you stated, along with St. E's, we have our mission 
support consolidation, and the fiscal year request seeks 
funding for this mission-support consolidation. While St. E's 
will accommodate the main department and component mission-
essential functions, it does not have capacity to accommodate 
all of DHS mission-support elements. GSA and DHS will work 
closely with our components to manage the approximately 180 
leases and do the consolidation we have discussed.
    The mission-support consolidation plan has the potential to 
achieve more than $400 million in that present value cost 
avoidance over the next 30-year period. It minimizes vacancies, 
short-term lease extensions and multiple move requirements. 
This consolidation will also contribute to a reduction in our 
facility operation and maintenance costs throughout the DHS 
National Capital Region.
    The magnitude and complexity of our task to realign our 
facilities to better support the mission presents many 
challenges and opportunities. This project is one of Secretary 
Napolitano's highest priorities, and she has established 
specific objectives and is monitoring as we move forward.
    Any delay in the DHS headquarters consolidation program 
will result in expensive charges to the lease management plan, 
with effects on mission performance and performance of our 
mission. The Department's strategic goal to strengthen and 
unify DHS operations and management is critical to our mission.
    I look forward to answering your questions about this 
important project this morning.
    Mr. Price. Thank you.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                        Statement of Robert Peck

    Mr. Price. Mr. Peck.
    Mr. Peck. Thank you, Mr. Chairman, Ranking Member Rogers, 
and also Congressman Farr. Thank you for inviting me to appear 
today to talk about our partnership with the Department of 
Homeland Security in building out a consolidated headquarters 
at St. Elizabeths.
    As you know, the headquarters will reside at the former St. 
Elizabeths Hospital in southeast Washington, a national 
historic landmark. As Under Secretary Duke noted, DHS is 
currently in more than 40 locations owned and leased in the 
Washington area. The consolidation is necessary, in the opinion 
of DHS, to facilitate its headquarters operation, 
communication, command and control of the Department.
    It is our honor at GSA to have as our clients more than 100 
Federal agencies. And one of the things that is amazing about 
this job is the people in the Federal Government who everyday 
perform functions important to our national defense and to 
Homeland Security; it is our honor to work on this project. We 
are enthusiastic about it. And I am here to assure you today 
that we are going to seek the greatest efficiencies possible 
and to maintain the schedule and budget that this project needs 
and deserves.
    Housing DHS in government-owned facilities compared to the 
comparable cost of housing them in leased facilities over 30 
years represents a savings of $600 million to the taxpayers. It 
is important to maintain the schedule that we are currently on 
with this project for two reasons. In the private and public 
sector, I have been involved in projects that have gone on 
time, and projects that have gone over time and over budget. 
And more often than not, when projects go over time and over 
budget, it is because we change our minds about what the scope 
is during the course of the project and because funding gets 
interrupted. Particularly in the current climate, in which bids 
for design and construction are coming in under estimates 
because--this is both good and bad--there is a soft economy, 
but an advantage to us in bidding, it is important for us to 
maintain the current schedule because we are realizing 
economies as we let contracts all over the country.
    I will also note, to put this in context, that at the same 
time that we are building the headquarters here, we are 
building new land ports of entry all over the country for 
Customs and Border Protection. We are putting CIS and ICE in 
projects all over the country that also allow them to operate 
more efficiently, so this isn't just a headquarters-versus-the-
field business.
    As Under Secretary Duke noted and you have noted, the total 
cost of the project is going to be $3.4 billion, funded both by 
GSA and DHS. During the peak period of construction, there will 
be over 1,000 workers on the site, and approximately 100 
subcontractors and vendors. We estimate the project overall 
will create over 30,000 jobs. Our share of the construction 
budget of $3.4 billion--which is $2 billion--alone is estimated 
to provide regional economic benefits of up to $3.8 billion.
    Now, I know that your job is to provide funding for DHS 
headquarters and not just to stimulate economic development, 
but there are so many side benefits of this project, including 
restoring a national historic site and bringing economic 
development that it is worth mentioning.
    We have begun construction of phase 1A, which includes the 
1.2 million square foot headquarters for the Coast Guard, and 
700,000 feet of structured parking. We are on schedule to 
complete it in 2013. Phase 1B, which involves the adaptive 
reuse and renovation of seven historic campus buildings as well 
as the construction of a perimeter security fence gate house 
and underground utility tunnels is being accelerated.
    The next two phases construct 3.75 million square feet of 
office space and structured parking on the west campus and, 
importantly, the construction of a 750,000 square foot office 
building for FEMA and its structured parking on what is known 
as the east campus, a property owned by the District of 
Columbia, and which will serve as the anchor for a new 
community on the east campus in Anacostia. We intend a secured 
underground passageway from the west campus to the east campus 
to allow easy access without going outside the security 
perimeter, but also to help DHS employees on the west campus 
provide the economic stimulus that will make the east campus 
community work. The entire project is scheduled for completion 
in 2016.
    In line with President Obama's executive order of last 
October, EO 13514, we are ensuring that the headquarters 
facility will be environmentally sustainable. We are striving 
for LEED Gold certification on all of our buildings, and we are 
well on the way to achieving that. We are using small 
businesses and providing opportunities for minority and small 
business contractors.
    On April 1, I should note, in addition to the headquarters 
consolidation, we plan to issue a solicitation for offers for 
1.1 million square feet of leased space to consolidate mission 
support functions of DHS that will not be housed at St. 
Elizabeths. I have to say that during my private sector 
employment previous to working here, I was working on that 
lease for a private contractor, and so while I can tell you in 
general terms what is happening, if you have detailed 
questions, I am going to have to defer, under government ethics 
rules, for someone else to answer.
    We will also retain, as you have noted, a number of other 
lease locations, principally the headquarters of the 
Transportation Security Administration in northern Virginia, 
and leased office space for Immigration and Customs Enforcement 
in the District of Columbia. We are procuring some interim 
leases for Coast Guard and CBP in the meantime, but they will 
be moving to the campus.
    We are proud of our opportunity to work with DHS on this 
project. And finally, I would just say to you, I would invite 
you to visit the site--I was there yesterday morning. You will 
see amazing earth moving going on, sheeting and shoring for the 
project. We are well underway. It is going to be a project of 
which we can all be proud, and mostly one that will help the 
Department coordinate its operations in a new modern advanced 
environment.
    I am happy to answer your questions. Thank you.
    Mr. Price. Thank you very much. Thanks to both of you.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                          RETURN ON INVESTMENT

    Mr. Price. Under Secretary, let me begin the questions with 
an observation that you are already well aware of, and that is 
that we are operating in a very constrained budget environment. 
The budget is very tight. It is so tight that controversial 
cuts are being proposed in the operational capacities of this 
Department.
    According to some critics, the budget before us is short on 
personnel. Others are going to decry shortages of funds for 
grant programs. Some are inclined to characterize management 
expenses and investment in headquarters capabilities as 
feathering the nest of the Secretary and the Department 
leadership. However, we know what you are proposing in your 
view will make possible better departmental oversight of the 
use of taxpayer dollars and will facilitate improved 
departmental responsiveness to the demands of its mission and 
the American public. So we recognize the legitimacy of these 
costs, and of course, the importance of the project we are 
discussing this morning, but there are other proposed 
investments that crowd in on us and offer some challenging 
tradeoffs.
    So today, you need to make a case for these large capital 
proposals in terms of their return in departmental 
effectiveness and savings for the taxpayer. And I am going to 
ask you both to do that. You have lined it out in your opening 
statements, and we want elaboration.
    So Under Secretary, given the constraints of this budget, 
can you explain how these two capital proposals will improve 
the operational effectiveness of the Department? Can you tell 
us why we should do headquarters consolidation now instead of 
using these dollars to fill operational holes?
    And to both of you, I think Mr. Rogers has a legitimate 
point when he asks about what the evidence is that these 
proposals have really been scrubbed, have really been 
scrutinized very carefully for cost savings. Both of you cite 
advantages to moving ahead, both because of the inevitable 
costs of delaying projects in any environment, but certainly 
some of the advantages in the present economic environment to 
doing these things now when costs are lower. Can you be more 
precise about that? What are the advantages to proceeding on 
this time frame, and what are the costs of delay?
    And then, just finally, the last sentence I think, almost, 
that you gave, Under Secretary, you are literally turning the 
argument about operational needs on its head, you are reversing 
that argument. That does carry with it a burden of proof, I 
think. You are saying that any delay in the headquarters 
consolidation project will result in expensive changes to the 
lease management plan, with effects on the performance of the 
DHS mission. Now, that is a claim we have to take seriously, 
particularly when precisely the opposite is being argued with 
respect to the budget before us.
    So Under Secretary, why don't you start, but I think you 
see the kind of case we are looking for you to make.
    Ms. Duke. I do. I think it is important to start out noting 
that right now the components pay the cost of their leasing, 
the cost of many of the management integration functions we are 
trying to put forward in addition to St. Elizabeths and the 
mission-support accommodation and the cost to their data 
centers. So right now, they are paying that as overhead if you 
call that mission-support overhead as opposed to direct mission 
functions. So we are going to have relatively flat budgets in 
the out years. If we don't do something to reduce the size of 
that wedge, the size of providing the infrastructure, that 
wedge is going to take a bigger piece of the components' 
budget. They are going to suffer, and they are going to have to 
reduce mission if they are going to stay with the same size of 
the pie or a flat budget.
    So what these initiatives are seeking to do is, for the 
components, reduce their pieces of the DHS budget that are for 
overhead. So if we don't reduce their lease costs, say in U.S. 
Customs and Border Protection (CBP), with a flat budget, it 
will take up more of their budget and the mission will suffer. 
So that is what we are seeking to do.
    When you look at the headquarters budget--for instance, my 
budget stays at 13 people, and it reduces. So this isn't 
building a bureaucracy of overhead, it is seeking to directly 
reduce the infrastructure and the overhead costs that the 
components are already paying so that they can use more of 
their budget toward direct mission support.
    In terms of the lease and the delay, the specific problem 
with that is the far majority of our leases throughout the 
Department expire in the next couple of years, so if we cannot 
proceed with the St. Elizabeths and the mission-support 
consolidation, those leases will either have to be extended in 
a sole source environment or there will be double move costs, 
which are huge costs plus disruptions of operations. So we are 
looking to time this and take advantage of the fact that, I 
believe, more than 80 percent of our leases are expiring.

                          OFFICE CONSOLIDATION

    Mr. Price. Well, that is readily understandable simply 
spending a couple of minutes with this chart. Can you put a 
dollar figure on that, though? It is intuitively 
understandable, but I don't hear very many hard figures.
    Ms. Duke. We think the net present value of the savings of 
this consolidation are about $500 million over a net present 
value of 30 years.
    Mr. Price. $500 million over 30 years. And what you are 
incorporating in that is both the St. Elizabeths construction 
and the consolidation of these lease sites?
    Ms. Duke. Yes, Mr. Chairman.

                   IMPACT ON OPERATIONAL CAPABILITIES

    Mr. Price. What about my question about the impact on 
operational capabilities?
    Ms. Duke. Well, I think there are two impacts. One is the 
one I just talked about, which is that if overhead stays fixed, 
it will actually eat more of a percentage of the budget. So 
that is a direct impact on mission.
    I think the second is the fact that the effect on mission 
in terms of having a DHS headquarters; when the Department was 
formed, it was to get rid of gaps in Homeland Security and 
eliminate redundancies. And with the dispersion of our offices, 
especially our National Operations Center and the other 
operation centers, that is extremely difficult to actually 
accomplish. One of the key tenets of the St. E's piece is the 
collocation of the Operation Center so that when we are in a 
Homeland Security Presidential Directive-5-type situation, we 
actually have the incident coordination through a single 
location. That is absolutely essential for one of our most key 
missions, which is that incident response.

                COST CONTROL AND ECONOMICS OF PROCEEDING

    Mr. Price. Mr. Peck, can you chime in here about the 
evidence you can provide of serious cost control efforts and 
also the economies of proceeding now rather than later?
    Mr. Peck. Well, let me talk about some of the economies of 
just consolidating on the site.
    One, we own the land at St. Elizabeths; we don't have to go 
out and acquire a piece of land for multiple agencies.
    Two, in almost any operation, private or public, if you 
have permanent functions, there is pretty much a year that you 
can predict, no matter what the cost of construction and the 
cost of leasing, in which if you believe a function is going to 
exist and be useful in a particular location, it makes sense to 
own rather than lease. That number always comes out somewhere 
between 15 and 20 years. That is the point at which you start 
saving money from being in one place.
    Third, we are going to have one single electric 
cogeneration plant on the facility; it should reduce operating 
costs over what DHS would find anywhere else. We are able to 
provide security within a single perimeter, which will provide 
some economies of scale for security itself. Otherwise, we are 
left finding facilities, particularly in lease cases, in which 
we have to often invest in privately owned buildings to provide 
sufficient security.
    And just as to the operational aspects, there is a reason 
that we have joint terrorism task forces around the country. 
Even in an era in which people can work virtually, as you well 
know, particularly when you are in a secure environment and 
people need to share intelligence and information, we find not 
just in DHS, but with FBI and other black box agencies that we 
provide services for, people want to bring their disparate 
elements together.
    Finally, I will just say again, this is one of you can pay 
now or you can pay later. I can't speak to how many people DHS 
needs to run its operations and the headquarters, but we are 
going to provide the facilities to house DHS headquarters in 
the National Capital Region one way or another. We can do it in 
a consolidated-owned location, which saves money for reasons I 
just noted--security, electricity, and the fact that over time 
the costs are less--or we can provide them as we do now in 
leases and continually roll over the leases.
    One other thing, if I may, that Secretary Duke just talked 
about, let me just expand a little bit. If we don't make our 
schedule here, we will continue to roll over the leases that we 
have in buildings in the Washington area. We will do that with 
the idea that we are eventually going to consolidate. That will 
drive us toward renewing in short-term chunks; you pay more to 
a landlord when you renew a lease for a couple of years than 
you do for 20 years. We have made this decision to go ahead.
    Long-term leases are somewhat less expensive than short 
term, but compared to owning, even a long-term lease is more 
expensive. So if we keep having to roll over the leases we are 
currently in, we are going to face much more expense in the 
headquarters operations on the real estate end than you will if 
we go to St. Elizabeths as fast as we can.
    Mr. Price. Thank you.
    Mr. Rogers.

                          OFFICE CONSOLIDATION

    Mr. Rogers. Well, to follow up on that line of questioning, 
what do we mean by consolidation of leases?
    Mr. Peck. For the mission support elements, sir? This is a 
complicated plan, as you can partly see from the chart. But as 
we roll people into the St. Elizabeths campus, we are rolling 
as many people as possible into the NAC on Nebraska Avenue 
because it is also a government-owned location and cheaper than 
leasing. But when all is said and done, given the amount of 
square footage we can fit on St. Elizabeths and the amount of 
government space that we have at the NAC, we have some left 
over needs for DHS.
    And there again, although our plan is to put them in a 
leased location, we want to get them out of multiple leases 
into as close proximity as we can. So we are going to 
consolidate a number of the support elements into a 1.1 million 
square foot lease consolidation.
    There are three basic elements in those mission support 
elements, and the solicitation that we are going to put out is 
going to have some suggestions for how close together or far 
apart those locations can be. But they, too, will be in much 
closer proximity and more consolidated than they have been 
before.

                   TRANSIT TIME AND LABOR EFFICIENCY

    Mr. Rogers. Well, you are claiming that $175 million will 
be saved due to decreased transit time and labor efficiency. 
How can you calculate such a thing?
    Ms. Duke. That number is calculated by looking at the 
current layout of the National Capital Region and where we are 
in nearly 50 locations. And that number is based on our current 
shuttle bus services and sedan services and tracking the usage 
of those services; that's just an estimate of how much time DHS 
employees spend going to another location for purposes of 
conducting official business.
    Mr. Rogers. Well, you are not paying them for that transit 
time, are you?
    Ms. Duke. Well, two things: one is we are paying for the 
transportation services, so that is a cost. But, in addition, 
it is lost productivity time in terms of the time spent in 
transit predominantly by senior DHS officials.

                           ENERGY EFFICIENCY

    Mr. Rogers. You are claiming $115 million would be saved 
due to energy efficiency, but that savings is based upon 
certain specific building standards that are not yet in place 
at the six locations you are migrating to, as I understand it. 
Is that accurate? And how is this figure calculated?
    Ms. Duke. Mr. Peck may want to expand on my answer, but 
predominantly, by taking over St. E as a historic site, all the 
designs are under the President's sustainability standard, so 
we are building the energy efficiency into the St. Elizabeths 
site. I can't specifically comment on the other existing sites, 
but on St. E's, it is being built into the design.
    Mr. Peck. Mr. Rogers, all of the buildings that we are 
building at St. E's are going to be built to a high 
sustainability standard, which is, on the one hand, great for 
reducing greenhouse gases, but even more immediately, they 
reduce the amount of utilities that you have to pay for. So, 
for example, the Coast Guard building is going to have green 
roofs, a storm water retention pond. We have every technique 
you can use now, some of it as simple as just making sure that 
the buildings allow more daylight in so you need to use less 
electricity for lighting. And they will be much more efficient 
than the standard Washington building that we are in across the 
region. And I will say, to the credit of the private sector, as 
they upgrade their buildings, are making them more efficient, 
that is a slow process.

                           GOLD CERTIFICATION

    Mr. Rogers. I am unclear, too, you said in your oral 
testimony that we would be going for the Gold certification, 
but your written testimony says you are at least going for 
Silver, striving for Gold.
    Mr. Peck. That is correct.
    Mr. Rogers. Which is it?
    Mr. Peck. We are hedging our bets because you have to go 
through a certification process with the U.S. Green Building 
Council, and they don't give you your final certification until 
you are through design. Our standard is we don't accept 
anything less than Silver, but we believe in our designs on St. 
Elizabeths that we are within striking distance of Gold. So I 
have said to our people that we are going to reach Gold, and I 
am confident we are going to get there.
    Mr. Rogers. What is the difference in terms of savings if 
we only go for Silver?
    Mr. Peck. I would have to get you that answer. I mean, you 
get points for different things, not just energy, not just 
utility reduction, storm water reduction, cutting down on 
commuting, and I don't know quite where our points are there, 
but I will get you an answer.
    Mr. Rogers. Is it a substantial figure?
    Mr. Peck. Between Silver and Gold, I don't even want to 
hazard a guess, but it is a measurable percentage difference, 
yes, sir. I can get you the number.
    Mr. Rogers. Are we talking billions of dollars?
    Mr. Peck. Over the course of 20 years, I suspect it is. For 
4.5 million square feet, that would be a significant difference 
in energy efficiency.
    But I will also note that the other thing we are relying on 
here is we are building our own very efficient energy-producing 
plant. We have awarded a contract to Washington Gas and 
Honeywell to build us an essential plant, and that in itself 
will produce a tremendous energy benefit.

                     TOTAL ESTIMATED COST STABILITY

    Mr. Rogers. Large-scale acquisitions and construction 
projects have a nasty tendency to grow in cost and schedule. I 
am saying that very gingerly, it is worse than that. But how 
conservative is the estimated total cost of $3.4 billion? What 
is that likely to wind up being in the normal governmental 
projects?
    Mr. Peck. Mr. Rogers, I had this job in the 1990s when the 
economy was in a boom and construction in particular was pretty 
high priced, and I have to confess to you that our estimates 
then seemed continually to be under what we eventually realized 
just because costs kept going up. In this environment, I can 
tell you in the last year our bids have been coming in at 
something like 10 to 15 percent below what we had estimated in 
early 2009. And these estimates were made at that time, so I 
don't want to suggest to you that is by any management genius 
that we possess that I am fairly confident we will make our 
estimates here, but the economy, at least through the next few 
years, is going to work in our favor.
    And I want to say again what I said at the outset, through 
my experience with government projects, Federal, State and 
local, as well as some large private sector projects, is that 
costs, to the extent they often go up and to the extent that 
scope creep comes in, it is often because we delay the 
projects. As things get put off, if the project slips for a 
year, somebody will come up with some great new idea for 
something that we ought to do and someone will try to add it to 
the project. Again, cost overruns so often just relate to 
management decision-making and a failure to continue funding at 
the rate at which you thought you were going to get it.
    Ms. Duke. And if I could add, Mr. Rogers, a lot of 
construction overruns are by unstable requirements. We at DHS 
have our own program management office of about 28 people, and 
one of its principal purposes is to be a good and fiscally 
responsible customer to GSA. One of the things that we are 
striving for with that program office is stable requirements 
and consistent requirements, looking for efficiencies. So, for 
instance, we have a standard space and standard and 
consolidated furniture purchases, so that we are making sure 
that we have the minimal requirements not gold plate 
requirements and that those requirements are stable throughout 
the project so that we don't have those cost overruns.
    Mr. Peck. I can tell you we also put every design through a 
process called Value Engineering, which I suspect you are 
familiar with, in which we have people take a second look at 
the design and ask questions about what can be shaved off that 
won't impair either the structural solidity of the building or 
its energy efficiency or its functionality, but we put all our 
designs through those here.
    Mr. Rogers. Who does that?
    Mr. Peck. A private contractor, sir.
    Mr. Rogers. You contract out an objective look-over-your-
shoulder?
    Mr. Peck. Yes, sir. We have some terrific internal project 
managers--and I have to say on this project we have put our 
best proven project manager, the best single proven project 
manager in the region, who is sitting behind me. But we have 
project managers, construction managers who are on site as 
anybody does on large projects. They are private sector people. 
We do have a government system, we have a lot of people 
overlooking us, the Inspector General has two people full-time 
on site. There is not much we are going to slip by on this.
    Mr. Rogers. Well, we are all going to be lined up looking 
over your shoulder.
    Mr. Peck. We know that. It is the fun of working in this 
environment.
    Mr. Rogers. We are going to look over his shoulder; he is 
going to be looking over your shoulder; IG is going to be 
looking over everybody's shoulder; and the taxpayers are going 
to look all over us.
    Mr. Peck. As well they should.
    Mr. Rogers. As well they should.
    Well, you have answered a question I was going to ask, and 
that is, how can we cut the risks of project growth and keep 
the costs in line, and I think you have answered that question 
for me.
    By the way, the consolidation of lease request, $75 
million, that was submitted also in fiscal 2010, which we 
denied because we did not have sufficient justification at that 
time. So, Mr. Chairman, that is something I think we will need 
to look at carefully again this year as we did last year.
    I have other questions that I will ask next round.
    Mr. Price. We will proceed with the second round after we 
hear from Mr. Farr.

                             PROJECT VISION

    Mr. Farr. Thank you, Mr. Chairman. I am enjoying this 
discussion. Looking back on my younger life when one of my 
mentors was Matt Owings of Skid, Owings and Merrill. I remember 
his discussion, actually calling the President of the United 
States on the Pennsylvania Avenue project. And the intent then 
was, for savings, to let 395 go right in front of the Capitol. 
He was insistent that he had to put that under the Capitol, 
there had to be a tunnel. Of course it was very expensive to 
build that, but just think what the Mall would look like in the 
front of the Capitol if we had a freeway right there where the 
Reflection Pond is, it would just be a different city. What I 
think is interesting about this project, this is the biggest 
building since the President, right--biggest construction 
project?
    Mr. Peck. Yes, sir.
    Mr. Farr. And you are doing it in Ward 8, which is 
certainly one of the most need for economic stimulation. It 
seems to me the vision here is phenomenal, and the idea that 
you are striving for Gold LEED and you have this apprenticeship 
with people working in the building trades to get the training. 
I mean, if we are really talking about stimulating the economy 
and doing something, it is going to just remarkably change that 
ward in this city. And I think it would be good to kind of give 
us some perspective as people--because I think we are going to 
get--Members of Congress are very leery because we are now 
experiencing what we spent on the Visitors Center. I think we 
all enjoy the Visitors Center, but the design of it, the 
functionality of it is nuts--at least for us it is. It maybe 
works for the tourists from that standpoint, but for the rooms, 
it is a monument of corridors.
    Mr. Rogers. Would the gentleman yield on that?
    Mr. Farr. Yes.
    Mr. Rogers. I think it would help if we had hospital 
stripes on the floor.

                         MENTAL HEALTH PATIENTS

    Mr. Farr. Well, it is very interesting, one of the 
questions is--hospital stripes? What is going to happen to the 
mental health patients? You are not moving all the mental 
health patients, so there is going to be some--they are going 
to still be there on part of the property? I couldn't figure 
that out on the map?
    Mr. Peck. Mr. Farr, the District of Columbia still runs a 
mental hospital operation on their property. There are no more 
mental hospital operations on our side of Martin Luther King 
Avenue.
    Mr. Farr. We run a mental health hospital right here on the 
Hill, particularly after last weekend. Good thing we have 
mental health fully covered in our health bill.

                        REVITALIZATION OF WARD 8

    Ms. Duke. Mr. Farr, if I could comment on the 
revitalization of Ward 8. I mean, one can only look to what 
happened when the Navy moved to the Washington Navy Yard on M 
Street and the revitalization. There has been some criticism, 
well, you are behind a preexisting stone wall, and that is 
going to stop revitalization. I think M Street and the fact 
that they are behind a concertina wire fence--the 
revitalization that took place there is clear evidence that the 
same thing is going to happen for Ward 8 when DHS moves there.

                      TOTAL COST OF ST. ELIZABETHS

    Mr. Farr. Well, I like the vision thing. I mean, I am 
interested, what is the total cost of this, including the 
relocation for leases and everything?
    Mr. Peck. The cost of the project on the west campus that 
we are doing is $3.4 billion. The total cost of the 1.1 million 
square foot lease that we are going to solicit, I can't say, 
quite honestly, because we haven't awarded it yet. And again, 
in this case, knowing what I know about the Washington real 
estate market, I can tell you my guess about what we would 
lease it for per square foot, and we have a limit on that 
number, but I don't want to hazard a guess, I am not supposed 
to.
    Mr. Farr. $3.4 billion for the phase----
    Mr. Peck. All the phases of construction on the west 
campus, and it includes the construction on the east campus for 
the FEMA headquarters.

                    COLLABORATION WITH THE DISTRICT

    Mr. Farr. I don't like the mega--when we created DHS, I 
think we were all concerned about creating this mega 
bureaucracy, but I do like the idea that consolidation I think 
is where governments, all of them, we need to consolidate and 
collaborate, and I like the consolidation effort here.
    The question I have is, in that, can we also build some 
collaboration with the District? It seems to me that the 
concept of putting all these like kinds of needs in the same 
campus, same location, there is savings there, too, that the 
State and local governments, their headquarters aren't spread 
all over the place either. Is there an ability to build on this 
to help the District and to help either Virginia or Maryland?
    Mr. Peck. Mr. Farr, a number of responses, if you will 
allow me a few minutes. One, I appreciated your alluding to the 
Pennsylvania Avenue development project because in the other 
body I worked for Senator Daniel Patrick Moynihan, who was a 
proponent of that from the time it started, along with Matt 
Owings of Skidmore, Owings and Merrill. I worked on that 
project. That was started at a time, however, when the District 
of Columbia was an agency of the Federal Government. The 
District of Columbia has home rule. We have worked with the 
District of Columbia on this project from the beginning. They 
have created on the east campus what is called a small area 
plant, so their plan is for what today is known as smart 
growth, a transit-oriented development because we have a Metro 
station.
    Their plan is to use our employees to help populate a 
retail strip on Martin Luther King Avenue and hopefully help 
generate the demand for housing across the street, and to help 
revitalize that area of the city, which certainly needs it, not 
to mention providing jobs.
    I also note, as you noted, that in that area of the city 
you not only need to provide jobs, you need to provide job 
training so that people can qualify for the jobs and have the 
skills they need. We have been working on that. We have a 
trailer on the site that takes job applications. We have 
apprenticeship programs, as you noted, that try to get people 
prepared for the jobs. But I will say there is a very close 
cooperation with the District of Columbia.
    There is one other issue which they will want me to 
address, which is a transportation issue. And while we are 
hoping that many or most of the employees come here by Metro 
when this is finished, we are providing parking. We have looked 
at other ways in which we can improve the road interchanges to 
make this thing work. But one of the things we are doing here 
is by very judiciously putting the sorts of amenities on the 
site for DHS employees that they need to get their work done 
during the day, but also making it convenient for them to get 
out into the community and provide the clientele that we will 
need for shops and restaurants and cafes, those kinds of 
things.

                OVERHEAD COSTS FOR CONSTRUCTION PROJECTS

    Mr. Farr. Last question, what is your overhead factor on 
contracts? I sit on the MILCON Subcommittee, and for the 
MILCON, it is 5 percent. What is it for yours?
    Mr. Peck. We have talked about that. It is a number I would 
like to provide you for the record because I don't quite know 
how MILCON calculates their overhead. If you are asking what is 
strictly GSA overhead, I can get you that number. If you are 
asking also what do we consider overhead among the private 
sector contractors that we hire, that is a different number.
    Mr. Farr. Why don't you look at it from the same point that 
MILCON does?
    Mr. Peck. Let me ask them and I will give you an apples-to-
apples comparison.
    Mr. Farr. Because they build buildings the same way that 
you do?
    Mr. Peck. They do.
    [The information follows:]

    RESPONSE: The Army Corps of Engineers (ACOE) uses a flat 
rate for supervision and administration of a construction cost. 
This is similar to GSA's management and inspection costs for 
GSA projects. The ACOE's flat rate for Supervision and 
Administration is based on the construction cost and is 5.6% of 
construction. The management and inspection cost for the new 
Coast Guard Headquarters project is 6% of the total 
construction cost.

    Mr. Price. Thank you very much.

                      MORE DETAILED JUSTIFICATION

    Madam Secretary, let me return to the question of the lease 
consolidation and ask you about the differences between this 
year's budget proposal and last year's. As you well know, there 
was a very similar looking proposal for lease consolidation in 
last year's budget, and we have asked, of course, for a more 
detailed justification. How is the proposal before us different 
from what you proposed a year ago?
    Ms. Duke. I think there are two weaknesses we sought to 
correct in this year's budget proposal. First, the previous 
submittal lacked clear evidence of the cost savings. So we 
tried to lay out more clearly when the leases would transfer 
and be able to quantify the cost savings in the out years. This 
is a case where you have to spend money to save money. We 
wanted to make that case better, and we believe we did.
    The second weakness we had in the previous submittal was 
there wasn't confidence by the Committee that we could actually 
execute, and that was partially driven by the vagueness of the 
request. So we sought to be much more precise in what leases we 
would want to consolidate when, and the exact locations and 
timing of those, to demonstrate that we had a more clear handle 
on the consolidation, that we could actually execute it and 
spend the money.

                          RECOVERY ACT FUNDING

    Mr. Price. Now I want to pursue with our GSA witness some 
similar issues. I know you need to recuse yourself, Mr. Peck, 
on that. Before you leave the table, though, let me just divert 
us for a moment, I think this will be a very quick answer. I 
would like to know from both of you what the effect on the 
proposal before us out of the Recovery Act funding is and will 
be. In other words, how would the budget proposal for 2011 look 
different from either of your agency's perspective if the 
Recovery Act funding had not been there?
    Ms. Duke. From our perspective, the biggest benefit has 
been that we have been able to jump-start some of the areas of 
construction. One specific example I can give you, Mr. 
Chairman, is in construction; even though we have phase 
projects, there is construction phasing that allows 
efficiencies. So, for instance, for the Coast Guard, there is a 
lot of excavation that needs to be done. With the ARRA funding, 
we have been able to start excavation for the Nebraska Avenue 
Complex, which they abut each other. So rather than having to 
do excavation and then do a lot of shoring and construction 
things and then go back and excavate, with the ARRA money, we 
are able to do a more efficient excavation of that phase. So 
that is an example.
    Mr. Peck. I guess the simplest answer, Mr. Chairman, is 
that we got $450 million in ARRA funding to commence the Coast 
Guard headquarters. That funding had been delayed from fiscal 
2009, we hadn't gotten it. It allowed us to proceed, and quite 
honestly, we are significantly in the ground right now.
    Mr. Price. All right. So in terms of the map and the 
sequencing we are looking at here, had it not been for the 
Recovery Act funding, we really would still be entirely in the 
confines of phase 1?
    Mr. Peck. I don't think we would have broken ground on 
phase 1, I think we would still be in the confines of doing a 
lot of planning.
    Mr. Price. All right. Well, I understand we are going to 
hear Director Geisler on the lease consolidation?

                        LEASE CONSOLIDATION COST

    Mr. Peck. Yes, sir. If I can introduce Kathleen Geisler, 
who is the Director of our leasing division in the National 
Capital Region, and she has been working on the consolidation. 
They don't make me put my hands over my ears, but I can't talk 
about it. I can hear what she says though.
    Mr. Price. Good. Well, we welcome you, Director, to the 
witness table.
    Ms. Geisler. Good morning.
    Mr. Price. There have been some conflicting estimates, 
Director, as I understand, about the exact timing of the lease 
consolidation. Is there any chance it could be less expensive 
next year if we wait? What kind of estimates do you have and 
what kind of risk would we be incurring in deferring all or 
part of this?
    Ms. Geisler. The risk that we would be incurring if we 
delay is the lease extensions that we currently have in place 
that coincide with the move of some of those components into 
the St. E's facility, as well as other components that we would 
be consolidating where we have done extensions to be able to 
move in the 2013 and 2014 time frame. So we do have a fairly 
complex master plan of the various leases and where they would 
go as we consolidate the 1.1 million of lease consolidation and 
the mission support.
    Mr. Price. All right. If you want to furnish further 
information for the record that will give us a precise handle 
on that, that would be helpful because we are going to have to 
figure out how much of this we can afford to do and when we can 
afford to do it.
    Ms. Geisler. We would be happy to.
    Mr. Price. And we know that $75 million for lease 
consolidation is only a down payment. Director, we do need a 
better answer than we have gotten this morning thus far about 
the total cost of lease consolidation. I wonder if you can give 
us a better answer, and also tell us what measures are in place 
to ensure those costs don't rise, assuming we go ahead with 
funding a good part or all of this.
    Ms. Geisler. I think the most critical part as we move 
forward, especially with the schedule of a $1.1 million of 
mission support acquisition, that becomes very critical because 
there are so many different leases that are tied to that 
consolidation. We believe that our schedule gives us ample time 
to do a good evaluation of the offers that come in. We also 
believe that we have maximized our ability to have good 
competition to actually get very good competitive rates. So we 
believe that we have taken all the steps necessary in 
conjunction with DHS to really come forward with a good plan 
and a good schedule to be able to----
    Mr. Price. I am asking you what the cost is likely to be, 
given the fact that $75 million is only a fraction.
    Ms. Geisler. I would like to be able to present that to you 
at a later date. But it is difficult to give you the lease cost 
until we actually finish the acquisition because the way that 
the prospectus reads is that there are three different 
jurisdictions that are in play, and those three different 
jurisdictions have different caps.
    Mr. Price. Excuse me. I understand some of those 
difficulties, but I want the best figure you can give us or the 
range of possible costs before we write this bill.
    Ms. Geisler. Okay, we will do that.
    Mr. Price. So that means quickly.
    Ms. Geisler. Okay. We will do that.
    Mr. Price. Thank you.
    [The information follows:]

    RESPONSE: The maximum annual allowable full service rents 
in FY12 (according to GSA's prospectus submission) are $38.624 
million in Maryland ($34 per rentable square foot), $43.168 
million in Virginia ($38 per rentable square foot), and $55.664 
million in the District of Columbia ($49 per rentable square 
foot).

                    LEASE CONSOLIDATION COST SAVINGS

    Mr. Price. Thank you. Now, Madam Under Secretary, your 
testimony indicates a potential cost savings of $400 million. I 
want to pin this down as much as we can. You indicated a 
potential cost savings of $400 million for the lease 
consolidation project alone, and the other figures you give I 
presume include that project plus the St. E's project overall 
figures, but let's just focus on that $400 million.
    Over what time frame are you projecting these cost savings? 
How do you arrive at the figure? Is it based solely on rental 
costs, alternative rental costs, or what other components 
should we know about?
    Ms. Duke. We based that on the 30-year net present value, 
and we can provide the analysis for the record if we haven't 
done so already. But there are several components of that. The 
largest is rent, and we believe that we can save the rent cost 
through having less leases, bringing our buying power to the 
larger space, the 1.1 million, vice the many small leases we 
have now.
    Additional costs are some of the shared services. For 
instance, when we are in 50 locations, you have mail services, 
you have security guard services, those type of things for each 
building. Being able to consolidate those support services, we 
estimate about a $26 million savings for that.
    We talked about transient time earlier; that is, movement 
of DHS people throughout the day, both the cost of lost 
productive time and the cost of having the shuttle service to 
take us around.
    There are also the energy savings. One of the requirements 
of the new building is we do believe we will have energy 
savings both through the new standards and through mandates we 
have for energy savings throughout our DHS projects.
    Mr. Price. All right, thank you, that is helpful. And here, 
too, if you could furnish for the record as good a tabular 
breakdown as you can manage of where that $400 million 
projection comes from. And then let us know what your overall 
projection is in terms of cost savings for the Saint E's 
project and the lease consolidation, just so we know actually 
what we are dealing with here in terms of the trade-offs we 
face.
    [The information follows:]

    RESPONSE: The table below provides each item that makes up 
the Net Present Value (NPV) for the cost avoidances over 30 
years for the Mission Support program:

                     SUMMARY OF TOTAL COST AVOIDANCE
                          [Dollars in millions] LEED Energy................................................       $115.3
Labor Efficiency...........................................        175.0
Mail Management............................................         26.2
Cont. Sedan/Shuttle........................................         23.3
Rent Cost Avoidance........................................        138.4
                                                            ------------
    Total..................................................       $478.2
    The updated St. E's NPV Cost Avoidance is $600 million over 
30 years which was determined by the General Services 
Administration using The Automated Prospectus System (TAPS), a 
cost modeling program that determines the comparison between 
the cost of leasing versus federal construction. Adding the 
Mission Support $478 million and the St. Elizabeths $600 
million is $1,078 million net present value cost avoidance over 
a 30 year period for the St. E's project and the lease 
consolidation.

                    OFFICE SPACE REQUIREMENT GROWTH

    Now, the estimates for office space needed to accommodate 
growth have risen somewhat in recent years from 8 million 
square feet to 10 million square feet. Naturally we look at 
that and wonder what has driven that change. An expectation for 
a larger headquarters cadre, or is it something else?
    Ms. Duke. It's driven partially by a larger headquarters 
cadre, and the functions of headquarters have grown. When you 
look at headquarters, we have many close-to-operational units; 
for instance, NPPD is not a traditional headquarters function. 
We have about 3,800 people in headquarters now, which is 
obviously larger than the original estimate for headquarters, 
and those are in the National Capital Region.
    Mr. Price. Well, we do want to make sure that these growth 
projections are quite well-grounded and well-considered. I 
don't think in a few years we want to be facing the unpleasant 
prospect of hearings before this Subcommittee where we are 
having these same discussions again about how DHS needs more 
money for more space.
    Ms. Duke. We are in the process right now--our program of 
record, which says how many people and where they go is from 
2007. We are in the process now, since the change of 
administration, of reevaluating that. The Secretary herself is 
personally involved, and we are evaluating not only the proper 
numbers, but do they match the budget. So we are not looking at 
numbers, pie in the sky, that aren't supported by our program 
of record budget-wise. That will be completed this spring.

                          LEASE CONSOLIDATION

    Mr. Price. Thank you. Mr. Rogers.
    Mr. Rogers. This is an enormously complex undertaking. I 
was just trying to decipher this diagram here. Now I know where 
they got the idea for the computer chip. Can you help us? Can 
you decipher this some on the charts?
    Ms. Duke. I think the summary--and Mr. Peck might want to 
add. What we want to do is we have approximately 50 locations 
right now in the National Capital Region. We want to get down 
to what you see here. We want to have St. E's as our 
headquarters. We want to keep some existing facilities that we 
are in right now in the National Capital Region; that includes 
the Nebraska Avenue Complex by American University, which is 
our current headquarters. That is a federally owned building.
    We also want to keep the Ronald Reagan Building where we 
have CBP; the lease we have with the Transportation Security 
Administration for the two buildings at Pentagon City; the 
Secret Service Building; another federally owned building on H 
Street; and Potomac Center North, which is where U.S. 
Immigration and Customs Enforcement is now, near L'Enfant 
Plaza.
    In addition to keeping those buildings, we need 
approximately 1.1 to 1.3 million gross square feet, and that is 
what was talked about earlier is we are out. We have a 
prospectus in front of the Hill, and a request for proposals 
will be coming out we hope within the next month that will 
solicit that new space.
    Basically what this is showing is that we are going to take 
all those 50 locations--I think it is about 107, a lot of 
leases--and turn it into those eight to ten locations and 
leases that we can manage more effectively and just eliminate 
the middle of this chart.
    Mr. Rogers. So when it is all said and done, will the 
locations on the right-hand side remain in place?
    Ms. Duke. Yes, Mr. Rogers.
    Mr. Rogers. So we will have six-plus headquarters, places 
for all the agencies.
    Ms. Duke. Yes, yes.
    Mr. Rogers. What is the bottom chart; how does it relate to 
the top chart?
    Ms. Duke. I think the top chart is an amplification of the 
bottom chart. We try to show the data in more granularity. It 
was to answer the question asking if we are really prepared and 
if we know what we are doing in spending the $75 million that 
we requested in the 2011 budget. We tried to give a much more 
detailed look in the top chart.
    Mr. Peck. It is more or less the Under Secretary and I 
looked at the wiring diagram, and also said could somebody show 
it in a way we can understand it. And the other chart is 
simpler and it just shows who is moving where, as opposed to 
who is moving where and when.
    Mr. Rogers. I think it would probably help us if we had a 
trigonometry specialist on our staff. I am going to take this 
to bed with me tonight.
    Mr. Peck. It will help you sleep.
    Mr. Rogers. It will help me sleep.
    The consolidation of leases will be completed by when, 
according to your plan?
    Ms. Geisler. We are planning to award that lease in mid-
2011 with the move-in to be projected for 2013 and 2014.
    Mr. Rogers. Well, is that when the consolidation of the 
leases will be ended?
    Ms. Geisler. The consolidation of the leases will end 
around 2014 as we phase out of them. Because it is such a large 
block of space, it will be a phased move based on the 
expiration of the leases that we have in place.
    Ms. Duke. But that is to the new space, the 1.1 to 1.3 
million square feet that we are actually acquiring. There is 
some movement of people in existing leased space to St E's, and 
the St E's occupancy isn't completed until 2016. So that will 
continue. We won't be down to the 8 to 10 in 2014. There will 
be a big large number of them going by the 2014 number. And 
then the finishing will be when we do the final phase of Saint 
E.
    Mr. Rogers. So we will need to find funding for all of the 
fiscal years, including fiscal 2016?
    Ms. Duke. We do have a complex plan that allows extensions 
in place. Our goal is not to do any double moves or to minimize 
them as much as possible because that is costly. The complexity 
is trying to get the things in place, have the final homes of 
each of the people. There will be some potential lease 
extensions for people moving to Saint E's or one of the 
locations that are not ready, but we are trying to do single 
moves as much as possible to keep the costs down.
    Mr. Rogers. So you don't want to go to the expense of an 
agency in the middle of the chart moving to the right-hand side 
and then go all the way back to the left-hand side?
    Ms. Duke. Correct.
    Mr. Rogers. But nevertheless, we are looking at some 
spending each year through fiscal 2016 to consolidate the 
leases, correct?
    Ms. Duke. Yes.
    Mr. Rogers. Will that number increase every year or 
decrease every year or remain roughly the same?
    Ms. Duke. I don't have our Future Years Homeland Security 
Program. I could provide that for the record in terms of a 
projection through 2015.
    Mr. Rogers. That would help us, I think.
    [The information follows:]

    RESPONSE: The total mission support consolidation is 
estimated by GSA to be about $263 million with the expectation 
that DHS will lease 1.2 million rentable square feet of space 
with a two-phase implementation schedule in calendar years 2013 
and 2014. The current project costs are estimated based on a 
plan to consolidate mission support functions by 2014. In 
cooperation with DHS and OMB, a Mission Support Consolidation 
Prospectus for lease authority was submitted by GSA to Congress 
in October 2009 that will address the Department's current 
housing needs through Fiscal Year 2010. As the prospectus is 
for leased office space, GSA does not require a separate 
appropriation and all costs for tenant fit out requirements 
will pass directly to DHS. The $75 million included in the FY 
2011 budget request will initiate the mission support 
consolidation effort by providing the necessary funding to 
acquire 1.2 million square feet of office space included in our 
prospectus. The remaining funding will be requested in future 
budget requests to deliver the space in FY2013 and FY2014.

                                                       CURRENT NUMBERS BASED ON PROGRAM ESTIMATES
                                                                 [Dollars in thousands]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                     FY2009       FY2010       FY2011       FY2012       FY2013       FY2014       FY2015       Totals
--------------------------------------------------------------------------------------------------------------------------------------------------------
Mission Support.................................           $0           $0      $75,000      $67,095      $57,781      $63,158           $0     $263,035
--------------------------------------------------------------------------------------------------------------------------------------------------------

                           INTERIOR BUILD OUT

    Mr. Rogers. Help me out here. The total cost is $3.4 
billion, of which GSA is responsible for property construction 
of $2 billion; DHS responsible for interior build-out, $1.4 
billion; is that correct?
    Mr. Peck. Yes, sir.
    Mr. Rogers. Since DHS' responsibility is interior build-
out, why would we need this amount of money that is requested 
for this year, since I am not sure we are going to be in a 
position to spend for interior build-out, are we?
    Mr. Peck. Well, let me distinguish between, in the building 
business, between interior build-out and what is called FF&E, 
furniture, fixtures and equipment. We are responsible for 
providing a building and an interior, ready to move into, 
meaning walls, lighting, air conditioning, heating.
    Mr. Rogers. GSA.
    Mr. Peck. Yes, sir. And DHS is responsible for the 
furniture and information technology that goes in it. And often 
in projects, what you need to do is you need to order in 
advance that equipment so it is ready when you get there. Some 
of--just to make it more complicated--some of the information 
technology infrastructure, some of the cabling and things like 
that, does go on the DHS side of the ledger.

                   FUNDING FOR INFORMATION TECHNOLOGY

    Mr. Rogers. We have had some confusion, or at least I have 
been confused somewhat by the funding for IT infrastructure. We 
were briefed on March the 8th that the request of $287 million 
for Saint E's fails to include $69 million in information 
technology and infrastructure that is required to begin 
construction activities, which, if it were not there, could 
delay the project for up to a year as I understand.
    And then last night at 5 o'clock, the Department said they 
need to retract the information provided the Committee on the 
$69 million omission for IT, and a more accurate answer would 
be submitted in the next few days.
    Where are we on this? What is it all about?
    Ms. Duke. Well, first of all, Mr. Rogers, I would like to 
apologize for that confusion in the last minute right before 
hearing modification or answer. We do have a need in Fiscal 
Year 2011 to be doing a lot of IT infrastructure. We want to 
make sure that with IT we are building efficiencies into how we 
are going to deliver IT services.
    Our current plan--and we will be coming back with a revised 
question for the record, I believe that came from the 
Secretary's hearing. What we plan on doing now is we believe 
that, like the first round of contracts, we will have a savings 
from the bids that are coming in. We have about six major 
contracts to be awarded this year in August. So with proposals 
coming in the next couple months, we believe that we will be 
able to adequately fund the IT infrastructure needs through the 
current funding level for Saint E's, without delay on a 
project.
    Mr. Rogers. Well, it is a bit jarring to us that we have 
got a $69 million item that is sort of bouncing around. That 
doesn't help your veracity on the rest of the proposal. So are 
there any other things out there that are bouncing around that 
we don't know about that affect the dollar figure?
    Ms. Duke. No, this one we have known about, and I think the 
difference in the last-minute change is whether we consider it 
a problem or an unfunded requirement or something we can handle 
within the current project. And so we have always known about 
this issue. The difference is we feel confident we can handle 
this within the existing project budget and with our IT 
priorities within DHS.
    Mr. Rogers. Well, consolidation of the Department is 
necessary. It is a great idea. It reminds me of an old saying 
that I like to carry around, that ``vision without funding is a 
hallucination.'' And Mr. Chairman, I may be hallucinating, but 
this is going to take some time to understand.
    Mr. Price. Thank you. It does lead one to intuitively 
understand the importance of consolidating some of this, 
however. DHS is an impossibly spread-out, dispersed agency. We 
understand that problem.
    Mr. Farr.

                          OFFICE CONSOLIDATION

    Mr. Farr. If we could use that other chart, I think it is 
more helpful, at least for the question I am going to have. 
What essentially I see on that chart is you are going to end up 
with a total of seven places for Department of Homeland 
Security, the six on the right and the one St. Elizabeths on 
the left.
    But what I don't understand is that in a couple of those 
areas, it seems to be how do you split the baby. That first 
chart, I can't even read all the alphabets that are under 
there. As you see the green line that is going to the NAC 
building on Nebraska Avenue, but it is also showing that it 
goes to St. Elizabeths. If you go down that chart, the same 
thing with CBP, the same thing with DNDO, with TSA, ICE, and 
USSS. How do you global--those are ones that are all showing 
going both directions.
    Ms. Duke. The St. E's, as we said, will not accommodate all 
of DHS headquarters; it is 14,000 seats. I think we have about 
a 35,000-seat need. So where you see the line going both 
places, in some cases, we expect all of one component to be 
there. For example, FEMA currently is projected to be on the 
east campus, 100 percent of FEMA. There are some components----
    Mr. Farr. Space limitations.
    Ms. Duke. So CBP will keep space at the Ronald Reagan 
Building.
    Mr. Farr. How do you decide who to split?
    Ms. Duke. We are working on that. There is a program from 
2007 that shows the splits. With the change of virtually all 
the leadership in DHS, we are going back and reevaluating 
whether this is a good split.
    Mr. Farr. Okay.
    Ms. Duke. We do need the senior leadership team to have 
some presence, but you will see a split. There is no way to not 
have a split.

                          DIVESTING FUNCTIONS

    Mr. Farr. In this process of reassessing, is there any 
interest in looking at perhaps some of these components 
shouldn't be in DHS? I mean, there has been some criticism, 
particularly the Ag folks and things like that, that were 
brought over to Ag inspectors.
    Ms. Duke. No, I think the Secretary feels comfortable that 
everything in DHS should be there. I think that our first 
Quadrennial Homeland Security Review demonstrates that and our 
follow-on work. So we are now just looking not at divesting of 
functions, but actually what is the best split so that the 
components can execute their missions most effectively.
    Mr. Farr. Even with all the investment in St. Elizabeths, 
you add up all the different agencies, and obviously they are 
different sizes, the sign on the left there is going to be 34 
of those outside St. Elizabeths and 24 inside St. Elizabeths. 
So more of the Department will still rest outside of St. 
Elizabeths.
    Ms. Duke. Yes, that is correct, slightly more than half.
    Mr. Farr. And certainly not consolidated. These are all 
around town.
    Ms. Duke. The good thing we can do with the consolidation, 
though, is getting the leadership team together. I mean, one of 
our most important missions--we have our day to day--is having 
the leadership team together in an incident response and 
recovery-type scenario. This is the largest--there is no 
possible way to get all 35,000 DHS National Capitol Region 
people together in one locations. It physically doesn't fit.

              INFORMATION TECHNOLOGY FUNCTIONS INTERLINKED

    Mr. Farr. Is their IT going to be all interlinked?
    Ms. Duke. Yes. That is a huge part. We have task forces 
under this. The overarching executive committee is led by the 
Deputy Secretary and our Chief Information Officer, Richard 
Spires, leads the IT.
    And we think that both IT, in general--but the co-location 
of the command centers adjacent and with the NAC is huge in the 
incident situation.

              SENSITIVE COMPARTMENTED INFORMATION FACILITY

    Mr. Farr. Do you have to build Sensitive Compartmented 
Information Facilities (SCIFs) in any of these facilities?
    Ms. Duke. I believe there will be SCIFs.
    Mr. Peck. At St. Elizabeths, yes, sir.
    Mr. Farr. I have never really asked this question, but what 
is the determination of what agencies, Federal agencies, are 
partners with GSA and which ones aren't? Obviously the Pentagon 
has their own MILCON that is separate from GSA. But other 
areas, USDA, the Department of Agriculture, they are not a 
partner with GSA.
    Mr. Peck. Yes, sir.

                            COST ALLOCATION

    Mr. Farr. What is the determination of what departments get 
to go on their own capital outlays and which are construction 
and which are partners with GSA?
    Mr. Peck. Some of it is history. Some agencies have long, 
proud traditions. And GSA didn't come along until 1949 when the 
government decided to have a truly consolidated real estate 
function, so some had been doing it before. The best example is 
probably the Treasury Department which used to house the 
building function. And I believe there was a negotiation in 
1949, and they got to keep their headquarters building as 
something they do themselves.
    Some others, like the Forest Service, has a lot of small 
leases in--or they built small things in the national forests. 
Some occasionally lease right outside the national forest. 
Because they have people there on the ground and they know the 
market, it is actually more efficient for the government for 
them to do that kind of work than it would be for GSA to have 
to either hire people to do it separately or to hire some 
private real estate person to do it.
    Mr. Farr. Are there any papers discussing all of that? I 
would just be curious to read up on it. Are there thresholds 
where GSA--I have also dealt with the bureaucracy of the GSA.
    Mr. Peck. I don't know that anyone has taken a look. We do 
have an Office of Government-Wide Policy that takes a look at 
real estate across the board. I don't know that anybody has 
taken a significant look at who does what. For example, the 
military departments which do building on military 
reservations. But if they are off it, and we need to lease 
space for the Army, Navy, Air Force, we generally do it.
    There has been that split which I don't think has been 
challenged anytime recently. I ask the question all the time. 
We often get other agencies saying, We like to do real estate 
ourselves, or will you do it for us, even though we have the 
authority and we work those things out. I don't know that 
anyone has taken a government-wide look at who really should do 
what or does do what.
    I do believe still that there are--I wouldn't say a perfect 
allocation of responsibilities, but I think like so many things 
in our government, it mostly makes sense.
    Mr. Farr. Thank you.

                     LONG AND SHORT TERM LEASE COST

    Mr. Price. Thank you. We will proceed with a rather 
abbreviated final round, and we appreciate your sticking with 
us here and helping us pursue some very important questions.
    I have a couple of rather narrowly targeted ones, but I do 
want to ask them in this session because I think they do help 
us get a little better fix on this and some comparative 
perspectives.
    I will start with you, Commissioner. You note in your 
testimony that the Department is retaining long-term leases for 
TSA and ICE, and will soon be procuring interim leases for the 
Coast Guard and CBP. So that does offer perhaps a point of 
comparison, a way for us to compare the costs we are 
considering for construction, vis-a-vis additional long-term 
leases for mission support.
    What are the prices of the long-term leases GSA has 
retained for these two components? And what is the expected 
cost for the interim shorter-termed Coast Guard and CBP leases? 
What kind of prospectus can you give the Committee on the kind 
of relative costs we are talking about?
    Mr. Peck. That is a great question. I will have to provide 
you those numbers for the record, because they are specific 
leases and I will have to go back and find out what they are.
    [The information follows:]

    RESPONSE: The price of the long term lease of TSA at 
Pentagon City is $17 million per annum, while the price of the 
long term lease of ICE at Potomac Center North is $20 million 
per annum.
    GSA calculated that St. Elizabeths has a $31 million annual 
cost advantage over equivalent leased space of 4.8 million 
usable square feet (USF). Of this total amount, ICE and TSA 
will occupy 742,500 USF. On a pro rata basis, the annual cost 
advantage is approximately $4.8 million. The underlying 
discount rate assumption for this is 4.5% per annum. Both TSA 
and ICE long term leases will be retained as anchor locations 
in the DHS Headquarters Consolidation plan.

    Mr. Price. But you would agree that it is a relevant 
question and that when we examine the claims for long-term 
versus short-term leases and the kind of savings we are 
projecting here, it is relevant to look at those kinds of 
examples.
    Mr. Peck. Yes, sir. I also think we owe you the dollar 
assumptions and interest rate assumptions and term assumptions 
we have made on our net present value of savings, and we can 
provide those to you. I can tell you what lease rates we 
assumed the Agency would pay in government-owned space and what 
we would assume in a lease, and we can at least get you that 
comparison, as well as giving you these actual numbers of 
leases today.
    Mr. Price. All right, I really think that would be helpful.
    [The information follows:]

    RESPONSE: Responses to a data call for a staffing benchmark 
analysis conducted by the DHS Chief Administrative Officer 
estimates that DHS Headquarters (HQ) and the component HQ's 
currently have approximately 50 real estate professionals 
involved with managing the DHS HQ and component HQ's real 
estate portfolio in the National Capitol Region (NCR). An 
esimate of the time involved managing the real estate portfolio 
indicates that approximately 300 work hours per year per person 
is currently expended. This equates to an esimated 15,000 man 
hours per year of real estate management that can be avoided 
after consolidation. Using an hourly rate of $38.22 per hour 
(GS-12/Step 3 Washington, DC) equals an annual cost avoidance 
of $574k per year.

                         CONSOLIDATION SAVINGS

    Mr. Price. Madam Secretary, let me turn to you for a last 
question. This has to do with what it costs to oversee all 
this, to administer it. According to your testimony we are 
talking about 180 existing leases in the DHS portfolio; is that 
right?
    Ms. Duke. Yes, that is approximately.
    Mr. Price. Now if we can find a way to fund consolidation, 
could we anticipate a reduction in headquarters staff or at 
least some administrative savings in overseeing these scores of 
leases and other management costs? Can you put a figure on 
that?
    Ms. Duke. I don't have a figure right now; but yes, I do 
think we would have efficiencies in all the management 
proposals. Most of the overseeing is done throughout DHS. It is 
not just done in management. But I think it would be reasonable 
for the committee to expect efficiencies as we reduce the 
numbers and make it less complex.
    Mr. Price. Well, there too, the more specific you can make 
that, the more helpful it will be. I think all my other 
questions I will submit for the record. So I will turn to Mr. 
Rogers.

                   COMPLETION DATE FOR ST. ELIZABETHS

    Mr. Rogers. And I will be very brief in closing. When will 
we be able to say it is done, it is all over?
    Ms. Duke. Right now, total completion of St. E's and all 
the other consolidations are targeted for 2016.
    Mr. Peck. Yes, sir, that should be--that is our goal. As 
you can see in the funding, the last really significant funding 
we are going to ask for St. E's is in fiscal year 2014, and 
then we finish up the construction and it should be done by 
fiscal year 2016.
    Mr. Rogers. You hesitated before you answered.
    Mr. Peck. I was wondering whether you were thinking--I am 
thinking lease consolidations and all the moves, but that is 
our schedule if the funding stays on schedule.
    Mr. Rogers. I hear a lot of ``shoulds'' and ``ifs'' and 
``maybe.'' You don't seem really committed.
    Mr. Peck. Sir, there are--if everything were under our 
control, including the funding spigot, I would be very 
confident. But I have been in this business a long time and I 
learned that sometimes you say, okay, we are ready to go, but 
somebody else isn't. And as I said, we will be there if we get 
the funding as we need it. If we don't, we won't make it.
    Mr. Rogers. It took the Pentagon 2 years from the date of 
ground-breaking to commissioning. Two years. They had to 
relocate National Airport before they could build the building.
    Mr. Peck. Correct. And they did a relocation out of the 
building that is now in the State Department Complex. They 
moved fast. Our country can, when we have to, because we all 
know from the Pentagon reconstruction after September 11th, 
when we want to, we can beat our schedules.

                          OFFICE CONSOLIDATION

    Mr. Rogers. One final question. I thought I had this 
figured out, but in the chart that is showing there now, you 
show certain of the locations migrating to one of the six 
locations. But then on the other side, you show the same ones 
migrating to the St. E's.
    Ms. Duke. And that is because not everybody--two things. 
Not everybody at one location will go to one or the other. So 
it could be just that there are multiple functions in one of 
the middle locations now. It also goes back to the question Mr. 
Farr asked about; we will be splitting the components. So a 
piece of CBP will go to St. E's, but a piece of CBP will stay 
at the Ronald Reagan Building. The current plan does require a 
split of components, both the headquarters and the operating 
components.
    Mr. Rogers. For example, CBP might have people at two 
different places?
    Ms. Duke. Yes. What the split is at the highest level is 
mission versus mission support. So, say, in CBP the direct 
mission would be there, but then they have contracting support 
and they have logistics and they have those type of functions. 
So because of the space constraints of St. E's, not all of that 
would be there. We would have the mission support co-located in 
predominantly the new space but in some of these other 
locations, also.
    Mr. Rogers. Well, as we have said from the very beginning 
of the DHS, and even before then, and every day since, IT is 
terribly important to the mission of DHS and the consolidation 
and communications between wherever the personnel are. So the 
IT question that we asked you about earlier is a terribly 
important piece of this project. So I would hope that we would 
be sure we get the IT right in the new building as well as the 
six adjuncts.
    Ms. Duke. Absolutely. I want to add the Department's 
commitment--I know my commitment doesn't mean as much this week 
as it might have in the past, but I have personally engaged 
with the Secretary and the Deputy on this. They are committed, 
and they recognize and understand the importance of the IT.
    The Deputy Secretary is chairing these. We meet monthly on 
this with the senior leadership and component heads. We are 
committed. It is one of the Secretary's priority. The reality 
is that the problem is not going to go away unless we fix it. 
It has gotten worse in the life of DHS. Is a very difficult 
decision for the Congress to look at spending money to make us 
more efficient in these tight budget times. But the problem 
will not go away without an actual movement and fix.
    Mr. Rogers. We appreciate all of your testimony and your 
support staff being here today.
    Secretary Duke, we wish you well and want you to come back 
and visit with us.
    Ms. Duke. I will. Thank you.
    Mr. Rogers. Maybe we will see you on the campus here, this 
side or the other side.
    Ms. Duke. After 8 years at the Department, I might be in 
the parts still operated by D.C.
    Mr. Rogers. We will see you there.
    Mr. Price. Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman. Good luck with your next 
endeavors in your life. Thank you for your service to our 
country.
    Mr. Peck, you are going to stick around for a while, aren't 
you?
    Mr. Peck. I am a political appointee, as long as they'll 
have me; yes, sir.

                        HISTORICAL SIGNIFICANCE

    Mr. Farr. I was thinking I didn't come to this hearing 
knowing how significant this is. This is the largest 
construction since the Pentagon, which was 73 years ago. I 
mean, we are talking about trying to set out as models for this 
Nation of building for the next century and using LEED's ideas, 
IT.
    I think this is an opportunity to showcase government at 
its best. And I have worked with Duke and--I mean with Clark 
Pinnacle, Pinnacle being the realty company. Clark in my 
district is a phenomenal company. It builds well and they build 
beautifully. I think about all the architectural design, the 
way this is going to merge. It is going to be on your watch, on 
our watch. We are responsible for the oversight and funding. I 
hope this just comes back as one of those things that we will 
be as proud of as anything that has ever been done in this 
great city, because we really have an opportunity to do it, do 
it well, and I think design--my father was the first Director 
of Highway Beautification. He came up with the idea of scenic 
highways, and it led to being the Director of Highway 
Beautification under Lady Bird and President Johnson. And that 
is how I got involved with hearing about Washington and all the 
great things going on here in those days. So now on your watch.
    Mr. Peck. Congressman, I grew up here. My father was 
assigned as an Army officer to the construction project at the 
Pentagon somewhere around 1941 or 1942. He then made the 
mistake of transferring to military police. But in any event, 
one of the reasons I am back in this job is that the 
opportunity to do this project and other Recovery Act projects 
around the country, this happens to be, I think, the best job 
in American real estate.
    When I was in the job before, I was fortunate to preside 
over the beginning of our design excellence program in which we 
began once again building buildings that, as we say, are worthy 
of the American people. I think we are going to do that on this 
project, too. We are determined to do that.
    The Coast Guard Building itself, if you look at the design, 
is going to be a terrific example for green design. It is a 
beautiful building. Just in passing, the site happens to have 
one of the most fantastic views of the city of Washington that 
you can imagine, and it is going to be a terrific campus, a 
great place I think for the people in DHS to work together and 
productively, and it is going to revitalize the city as a side 
benefit. We are proud of it and determined to do it right.
    Mr. Farr. Thank you. Thank you, Mr. Chairman, for the 
hearing.
    Mr. Price. Thank you. And thanks to all of our witnesses. 
Commissioner, glad to have you, to welcome you on board----
    Mr. Peck. Thank you, sir.
    Mr. Price [continuing]. And to talk with you this morning. 
Director Geisler, thank you for your contribution, and 
Secretary Duke.
    Ms. Duke. Chairman Price, I would also like to thank this 
Committee. You have been so supportive of us. When I look back, 
there is still so much to do, but we have done a lot. And one 
of the things--we have a few interns here--your support of 
revitalizing the acquisition workforce not only for DHS but the 
Federal Government. I know it is difficult to support 
initiatives in management, and you have been wonderful to us. 
Your staff has always thought to understand. I just wanted to 
formally thank you for that.
    Mr. Price. Thank you. I know you mean the bipartisan 
leadership of this Committee, which, after all, has worked with 
you over a good portion of the Department's life.
    Ms. Duke. Thank you.
    Mr. Price. So we join in thanking you for your contribution 
and thanking all of you for being here this morning.
    Thank you. Committee is adjourned.

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                                         Wednesday, April 21, 2010.

        TESTIMONY FROM MEMBERS OF CONGRESS AND OUTSIDE ENTITIES

                               WITNESSES

HON. LAURA RICHARDSON
HON. KEITH ELLISON
JENNIFER FELT, PROGRAM MANAGER FOR THE MARINE CONSERVATION BIOLOGY 
    INSTITUTE
DAVID WRIGHT, PRESIDENT OF THE NATIONAL FEDERAL PROTECTIVE SERVICE 
    UNION
ERIC PERRODIN, MAYOR OF COMPTON
LILLIE DOBSON, COUNCILWOMAN FOR THE CITY OF COMPTON
TODD HAUPTLI, SENIOR EXECUTIVE VICE PRESIDENT OF THE AMERICAN 
    ASSOCIATION OF AIRPORT EXECUTIVES
WILLIAM MILLAR, PRESIDENT OF THE AMERICAN PUBLIC TRANSPORTATION 
    ASSOCIATION
KELLY PETERS, DEPUTY EXECUTIVE DIRECTOR OF SEARCH

               Opening Statement of Chairman David Price

    Mr. Price. Good morning, and welcome to our last day of 
public hearings in this 2011 cycle. Today we will be taking 
testimony from members of Congress and outside entities who 
have asked for project consideration as part of the fiscal 2011 
budget for the Department of Homeland Security.
    As I have previously stated, and as was made clear, I 
think, in a letter to the House's entire membership, the 
Subcommittee generally earmarks funding in three areas within 
DHS: pre-disaster mitigation, emergency operations centers, and 
bridges that are deemed an obstruction to navigation and must 
be altered. On occasion, the Subcommittee has earmarked 
projects outside of these categories, but it is uncommon.
    Today, we welcome discussion of such requests, and also 
programmatic requests that do not require a specific earmark. 
This is a time when members and outside groups, interested 
individuals, and organizations can come forward and give us 
their views on any aspect, really, of the Homeland Security 
budget.
    So we are glad to start with members today. And, 
Congresswoman Richardson, we are pleased to have you here. We 
are looking to hear from Congressman Ellison after that, and 
then we will move to other witnesses. Our process here is to 
enter your full statement into the record and ask you to limit 
your oral remarks to five minutes. So we are glad to begin with 
you. First, I want to yield to Mr. Rogers for any comments he 
has.
    Mr. Rogers. I have no comments, Mr. Chair.
    Mr. Price. All right.
    Mr. Rogers. Does that surprise you?
    Mr. Price. No, no, not at all. You are always a man of few 
words. Please proceed.
                              ----------                              --
--------

                                         Wednesday, April 21, 2010.

                    DEPARTMENT OF HOMELAND SECURITY


                                WITNESS

HON. LAURA RICHARDSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

                   Statement of Hon. Laura Richardson

    Mrs. Richardson. Thank you, Mr. Chairman. Chairman Price 
and Mr. Rogers, thank you for convening this witness request 
day for full-year 2011 Homeland Security appropriations. I 
appreciate the opportunity to testify before this Subcommittee. 
And as a member of the Homeland Security Committee, I want to 
commend you and your colleagues of the Subcommittee for this 
outstanding work that you do to ensure that our nation has the 
financial resources necessary to secure our homeland.
    The 37th congressional district of California, which I am 
privileged to represent, has a vital interest in ensuring our 
homeland security needs. My district is located in southern 
California, which is no stranger to some of the more recent 
things of natural disasters ranging from earthquakes, 
mudslides, and wildfires. But in addition to that, the 37th 
congressional district is also home to many high-value 
terrorist targets such as the port of Long Beach; the adjacent 
port of Los Angeles; airports, two of them; rail; treatment 
facilities; power plants; and many more.
    First of all, I would like to talk a little bit about the 
programmatic request that I have before this Committee and 
express to you some of my concerns, and then I will go into my 
only request that I have before this Committee for an earmark. 
First of all, I would like to talk about cargo screening. I am 
concerned about the decrease in funding for international cargo 
screening. The proposal of $84.4 million, a decrease from 77.56 
million below the full-year 2010 enactment is a significant 
decrease, and I believe will cause harm ultimately to all of 
our goals of protecting the public.
    The 9/11 Act set forth a goal of working towards 100 
percent cargo screening. We are not taking steps forward; in 
fact, we are taking steps back. I recently was on a CODEL and 
had a chance to go to another country and ask them, out of all 
of the cargo that you screen, the ones that we individually 
through inspections we say that you must pull out--how many 
others do you actually check? And I was alarmed at the 
response. The response was, none.
    So therefore, I would say to do less in terms of cargo 
screening would really be an ill-advised recommendation, and 
something I hope you would consider.
    Second of all, in terms of fire grants, I have read that 
many members have talked about the concern of the reduction in 
the fire grants, and I wanted to add my voice of concern with 
that. When you look at the local fire departments and their 
first responder role, particularly with homeland security 
issues, to reduce in that particular area that has been a 
success is something that I would also request that you 
consider making a change to the President's recommendation.
    Third, urban search and rescue. I support the increased 
funding in the national urban search and rescue response system 
in the full-year 2011 Homeland Security appropriations bill. 
Clearly, as I have talked about with both of the ports of Long 
Beach and Los Angeles that are in my district, we have strong 
urban search and rescue teams, but they need to be stronger. 
And to evaluate the bridges, all of the other high-target 
mechanisms that are there in the port, this increase is 
definitely needed.
    The fourth area is disaster relief. As we know, the 
Department of Homeland Security recently requested an increase. 
In my statement that I believe that I have provided for you, I 
have a picture of when I went to American Samoa, and I had an 
opportunity to view firsthand the disaster that they had, first 
the earthquake and then the tsunami that followed 10 minutes 
later.
    Unfortunately, in this world today, we are not only having 
the disasters that we have had that we normally anticipate 
several, but we have had beyond those numbers. And so I would 
support increasing that funding.
    Finally, in terms of emergency planning, I brought forward 
a bill, H.R. 4898, the Elementary and Secondary School 
Emergency Preparedness Planning Act. This bill would empower 
school districts in high-risk areas to bolster their emergency 
preparedness training by establishing a program to award grants 
to local education agencies, which we all know are set up 
primarily in places to go if in fact we do have disasters or a 
risk situation.
    Finally, I would like to talk about--those were all 
programmatic requests that I have before this Committee. But 
now I would like to close with my comments on having to do with 
the EOC, the emergency operation centers. Today, I have with me 
members of the city of Compton who are going to speak to you, I 
think approximately at 10:30. We have Mayor Perrodin and also 
Councilwoman Lillie Dobson and their representative.
    We have for several years approached this Committee in 
terms of the need of what this particular district is facing, 
and I would like to briefly share that with you. One, when you 
talk about Compton--and they will say it for themselves, but 
the thing I wanted to share is in my district, the city of 
Compton is surrounded by five major freeways and is located 
within 10 miles of three major ports of entry, the Los Angeles 
International Airport and both the ports of Long Beach and Los 
Angeles. In addition, the Alameda Corridor rail project runs 
directly through Compton's high-threat, high-density urban 
area.
    The current first respondent capabilities in the city are 
insufficient to protect the infrastructure assets, and the 
failure to upgrade their current operation center could 
jeopardize health and safety for millions of residents. This 
funding is critical.
    Now just on a personal point of privilege--and I will speak 
off of my comments--being a member who actually represents--my 
entire district is in the county of Los Angeles, representing 
neighboring cities that oftentimes receive large amounts of 
homeland security grants. Compton is the one that has been for 
a long time--and needs to end; hopefully in your deliberations, 
ends today. The city of Compton is surrounded by all of these 
communities, and all you have to do is look at any of the 
disasters that we have had, and Compton is left to fend for 
itself while other larger cities that surround them have often 
had the support necessary that they needed to protect their 
residents and to protect their infrastructure.
    When you look at the city of Compton and where it is 
situated, with all of the freeways, if there were a major 
disaster in that particular section--we in the past, when the 
ports were cut off due to labor negotiations, every single day 
we lost a billion dollars a day, one billion dollars a day. So 
the impacts of the freeways that they have, their inability to 
connect on both ends of each parts of their city, is a critical 
piece that must happen.
    As I said, major investments have been done in surrounding 
communities, and that is one that is left that if a major 
disaster occurs, those communities are going to respond to 
those cities first and not the city of Compton. And when you 
look at the growing amount of manufacturing industry that they 
have, the improvements that have been made in terms of business 
communities, this really is an accident waiting to happen. It 
is a high-risk area, and I would really seek your full review 
of their application.
    And with that, they have their time coming up shortly, and 
I of course will be happy to answer any questions that you 
might have.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Price. Well, thank you very much. We appreciate your 
statement, and we will look forward to hearing also from your 
constituents from the city of Compton a little later this 
morning. I have no further questions. Mr. Rogers.
    Mr. Rogers. No questions.
    Mr. Price. With that, thank you so much for appearing and 
for your good work.
    Mrs. Richardson. Thank you very much.
    Mr. Price. Mr. Ellison is not on the scene yet, so we will 
proceed with the Marine Conservation Biology Institute, 
represented by Program Manager Jennifer Felt. Ms. Felt, welcome 
to the Subcommittee.
                              ----------                              

                                         Wednesday, April 21, 2010.

                    DEPARTMENT OF HOMELAND SECURITY


                                WITNESS

JENNIFER FELT, PROGRAM MANAGER FOR THE MARINE CONSERVATION

                       Statement of Jennifer Felt

    Ms. Felt. Good morning, and I am about to switch gears 
pretty drastically. My name is Jennifer Felt, and I represent 
Marine Conservation Biology Institute, which is based in 
Bellevue, Washington, with offices in California, Hawaii, and 
here in D.C. I wish to thank the members of the Homeland 
Security for the opportunity to testify as an outside witness 
for the fiscal year 2011 appropriations for the United States 
Coast Guard.
    MCBI is a national, non-profit environmental organization 
whose mission is to advance the science of marine conservation 
biology and secure protection for ocean ecosystems. We advocate 
for adequate appropriations for the National Oceanic and 
Atmospheric Administration, NOAA, Fish and Wildlife Service, 
and now Coast Guard programs that focus on understanding and 
conserving marine ecosystems, habitats, and species.
    Today, I am going to focus on the important role that the 
Coast Guard plays in furthering these goals by combating marine 
debris. Marine debris is defined as any persistent solid 
material that is manufactured or processed and directly or 
indirectly, intentionally or unintentionally, disposed of or 
abandoned into the marine environment or Great Lakes. Some of 
the most common types of marine debris are discarded or lost 
fishing lines and nets; household plastics such as disposable 
lighters, six-pack rings, plastic bags, and Styrofoam pellets.
    Marine debris fouls beaches and marine ecosystems; kills 
coral reef; causes death to marine mammals, seabirds, and 
turtles by entanglement and ingestion, as represented here by 
this albatross chick, who has ingested quite a bit of plastic 
material, and as a result has died; transports non-native and 
invasive species to marine ecosystems; and creates navigational 
safety hazards by fouling the engine propellers.
    Research has shown that debris has serious effects on the 
marine environment, wildlife, the economy, and human health and 
safety. The number of marine debris-related entanglement deaths 
of endangered and threatened seals, sea turtles and seabirds 
continues to grow. Entanglement and debris is a major cause of 
death for the Hawaiian Monk Seal, whose population is estimated 
at less than 1,200 individuals.
    Marine debris has become one of the most widespread 
pollution problems affecting the world's oceans and waterways. 
Marine debris is a growing problem that is manifesting itself 
in all U.S. waters. The Coast Guard plays a critical role 
combating marine debris under two authorities. First, it 
monitors discharge of waste from ships and oversees port 
receptor facilities in compliance with MARPOL Annex 5, 
implemented through the Act to Prevent Pollution from Ships of 
1980.
    Second, in partnership with NOAA, the United States Coast 
Guard identifies, assesses, reduces, and prevents marine debris 
and its effects on the marine environment under the Marine 
Debris Research Prevention and Reduction Act of 2006. The act 
establishes a national program led by NOAA and supported by the 
United States Coast Guard. The act authorizes $10 million 
annually for NOAA's marine debris program and $2 million 
annually for the United States Coast Guard's program. However, 
NOAA has been level-funded at $4 million since 2008, and the 
United States Coast Guard has never received any program 
funding for its marine debris efforts.
    The United States Coast Guard participates in and provides 
leadership for a variety of important anti-marine debris 
activities. For example, working together, NOAA and the United 
States Coast Guard have removed an estimated 600 metric tons of 
marine debris, mostly derelict fishing gear, from the 
northwestern Hawaiian islands since 1998, and are currently 
removing an estimated 40 metric tons each year.
    While this is a great accomplishment, the annual 
accumulation rate is 52 metric tons, leaving a surplus of 12 
metric tons of marine debris each year. The reason for this gap 
is lack of resources due to insufficient funding, which 
prevents the agencies from keeping up with the problem, and 
marine debris continues to be a threat to the endangered 
Hawaiian Monk Seal and seabirds in Papahanaumokuakea Marine 
National Monument.
    MCBI supports the United States Coast Guard in its efforts 
to reach its goals in providing maritime safety, security, 
mobility, national defense, and protection of natural 
resources. As the nation continues to deal with economic 
challenges, MCBI recognizes that allocating new funds for 
projects may be difficult. However, given the crucial need to 
complete these missions and enhance efforts to combat marine 
debris, we encourage the Subcommittee to minimally maintain 
United States Coast Guard funding levels at fiscal year 2010 
enacted levels of $10.4 billion to sustain the services 
operating capabilities, and include an additional $2 million 
for the United States Coast Guard to meet its responsibilities 
under the Marine Debris Act.
    Thank you for the opportunity to share our views.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Price. Thank you, Ms. Felt, for your testimony. I know 
that representatives from your organization have met with 
Subcommittee staff and associate staff of several of our 
members to express support for maintaining the 2010 funding 
levels for the Coast Guard and adding a specific set-aside for 
marine debris removal.
    Your organization was unable to say with any degree of 
certainty how much the Coast Guard is spending currently on 
marine debris removal. We are at this point seeking that 
information from the Coast Guard, as well as information on how 
they coordinate their efforts with NOAA.
    But let me just ask you one question, obviously focused on 
the portion of the budget for which we have responsibility, 
namely, the Coast Guard. In your estimation, what level of 
effort would it take to close the gap between the 40 metric 
tons of marine debris removed each year and the 52 metric tons 
of marine debris that enters the system? I am sure $2 million 
in Coast Guard funding would help a bit, but it really seems 
unlikely that it would resolve the issue.
    So I think we would be interested in the steps you see as 
feasible, desirable to end this accumulation, to get us on a 
track to reducing the presence of this persistent threat of 
trash.
    Ms. Felt. So I think that NOAA and the Coast Guard play two 
very different roles in marine debris and the marine debris 
program, and the Coast Guard has been an excellent partner for 
NOAA in the northwestern Hawaiian islands in helping in this 
removal.
    The Coast Guard's role particularly is focused on 
monitoring waste from ships as well as port receptor 
facilities. And my understanding is at this time, that with the 
amount of time and manpower that they have allocated, they are 
able to do a very good job, but that additional funds would be 
needed to enhance the efforts that would include things such as 
develop and implement a plan that would coordinate with the 
industry and recreational boaters that would improve ship waste 
management, including recordkeeping and access to waste 
receptor facilities for shipboard waste; also things like 
establishing a voluntary reporting program for commercial 
vessel operators and recreational boaters to report incidents 
of damage to vessels and disruption of navigation caused by 
marine debris, and observed violations of laws and regulations 
relating to the disposal of plastics and other marine debris.
    So in the particular pickup in the northwestern Hawaiian 
islands, I think that additional funds for NOAA and perhaps the 
Coast Guard could lead to maybe an extra trip out to the 
northwestern Hawaiian islands to pick up that surplus of marine 
debris. But the Coast Guard really has an important role for 
preventing marine debris from getting into the environment in 
the first place, so that they can strengthen their program 
onboard these ships and outreach to the fish shipping 
community, that would result in a decrease in the amount of 
garbage that is actually getting into the oceans.
    Mr. Price. All right. Well, we will pay attention to this 
as we work with this Coast Guard and develop the budget for 
next year. Mr. Rogers.
    Mr. Rogers. No questions.
    Mr. Price. All right, no questions. So we will thank you 
for your testimony.
    Ms. Felt. Thank you.
    Mr. Price. And with that, we will call our next witness, 
Mr. David Wright, who represents the National Federal 
Protective Service Union. Mr. Wright, welcome to the 
Subcommittee.
                              ----------                              

                                         Wednesday, April 21, 2010.

                    DEPARTMENT OF HOMELAND SECURITY


                                WITNESS

DAVID WRIGHT, PRESIDENT OF THE NATIONAL FEDERAL PROTECTIVE SERVICE 
    UNION

                       Statement of David Wright

    Mr. Wright. Good morning, Mr. Chairman, Mr. Rogers. I have 
my fellow law enforcement officers here today for support. And 
they have taken their personal time off to be here.
    Mr. Price. Welcome, gentlemen. Thank you for coming.
    Mr. Wright. These are Federal Protective Service 
inspectors.
    Mr. Price. All right.
    Mr. Wright. My name is David Wright, President of the 
National Federal Protective Service Union, affiliated with the 
American Federation of Government Employees. I know my time is 
short. I will get right to the point.
    The Federal Protective Service is a Homeland Security 
agency that is charged with protecting approximately 9,000 
federal properties across the U.S., mainly GSA properties. We 
are so starved for resources and personnel that FPS is not 
performing its mission objectives. That is not only true of 
security level one and level two facilities, the lowest graded 
facilities in the nation. It is true of some of our highest 
security buildings around the nation.
    At the present time, only two cities in America have 24-
hour FPS police patrols. As GAO has pointed out, oversight of 
private guards is entirely inadequate. Recently, ten GAO 
investigators penetrated 10 federal buildings with actual bomb-
making materials, and proceeded to set up those bombs in each 
building without any outside interference. Of the 1,200 full-
time employees at FPS, there are only about 50 police officers 
left, and these are the people who have historically monitored 
the underpaid, undertrained contract guards.
    The number of inspectors who have now assumed the work of 
police officers, guard overseers, and physical security 
specialists number only about 830 at this point. This is below 
the congressionally mandated level of 900 boots on the ground 
that this Committee established in fiscal year 2008. We are now 
below the manpower levels of when Federal Protective Service 
was transitioned into the Department of Homeland Security.
    The FPS union recently looked at hiring at several other 
agencies with similar Homeland Security and law enforcement 
missions. We have attached a copy of this analysis to our 
statement. It showed that over the period since DHS was 
created, FPS law enforcement personnel have dropped from 1,017 
to 830, an 18.4 percent reduction. Over that same period, the 
U.S. Secret Service increased by 24.6 percent, and the total 
government law enforcement security personnel increase was 56.5 
percent.
    These numbers provide one measure of the extent to which 
funding for this agency has been neglected in the post-9/11 
Homeland Security buildup. But the case for restoring law 
enforcement personnel to FPS has been made repeatedly in 
congressional hearings over the past three years. We urge this 
Committee to include an increase of $48 million in either fees 
or a direct appropriation sufficient to fund a level of 300 
non-supervisory police officers, inspectors, and also 80 
civilian contract guard oversight personnel.
    The FPS union also supports the insourcing of private 
guards at level three and level four federal buildings, and 
providing federally trained police officers for those critical 
properties. While we know that money will not solve all 
problems at FPS, it will allow the agency to enhance its 
physical and visible presence in and around the security level 
three and level four buildings and facilities.
    We believe the new personnel should be an efficient mix of 
police officers, inspectors, and civilian contract oversight 
personnel. The hiring of one civilian contracting officer 
technical rep frees up between one to three inspectors to 
perform security and law enforcement duties.
    I do not have to document the failures of FPS management to 
members of this Committee, as I am sure you know them well. 
However, I do want to say that there are hopeful signs for the 
future of this agency. I am happy to say that the transfer to 
NPPD from ICE has gone smoothly, particularly in the field of 
labor and management relations.
    Nonetheless, there are still bureaucrats within DHS and the 
Office of Management and Budget who continue to create problems 
for this agency. Apparently, these individuals manage to 
convince the administration to request no funding increase for 
FPS this coming fiscal year. In light of the current situation 
at this agency, we view this as an irresponsible and 
potentially dangerous decision, which we hope this Committee 
will ignore.
    Finally, I leave you with this thought. Recent high-profile 
threats to congressional leaders and federal employees fall 
directly under the purview of the Federal Protective Service. 
Making necessary reforms to this agency and increasing the 
number of federal police officers on duty are not a matter of 
responding to vague, unsubstantiated warnings. The 
vulnerability and immediate danger are quite real. The writing 
is on the wall. And I am available for questions.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Price. Thank you, Mr. Wright. We appreciate your being 
here, and we will insert your full statement in the record. I 
have no questions.
    Mr. Rogers. No questions.
    Mr. Price. Thank you for your assistance to our efforts. We 
will now call forward representatives of the city of Compton, 
California, Mayor Eric Perrodin and Compton Councilwoman Lillie 
Dobson. Welcome to the Subcommittee.
                              ----------                              

                                         Wednesday, April 21, 2010.

                    DEPARTMENT OF HOMELAND SECURITY


                               WITNESSES

ERIC PERRODIN, MAYOR OF COMPTON ACCOMPANIED BY LILLIE DOBSON, 
    COUNCILWOMAN, CITY OF COMPTON

              Statement of Eric Perrodin and Lillie Dobson

    Mr. Perrodin. Thank you.
    Mr. Price. And let me just reiterate here at midstream that 
our practice this morning is to ask our witnesses to limit 
themselves to a five-minute oral statement. I assume we will be 
hearing from you, Mayor. Is that correct?
    Mr. Perrodin. Yes, Chairman Price.
    Mr. Price. You are the man. So a five-minute oral 
statement. But we would be happy to have any further written 
materials from either of you. So thank you for being here.
    Mr. Perrodin. Thank you. I want to thank Chairman Price and 
also Ranking Member Rogers for giving me the opportunity to 
speak this morning. I also want to thank my congresswoman, 
Laura Richardson, for her efforts on behalf of the city of 
Compton and the members in her district.
    This morning, I am accompanied by my councilwoman, Ms. 
Lillie Dobson. She has been a passionate advocate for the city 
of Compton. Ms. Dobson has focused her efforts on finding 
solutions to existing infrastructure and problematic issues 
that place the city and other parts of the region at heightened 
risk. I thank her for her efforts.
    As Congress begins to work on the appropriations and 
priorities for the fiscal year 2011 federal budget, I am here 
to speak about the need for an enhanced emergency operation 
center, EOC, located in the city of Compton to protect and 
respond to potential threats related to the Alameda Corridor, a 
critical national infrastructure asset.
    I urge the Subcommittee's support for the efforts by 
Congresswoman Richardson to secure $2.3 million to the fiscal 
year 2011 appropriation process to help Compton pay for the 
aforementioned enhanced alternative EOC. The city of Compton, 
also known as the Hub City, is surrounded by five freeways, and 
it is located within 12 miles of three major ports of entry, 
LAX, the port of Long Beach, and the port of Los Angeles.
    In addition, due to the city's high-threat, high-density 
urban area runs through the federally funded Alameda Corridor 
rail project, a 20-mile long rail cargo expressway linking the 
ports of Long Beach and Los Angeles to the transcontinental 
rail network near downtown Los Angeles. The importance of the 
Alameda Corridor to the national economy is significant. A 
study conducted by the Alameda Corridor Transportation 
Authority noted that in 2005, the two ports generated $256 
billion in trade value, and affected 3.3 million jobs across 
the country.
    Moreover, with 43 percent of all container traffic entering 
the United States through the San Pedro ports going up the 
Alameda Corridor, it is estimated that any major shutdown of 
the rail corridor would damage the national economy at 
approximately $29 million per day. Approximately $12 million is 
the total cost to establish an EOC in the city of Compton, 
which will include the construction of facilities and equipment 
for first responders.
    With this in mind, the city proposes an enhanced 
partnership between federal and local leaders to secure 
adequate resources to protect Compton residents and provide 
critical infrastructure elements of relevance to the state and 
national economy.
    To go off point for a second, Chairman Price, I used to be 
a police officer in the city of Compton for 12 years. 
Currently, I am a deputy district attorney for L.A. County. And 
one thing I know as being a first responder, the way the city 
is situated, it is a critical need for us to have an EOC in the 
city of Compton because as Congressman Richardson stated 
earlier, we are surrounded by Los Angeles and Long Beach. And a 
lot of times, the resources do not come to our city because we 
are so small. But the Alameda Corridor goes right through the 
heart of our city. And if any terrorist or some type of 
national disaster were to happen upon us, it could be 
devastating, not only to Compton, but more importantly to the 
rest of the United States.
    So I urge your supporting. I would like to turn over my 
remaining time to Councilwoman Lillie Dobson.
    Ms. Dobson. Thank you, Chairman. I cannot over-emphasize 
the critical need for the fire facility and emergency operation 
center. The possibility of a catastrophic event was borne out 
in a recent statewide simulation during the last statewide 
disaster preparedness simulation, Golden Guardian, Spring 2009.
    The challenge was presented that a fire affected the 
Alameda Corridor and spread throughout the east side of the 
city of Compton. The simulation revealed that the potential for 
a fire-related shutdown of the corridor is not an unrealistic 
scenario, based upon the current configuration of first 
response capabilities. Consequently, there is an immediate need 
to construct and equip a replacement first responder facility 
that will accommodate more equipment and allow the coordination 
of various departments to provide an adequate level of 
protection and specialized services.
    The American Recovery and Reinvestment Act provided $210 
million in funding to DHS. Under the assistance to 
firefighters, fire stations, construction grants, unfortunately 
Compton was not selected for an award. We were one of the 6,025 
applicants for the federal funding grant, and only 110 
requesters were selected. Clearly, as evidenced by the over-
subscription to the ARRA grant program, a significant shortfall 
in funding exists.
    I take this opportunity today to urge Congress to authorize 
and appropriate fire station construction grant funds at a 
level that reflects the dire need for federal investment in 
communities across the nation, including Compton. Thank you.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Price. Thank you. Let me just take a moment to clarify 
the situation we face. You are right, of course, about the 
emergency appropriations that went to fire station 
construction, as part of the Recovery Act. That is, however, 
not our usual practice, to earmark funds for fire station 
construction, or indeed the fire grants program, which does not 
cover that kind of construction.
    So I assume what we are talking about here is the EOC 
component of this project. Is that true?
    Ms. Dobson. Yes.
    Mr. Perrodin. Yes, Chairman.
    Mr. Price. And the request of $2.3 million is well above 
what we have ever been able to grant for EOC construction. 
Often we would like to do more, but we in fact are dealing with 
a situation where the federal funding is never the complete 
funding for these projects. It always is a partnership, has to 
be a partnership, which involves funding from other sources. In 
fact the bulk of the funding comes from other sources.
    Now you have talked about a $12 million total. Do you have 
the rest of that funding in hand?
    Mr. Perrodin. We have a portion of it, Chairman, through 
some bonds that we have at this time.
    Mr. Price. All right. Some bonds that have already been 
approved?
    Mr. Perrodin. Actually, it was going to be approved last 
night, but unfortunately I had to catch the redeye here, so we 
did not have a quorum. So hopefully, next Tuesday it will be 
passed.
    Mr. Price. All right. Well, that will be an important part 
of our consideration, you know, to see what the other pieces of 
this funding picture look like. But we will give your proposal 
due consideration. We appreciate the work that has gone into 
it, and the effort to craft a proposal that is in line with 
DHS's criteria.
    Mr. Perrodin. Thank you, Chairman Price.
    Mr. Price. Mr. Rogers.
    Mr. Rogers. No questions.
    Mr. Price. Mr. Farr, do you have any questions?
    Mr. Farr. No questions.
    Mr. Price. With that----
    Mrs. Richardson. Mr. Chairman.
    Mr. Price. Certainly.
    Mrs. Richardson. Thank you, Mr. Chairman. What Ms. Dobson 
was referring to is that in the city of Compton, in addition to 
what we are here to talk about, she was just sharing with you 
some of the frustration, that they have attempted to apply for 
various funding mechanisms from other sources, and yet have not 
been successful.
    Mr. Price. Sure.
    Mrs. Richardson. And so that is why this in particular is 
important, because they are going to have to find other 
resources to fill that gap. That is what she was referring to. 
Specifically, regarding the EOC, what I would like to stress, 
that I apologize was not really captured in my comments, is 
understanding the network that is surrounding them, which is 
what I know is within your jurisdiction.
    Compton also has, for example, the sheriff's department. So 
when you consider the network of sheriffs, of fire, of SWAT, of 
what I was already sharing with the port of Los Angeles, with 
the Alameda Corridor, when you have the metrorail, there is at 
least 12 different varying agencies there that they all have to 
coordinate with at any one period of time. And so what happens 
is we have had disasters in our community, and Compton--what I 
must say, you know, in all honesty, I do not feel is best 
prepared to be able to coordinate all of those assets in an 
emergency to be able to respond for its people, again for the 
businesses that are now there. Compton is one of the largest in 
terms of manufacturing businesses that we have in southern 
California. It is actually still a very strong industry.
    So that hence is what our application is before you today. 
We have made other requests, you know, TIGER grants and so on. 
We were simply alluding to the fact that this is not an area 
that has received a whole lot of money, which is why we need 
your assistance.
    And finally, I did not say in my comments, but this is one 
of my top ten requests. And so I hope that you would also 
consider that. And I will follow up upon their successful vote 
next week of the local match. Thank you, sir.
    Mr. Price. All right. Thanks to all of you.
    Mr. Perrodin. Thank you.
    Ms. Dobson. Thank you.
    Mr. Price. Let me now call our colleague, Keith Ellison. 
Congressman, we are pleased to have you here today, and we ask 
you to summarize your comments in five minutes or less, and 
give us the full statement for inclusion in the record. Welcome 
to the Subcommittee.
                              ----------                              --
--------

                                         Wednesday, April 21, 2010.

                    DEPARTMENT OF HOMELAND SECURITY


                                WITNESS

HON. KEITH ELLISON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MINNESOTA

                    Statement of Hon. Keith Ellison

    Mr. Ellison. Thank you, Mr. Chairman. Also allow me to 
thank Mr. Rogers for holding this hearing and allowing members 
of Congress to testify concerning priority homeland 
appropriation requests for their districts. I am here today to 
provide a little extra detail for the request that I have 
already submitted on behalf of the city of Minneapolis.
    This request is for $1 million to replace the city's 
deteriorating community outward warning siren system. We have 
sought out and have secured funding from city and state, and so 
this is part of an overall package, but it is essential to 
complete the project.
    The current system is comprised of about 33 individual 
sirens alerted to the general public, to alert the general 
public on large-scale emergency exits or threatening the city. 
Unfortunately, the existing system is completely antiquated. It 
was built in the early 1950s as part of a civil defense era 
warning system. And given its age, it has become increasingly 
difficult to obtain equipment and parts to maintain the siren 
system.
    The need to replace this system was highlighted in August 
2009, when a tornado hit downtown Minneapolis, or the edge of 
downtown Minneapolis. According to local Minneapolis emergency 
preparedness officials, the current siren system no longer has 
the capability to adequately alert Minneapolis residents during 
the tornado.
    Minneapolis has consistently ranked among cities over 
50,000 at the greatest risk for tornado outbreaks. It has 
suffered several tornadoes in the past. Additionally, 
Minneapolis, like other major metropolitan areas, is a real 
potential threat for terrorist attacks and incidents. The 
importance of alerting community during a crisis or eminent 
danger situation cannot be overstated. When emergency leaders 
are responsible for keeping order and reducing the chance of 
damage, injury, and death, it is imperative to quickly and 
adequately notify the community in order to help them take the 
appropriate action.
    Several temporary measures have been put in place to 
maintain the system, but these improvements, though necessary 
in an emergency situation, have become outdated, with software 
and hardware no longer available to support the operating 
system.
    So let me wrap up my remarks and thank you for your time. 
The requested funds will be used to replace the existing system 
with a new warning system that will ensure safety and health of 
residents, and can provide a more complete coverage for the 
city of Minneapolis. Again, this request is a part of city and 
state commitment to the project. It is a priority for all of 
us. It is a priority for me here. And the funds will be used 
for technology upgrades and siren system. And so with that, I 
would like to thank the Committee, and thank you again for the 
time.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Price. Thank you, Mr. Ellison. Let me just clarify, as 
I did with the last witnesses. In this case, we are talking 
about a pre-disaster mitigation item.
    Mr. Ellison. That is right.
    Mr. Price. Yes, under FEMA.
    Mr. Ellison. That is right.
    Mr. Price. And you cited the total cost. What kind of 
commitment do you have from the city and/or the state to cover 
the balance of this?
    Mr. Ellison. Both the city and the state of Minnesota have 
put forth bonding requests, which have been passed. And so we 
have a gap, and we are hoping the federal government can help 
us close it.
    Mr. Price. All right. There too we will want to look at 
that total funding picture, and appreciate your help in doing 
that. Mr. Rogers.
    Mr. Rogers. No questions.
    Mr. Ellison. Thank you.
    Mr. Price. Mr. Farr.
    Mr. Farr. It is very interesting. The question I have is 
that if the siren system is there, and the whole city is 
notified, and by sirens, what response do you--what action are 
they supposed to take if they hear the sirens go off?
    Mr. Ellison. Well, it certainly could alert the city, 
depending on the nature of the disaster--it could be there is 
an early warning system that says in case of siren you should 
perhaps go in your basement, if it is a tornado. There are a 
number of educational processes which the city goes through to 
make sure citizens know what the right thing to do is. Students 
go through drills. There is a whole pre-education process the 
city goes through to help ensure that residents know what a 
siren means and what to do in case of such an occasion.
    Mr. Farr. Our siren system here is 16 bells, but I have no 
idea what happens after the 16 bells go off.
    Mr. Ellison. Well, in Minneapolis, we make sure everybody 
knows what happens when those bells go off.
    Mr. Price. If you heard 16 bells, you would sure do 
something, would you not? [Laughter]
    Mr. Price. Thank you, Mr. Ellison. We appreciate your being 
here.
    Mr. Ellison. Thank you, sir.
    Mr. Price. Okay. We will turn now to the American 
Association of Airport Executives, represented by Senior 
Executive/VP Todd Hauptli. You are a familiar figure on Capitol 
Hill. We welcome you here, Mr. Hauptli. Please proceed.
                              ----------                              --
--------

                                         Wednesday, April 21, 2010.

                    DEPARTMENT OF HOMELAND SECURITY


                                WITNESS

TODD HAUPTLI, SENIOR EXECUTIVE VICE PRESIDENT OF THE AMERICAN 
    ASSOCIATION OF AIRPORT EXECUTIVES

                       Statement of Todd Hauptli

    Mr. Hauptli. Thank you, Mr. Chairman, Mr. Rogers, Mr. Farr. 
Thank you for the opportunity to be here. I wanted to talk 
mostly about the advanced imaging technology that TSA spoke to 
you on the Subcommittee about last month.
    Airport executives are excited about the technology, and 
nervous about the deployment of that technology. We have the 
experience going back a long ways on the inline baggage 
screening and the challenges associated with deploying that 
technology across the airport system, and we share some of the 
concerns raised by both you, Mr. Chairman, and you, Mr. Rogers, 
when TSA testified last month.
    Here is the headline: our specific request is that we ask 
you to include in your fiscal year 2011 bill language requiring 
TSA to pay for the terminal modifications and the space 
necessary for this deployment across the airport system. TSA 
has told you and has told us that that will be a minimal cost, 
that there is really not that much to it, but history would 
perhaps tell a different story.
    They are intending to use larger machines, not get rid of 
the existing magnetometers, introduce additional personnel into 
that same screening checkpoint, and also add baggage 
reconciliation screening rooms. And at some airports, that may 
not involve tremendous disruption, but certainly at other 
facilities it will. If you just think about a local example 
here at Reagan National and out at Dulles, at Reagan National, 
in terminal A, the old terminal, which four or five airlines 
still use, the engineers there are not sure they can even get a 
single additional machine in that facility, an AIT machine, 
without having to knock walls down and expand out the 
footprint.
    At Dulles, brand new security mezzanines, state-of-the-art, 
brand new facility, and the engineers there think they can 
figure out how to get the machines in place, but are quite 
certain there is not room for this--there is not the space for 
this screening room to reconcile the images. And when we met 
recently with Secretary Napolitano, one of my leaders was 
stopped dead in his tracks. She interrupted and said, hold on, 
wait a minute. We do not think that we, DHS, TSA, should have 
to pay for you to knock down a wall to build that facility. You 
should do that.
    And so we just have a fundamental policy disagreement with 
the department on that issue. We believe that the department, 
that TSA, should pay for terminal modifications to put this 
equipment in place. The department says it does not need to do 
that. This is particularly important in our judgment in the 
fiscal year 2011 cycle because they have indicated that in the 
current year, where they already have machines in place, they 
are going to drop them in in facilities that can accommodate it 
pretty easily, that they have the staffing, that the facilities 
do not require much modification. They have made no similar 
claim for fiscal year 2011, yet they have not offered any 
funding to take care of that.
    So we are asking again for the Subcommittee to put language 
in place requiring TSA to pay for those terminal modifications 
and the space necessary to accommodate the AIT machines.
    With that, I would yield back the balance of my time, and 
thank you for your continued leadership on this issue, and we 
look forward to working with you and the staff in the weeks and 
months ahead.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Price. Well, thank you. Of course, this installation 
effort is underway as we speak, and we understand that the 
installation of these AIT machines for primary screening are 
going to start, other things being equal, with airports that 
have the most space, where the configuration is least 
problematic. You have mentioned a couple of instances. Can you 
say in general how the installations are going, concerns that 
your members have expressed, and how involved they have been in 
working with TSA to make sure we have the best configurations 
to avoid delays?
    Mr. Hauptli. My understanding of the situation, Mr. 
Chairman, is they are a bit behind from their projections in 
terms of getting these machines in place. They had, I believe, 
a number of trying to get 450 in place by the end of the year. 
They have not awarded one of the big contracts yet for that, 
and we are approaching the first week in May. So I think there 
is a good chance they will not get as many machines in this 
year as they had intended.
    Some of the other items that people have been concerned 
about from the airport kind of engineering point of view is 
ADA-compliant lanes require additional space, and there does 
not seem to be sort of a recognition of that or factoring that 
into the work plan.
    So airports have had some--I mean, I think TSA is working 
in good faith and has tried to learn the lessons of the past on 
just sort of barreling forward without consulting with the 
airport community. But we have seen this movie before, and we 
sort of know how it ends, and we want to make sure that we 
really are more involved at the beginning of the process, and 
that TSA is responsible for paying for those modifications, 
because physically, you just cannot fit within that same 
footprint in many facilities--you just cannot fit extra 
machines, extra bodies, brand new rooms, and expect all of that 
to work within the existing footprint of the security.
    Mr. Price. All right. Well, we appreciate your coming in, 
and we understand the disagreement you articulate as regards 
funding responsibilities. We will be taking that under 
advisement as we draw up the budget for next year.
    Mr. Hauptli. Thank you.
    Mr. Price. Mr. Rogers.
    Mr. Rogers. Well, thank you, Mr. Chairman. Well, we have 
discussed this at some length now, for some time. The Chairman 
and I, a couple of months ago, went out to TSA headquarters and 
looked at the installation, the equipment and the model they 
had set up to demonstrate the new machine.
    It is going to take more space than we presently have. It 
is going to require 5,000-plus people. And it perhaps could 
even require a larger waiting area for people to go through the 
machines because they will go slower than the present machines. 
And I do think the airports have a legitimate complaint here 
that TSA is expecting the airports to pay for this cost.
    It is not an airport responsibility to provide security for 
people boarding planes. That is a governmental responsibility, 
federal government. So I think you have got a legitimate 
request, and we will look into it and try to accommodate 
something.
    Do you have any idea what the cost nationally would be to 
install the machines? Is there any idea?
    Mr. Hauptli. I do not have the number, Mr. Rogers. I will 
be happy to try to supply something to the Subcommittee, an 
estimate of that. It should not be as dramatic as it was with 
the inline systems. But we are very concerned that it will 
still be substantial and much higher than what TSA would 
suggest because we really do believe that there are plenty of 
examples where you are going to have to physically knock out 
wall space, expand, you know, the facilities pretty 
dramatically, and that is going to cost money.
    Mr. Rogers. Well, you know, the resolution to me is going 
to be the most expensive to provide for. It has to be fairly 
close to the line, but not too close. It has to be secure and 
protected from public viewing, and it has to be wide. And it is 
going to cost somebody some money. And TSA, they do not have 
any money either. But it is a federal responsibility, and I 
think we need to figure out a way to accommodate the airports.
    Mr. Hauptli. And to your earlier point, sir, that example 
at Dulles, that new mezzanine, you will remember you sort of go 
on one level, and then you take an escalator down. They believe 
they may have to meter people and hold them up at the top of 
the escalator because of the lines backing up, as you talk 
about. So even a brand new, state-of-the-art, newly built 
facility is going to have to be redone. And you know, 
facilities that have been around for much longer and are in 
greater in need of work, the problems just multiply.
    Mr. Rogers. At the airports where TSA says they are 
planning immediately to install the machines, have those 
airports estimated the cost to them?
    Mr. Hauptli. Some of the airports have cost figures, and I 
can get that. Some of those airports have been planning for 
this for some time. Airports are excited about the new 
technology. We are always in favor of technology over people 
solving problems.
    Mr. Rogers. Amen.
    Mr. Hauptli. But they have been planning for this for some 
time, and they are in better position than most of the 
airports. I mean, we are talking about a fraction, 25 to 30 
airports, that are in that first initial wave. And then the 
bigger wave of, you know, 400 machines, maybe, this year, and 
then TSA has obviously asked for----
    Mr. Rogers. Well, these 25 machines you are talking about, 
the first ones----
    Mr. Hauptli. Yes, sir.
    Mr. Rogers. Have those airports requested funds from TSA to 
install the machines?
    Mr. Hauptli. Not to my knowledge, because in those 
instances, they have not had to do major reconfigurations. But 
we can see the iceberg that we are going towards. And a lot of 
those facilities down the stream--because TSA has, in selecting 
those first few airports, they have selected airports that can 
easily accommodate the technology. And for most airports, it is 
not going to be as easy.
    Mr. Rogers. When do you think we will encounter this 
problem first?
    Mr. Hauptli. I suspect you will see it in the coming weeks 
rather than months. It will be in this fiscal year. Despite 
TSA's suggestion that it will be a smooth deployment this year, 
I think you will see stuff, frankly, before your bill is ready 
to be enacted into law.
    Mr. Rogers. Well, there are no funds in the current budget 
for this purpose.
    Mr. Hauptli. Right, right. All the more reason, in our 
view, that you consider the request to make sure that it gets 
in in the 2011 budget, because that is where the big problem is 
going to be.
    Mr. Rogers. Well, somebody is going to have to tell us what 
it is going to cost so we can consider the number.
    Mr. Hauptli. Yes, sir.
    Mr. Rogers. Whether it is you or TSA or both. I would like 
to see TSA and your group sit down and talk about this, and see 
if there is some sort of accommodation that can be reached that 
would minimize the cost to the government, yours and ours, and 
would provide a pathway that we can live with.
    Mr. Hauptli. Yes, sir. The initial conversation did not go 
well. That was Secretary Napolitano saying no. So we will keep 
working at it.
    Mr. Rogers. Yes. Well, we may have a voice in that.
    Mr. Hauptli. We hope so, sir.
    Mr. Rogers. Thank you.
    Mr. Price. Just to clarify----
    Mr. Hauptli. Yes, sir.
    Mr. Price. The checkpoint support line in the budget----
    Mr. Hauptli. The 300 million request?
    Mr. Price. The request is for $360 million. The current 
amount is $128 million. That can be used for this purpose, for 
reconfiguration purposes at the TSA's discretion. Is that not 
true?
    Mr. Hauptli. I will have to admit that I do not know the 
answer to that, sir. If that is, maybe that is a good work-
around. I do not know the answer to that. I thought that was 
the personnel request. You are talking about the----
    Mr. Price. It is an inclusive budget line, which covers a 
number of specific functions, and has some flexibility. It is 
called ``checkpoint support,'' and it is a sizeable increase 
that is requested in the 2011 budget.
    Mr. Hauptli. And that may be elegant solution, sir, in 
terms of providing a little additional clarity to the TSA about 
what they can and cannot use that for.
    Mr. Price. Well, we will certainly work with you and 
obviously with the agency in trying to figure our way through 
this.
    Mr. Rogers. Mr. Chairman?
    Mr. Price. Yes.
    Mr. Rogers. On that point, that account was set up before 
we anticipated this problem we have now. So I am sort of 
doubtful that these expenses were anticipated when we were 
doing that number.
    Mr. Price. No, not for the current year. But there is a 
sizable request for next year. What we need to figure out is 
how flexible that money is, potentially. Mr. Farr.
    Mr. Farr. Thank you very much, Mr. Price.
    I am curious, when an airport was designed did they have to 
get FAA approval?
    Mr. Hauptli. Yes, sir.
    Mr. Farr. This is where the right hand of government and 
the left hand of government do not know what they are doing. I 
mean, if you look out at Dulles, which is a monument to space, 
they have got a tram to nowhere. They take you all the way out 
in the tram and then you have got to walk back to the terminal. 
It is a design of stupidity trying to--from a passenger's 
standpoint. If indeed the design for the airports have to be 
approved by the FAA, why do they not be inclusionary in the 
process of sort of getting the building codes for security 
machinery and lines, and so on into the design of the airport?
    Mr. Hauptli. Mr. Farr, it is a great question, and up until 
seven or eight years ago FAA would have had that all within its 
purview. With the creation of the Department of Homeland 
Security and TSA, that responsibility for security shifted 
over, and the truth is there has not been that many new 
facilities constructed in that period of time.
    Mr. Farr. Well, certainly Dulles expansion did not----
    Mr. Hauptli. No, that is exactly right. Your example of the 
train, you know, part of the frustration that you and other 
passengers like myself share on that, is that United Airlines 
was unwilling to be a partner in building that train all the 
way out to where it really should have gone, and the airport 
authority went as far as they could with the money that they 
had, and if United had stepped in to be a full partner there, 
that would be a more customer-friendly experience for you.
    Mr. Farr. But it seems to me what has been pointed out 
here, this is a unfunded band-aid. You are requiring the 
airports to absorb this construction code modification, if you 
will, of the airport design for purposes of security, and 
certainly I agree we ought to have some money for that.
    Mr. Hauptli. Thank you, sir.
    I also if I may very briefly just say thank you, Mr. Farr, 
on behalf of the Monterey Airport. You recently were very 
helpful in getting the attention of the Department of 
Transportation and getting a sizeable funding stream headed 
towards Monterey for that small community air service program, 
and without your leadership on that, that probably would not 
have happened.
    Mr. Farr. Well, they certainly do not have the space to 
accommodate this new equipment, I will tell you.
    Mr. Hauptli. Thank you.
    Mr. Price. Thank you, Mr. Hauptli.
    Now we will call to the table President William Millar of 
the American Public Transportation Association. Mr. Millar, 
thank you for joining us.
                              ----------                              --
--------

                                         Wednesday, April 21, 2010.

                    DEPARTMENT OF HOMELAND SECURITY


                                WITNESS

WILLIAM MILLAR, PRESIDENT OF THE AMERICAN PUBLIC TRANSPORTATION 
    ASSOCIATION

                      Statement of William Millar

    Mr. Millar. Good morning, Mr. Chairman, Mr. Rogers, members 
of the Committee. I am pleased to be with you. I am Bill 
Millar. I am the President of the American Public 
Transportation Association, and I appreciate the opportunity to 
return before this Committee on very important issues related 
to the security of our nation's public transportation and rail 
system.
    I have to ask the Committee to provide in its Fiscal Year 
2011 appropriations for the Transit Security Grant Program in 
the amount of $1.1 billion. This is the amount that was 
authorized by the Congress under the implementing regulations 
of the 9/11 Commission Act of 2007.
    Now, we appreciate the funding that the Committee has 
provided in the past, but at recent levels grant allocations to 
regions and ultimately grant awards to individual transit 
agencies have greatly limited what projects can be pursued and 
implemented, and we urge the Congress to find the resources to 
appropriate the levels authorized in the 9/11 Act.
    Now for many Americans it is hard to believe that at this 
point in time so long after the terrorist attacks of 9/11/2001 
that we are still in need of significant investments for 
transit security in order to protect the millions of citizens 
who use our systems every day, but that need remains.
    You may recall GAO report in 2002 that said about a third 
of the terrorist attacks worldwide target transportation 
systems, and transit systems are the most commonly attacked 
where just last fall the Director of the National Counter-
Terrorism Center Michael Leiter testified in the Senate that Al 
Qaeda continues to pursue plans for homeland attacks and is 
focusing on prominent political, economic infrastructure 
targets designed to produce mass casualties, visually dramatic 
destruction, significant economic aftershocks and/or fear among 
the population. The group also likely remains interested in 
targeting mass transit systems and other public benefit venues 
that are viewed as relatively soft targets as evidenced by the 
attacks in London.
    Unfortunately, terrorist attacks in London, in Mumbai, in 
Madrid, in Moscow, and a host of lesser known incidents have 
made it clear that our enemy has not relented and neither can 
we. Unless someone say, but, gee, that has all occurred 
overseas, we would urge them to look and not ignore the planned 
attacks that we have been fortunate to thwart. Details have 
emerged about plans involving Al Qaedans planned recent New 
York subway bomb plot. We remind the Committee of similar New 
York subway bomb plots prevented back in 1997, a planned 
chemical attack avoided in 2003, a bomb plot to Harold Square 
Station in 2004, and the list goes on and on and on. This is a 
real threat.
    Now recently APTA, my association, conducted a survey of 
U.S. transit agencies that have been receiving the security 
grants to gain a better understanding about how they have been 
spending the money that you have made available to them, and 
what needs remain, and today at this hearing I am announcing 
the release of that survey, and if you wish, Mr. Chairman, I 
would be very pleased to make a copy of the survey available to 
the Committee.
    Mr. Price. Please do that.
    Mr. Millar. We will gladly do that.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Now, this survey shows that over the next five years some 
$6.4 billion should be invested in America's public transit 
systems, and I can tell you, according to our survey plus my 
own experience, that the funds you have provided previously 
have been well used. Many systems now have closed circuit 
television that did not before. They do better access controls 
to their stations. They have intrusion monitoring and perimeter 
protection. They have more training and more exercises than 
they have had before. They have been able to alert the public 
to its responsibilities in this area. They have increased their 
security planning, expanded their canine protection, and the 
list goes on. But more should have been done, more could have 
been done if additional funding had been available.
    Unfortunately, the restrictiveness of the Transit Security 
Grant Program does not allow us to fulfill the goals stated in 
the act, and the funds appropriated by the Subcommittee 
continue to flow slowly to our nation's transit agencies. And 
while we are pleased with some recent steps taken at FEMA and 
the Transportation Security Administration to improve the 
program, we hope that this Subcommittee can continue its 
attention on simplifying and streamlining the process 
necessary.
    Now, Mr. Chairman, we agree with the stated mission of TSA 
to protect ``the nation's transportation systems to ensure 
freedom of movement for people and commerce,'' but TSA 
continues to be overly focused on one mode of travel rather 
than the security of all.
    No one doubts the need to have a safe and secure aviation 
system, but realizing that in three weeks public transit 
systems carry more Americans than in 12 months by our domestic 
airlines it is certainly necessary to have the better balance 
between the investments in the air system and in the public 
transit. We do not need another wake-up call in transportation, 
and we have learned much since 2001 how to thwart our enemy, 
but we need the financial resources to do so. This is why we 
are calling for the Congress to appropriate $1.1 billion 
authorized by the Congress in the 9/11 Act during the 110th 
Congress.
    Mr. Chairman, I appreciate the opportunity to be with you 
today, and I will be very pleased to answer your and the 
Committee members' questions.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Price. Thank you, Mr. Millar. We appreciate your 
presence here. We will look with interest to your full 
statement. Let me just ask you one question and it has to do 
with something that this Subcommittee has been concerned about 
for some time, and it has to do with the grant process that you 
are contending with.
    Mr. Millar. Yes, sir.
    Mr. Price. You mentioned the difficulties of that process 
at greater length in your written testimony. We, as you 
probably know, had--it turned out to be sequential hearings 
last year--with TSA and FEMA about the tangle and delayed grant 
process. We have just received some several months late a 
report on this which indicates the problems are not yet solved, 
although administrators in both agencies are working on them in 
good faith, but there are frustrations that you, of course, and 
your members experience daily.
    I wonder maybe just briefly here this morning orally and 
any other material you would want to submit what kind of 
particular take you have on the current state of the process; 
efforts to streamline it, ways that might offer promise going 
forward.
    Mr. Millar. Yes, sir. As I stated in my testimony, we do 
believe that some things are going better today, but we 
continually have to avoid backsliding. Even though the Congress 
has not required a local match and, you know, we still fight 
those issues in a variety of ways. Even though we now finally 
have grants that are going more directly to the transit 
agencies, we continue to see delay.
    I think what I would prefer to do, if it is acceptable to 
you, sir, is let me find a small handful of what I think are 
clear examples in various categories that I could supply to the 
committee.
    Mr. Price. That would be very helpful and you can perhaps 
consult the report that we have just received and offer this by 
way of reflections on that progress report.
    Mr. Millar. We would relish that opportunity. Thank you, 
sir.
    Mr. Price. All right. Mr. Rogers.
    Mr. Rogers. No questions.
    Mr. Price. Mr. Farr.
    Mr. Farr. No questions.
    Mr. Price. Mr. Rothman.
    Mr. Rothman. No questions.
    Mr. Price. All right. Well, thank you very much.
    Mr. Millar. Thank you, sir.
    Mr. Price. We will move to our last witness of the morning, 
the Deputy Executive Director of SEARCH, Kelly Peters.
                              ----------                              

                                         Wednesday, April 21, 2010.

                    DEPARTMENT OF HOMELAND SECURITY


                                WITNESS

KELLY PETERS, DEPUTY EXECUTIVE DIRECTOR OF SEARCH

                       Statement of Kelly Peters

    Ms. Peters. Good morning, Mr. Chairman, Mr. Rogers, Mr. 
Farr and Mr. Rothman. Thanks for allowing me to appear before 
you all today and for your support over the past year.
    I am Kelly Peters, Deputy Executive Director of SEARCH. 
SEARCH is a nonprofit justice support organization created by 
the states and comprised of state governors' appointees. Each 
state pays dues annually.
    SEARCH's mission is to bring out the effective use of 
information, communications, and identification technologies by 
justice, public safety and first responder agencies. This House 
of Representatives recognized our work just this past November 
in House Resolution 851. SEARCH is requesting $1 million 
earmark to continue development of the National Institute for 
Emergency Communications or NIEC.
    Working in partnership with the Department of Homeland 
Security, the Office of Emergency Communications, the NIEC will 
address the most critical issue facing the first responder 
community today: their ability to man and control emergency 
resources in response to terrorist acts, natural disasters and 
crimes through interagency communications.
    Nearly 10 years after the tragic events of 9/11 there is 
still much work to be done. State and local public safety 
organizations are undertaking major communications 
interoperability initiatives without access to ongoing 
professional training and resources to plan for, design and 
implement, and manage these efforts. By 2011, state and local 
governments are predicted to spend $4.4 billion on 
communications technology for first responders in part through 
funding from new and exiting grant programs.
    However, when decisionmakers have limited access to expert 
training, they can underestimate the extent of the effort 
involved in overseeing, implementing and managing such 
initiatives. These initiatives can fail and be very costly to 
the public, and sadly we read about them in the news quite 
often. While there are programs that provide technical 
assistance and training to first responders, there are 
oftentimes specific federal grant programs, and only a small 
percentage of the nation's 60,000 or more first responder 
agencies actually receive federal grants, so there is a large 
number of agencies that have little or no access to these 
resources.
    The NIEC will professionalize public safety project 
management, provide communications interoperability training 
and assistance, and create a nationally recognized resource for 
best practices and tools. In addition, there are major 
initiatives occurring with the public safety broadband spectrum 
and few opportunities for training on this critical issue. NIEC 
can provide the needed training and technical assistance to 
practitioners on this major effort. This will directly benefit 
communities nationwide by giving first responders the 
communications tools necessary to do their job and ultimately 
to keep citizens safe.
    For over 40 years SEARCH has earned a strong reputation for 
providing on-site technical assistance to state and local 
agencies in the planning, development, implementation, and 
management of their information sharing and interoperability 
activities. SEARCH was a founding member of the Interoperable 
Communications Technical Assistance Program at DHS over five 
years ago, and since 2007, SEARCH has also lead efforts to 
develop and provide training through the communications unit 
program. Through funding and support from DHS, SEARCH convened 
subject matter experts from across this country, practitioners 
from the field to develop this critical training program. It is 
now a key program of the OEC and over 1,600 students have been 
trained in 80 classes offered nationwide.
    In addition to the communications unit leader training, 
SEARCH has just led and completed the development of the 
communications technician training curriculum to be used by OEC 
in a national rollout anticipated later this month.
    SEARCH's assistance with these national programs is only 
part of the story. We also work directly with state and local 
agencies to advance their information sharing and 
interoperability projects in the field. In North Carolina, for 
example, SEARCH helped the state develop standard operating 
procedures for equipment purchased for the North Carolina Voice 
Interoperability Plan for Emergency Responders an 800 megahertz 
radio system.
    As it has in many states across the country, SEARCH hosted 
the newly developed community unit leader training course last 
year in Kentucky and in New Jersey. SEARCH has participated in 
many other additional training and technical assistance 
initiatives across the country, including statewide 
communications interoperability plan review.
    I share this with you to say that SEARCH's independent and 
trusted expertise in the design, use, and implementation of 
interoperable communications technology highly qualifies us to 
establish and operate the National Institute for Emergency 
Communications, and Congress, and with our partners in New 
Jersey and the support of Congressman Rothman last year you all 
recognized this and created the NIEC in Fiscal Year 2010 by 
awarding SEARCH a $1 million earmark.
    We are still awaiting receipt of that funding, but we are 
prepared and ready to move as soon as funding is received, and 
we have been working with OEC on this initiative in 
anticipation of that funding.
    All state and local governments would openly have access to 
the NIEC. However, the first step in this process is to 
establish the pilot site with our partners in New Jersey. The 
next step will be to operationally develop and roll out 
training, curriculum and technical assistance and up to three 
additional pilot sites.
    The program's development will require an estimated two to 
four years of expansion before becoming operational on a 
national level, and SEARCH does intend for NIEC to transition 
to a fee-based, fee-supported program.
    Congressional support for the National Institute for 
Emergency Communications is vital. The federal investment of $1 
million for NIEC will allow SEARCH to move forward with ground-
breaking opportunities to help professionalize public safety 
project management and communications interoperability 
nationally. It will also leverage the billions of dollars 
federal, state, and local agencies are investing in these 
critical efforts.
    So on behalf of SEARCH and its governors' appointees I 
thank you for your time today, and I am available for 
questions.
    [The information follows:]

     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Price. Thank you very much. We will put your full 
statement into the record, and that full statement does contain 
information about the work you have done in a number of states 
represented on this Subcommittee, including my State of North 
Carolina.
    Let me just briefly use that North Carolina effort as a way 
of asking you to illustrate the relationship between the state 
level and the local first responder level of your work, how 
that is integrated. Maybe you can help us get a better 
understanding of that.
    In North Carolina, you have provided technical assistance 
for the development of the statewide system, the North Carolina 
Voice Interoperability Plan for Emergency Responders, so-called 
VIPER System which we have been involved with for years. It is 
an 800 megahertz radio system, and you have also worked 
locally. You have provided on-site assistance, as you say here, 
to the various public safety service agencies involved in the 
program, various sheriff departments, police departments, and 
of course one of your major focal points has been making sure 
first responders are trained to make appropriate use of these 
systems, and yet it is a little hard to conceptualize just what 
that relationship looks like. Can you clarify?
    Ms. Peters. Sure, absolutely, and it is an excellent 
question, and I think something that we consider one of the 
important, most important pieces of our methodology is that 
anything an agency takes on, whether it is a state or local 
level, is done in lockstep, quite frankly, with what is going 
on around them, whether it is regionally, statewide or at the 
national level, and so when we work with a local agency, for 
example, we always reach out. If we have not already conducted 
projects with the state, we work with the state. We consider it 
sort of a holistic program. We are not going to work with a 
local agency without consulting the states, understand what is 
happening at the state level, what standards the states are 
following, what technologies the state is implementing, so that 
a local agency is not going off in a new and different 
direction because of course the last thing we want are 
stovepipe systems to be developed, but it certainly happens on 
a regular basis.
    So one of the most important things we look at and try and 
participate in is standards set at the state levels, but also 
nationally, and how we bring that holistically to a 
jurisdiction so that when they are moving forward in their 
initiatives they, and so often they are not aware of what is 
going on at the state or there are often issues of very well-
intentioned grant programs but have very different missions and 
requirements. Oftentimes we will see local, especially large 
locals getting huge funding from substantially the 
Communications office or OEC, and the state has other types of 
funding, and they have mandates to follow.
    So what we try and do is collaborate and coordinate those 
efforts and bring people, and that is why governance is so 
important in the standard operating procedures. It is not about 
just purchasing the technology, it is making sure the right 
people are involved so that we are marching down that same 
path, and in the end we have a result where we do have 
interoperable communications.
    Mr. Price. Thank you. Mr. Rogers.
    Mr. Rogers. No questions.
    Mr. Price. Mr. Farr.
    Mr. Farr. Thank you. I have a question.
    The Department of Homeland Security has a school that is at 
the Naval Postgraduate School in Monterey. It is the Center for 
Homeland Defense and Security, and DHS likes the students to go 
out there, and part of that program is emergency communications 
training. Are you working--I mean, California, I know, the 
governor's office is working with that school. You being from 
Davis, are you aware of that program?
    Ms. Peters. I am aware of that. What tends to happen, quite 
frankly, is there are--you know, FEMA has programs, OEC has 
programs.
    Mr. Farr. Yes.
    Ms. Peters. The program that you mentioned, and quite 
frankly, helping coordinate all those initiatives is a key 
issue too, so being aware of what is going on in those 
programs. I think that training is a little bit different than 
what ours is. I think it is more technical, and I would have to 
look into it a little bit more. I am not as familiar with that 
training program myself.
    Mr. Farr. What about, I mean, we put a lot of money into 
supplemental to fill out the broadband, essentially to fill out 
the net so that one can at least have access. In your opinion 
is it more important to get the infrastructure in place?
    I mean, I think you are absolutely right. The field of 
interoperability communication does not communicate. They do 
not. Everybody is out to buy their own equipment.
    Ms. Peters. Right, right.
    Mr. Farr. The equipment they buy does not operate with 
somebody else's equipment. We found that between police and 
fire, even among fire station stuff.
    Ms. Peters. Right.
    Mr. Farr. I have seen a lot of it firsthand or involved in 
it, particularly in fires because I have experienced fighting 
fires when I was in college. So I am really interested in how 
we--I think this is another thing, Mr. Chairman, where we have 
a lot of programs, not just solely in DHS, but in other 
appropriations responsibilities, and we are putting money out 
there and there is no requirement to this ability to make them 
interoperable and learn how to do that, and learn how to build 
the system as being interoperable so that the infrastructure 
works.
    I guess the question is are you working with the broadband 
installation to make sure that they are doing this smartly?
    Ms. Peters. Well, as you are aware, that is all formulating 
right now. There is a lot going on at FCC with the development 
of the ERIC governance of that. Quite frankly, the concern is 
that the technology is there and we want to build out this 
spectrum but it has to be built out with the needs of public 
safety agencies squarely represented and in mind, and just 
making everybody able to talk to one another is not solving the 
problem. In fact, that can cause more problems, and it is 
understanding all those hierarchical communications, what the 
standard operating procedures are going to be, who is going to 
take command in responding to an incident.
    I think it is absolutely critical that we have the 
technology, but the technology, no matter how good it is, is 
not going to be used well if it does not have a governance 
associated with it both from people and policy level.
    Mr. Farr. So reports will get developed with report 
language that allows this committee to understand the things 
that are broken.
    Ms. Peters. And if I may, that disconnect that you talk 
about is something that we work very hard, and I think programs 
like this could assist in helping folks understand. Locals have 
a hard time understanding what is out there, what is available 
to them, what they should be pursuing, those sort of things. I 
think you are absolutely right.
    Mr. Farr. Thank you.
    Mr. Price. To tell you the truth, Mr. Farr, we need to 
continue pursue coherence in this area of interoperable 
communications where there have been many funding streams and 
problems with coordination in the past. I think the value of 
this SEARCH organization has been the consultation available at 
the state and local level to enable these players to make 
rational decisions as they put their own systems together. That 
has been a useful complement to governmental efforts on the 
part of the funding agencies.
    Mr. Rothman.
    Mr. Rothman. Thank you, Mr. Chairman, and let me associate 
myself with your remarks a well.
    Ms. Peters, thank you for being here, and I want to thank 
my colleagues on this Subcommittee for providing an earmark 
last year for this organization. We are looking forward to 
getting that stood up.
    I come from the 9th Congressional District, and we 
literally look out our windows, many of us, and saw people 
jumping out of the World Trade Center Building on 9/11. Many of 
our residents died. Many of our first responder units, everyone 
of the first responder units within 50 miles raced over to get 
across the river to help, and so we are very, very familiar 
with the heroism of all those first responders and those law 
enforcement and the terrible tragedy, of course. But we are 
very mindful of the shortcomings in the communication and radio 
communications capability amongst law enforcement which is why 
we brought this forth last year, and looking forward to funding 
again this year to complete that work in New Jersey and then 
use it as the model.
    Ms. Peters, what if you do not exist, your organization 
does not get funded, and this effort does not go forward? How 
many billions of dollars of investments from this Committee and 
the Congress will be poorly spent because no one coordinated 
all these activities?
    Ms. Peters. I do not have a figure for you on that, but I 
think that that is where it is always--we routinely work with 
agencies that say we are so glad that we found you because we 
would not have known this otherwise, or I think, unfortunately, 
more commonly we get calls from agencies that have already gone 
down the path of failure and they need to redirect their 
spending money, things are not going the way they are supposed 
to be going, and we can straighten them out and then we talk 
about--they often talk about we wish we had known when we 
started that this resource is available.
    Resources like this have to be made available, I think, 
because agencies cannot--especially in these budgetary times--
keep people with this type of expertise on staff, quite 
frankly. It is hard to keep technical positions, it is hard to 
keep up with the technology, and when you have to make choices 
between first responders out on the street or your technical 
infrastructure, unfortunately that is----
    Mr. Rothman. And your organization is funded voluntarily by 
each of the 50 states?
    Ms. Peters. Each of the 50 states pay membership dues that 
support their coming together twice annually and for a board of 
directors to meet to establish priorities for the organization 
in the public safety and justice field.
    Mr. Rothman. So in a sense your organization is giving the 
Good Housekeeping Seal of Approval by these 50 different 
states?
    Ms. Peters. That is correct. One governor's appointee from 
each of the 50 states, and we are also funded by federal grant 
programs.
    Mr. Rothman. No further questions, Mr. Chairman.
    Mr. Price. Thank you, Ms. Peters. We are grateful for your 
testimony.
    Ms. Peters. Appreciate your time. Thank you.
    Mr. Price. And that brings our morning hearing to a close 
and our hearing season to a close. So with thanks to everyone 
will adjourn the Subcommittee.


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Dobson, Lillie...................................................   431
Duke, Elaine.....................................................   333
Ellison, Keith...................................................   438
Felt, Jennifer...................................................   414
Harris, William..................................................   263
Hauptli, Todd....................................................   443
Lute, Jane Holl..................................................   197
Millar, William..................................................   454
Napolitano, Janet................................................    16
Peck, Robert.....................................................   333
Perrodin, Eric...................................................   431
Peters, Kelly....................................................   476
Richardson, Laura................................................   408
Wagner, Caryn....................................................   263
Wright, David....................................................   419


                               I N D E X

                              ----------                              

        Department of Homeland Security Appropriations for 2011

                                                                   Page
Opening Statement of Chairman David Price........................     1
Opening Statement of Ranking Member Harold Rogers................     9
Statement of the Honorable Janet Napolitano, DHS.................    16
287(g)...........................................................    56
Advanced Imaging Technology......................................    40
Agency Leadership (e.g., lack of senior political/career 
  management staff)..............................................    89
Agent Housing....................................................    77
Air and Marine Operations Center.................................   196
Aviation Security................................................38, 76
Bonuses..........................................................   103
Center for Homeland Defense and Security.........................   191
Clear Funding for Unbudgeted Items...............................   179
Coast Guard......................................................   189
Contracts........................................................   151
Cybersecurity...................................................43, 192
Deepwater Implementation Plan....................................    64
Detainee Treatment...............................................    55
Disaster Relief Fund.............................................    65
Einstein 3.......................................................    44
E-Verify.........................................................    48
Firefighter Jobs.................................................    82
Funding for Additional CBPOs.....................................   182
Funding Requests.................................................    47
Future Budgeting.................................................    89
Gang Violence....................................................    58
Graduate Programs................................................    57
Growing Headquarters Funding at Expense of Operations............    40
Haiti Response...................................................    82
Haiti............................................................   190
Homeland Security Presidential Directive 19......................   187
Hometown Security and Gang Violence..............................   191
Housing for Agents...............................................   182
Human Resources..................................................    91
Immigration Reform...............................................    76
Inflationary Increases...........................................    90
Infrastructure Protection........................................    74
Intelligence Coordination-Sharing and ``Operationalization''.....    88
Intelligence Sharing and Coordination............................   189
Interagency Coordination.........................................   185
International Cargo Security.....................................    85
Interoperability Grants..........................................   188
Islamic Extremism................................................    45
Maritime Security................................................    88
National Protection and Programs Directorate and the Office of 
  Infrastructure Protection......................................   185
Newark Airport Security Breach...................................    59
Nominees.........................................................    72
Nonprofit Security Grant Program.................................   190
Nonprofit Security Grants........................................    60
Office of Bombing Prevention.....................................   186
Operation Stonegarden............................................    48
Operation Streamline.............................................    61
Overdue Reports and Expenditure Plans............................    71
Passenger Manifest(s)............................................50, 61
Project Shield...................................................    53
Questions for the Record Submitted by Chairman David Price.......    82
Questions for the Record Submitted by Ranking Member Harold 
  Rogers.........................................................   164
Questions for the Record Submitted by the Honorable Alan B. 
  Mollohan.......................................................   185
Questions for the Record Submitted by the Honorable Ciro D. 
  Rodriguez......................................................   182
Questions for the Record Submitted by the Honorable Ken Calvert..   196
Questions for the Record Submitted by the Honorable Nita M. Lowey   188
Questions for the Record Submitted by the Honorable Sam Farr.....   191
REAL ID..........................................................71, 73
Reception and Representation.....................................   155
SAFER Grants.....................................................    66
Secure Border Initiative.........................................    83
Secure Communities...............................................   194
Secure Communities/Immigration Enforcement.......................    86
Securing the Cities..............................................    52
Southwest Border.................................................   192
Staffing for DHS Departmental Management.........................   164
Staffing.........................................................    62
Stimulus Spending/Advanced Imaging Technology....................   188
Termination of FLAP..............................................   183
Terrorism and Gang Violence......................................   195
Travel...........................................................   111
Urban Search and Rescue..........................................    50
Vacancies........................................................    64
Vulnerability Assessments........................................   186
White House Party Crashers.......................................    72
Work Site Enforcement............................................    72
Working Capital Fund.............................................   153

                       Major Systems Acquisition

Opening Statement of Chairman David Price........................   197
Opening Statement of Ranking Member Harold Rogers................   205
Statement of Deputy Secretary Jane Holl Lute.....................   211
Acquisition Management Process...................................   246
Acquisition Management Workforce.................................   248
Acquisition/Shipbuilding.........................................   262
Airport Security Technology......................................   238
Automated Commercial Environment (ACE)...........................   251
Border Security Fencing, Infrastructure, and Technology..........   250
Budget Cuts for the Secure Border Initiative (SBInet)............   229
Budget Cuts to Coast Guard and Customs and Border Protection.....   238
Changes to Acquisition Review Process............................   220
CIO Invoices.....................................................   259
Coast Guard Budget Cuts........................................221, 225
Cyber Security...................................................   241
National Security Cutter and Deepwater Programs..................   226
National Security Cutter.........................................   257
Offshore Patrol Cutter...........................................   228
Overdue Expenditure Plans........................................   227
Overdue Reports and Expenditure Plans..........................234, 236
Questions for the Record Submitted by Chairman David Price.......   246
Questions for the Record Submitted by Congressman C.A. ``Dutch'' 
  Ruppersberger..................................................   261
Questions for the Record Submitted by Ken Calvert................   262
Reducing Reliance on Contractors..........................223, 230, 240
Secure Border Initiative (SBInet)..............................235, 236
Securing the Southwest Border....................................   232
Transformation and Systems Consolidation (TASC)...........242, 258, 261
TSA Information Technology and Services..........................   258

                         Intelligence Programs

Opening Statement of Chairman David Price........................   263
Opening Statement of Ranking Member Harold Rogers................   267
Statement of Caryn Wagner, Under Secretary, I&A..................   272
Statement of Captain William Harris, Delaware State Police.......   285
Bonuses..........................................................   328
Contracts........................................................   325
Cyber Security...................................................   301
Differences Between the Joint Terrorism Task Forces and Fusion 
  Centers........................................................   295
Differences Between the Joint Terrorism Task Forces and Other 
  Intelligence Groups............................................   297
Fusion Center Locations..........................................   305
Fusion Center Standardization....................................   302
High-Value Detainee Interrogation Group (HIG)....................   298
Hiring...........................................................   324
I&A Information Technology Systems...............................   321
I&A Products.....................................................   324
Information Sharing During an Investigation......................   298
Intelligence and Analysis' Role..................................   307
Intelligence Sharing During an Investigation.....................   299
Joint Fusion Center-Program Management Office....................   317
Local Confusion..................................................   329
Measuring Fusion Centers' Effectiveness..........................   295
Paradigm Shift Between the Department of Homeland Security and 
  Fusion Centers.................................................   293
Questions for the Record Submitted by Chairman David Price.......   317
Questions for the Record Submitted by the Honorable Ken Calvert..   331
Questions for the Record Submitted by the Honorable Lucille 
  Roybal-Allard..................................................   329
Reception and Representation.....................................   324
Securing United States Borders...................................   313
State and Local Fusion Center Program............................   309
State and Local Fusion Center Reporting Requirements.............   324
State and Local Fusion Centers...................................   331
Sustainment Challenges...........................................   329
Travel...........................................................   328
Unobligated Balances.............................................   328

               Homeland Security Headquarters Facilities

Opening Statement of Chairman David Price........................   333
Opening Statement of Ranking Member Harold Rogers................   338
Statement of Elaine Duke, Under Secretary for Management, DHS....   344
Statement of Robert Peck, Commissioner, GSA......................   358
Collaboration with the District..................................   375
Completion Date for St. Elizabeths...............................   389
Consolidation Savings............................................   388
Contracts......................................................394, 398
Cost Allocation..................................................   386
Cost Control and Economics of Proceeding.........................   369
Divesting Functions..............................................   386
Energy Efficiency................................................   371
Environmental Impacts of St. Elizabeths........................395, 402
Funding For Information Technology...............................   384
Gold Certification...............................................   371
Growth in Demand for Space.......................................   395
Historical Significance..........................................   390
Impact on Operational Capabilities...............................   368
Information Technology Functions Interlinked.....................   386
Interior Build Out...............................................   384
IT Infrastructure................................................   404
Job Creation.....................................................   402
Lease Consolidation Cost Savings.................................   378
Lease Consolidation Cost.........................................   377
Lease Consolidation..............................................   380
Long and Short Term Lease Cost...................................   387
Mental Health Patients...........................................   374
More Detailed Justification......................................   376
Office Consolidation......................................368, 370, 385
    Office Consolidation Continued...............................   389
Office Space Requirement Growth..................................   379
Overhead Costs for Construction Projects.........................   376
Project Vision...................................................   373
Questions for the Record Submitted by Chairman David Price.......   394
Questions for the Record Submitted by Ranking Member Harold 
  Rogers.........................................................   404
Recovery Act Funding.............................................   376
Return on Investment.............................................   367
Revitalization of Ward 8.........................................   374
Sensitive Compartmented Information Facility.....................   386
Total Cost of St. Elizabeths.....................................   374
Total Estimated Cost Stability...................................   372
Transit Time and Labor Efficiency................................   370

        Testimony From Members of Congress and Outside Entities

Opening Statement of Chairman David Price........................   407
Statement of the Honorable Laura Richardson......................   408
Statement of Jennifer Felt, Program Manager for the Marine 
  Conservation...................................................   414
Statement of David Wright, President of the National Federal 
  Protective Service Union.......................................   419
Statement of Eric Perrodin, Mayor of Compton Accompanied by 
  Lillie Dobson, Councilwoman, City of Compton...................   431
Statement of the Honorable Keith Ellison.........................   438
Statement of Todd Hauptli, Senior Executive Vice President of the 
  American Association of Airport Executives.....................   443
Statement of William Millar, President of the American Public 
  Transportation Association.....................................   454
Statement of Kelly Peters, Deputy Director of SEARCH.............   476

                                  <all>

</pre></body></html>
